<html>
<title> - HEARING ON PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 115-728]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 115-728

               NOMINATIONS OF THE 115TH CONGRESS, PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

           APRIL 11, JUNE 13, JUNE 27, AND SEPTEMBER 5, 2018

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-880 PDF                  WASHINGTON : 2020                    
          
--------------------------------------------------------------------------------------        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Richard Blumenthal, Connecticut
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia

                    Robert J. Henke, Staff Director
                Tony McClain, Democratic Staff Director

                      Majority Professional Staff
                               Adam Reece
                             Gretchan Blum
                            Leslie Campbell
                            Patrick McGuigan
                            Maureen O'Neill
                             David Shearman
                            Jillian Workman

                      Minority Professional Staff
                            Dahlia Melendrez
                            Cassandra Byerly
                                Jon Coen
                              Steve Colley
                               Simon Coon
                           Michelle Dominguez
                               Amy Smith


                            C O N T E N T S

                              ----------                              

                       Wednesday, April 11, 2018
  Nominations of Paul R. Lawrence to be Under Secretary for Benefits, 
U.S. Department of Veterans Affairs; and Joseph L. Falvey, Jr. to be a 
         Judge of the U.S. Court of Appeals for Veterans Claims
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     2
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    66
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    68
Rounds, Hon. Mike, U.S. Senator from South Dakota................    69
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    71

                               WITNESSES

Lawrence, Paul R., to be Under Secretary for Benefits, U.S. 
  Department of Veterans Affairs.................................     3
    Prepared statement...........................................     5
    Questionnaire for Presidential nominees......................     7
    Letter from the Office of Government Ethics..................    19
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    20
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................    21
      Hon. Jon Tester............................................    22
    Response to posthearing questions submitted by:
      Hon. Jon Tester............................................    28
      Hon. Mazie K. Hirono.......................................    29
      Hon. Joe Manchin III.......................................    30
Falvey, Joseph L., Jr., to be a Judge of the U.S. Court of 
  Appeals for Veterans Claims....................................    31
    Prepared statement...........................................    32
    Questionnaire for Presidential nominees......................    34
    Non-confidential Supplemental Questionnaire..................    46
    Letter from the Judicial Conference of the U.S. Committee on 
      Financial Disclosure.......................................    56
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................    56
      Hon. Jon Tester............................................    58
    Response to posthearing questions submitted by:
      Hon. Jon Tester............................................    60
      Hon. Mazie K. Hirono.......................................    60
      Hon. Joe Manchin III.......................................    61

                                APPENDIX

Kahn, Thomas S., Director, Legislative Affairs, American 
  Federation of Government Employees, AFL-CIO; letter............    75
                              ----------                              

                         Tuesday, June 13, 2018
  Nomination of John Lowry III to be Assistant Secretary of Labor for 
                   Veterans' Employment and Training
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........    77
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......    78
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................   104
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................   106
Boozman, Hon. John, U.S. Senator from Arkansas...................   107
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........   109

                               WITNESSES

Young, Hon. Todd, U.S. Senator from Indiana......................    79
Lowry, John III, Nominee to be Assistant Secretary of Labor for 
  Veterans' Employment and Training..............................    80
    Prepared statement...........................................    81
    Questionnaire for Presidential nominees......................    83
    Letter from the Office of Government Ethics..................    91
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    92
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................    94
      Hon. Jon Tester............................................    97
    Response to posthearing questions submitted by Hon. Joe 
      Manchin III................................................   100
                              ----------                              

                        Wednesday, June 27, 2018
            Nomination of Robert L. Wilkie to be Secretary, 
                  U.S. Department of Veterans Affairs
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........   113
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......   114
Tillis, Hon. Thom, U.S. Senator from North Carolina 



Rounds, Hon. Mike, U.S. Senator from South Dakota................   166
Sanders, Hon. Bernard, U.S. Senator from Vermont.................   168
Moran, Hon. Jerry, U.S. Senator from Kansas......................   170
Murray, Hon. Patty, U.S. Senator from Washington.................   172
Boozman, Hon. John, U.S. Senator from Arkansas...................   174
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................   175
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................   178
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........   180
Heller, Hon. Dean, U.S. Senator from Nevada......................   181
Brown, Hon. Sherrod, U.S. Senator from Ohio......................   183

                               WITNESSES

Wilkie, Robert L., nominee to be Secretary, U.S. Department of 
  Veterans Affairs...............................................   118
    Prepared statement...........................................   120
    Questionnaire for Presidential nominees......................   122
    Letter from the Office of Government Ethics..................   131
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   132
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   132
      Hon. Jon Tester............................................   136
    Response to posthearing questions submitted by:
      Hon. Jon Tester............................................   146
      Hon. John Boozman..........................................   147
      Hon. Bill Cassidy..........................................   148
      Hon. Mike Rounds...........................................   149
      Hon. Dan Sullivan..........................................   150
      Hon. Patty Murray..........................................   151
      Hon. Bernie Sanders........................................   154
      Hon. Sherrod Brown.........................................   155
      Hon. Richard Blumenthal 



      Hon. Mazie K. Hirono.......................................   157
      Hon. Joe Manchin III.......................................   158

                                
                                APPENDIX

Endorsement by eight members of the United States military 
  retired, a former Joint Chief of Staff, a former Deputy Joint 
  Chief of Staff, and six major flag officers of the United 
  States military; letter........................................   191
Newspaper article (Fayetteville AP) submitted by Sen. Tillis.....   192
                              ----------                              

                      Wednesday, September 5, 2018
     Nominations of Tamara Bonzanto to be Assistant Secretary for 
Accountability & Whistleblower Protection, U.S. Department of Veterans 
     Affairs; and James Paul Gfrerer to be Assistant Secretary for 
    Information and Technology, U.S. Department of Veterans Affairs
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........   193
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......   195
Moran, Hon. Jerry, U.S. Senator from Kansas......................   245
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................   247
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................   249

                               WITNESSES

Bonzanto, Tamara, to be Assistant Secretary for Accountability & 
  Whistleblower Protection, U.S. Department of Veterans Affairs..   197
    Prepared statement...........................................   199
    Questionnaire for Presidential nominees......................   201
    Letter from the Office of Government Ethics..................   209
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   210
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   211
      Hon. Jon Tester............................................   212
    Response to posthearing questions submitted by:
      Hon. Sherrod Brown.........................................   216
      Hon. Richard Blumenthal....................................   216
      Hon. Mazie K. Hirono.......................................   217
      Hon. Joe Manchin III.......................................   217
Gfrerer, James Paul, to be Assistant Secretary for Information 
  and Technology, U.S. Department of Veterans Affairs............   218
    Prepared statement...........................................   220
    Questionnaire for Presidential nominees......................   222
    Letter from the Office of Government Ethics..................   231
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   232
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   234
      Hon. Jon Tester............................................   236
    Response to posthearing questions submitted by:
      Hon. Tom Tillis............................................   241
      Hon. Richard Blumenthal....................................   242
      Hon. Mazie K. Hirono.......................................   243
      Hon. Joe Manchin III.......................................   243

 
                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Cassidy, Rounds, Tillis, 
Sullivan, Tester, Brown, Blumenthal, Hirono, and Manchin.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call the meeting of the Senate 
Veterans' Affairs Committee to order. I appreciate everyone 
being here today, particularly our two nominees.
    The purpose of this hearing will be to hear from two 
nominees, one for the Court of Veterans Appeals and one for the 
Under Secretary for Benefits in the VA. We thank both of you 
for being here today, and in just a minute, we will introduce 
you for 5 minutes of testimony that you might want to give. 
Then, we will have questions and answers from the Committee.
    I would like to say a few things in advance of the hearing, 
though, just to be sure to answer a lot of questions I have 
been asked by a lot of people which I have refused to answer 
because once you start answering, you cannot stop, and I 
thought I would do it all at once. This is the best place to do 
it.
    As you know, the Secretary did a great job, Secretary 
Shulkin. I appreciate what he did. He is no longer the 
Secretary. We have a nominee with whom I have had one phone 
conversation, which I appreciated very much. We will have a 
personal meeting. I have told the President, the 
administration, and the White House and have told everybody 
that has asked that we will have a hearing as expeditiously as 
we can when we have everything from them. It is their job to 
answer the questions and give the White House documentation, 
and until I get that, I cannot schedule anything.
    If, however, we get the documentation and this nominee 
answers the questions on time, we will have the ability to have 
a meeting on the 25th of April. That would be the earliest and 
latest in this month that we could have a hearing on the 
nominated Secretary.
    So, as Chairman with the concurrence of the Ranking Member 
when we talked on the phone, we are ready to go when we have 
everything from them that puts us in a position of being able 
to go. The earliest that can take place is on the 25th of 
April, and if we do not get the information a few days in 
advance of that, we cannot even do it then. But, that date is 
available and it is possible to do. So, we will do it as 
expeditiously, yet as thoroughly as possible.
    I think it is very important, as we did on the nomination 
of the previous Secretary, Dr. Shulkin, to have a thorough 
hearing, ask all the questions that need to be asked and make 
sure we have vetted the nominee to the maximum extent possible 
for the benefit of the nominee, for the benefit of the VSOs, 
the benefit of the veterans, the benefit of the Members of the 
Committee, and the benefit of the greater public at large.
    This is a tremendously important responsibility, taking 
care of our veterans. It is one that Senator Tester and I and 
all our Members take very seriously. We want to make sure we 
have as little break in service and continuity as possible. So, 
we are going to move as deliberately but as expeditiously as 
possible to make that happen.
    Jon, would you like to make a statement?

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. I would, Mr. Chairman, and I would 
associate myself with your remarks exactly.
    Mr. Lawrence and Mr. Falvey, I want to thank you for being 
here and thank you for your willingness to serve.
    I have been thinking a lot about service over the last week 
or so with the passing of a good friend of mine from Montana 
who was a fierce advocate for our Nation's veterans. Merv 
Gunderson dedicated his life to serving our Nation. He 
selflessly lent a hand to fellow veterans and their families 
whenever they were in need, and as a leading voice in The 
American Legion worked very closely with me to ensure that our 
Nation's policies did right by those who served.
    Merv stood tall among us, and I am blessed to have called 
Merv my friend. The VA needs leaders like Merv Gunderson, 
people who are ready, willing, and capable of helping lead a 
multifaceted agency and putting the needs of veterans ahead of 
everything else.
    Mr. Lawrence, by virtue of you being here today, I think we 
have answered whether you are willing. Today, my plan is to 
find out if you are ready and capable of doing the job for 
which you have been nominated. I think we have seen over the 
last few months that being a leader at the VA is a challenge 
for even the most seasoned professionals.
    I have no doubt there is dark money fighting for the very 
soul of the VA, and when the forces working for that dark 
special interest come to you, will you be ready to put your 
career on the line to fight them, as former Secretary Shulkin 
did?
    America's veterans deserve no less, and they will need 
folks at the VA ready to stand with them against the dark 
special interests. There will be tough times ahead, and I will 
need to know today, as well as other Members of the Committee, 
whether you are ready for them.
    Mr. Lawrence, the VBA can be challenging even for those who 
have the best skill set for managing a complex administration 
like the VBA. Challenges such as leading the more than 23,000 
personnel in the critically important division of the VA, where 
morale has been a concern and firing folks cannot be one of the 
first instincts when dealing with employee matters. There is 
also constant pressure from the public to make certain veterans 
and their families get the benefits and the services they earn 
in a timely and a correct manner.
    We are talking about veterans suffering from conditions 
brought on or intensified by military service, veterans needing 
funds to help pay for rent during school, survivors waiting for 
assistance after their loved ones have passed. They all deserve 
timely and correct decisions from the VA. I want you to never 
forget that these are the people you serve. Everyone and 
everything else is noise.
    Mr. Falvey, I want to emphasize how important it is to me 
that veterans get expedited and fair review of their cases. So, 
the question of the day is whether you can build on the court 
successes and continue delivering timely justice for our 
veterans and their families.
    What I really want to learn from both of you today is are 
you up for the job. We need to know that you folks are the 
right folks at this moment in time. It is my hope and the hope 
of the Committee that you are, so I look forward to the 
discussion today.
    Thank you for your willingness to serve.
    Back to you, Mr. Chairman.
    Chairman Isakson. Mr. Falvey, Dr. Lawrence, would you 
please rise. Raise your right hand and repeat after me. Do you 
solemnly swear or affirm the testimony you are about to give 
before the Senate Committee on Veterans' Affairs will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Falvey. I do.
    Mr. Lawrence. I do.
    Chairman Isakson. Thank you very much. Please be seated.
    Dr. Lawrence, you are recognized for 5 minutes--or as we 
say in the business, up to 5 minutes.

STATEMENT OF PAUL R. LAWRENCE, Ph.D., TO BE UNDER SECRETARY FOR 
         BENEFITS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Lawrence. Chairman Isakson, Ranking Member Tester, 
distinguished Members of the Committee on Veterans' Affairs, 
thank you for the opportunity to testify before you today and 
for your consideration of my nomination to serve as Under 
Secretary of Benefits.
    I have had the privilege to meet with many of you 
individually after I was nominated and can say I have benefited 
immensely from your advice and insights about ensuring our 
Nation's veterans and their families receive the benefits they 
have earned. I am deeply honored to have been nominated by 
President Trump.
    To start, let me tell you a little about myself and my 
background. I was raised in an Army family. My father served 24 
years and was in the Korean and Viet Nam Wars. He taught me 
many valuable lessons about leadership, but the one that 
consistently guided me was ``Mission First, Men Always.'' He is 
buried in Section 66 of Arlington National Cemetery.
    My 93-year-old mother is at home today, and I am sure 
watching these proceedings. She came from a large family--11 
brothers and sisters. Five of her brothers answered the call 
and served in the Armed Forces during World War II. My middle 
name, Reynold, was given to me in honor of her only brother who 
did not return, killed at Normandy.
    I have one brother and two sisters. My brother and I were 
both commissioned into the Army through ROTC. I delayed my 
entry to active duty after graduating from the University of 
Massachusetts to earn a Ph.D. in Economics from Virginia Tech. 
There, I learned how to apply scientific methods and conduct 
rigorous data-based evaluations and decisionmaking. I have had 
the opportunity to study under a professor who would later win 
the Nobel Prize in Economics.
    After graduate school, I served on active duty in the Army 
in the Finance Corps. I left as an airborne-qualified captain 
and received the Meritorious Service Medal. I moved to the D.C. 
area and got married. Ann, my wife of 33 years, is here with me 
today. Her love and support have been invaluable to me. We have 
two children. Our son is an optometrist, completing his 
residency in low vision at the VA medical center in Hampton, 
Virginia.
    For most of my professional career, I have worked as a 
consultant in large professional services firms, helping 
Federal Government leaders improve efficiency and 
effectiveness. I have worked at many of the Cabinet agencies, 
including the VA. The majority of my career was as a partner in 
accounting firms, where I focused on financial management and 
organizational improvement.
    Importantly, through my work, I have experience with many 
of the activities conducted by VBA. I have led projects dealing 
directly with the processing of large volumes of materials, 
originating and servicing single-family mortgages, and 
monitoring student loans. I have firsthand experience with the 
opportunities and the management challenges that are similar to 
those facing VBA.
    I also worked in two global information technology 
companies. The work there gave me experience integrating 
technology into processes to drive efficiencies. Their large 
size helped me develop management skills appropriate for the 
scale of the Federal Government.
    Finally, in my present company, I have spent the last year 
working on an agency's response to the Executive Order on 
Agency Reform. This helped me enhance my perspective on driving 
change and collaborating with the Office of Management and 
Budget.
    What is differentiating about my experiences as a 
consultant to the Federal Government is I have conducted 
extensive research into how government is managed by senior 
leaders. Tips and insights from interviewing a wide cross 
section of government leaders has enabled me to learn what 
contributed to their success. If confirmed, I plan to apply 
many of those best practices.
    I am passionate about veterans issues and want to 
contribute to the efforts to improve the support provided to 
our veterans by the VA.
    I know this is special time to be part of the team at the 
VA and be able to contribute. Efforts to support our veterans 
are a key part of the national agenda, and the Congress and 
Senate have generously provided the resources. And, through the 
series of laws that have been passed in the last year, 
addressing accountability, appeals modernization, the Forever 
G.I. Bill, and the agency reform initiative, many of the tools 
are now in place. It is a unique time to support veterans, and 
I would like to do my part.
    To that end, there are three priorities I will focus on if 
confirmed. The first is providing veterans with the benefits 
they have earned in a manner that honors their service. The 
programs of the VBA-Compensation, Home Loan Guaranty, 
Education, Life Insurance, Vocational Rehabilitation and 
Employment, Pension and Fiduciary, and Benefits Assistance--
serve millions and rightly require more than $100 billion in 
support. Providing this support should be done efficiently, 
timely, and with high quality.
    In the recent past, there have been many improvements, and 
much has been accomplished. I would plan to build on these and 
accelerate the improvements. We would continue to foster a 
culture of continuous improvement, streamlining processes, and 
reallocating resources to increase effectiveness.
    The second is ensure we are strong fiscal stewards of the 
money entrusted to us. At the same time we seek to aggressively 
support our veterans, we must be equally vigilant supporting 
taxpayers who provide our resources. I will work with the 
Department, OMB, and others to apply the most appropriate best 
practices for financial rigor. One of my initial efforts will 
be to examine improper payments.
    The third is to foster a culture of collaboration. 
Experience has taught me that leaders who model and foster a 
collaborative culture reap benefits in terms of employee 
satisfaction and productivity. More importantly, there are many 
groups and organizations also working to support our veterans. 
I will work with the Senate, the House, across the Department, 
the DOD, our VSO Partners, the unions, and others with similar 
objectives. I will encourage focus and alignment on our common 
interests.
    I, again, want to thank the Committee for the opportunity 
to appear before you today. I look forward to answering your 
questions.
    [The prepared statement of Mr. Lawrence follows:]
Prepared Statement of Paul R. Lawrence, Nominee for Under Secretary for 
             Benefits, U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking member Tester, Distinguished Members of 
the Committee on Veterans Affairs, Thank you for the opportunity to 
testify before you today and for your consideration of my nomination to 
serve as Under Secretary of Benefits, Department of Veterans Affairs. I 
have had the privilege to meet individually with many of you after I 
was nominated, and can say that I have benefited immensely from your 
advice and insights about ensuring our Nation's Veterans and their 
families receive the benefits they have earned. I am deeply honored to 
have been nominated by President Trump.
    To start, let me tell you a little about myself and my background. 
I was raised in an Army family, my father served 24 years and was in 
the Korean and Viet Nam wars. He taught me many valuable leadership 
lessons, but the one that has consistently guided me was ``Mission 
First and Men Always.'' He is buried in Section 66 of Arlington 
National Cemetery. My 93-year-old mother is at home today and I am sure 
watching these proceedings. She came from a large family--11 brothers 
and sisters. Five of her brothers answered the call and served in the 
Armed Forces during WWII. My middle name, Reynold, was given to me in 
honor of her only brother who didn't return, killed at Normandy.
    I have 1 brother and 2 sisters. My brother and I both were 
commissioned into the Army through ROTC. I delayed my entry to active 
duty after graduating from the University of Massachusetts to earn a 
Ph.D. in Economics from Virginia Tech. There I learned how to apply 
scientific methods and conduct rigorous data-based evaluation and 
decisionmaking. I also had the opportunity to study under a Professor 
who would later win the Nobel Prize in Economics.
    After graduate school, I served on active duty in the Army in the 
Finance Corp. I left as an Airborne qualified Captain and received the 
Meritorious Service Medal. I moved to the DC-area and got married. Ann, 
my wife of 33 years is here with me today. Her love and support have 
been invaluable to me. We have 2 children. Our son is an optometrist 
completing his residency in low-vision at the VA Medical Center in 
Hampton, Virginia.
    For most of my professional career, I have worked as a consultant 
in large professional services firms helping Federal Government leaders 
improve efficiency and effectiveness. I have worked at many of the 
cabinet agencies, including the VA. The majority of my career was as a 
Partner in Accounting firms, where I focused on financial management 
and improving organization performance. Importantly, through my work I 
have experience with many of the activities conducted by VBA. I have 
led projects dealing directly the processing of large volumes of 
materials, originating and servicing single family mortgages, and 
monitoring student loans. I have first-hand experience with 
opportunities and management challenges similar to those facing VBA.
    I have also worked in two global information technology companies. 
This work gave me experience integrating technology into processes to 
drive efficiencies. Their large size helped me develop management 
skills appropriate for the scale of the Federal Government. Finally, in 
my present company I have spent the last year working on an Agency's 
response to the Executive Order on Comprehensive Agency Reform. This 
has further enhanced my perspective on driving change and collaborating 
with the Office of Management and Budget.
    What is differentiating about my experiences as a consultant to the 
Federal Government is I have conducted extensive research and thought 
leadership into how government is managed by senior leaders. Insights 
and tips from interviewing a wide cross section of government leaders 
has enabled me to learn what contributed to their success. If 
confirmed, I plan to apply many of these best practices.
    I am passionate about Veterans' issues and want to contribute to 
the efforts to improve the support provided to Veterans by the VA. I 
know this is special time to be part of the team at the VA and be able 
to contribute. Efforts to support our Veterans are a key part of the 
national agenda and the Congress and Senate have generously provided 
the resources. And, through the series of laws that have been passed in 
the last year, addressing Accountability, Appeals Modernization, the 
Forever G.I. Bill, and the agency reform initiative, many of the tools 
are now in place. It is a unique time to support Veterans and I would 
like to do my part.
    To that end, there are three priorities I will focus on if 
confirmed.
    The first is providing Veterans with the benefits they have earned 
in a manner that honors their service. The programs of the VBA--
Compensation, Home Loan Guaranty, Education, Life Insurance, Vocational 
Rehabilitation and Employment, Pension and Fiduciary, and Benefits 
Assistance--serve millions and rightly require more than $100 billion 
in support. Providing this support should be done efficiently, timely 
and with high quality. In the recent past there have been many 
improvements and much has been accomplished. I would plan to build on 
these and accelerate the improvements. We would continue to adopt a 
culture of continuous improvement, streamlining processes and 
reallocating resources to increase effectiveness.
    The second is ensure we are strong fiscal stewards of the money 
entrusted to us. At the same time, we seek to aggressively support our 
Veterans we must be equally vigilant supporting tax payers who provide 
our resources. I will work with the Department, OMB and others to apply 
the most appropriate best practices for financial rigor. One of my 
initial efforts will be to examine Improper Payments.
    The third is to foster a culture of collaboration. Experience has 
taught me that leaders who model and foster a collaborative culture 
reap benefits in terms of employee satisfaction and productivity. More 
importantly, there are many groups and organizations working to support 
our Veterans. I will work closely with the Senate, the House, across 
the Department, the DOD, our VSO Partners, the Unions, and others with 
similar objectives. I will encourage focus and alignment on our common 
interests.

    I, again, want to thank the Committee for the opportunity to appear 
before you. I look forward to answering your questions.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from Paul R. Lawrence to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  Paul R. Lawrence, Nominee to be Under Secretary for Benefits, U.S. 
                     Department of Veterans Affairs
    Question 1. If confirmed as Under Secretary for Benefits, what will 
your priorities be?
    Response. There are three key areas I will focus on:

    a. Providing benefits accurately and in a timely manner. This 
include the current processes, appeals, and the changes from new 
legislations (e.g., the G.I. Bill). I will continue to streamline 
processes and reallocate recourses to areas where they can have the 
most impact.
    b. Financial rigor and stewardship of the funds provided to VBA. I 
will work with the Department, OMB and others to ensure we have 
applying financial best practices. As appropriate, I will seek 
independent testing of key financial processes (such as improper 
payments) to determine their effectiveness and how they can be 
improved.
    c. Collaboration with stakeholders. Many organizations have 
supporting veterans as their mission. I will engage and work closely 
with as many of these organizations as possible so that our collective 
support for Veterans is aligned. I will seek to find our common 
interests and the projects we can work on together. I will model 
collaborative behavior and strongly encourage the VBA team to do the 
same.

    Question 2. You have extensive experience working with leaders in 
government. How would this experience inform your perspective and 
benefit you in the role of Under Secretary for Benefits?
    Response. These experiences are relevant, inform my management 
approach and I will use many of the best practices I have observed. 
These include:

    <bullet> Leveraging the career staff by actively enlisting their 
support and insights.
    <bullet> Engage and collaborate with stakeholders. They provide 
invaluable ideas and counsel.
    <bullet> Focus and align on key priorities. Make progress by 
constantly completing short term goals that lead to completing long 
term goals.

    Question 3. Please describe what you believe are the biggest 
challenges facing the Veterans Benefits Administration (VBA) and your 
plans to address them.
    Response. There are three key areas I will focus on:

    a. Providing benefits accurately and in a timely manner. This 
include the current processes, appeals, and the changes from new 
legislations (e.g., the G.I. Bill). I will continue to streamline 
processes and reallocate recourses to areas where they can have the 
most impact.
    b. Financial rigor and stewardship of the funds provided to VBA. I 
will work with the Department, OMB and others to ensure we have 
applying financial best practices. As appropriate, I will seek 
independent testing of key financial processes (such as improper 
payments) to determine their effectiveness and how they can be 
improved.
    c. Collaboration with stakeholders. Many organizations have 
supporting veterans as their mission. I will engage and work closely 
with as many of these organizations as possible so that our collective 
support for Veterans is aligned. I will seek to find our common 
interests and the projects we can work on together. I will model 
collaborative behavior and strongly encourage the VBA team to do the 
same.

    Question 4. The Appeals Improvement and Modernization Act of 2017 
(Public Law 115-55) requires significant changes to the current appeals 
system. VBA and the Board of Veterans' Appeals are working toward 
implementation of the new system by February 2019. How will you ensure 
the law is successfully implemented?
    Response. To ensure the Appeals Improvement and Modernization Act 
of 2107 is successfully implemented, the VBA continues to work 
collaboratively with the Board to reduce legacy appeals through the 
Rapid Appeals Modernization Program (RAMP) and solicit and listen to 
Veteran, VSO and Congressional feedback. VBA and the Board will team to 
explore opportunities to reduce appeal under the Appeals Modernization 
Act (AMA). If confirmed, I will meet regularly with the Chairman of the 
Board to ensure a successful implementation.

    Question 5. If confirmed, how do you intend to ensure that VBA, 
across business lines, is providing veterans with timely and quality 
decisions on their claims for benefits?
    Response. Timeliness is generally a function of efficiency of 
receiving and processing the claim. Recently, there has been much 
improvement and I would continue that. In particular, I will streamline 
processes and allocate resources to have their greatest impact.
    Quality work is often a function of the training of employees and 
the effectiveness of the monitoring of quality of the work in progress 
and when complete. I will review the training program focusing on its 
emphasis on timeliness and quality. I will also review the quality 
monitoring efforts for effectiveness in detecting and preventing 
errors. As appropriate, we will develop and implement plans to enhance 
quality.

                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Jon Tester to Paul 
 Lawrence, Nominee to be Under Secretary for Benefits, U.S. Department 
                          of Veterans Affairs
    Question 6. Why do you seek this position?
    Response. I grew up in a military family and served in the U.S. 
Army. I am passionate about Veteran's issues and would like to 
contribute to the team and effort to continue to improve how they 
receive the benefits they have earned. My professional experiences are 
working in areas similar to the key functions of the VBA--processing, 
mortgage origination and services, student loans, and education. I am 
also familiar with the workings of the Federal Government from 
supporting Agencies as a consultant and conducting research with past 
political appointees. Because of this, I believe I am well qualified 
and capable of making a contribution.

    Question 7. What do you believe are the most important problems and 
challenges currently confronting the Veterans Benefits Administration? 
How do you intend to address them?
    Response. There are three key areas I will focus on:

    a. Providing benefits accurately and in a timely manner. This 
include the current processes, appeals, and the changes from new 
legislations (e.g., the G.I. Bill). I will continue to streamline 
processes and reallocate recourses to areas where they can have the 
most impact.
    b. Financial rigor and stewardship of the funds provided to VBA. I 
will work with the Department, OMB and others to ensure we have 
applying financial best practices. As appropriate, I will seek 
independent testing of key financial processes (such as improper 
payments) to determine their effectiveness and how they can be 
improved.
    c. Collaboration with stakeholders. Many organizations have 
supporting veterans as their mission. I will engage and work closely 
with as many of these organizations as possible so that our collective 
support for Veterans is aligned. I will seek to find our common 
interests and the projects we can work on together. I will model 
collaborative behavior and strongly encourage the VBA team to do the 
same.

    Question 8. What is your management style? Are you a ``hands-on'' 
manager? Do you rely on significant delegation? Do you seek consensus 
before making a decision or do you generally gather relevant 
information and input, and then make a decision?
    Response. I consider myself an engaged manager, being as hands-on 
as possible and appropriate. I delegate with clear instructions, 
accountability and follow-up points. I articulate the key performance 
requirements, communicate these frequently and measure regularly to 
monitor progress. I prefer to seek consensus before making decisions. 
When that is not practical, I gather as much input as possible, 
specifically focusing on the different perspectives to understand the 
implications of a decision. I will make a decision and, as appropriate, 
explain to stakeholders that I did listen to and consider their 
perspective and where is why I made this decision.

    Question 9. Have you spoken to the Secretary about his expectation 
for what your role would be within his leadership team? If yes, what 
was discussed?
    Response. No.

    Question 10. Have you spoken to the President or anyone at the 
White House about what your role would be within the Administration? If 
yes, what was discussed?
    Response. No.

    Question 11. On matters of policy, do you believe you will be 
receiving direction from the Secretary or someone at the White House?
    Response. The Secretary.

    Question 12. Describe how you intend to work with the Secretary, 
the Deputy and two other Under Secretaries. Please also describe how 
you will work with others in the Agency whose work directly impacts VBA 
(e.g. Enterprise Integration, General Counsel's Office) but you 
wouldn't have authority over.
    Response. I will work closely and collaboratively with the 
Secretary, the Deputy and two other Under Secretaries. Per their style, 
I will meet and review key topics with them as often as possible. I 
will work with others in the Agency who work directly impacts VBA as 
closely as possible. I will focus on areas of mutual interest and 
emphasize how their work supports VBA accomplishing its mission.

    Question 13. Your employment history shows considerable time spent 
as a Federal contractor. Describe any experience you have had working 
with VA and how that experience has shaped your view of the Agency.
    Response. In the late 1980s I conducted a study for the Veteran's 
Canteen Service on the financial impact of tobacco sales in the ``in-
hospital stores.'' As part of this work, we visited a dozen hospitals 
around the country that served different Veteran populations (in 
patient, extended and long term care). The report was timely and I 
provide short testimony about it to a House Subcommittee grappling with 
the policy on tobacco sale in the hospitals. From this experience I 
learned first-hand of the role of VA's stakeholders as VCS leadership, 
VSO, and ``doctor groups'' in the VHA voiced ideas about the subject 
and the report. I also had personally experienced the different ways VA 
provides support to Veterans through the trips I conducted to the 
different hospitals.
    Additional Response. I did no other work for the VA besides that 
study. I have not worked as a federal contractor at the VA since that 
study (which I recall as being conducted in 1988).
    In particular, I have had no involvement in the VA's Agency Reform 
Plan.

    Question 14. You co-wrote an article on how to be successful in the 
Trump Administration. As part of the article you recommended that 
nominees dialog with predecessors and experts. Who have you reached out 
to since your nomination and what have you learned?
    Response. I have talked with former Under Secretary, Benefits, 
Allison Hickey, former Deputy Secretary Scott Gould, and former 
Secretaries Jim Nicholson and Anthony Principi. Common themes in these 
conversations was the importance of collaborating and working with all 
stakeholders, especially the VSOs and Unions. Another was the 
importance of balance two broad objectives--processing claims quickly 
and accurately, while also never forgetting the need for rigorous 
fiscal stewardship.

    Question 15. How do you plan to work with the veteran service 
organizations? Do you anticipate meeting with the VSO representatives 
on a regular basis?
    Response. Closely and collaboratively. Yes, my present plan is to 
meet monthly with them and have additional meetings as appropriate.

    Question 16. What would you do to ensure that Members of Congress 
are advised in advance of problems, issues and emerging matters--
particularly when those matters are specific to the area a member 
represents?
    Response. I would communicate these as early as practical, with a 
plan to address the situation.

    Question 17. There are reports that the Administration, through 
their Office of General Counsel, has ordered agencies to not provide 
responses to Democrats' information requests. If you were to receive 
such an order, what would you do? Have you participated in or been 
aware of any communications where this topic was discussed? Please 
provide details on the participants in this discussion, the substance 
of the discussion, and any outcomes.
    Response. I have not received such communication nor am I aware of 
it. If I to received such an order I would seek to understand the 
purpose behind it. I would evaluate and decide on a course of action 
based on what I learned.

    Question 18. Committee staff access to career professionals at VBA 
is critically important as they conduct oversight of the Agency on 
behalf of Members. In the past, VBA staff from all business lines have 
been made available for briefings, questions, and related activities. 
Committee staff view these open channels of communication as vital. Do 
you intend to allow Committee staff the same level of access to VBA 
career employees?
    Response. Yes.

    Question 19. Accurate forecasting of usage of veterans benefits is 
essential in planning for resources to administer those benefits. What 
do you see as the Under Secretary's role in forecasting the need for 
additional staffing resources so that Congress can appropriate those 
resources in a timely manner?
    Response. Ensuring VBA has sufficient resources to meet its mission 
is critical and an important responsibility. I see my roles as ensuring 
VBA carefully, thoughtfully, and critically develops estimates of the 
resource needed. I also believe it is important to provide these 
estimates in manner that corresponds to the time schedule needed for 
them to be appropriated.

    Question 20. Recent budget requests have included provisions meant 
to save the Department money in order to expand other programs, for 
example, community care. What is your position on taking money from one 
group of veterans in order to pay for programs for another?
    Response. I would want to better understand the specific situation 
in order to develop an informed position. Generally, my position is 
that if Veterans have earned benefits according to the rules and 
regulations, those should not be altered.

    Question 21. Are you concerned with any portion of the 
Administration's budget request for FY 2019 as it pertains to VBA?
    Response. Not at this point.

    Question 22. Some VA employees have expressed concern regarding the 
execution of the recently-signed into law Accountability legislation. 
Explain your view of this law.
    Response. The Accountability Legislation established the Office of 
Accountability and Whistleblower Protection (OAWP), provided protection 
for whistleblowers, and provided the Secretary with improved 
authorities to improve the accountability of SES, supervisors and other 
employees. If the Secretary determines the employee has committed 
misconduct or performed poorly, actions can be taken. These actions are 
reprimands, suspension of any length; involuntary reassignments, 
demotions and removal. The legislation also provides streamlined 
processes and expedited schedule for resolution and appeal of the 
action.
    The legislation expands the tools available to leaders at the VA 
when handling poor performance. My experience is this should be only 
used when training, coaching and other approaches have consistently 
failed because of the employee (not those providing the training, 
coaching, etc.). The goal of the leader is to provide services to our 
Veterans by creating a healthy and productive work environment and that 
engages a top performing team. The old phrase ``you can't fire your way 
to success'' reminds me that this tool may need to be utilized to deal 
with habitual situations but should only be after other efforts have 
been made to increase performance.

    Question 23. VBA employees have suffered from low morale partially 
due to constant scrutiny of their performance. If confirmed, what steps 
would you take to improve morale at VBA?
    Response. Experience has taught me that increasing organization 
performance has a positive impact on morale. Simultaneously with those 
efforts, I will engage employees, communicating regularly, and seeking 
their advice and ideas often. As practical, I will travel or use 
technology to engage employees outside of Washington, DC, to gain a 
balance perspective on issues. I will lead by example, modeling the 
behaviors I will expect from others, including focus on the mission, 
integrity, and transparency. I will strongly advocate for the VBA, 
pointing out accomplishments and educating those who are inaccurate in 
their criticism.
    I plan to review employee surveys to identify specific issues of 
concern. As appropriate, plans to address these issues will be develop 
and implemented. Regular followup will occur.

    Question 24. Addressing employee concerns will be an important part 
of your job. Do you have experience working with an employee union? How 
do you intend to work with employee unions at VA?
    Response. Yes, I have worked with Unions in my consulting work at 
the Internal Revenue Service and the U.S. Postal Service. I intend to 
work with the Unions as I will all other VA and VBA stakeholders--as 
closely and collaboratively as possible. I will be open, consistent and 
fair in my dealing with the Union, emphasizing our common interests in 
serving Veterans.

    Question 25. Do you believe that VA's 125 day goal for an initial 
decision on a claim is appropriate? In your view, how long should a 
veteran have to wait to have his or her initial claim for compensation 
adjudicated?
    Response. At this point yes. I would like to analyze the work 
involved for the different claims and compare it to similar activities 
in world-class private sector organizations to make that determination.

    Question 26. VBA must rapidly respond to outside decisionmakers 
like Congress and the Court of Appeals for Veterans Claims, which 
frequently modify the benefits package or how claims are processed via 
new legislation or court decisions. VBA has struggled with this in the 
past. If confirmed, what would you do to ensure that VBA can more 
nimbly respond to changes in law?
    Response. If confirmed, I will review the process currently used to 
respond to these changes for effectiveness and timeliness. Were there 
shortcomings, a plan to address these will be developed, socialized 
with stakeholders, and implemented. This plan would include regular 
feedback from participants on its timeliness.

    Question 27. Do you believe that cost is a factor in determining 
whether VA's compensation system should be overhauled?
    Response. Overhauling VA's compensation system would be a 
complicated initiative involving many stakeholders and factors. I 
assume cost would be one of many factors.

    Question 28. Commissions have been previously established to review 
which conditions or disabilities should be service-connected, how much 
veterans are compensated for those conditions or disabilities and 
related issues. What is your view on this?
    Response. At this point I have no view on this process. I will 
apply the rules that are established as a result efficiently and 
effectively.

    Question 29. Historically, VBA has come under fire for the lack of 
timeliness of its claims processing. While VBA has made progress in 
improving timeliness and accuracy of disability claims processing, 
further improvement is needed. VBA turned its attention to decreasing 
the amount of time it takes to process a claim, but that improvement 
seems to be at the cost of a decrease in the quality of its 
decisionmaking. Do you have any views on how a more balanced approach 
can be reached?
    Response. Timeliness is generally a function of efficiency of 
receiving and processing the claim. Recently, there has been much 
improvement and I would continue that. I will continue to streamline 
processes and allocate resources to have their greatest impact.
    Quality work is often a function of the training of employees and 
the effectiveness of the monitoring of quality of the work in progress 
and when complete. I will review the training program focusing on its 
emphasis on timeliness and quality. I will also review the quality 
monitoring efforts for effectiveness in detecting and preventing 
errors. As appropriate, we will develop and implement plans to enhance 
quality.
    A balance approach requires focus on both aspects. Effectiveness 
requires management disciple and appropriate tools to regularly monitor 
timeliness and quality. If confirmed, I will bring energy to focusing 
on both aspects.

    Question 30. For some medical conditions that occur after service, 
the scientific information needed to connect the medical condition and 
the circumstances of service may be incomplete. When information is 
incomplete, the Secretary has authority to presume disabilities and 
diseases as service-connected for purposes of compensation. If 
confirmed as Under Secretary, what would be your approach for 
recommending whether a presumption is warranted?
    Response. I would carefully review the information about the 
certainty of its service connection and resulting disabilities. I would 
also review the projected costs of different benefit scenarios.

    Question 31. What are your views of consolidating certain claims 
processing functions into fewer offices?
    Response. This will not be one of my immediate priorities.

    Question 32. What changes, if any, do you anticipate making to the 
way quality of claims processing is measured at VBA?
    Response. High-quality processing of claims will be a top priority. 
Even top performing world-class organizations, recognized for high-
quality work seek to continually improve their quality. I will 
encourage improvement but at this point don't have specific details. 
Once I have these I will share them with stakeholders.
    My experience has taught me that often quality is measured based on 
the perspective of the organization performing the work rather than the 
customer for the work (here Veterans). Generally, it is preferred to 
measure quality from the customer's perspective and use that as 
indicator and a diagnostic for improvement. If confirm, I will examine 
this as part of my review of the quality of claims processing.

    Question 33. Are you familiar with the various legal clinics 
operated by law schools that assist veterans and family members with 
accessing VA benefits and other services that veterans have earned 
through their service, and how do you perceive their role in helping 
the government deliver benefits to veterans? Should you be confirmed, 
do you commit to working with these organizations and fostering 
relationships between law schools and VBA Regional Offices in their 
areas?
    Response. I am unfamiliar with these legal clinics. Yes, to the 
extent they are effective in helping Veterans apply and receive the 
benefits they have earned.

    Question 34. Committee oversight too often finds veterans who are 
unaware of the benefits available to them. What type of outreach do you 
have planned to ensure that servicemembers and veterans are aware that 
they can utilize their benefits?
    Response. I plan on aggressive outreach to Veterans so they are 
aware of their benefits. This outreach would be using media and format 
most appropriate and effective to the Veterans. It could range from the 
latest proven technology to the traditional forms, based on their 
preference. I will encourage creativity and testing of different 
approaches to increase effectiveness.
    To do this, I will review present communication methods and 
processes for effectiveness and shortcomings. I will review ideas or 
suggestions previously developed by VBA to enhance communication. I 
will review the feedback on shortcomings to identify specifics, trends 
and root causes. As part of this review, I will reach out to 
stakeholders to learn of their experiences and the experiences of their 
members. As appropriate, a plan to address shortcomings and increase 
effectiveness will be developed, socialized with stakeholders, and 
implemented. This plan would include regular monitoring and updating to 
increase effectiveness.

    Question 35. The Harry W. Colmery Veterans Education Assistance Act 
is the most sweeping reform of VA education benefits since the Post-9/
11 GI Bill was passed into law. One section of this bill directs VA to 
extend up nine additional months of GI Bill benefits for veterans in 
STEM programs that require more credit hours than a standard degree 
program. If confirmed as undersecretary what will you do to ensure that 
VA implements this provision in such a way that predatory schools don't 
inflate program requirements to get access to this expanded benefit?
    Response. I will work with those planning and implementing this act 
to determine how these provisions are being addressed. I will review 
controls and oversight for this and other practices that inflate 
program requirements for effectiveness. I will also review efforts 
being developed and implemented to continually monitor for this 
practice for their effectiveness and timeliness.

    Question 36. VA's Educational Services is plagued with outdated and 
cumbersome IT systems. As a part of the Harry W. Colmery Veterans 
Education Assistance Act we provided 30 million to update those systems 
and the president's budget request commits to providing additional 
money needed to modernize those systems. If confirmed as undersecretary 
will you commit to fighting for these upgrades, and ensure that the 
appropriate money will spent from VA's IT budget on the Education 
Services upgrades?
    Response. Yes.

    Question 37. VA's vocational rehabilitation program provides 
critical job training services to disabled veterans who transitioning 
to new careers, but has historically had limited outcome measures. What 
kind of markers do you think an employment training program, like VR&E, 
should be tracking? And how long after finishing VR&E should VA be 
tracking the outcomes of veterans who used the program?
    Response. If the goal of the education training programs is to 
enable the Veteran to acquire skills to be employed, I would track the 
employment status of the Veterans who participate in the program. 
Ideally, job type and income information would be track to monitor the 
type of jobs they obtain, to monitor if the jobs are a gateway to a 
solid career.
    I would track the outcomes of Veterans for sufficiently long to 
allow for changing initial employers or employment situation. I would 
want to study the actual data to be precise, but my sense is this would 
be for 2-3 years.

    Question 38. VA's Vocational Rehabilitation and Employment program 
is one of the smallest, yet most important, programs within the 
Department. It is the linchpin for helping veterans who incur service-
connected disabilities achieve a fulfilling and gainful future. I am 
deeply committed to making sure that this program lives up to its full 
potential, especially when individuals who have sustained serious 
injuries in combat are concerned. What are your thoughts on the role 
that vocational rehabilitation plays in terms of the total 
rehabilitation of an individual recovering from severe combat-related 
injuries?
    Response. I believe vocation rehabilitation is an important part of 
the total rehabilitation. Ideally, VHA supports (as much as practical) 
the medical rehabilitation. Vocational rehabilitation would then enable 
the veteran to have skills to be employed.

    Question 39. Through VA's vocational rehabilitation program, VA 
assumes certain responsibilities for the provision of employment 
assistance to veterans who complete a plan of vocational 
rehabilitation. This assistance can take a variety of forms. I am 
concerned that VA cooperate and coordinate with the Department of 
Labor's Veterans' Employment and Training Service so that duplication 
of effort can be minimized. If confirmed as Under Secretary, what will 
you do to involve both DOL and DOD in efforts to ensure that 
employment-related issues are addressed seamlessly and without 
duplication of effort?
    Response. I consider DOD and DOL key stakeholders and would 
collaborate with them often. A key part of any collaboration with them 
will be to increase the effectiveness and efficiency by with the 
collective organizations support Veterans.

    Question 40. VA and DOL both different ``own'' portions of the 
military to civilian employment transition. Explain how the Agencies 
might better work together. Do you believe that different functions 
being housed at different Agencies is best for veterans? Do you 
anticipate advocating for any changes in this regard?
    Response. I am generally aware of DOL's Veteran Employment and 
Training Service. At this point, I have no opinion on how these 
functions being housed at different affects veterans. I do not 
currently plan to advocate for any changes in this regard.

    Question 41. Some of the underlying causes of homelessness among 
veterans are inadequate income, lack of affordable housing, and lack of 
accessible and affordable health care. What role, if any, do you 
believe VBA should play in preventing and ultimately ending 
homelessness among veterans?
    Response. Many government and other agencies work together to 
address homelessness. VBA can have an impact by helping them develop 
the capabilities to earn an adequate income, so they can afford 
housing.

    Question 42. What role, if any, do you believe VA has in ensuring 
that veterans and others using educational assistance benefits receive 
quality education and training experiences?
    Response. I believe the VA has an important role in monitoring the 
quality of education and training experience veterans pursue with their 
benefits. I would rely on monitoring done by the U.S. Department of 
Education, state education monitoring agencies, and other agencies that 
monitor training. This may be augmented in situations where additional 
quality monitoring is required.

    Question 43. I have heard from constituents that very little 
information is available to veterans on the Native American Veteran 
Direct Loan program. What actions do you intend to take in the way of 
program outreach, local partnerships, and/or other mechanisms to ensure 
that eligible veterans are aware that they may participate in this 
program?
    Response. I would want to do as much as possible, subject to 
resource constraints I would want to monitor the approaches for 
effectiveness and add additional approaches if this is a hard to 
contact population.

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Jon Tester to Paul 
Lawrence, Nominee for VA Under Secretary for Benefits, U.S. Department 
                          of Veterans Affairs
    Question 1. Unfortunately, those following the VA have to 
acknowledge that we can no longer devote all of our time to the 
substantive issues that I would like to address. During his tenure, 
Secretary Shulkin pointed to those within VA who were undermining his 
ability, and the ability of VA, to do right by veterans.
    <bullet> Please describe how you would handle a similar challenge.
    Response. If confirmed as the Under Secretary for Benefits, I will 
collaborate with leaders and staff in VBA and across the Department. My 
focus will be entirely on providing Veterans the benefits they have 
earned, efficiently and effectively.
    While it is difficult to speculate about a hypothetical situation, 
I can say that if individuals in VBA jeopardize the provision of these 
benefits and, after a reasonable amount of training and coaching this 
doesn't change, I would be left with no choice but to remove them in 
accordance with the law. Were these individual not in VBA, I would use 
the chain of command. I would enlist the support of the Deputy 
Secretary and, if needed, the Secretary to help me address the issues 
so that Veterans receive their benefits.

    Question 2. VBA has set a goal of 125 days for an initial decision 
on a veteran's claim. Unfortunately, when there is an appeal involved, 
a veteran could wait years longer for finality. Last year, we passed an 
appeals reform bill that, if done right, should go a long way toward 
helping with this problem.
    <bullet> What will you do to improve the timeliness and quality of 
veterans' claims?
    Response. Timeliness is generally a function of efficiency of 
receiving and processing the claim. Recently, there has been much 
improvement and I would continue that trend. I will streamline 
processes and allocate resources to have their greatest impact.
    Quality work is often a function of the training of employees and 
the effectiveness of the monitoring of quality of the work in progress 
and when complete. I will review the training program focusing on its 
emphasis on timeliness and quality. I will also review the quality 
monitoring efforts for effectiveness in detecting and preventing 
errors. As appropriate, I will work with VBA experts to develop and 
implement additional plans to enhance quality.

    <bullet> How will you ensure that the appeals reform is implemented 
by the February 2019 goal?
    Response. To ensure the Appeals Improvement and Modernization Act 
of 2107 is successfully implemented, VBA continues to work 
collaboratively with the Board to reduce legacy appeals through the 
Rapid Appeals Modernization Program (RAMP) and solicit and listen to 
Veteran, VSO and Congressional feedback. VBA and the Board will 
coordinate to explore opportunities to reduce appeal under the Appeals 
Modernization Act (AMA). If confirmed, I will meet regularly with the 
Chairman of the Board to ensure a successful implementation.

    Question 3. For years I've been pushing for the Fort Harrison 
Regional Office to be given its own Director. The office is the only 
one of its size in the country, both in workload and number of 
personnel, which does not have its own Director. Last year, Secretary 
Shulkin took a first step in this process by installing an On-Site 
Director for the office. However, the office is still being remotely 
managed from Salt Lake City. I believe the staff at the Fort Harrison 
Regional Office who get up every day and work hard for veterans need 
the sort of leadership and stability that having a dedicated, in-house 
Director brings.
    <bullet> Do you agree to work with me to resolve this issue?
    Response. Yes.

    <bullet> Within 60 days of your confirmation, will you provide me 
the steps that you will take to make sure this issue is resolved?
    Response. Yes.

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
   Paul Lawrence, Nominee for VA Under Secretary for Benefits, U.S. 
                     Department of Veterans Affairs
    Question 5. To ensure the fitness of nominees for any of our 
appointed positions, I ask every nominee who comes before me to answer 
the following two questions:

    a. Since you became a legal adult, have you ever made unwanted 
requests for sexual favors, or committed any verbal or physical 
harassment or assault of a sexual nature?
    Response. No.

    b. Have you ever faced discipline, or entered into a settlement 
related to this kind of conduct?
    Response. No.

    Question 6. The American Recovery and Reinvestment Act of 2009 
established the Filipino Veterans Equity Compensation Fund that 
provides a one-time benefit payment to eligible Filipino World War II 
veterans.
    Response. Over 40,000 claims for this one-time benefit were 
received and processed. While more than 18,000 claims have been 
approved, nearly 24,000 were denied.
    As of September 2017, VA estimates 11 appeals were pending with VBA 
and the Board of Veterans' Appeals. These cases can ultimately be 
appealed the Court of Appeals for Veterans Claims as well.
    As the Filipino veterans are now in their 90s, the urgency of 
resolving their applications cannot be emphasized enough. Can you 
commit that you will make their claims a priority and work with 
advocates like the Filipino Veterans Recognition and Education Project 
so that they receive the benefits they earned?
    Response. Yes.

    Question 7. Will you commit to opposing the use of the remaining 
balance of the Filipino Veterans Equity Compensation fund for unrelated 
purposes?
    Response. Yes.

    Question 8. Mr. Lawrence, one of VA's top challenges from a 
management perspective is the claims and appeals backlog. Based on your 
experience as a consultant how would you tackle this issue? Would you 
prioritize hiring more personnel?
    Response. To address the claims backlog I will focus on timeliness 
of claims processing and the quality of that work.
    Timeliness is generally a function of efficiency of receiving and 
processing the claim. Recently, there has been much improvement and I 
will streamline processes and allocate resources to have the greatest 
impact.
    Quality work is often a function of the training of employees and 
the effectiveness of the monitoring of quality of the work in progress 
and when complete. I will review the training program focusing on its 
emphasis on timeliness and quality. I will also review the quality 
monitoring efforts for effectiveness in detecting and preventing 
errors. As appropriate, I will work with VBA experts to develop and 
implement additional plans to enhance quality.
    The Appeals Improvement and Modernization Act of 2017 is key to 
reducing the appeals backlog. To implement this successfully, the VBA 
continues to work collaboratively with the Board to reduce legacy 
appeals through the Rapid Appeals Modernization Program (RAMP) and 
solicit and listen to Veteran, VSO and Congressional feedback. VBA and 
the Board will collaborate to explore opportunities to reduce appeals 
under the Appeals Modernization Act (AMA). If confirmed, I will meet 
regularly with the Chairman of the Board to ensure a successful 
implementation.
    Yes, if I determine that more personnel are needed, I will 
prioritize their hiring.

    Question 9. Last year Congress passed the Veterans to Enhance 
Studies through (TEST) Accessibility Act sponsored by Sen. Rounds and 
myself as part of the Forever GI Bill law. Currently, student veterans, 
including over 6,000 in Hawaii, are required to use a full month of 
their Post-9/11 GI Bill eligibility to be reimbursed for licensing, 
certification and national tests, such as those required to be an 
athletic trainer, fire fighter or medical technician. The TEST 
Accessibility Act would address this issue by reimbursing veterans for 
the cost of an approved test and pro-rating the affected month of 
eligibility to be used for future educational expenses, such as 
tuition. This provision will become effective on August 1, 2018.
    Can you commit that if confirmed you would work to ensure this 
provision is implemented and communicated to students and schools in a 
timely manner before this effective date?
    Response. Yes. If it proves not possible to meet this date, I will 
explain why and present our revised implementation plans.

    Question 10. Mr. Lawrence, as Under Secretary for Benefits, you 
will be involved with determining veteran eligibility for over $1 
billion in funding to assist homeless veterans and their families. What 
are your thoughts on ways we can continue the progress we made in 
reducing veteran homelessness (around 47 percent decline since 2010 
with slight uptick in the last year) and improve the transition process 
to civilian life to prevent homelessness?
    Response. If confirmed I will do everything I can to reduce Veteran 
homelessness. I will review the actions taken by VBA that contributed 
to the decline and identify plans to continue and enhance those 
actions. From this review, I would expect additional actions may be 
identified. I will review those and determine what can be done, given 
resource constraints.
    VBA presently supports the effort to reduce Veteran homelessness 
through its Education, Transition Assistance, and Vocational 
Rehabilitation and Education programs. Across the Federal Government, 
other agencies also participate in these efforts. I will encourage 
collaboration within the VBA individual states and across the different 
agencies so that VA is aligned and focused on this important issue.

    Question 11. One of the issues I often hear from veterans in Hawaii 
is the lack of access to information and VA outreach to the neighbor 
islands on their earned benefits. If confirmed, what would you order 
local VBA offices in Honolulu and across the country under your 
responsibility to ensure generation-specific outreach from the 
department so that veterans of all generations are informed using the 
methods of communication they feel most comfortable with?
    Response. If confirmed, I will review the communication strategy 
employed to reach Veterans. Some Veterans experience lack of access to 
needed information about their earned benefits. After ensuring that VBA 
has identified and is prepared to implement the most effective 
strategies and approaches to reach these Veterans, I will order that 
these strategies be implemented.

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
   Paul Lawrence, Nominee for VA Under Secretary for Benefits, U.S. 
                     Department of Veterans Affairs
    Question 12. The appeals backlog has been a consistent and growing 
problem at VBA. Last year Congress passed The Veterans Appeals 
Improvement and Modernization Act of 2017 to give the department the 
tools needed to address this issue. However, the Rapid Appeals 
Modernization Program (RAMP) appears to be off to a slow start. Some 
reports indicate that only 1-3% of veterans invited to use the program 
have actually registered. What strategies would you initiate to 
increase participation in this program?
    Response. RAMP participation was initially low. In the briefings I 
received from VBA's Appeals Management Office, they indicated 
participation has increased over time. This appears to be because the 
benefits from participating are now clearer to the Veteran in terms of 
actual reduction in wait time and case resolution. One strategy is to 
communicate these results widely and more clearly, so more Veterans can 
understand the actual benefits from participation.
    In my discussions with the Chairman of the Board of Veterans 
Appeals and the leader of the Appeals Management Office, both talked 
about the value of in-person communication to the VSOs about the 
benefits of participating in RAMP. They described their plans to travel 
around the country to meet in person and describe the benefits. I fully 
support continued visits to do this.
    As the feedback from RAMP continues to increase, I would add 
additional strategies based on lessons learned.

    Question 13. The Vocational Rehabilitation and Employment (VR&E) 
program is a good news story that a lot of us do not hear. From what I 
am told, it is life changing for veterans. However, in last year's 
Independent Budget compiled by the DAV, AMVETS, VFW, and PVA, they 
mentioned that the staff-to-client ratio is increasing and the program 
needs more counselors. A good program can deteriorate quickly if we 
don't make sure it has the people it needs. When developing your 
budget, will you do your best to ensure that this program has the 
people they need?
    Response. Yes. I received similar information from a high-level 
briefing on the VR&E program from the VBA in preparation for my 
confirmation hearing. As the Veteran population that draws on this 
benefit grows, providing appropriate resources is a key challenge. In 
developing the budget, I will seek a balance between additional 
counselors and more efficient administrative support.

    Chairman Isakson. Thank you, Dr. Lawrence.
    Did you get to introduce your family?
    Mr. Lawrence. Oh, sure. This is my wife, Ann, and that's my 
brother, Chris.
    Chairman Isakson. Well, thank them for their service 
because they will be sacrificing a lot with you doing the job 
you are going to be doing for us, which we appreciate.
    Mr. Falvey, you are introduced, up to 5 minutes.

  STATEMENT OF JOHN L. FALVEY, JR., TO BE JUDGE OF THE UNITED 
          STATES COURT OF APPEALS FOR VETERANS CLAIMS

    Mr. Falvey. Good afternoon Chairman Isakson, Ranking Member 
Tester, and distinguished Members of this Committee.
    I am deeply honored to have been nominated by the President 
to serve as a judge on the U.S. Court of Appeals for Veterans 
Claims. I am also honored to appear before this Committee here 
today.
    In a sense, I am here representing not only myself but my 
family, which is full of veterans. Not surprisingly, no one in 
my family has ever addressed a Senate Committee before, so I 
would like to take this unique opportunity to recognize the 
long line of veterans from which I come.
    Almost exactly 100 years ago today, my grandfather served 
as an Army machine gunner with the American Expeditionary Force 
in France during World War I.
    At the end of World War II, my then 17-year-old father 
enlisted in the Army Air Corps and went on to serve in the Air 
Force through the Korean and Vietnam Wars.
    My older brothers each served for 30 years in the Air Force 
and Navy, respectively, and are cold war-era veterans.
    I myself served in the Marine Corps for 30 years, including 
service in Afghanistan. My two oldest sons are Marine Corps 
infantry officers. One completed two combat tours in 
Afghanistan, and the other is preparing right now for his 
second overseas deployment.
    One of my daughters is an Air Force Academy graduate and an 
Air Force officer, and a son-in-law and a daughter-in-law each 
served in the Marine Corps.
    Many other close relatives also served, including my 
nephew, an Air Force veteran of Operation Iraqi Freedom, who 
will be buried later this month at Arlington National Cemetery, 
not far from Dr. Lawrence's father and my father and mother.
    Military service not only runs in my family, it runs deep 
within me. I believe this love of country and its veterans 
would serve me well on the Court of Appeals for Veterans 
Claims.
    Throughout my life and my career in the Marine Corps and as 
an attorney, I have sought to serve my country and do my duty 
as best as I understand it. Both law and war, it seems to me, 
impose duties on us, the living, here in the present. We owe a 
tremendous debt to the Americans who came before us, who fought 
and died, who were wounded and mangled, in places like Belleau 
Wood, Iwo Jima, the Chosin Reservoir, Hue City, Fallujah, and 
Helmand Province.
    Such bloodshed made it possible to enact our higher law, 
the Constitution, and the laws of the United States that 
persist today, including those laws that come before the Court 
of Appeals for Veterans Claims.
    As Burke and Madison explained, our laws are an inheritance 
from our forefathers that impose a debt against the living. It 
is our duty, therefore, to abide faithfully by our laws, and 
judges have a special role in that effort.
    This sense of duty is what drew me to the Marine Corps and 
to the law. It is why I am much honored to be nominated to the 
Court of Appeals for Veterans Claims. This court, perhaps more 
so than any other court in the country, has a special calling 
to faithfully apply our Nation's laws, to do right by the 
Americans who have sacrificed for it.
    I have spent the past 37 years in public service, and if 
fortunate enough to be confirmed, I would be honored to grow 
gray--or in my case grayer--in the service of my country while 
seeking daily to do right by our laws and by our warriors.
    I am committed to devoting the same level of energy and 
effort that I have brought to all my endeavors to ensure timely 
and fair resolution of the cases that come before me. I promise 
you that I would strive every day that I am a judge to deliver 
justice under the law to everyone who comes before me.
    Finally, I would like to thank the President for nominating 
me. I would like to thank Office of White House Counsel, 
Associate Counsel Robert Luther for his assistance, and I would 
like to thank my family for their love and support.
    Although most of my very large family is unable to be here 
today, I would like to recognize my son, Joe, and his wife, 
Katherine, who appears to have stepped out with one of my 
grandchildren, but he is also here with my grandchildren, Peter 
and Joe. And there is Katherine in the back with my 
granddaughter, Rose.
    Thank you for the opportunity to appear before the 
Committee and for considering my nomination to this important 
court.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Mr. Falvey follows:]
   Prepared Statement of Joseph L. Falvey, Jr., Nominee to be Judge, 
           United States Court of Appeals for Veterans Claims
    Good afternoon Chairman Isakson, Ranking Member Tester, and 
distinguished Members of this Committee. I am deeply honored to have 
been nominated by the President to serve as a judge on the United 
States Court of Appeals for Veterans Claims.
    I am also honored to appear before the Committee today. In a sense, 
I am here representing not only myself but also my family, which is 
full of veterans. Not surprisingly, no one in my family has ever 
addressed a Senate Committee before, so I would like to take this 
unique opportunity to recognize the long line of veterans from which I 
come.
    One hundred years ago, my grandfather served as an Army machine 
gunner with the American Expeditionary Force in France during World War 
I. At the end of World War II, my then 17-year old father enlisted in 
the Army-Air Corps and went on to serve in the Air Force through the 
Korean and Vietnam wars. My older brothers each served for 30 years and 
are Cold War era veterans. I myself served in the Marine Corps for 30 
years, including service in Afghanistan. Two of my sons are Marine 
Corps infantry officers (one completed two combat tours in Afghanistan 
and the other is preparing for his second overseas deployment), one of 
my daughters is an Air Force officer, and a son-in-law and a daughter-
in-law served in the Marine Corps. Many other close relatives also 
served, including my nephew, an Air Force veteran of Operation Iraqi 
Freedom, who will be buried at Arlington National Cemetery later this 
month.
    Military service not only runs in my family, it runs deep within 
me. I believe this love of country and its veterans would serve me well 
on the Court of Appeals for Veterans Claims.
    Throughout my life and my career in the Marine Corps and as an 
attorney, I have sought to serve my country and do my duty as best as I 
understand it.
    Both law and war, it seems to me, impose duties on us in the 
present. We owe a tremendous debt to the Americans who came before us, 
who fought and died, who were wounded and mangled, in places like 
Belleau Wood, Iwo Jima, the Chosin Reservoir, Hue City, and Fallujah.
    Such bloodshed made it possible to enact our higher law--the 
Constitution--and the laws of the United States that persist today, 
including the laws that come before the Court of Appeals for Veterans 
Claims. As Burke and Madison explained, our laws are an ``inheritance . 
. . from our forefathers'' that impose a ``debt against the living.'' 
It's our duty, therefore, to abide faithfully by our laws, and judges 
have a special role in that effort.
    This sense of duty is what drew me to the Marine Corps and to the 
law, and it's why I am much honored to be nominated to the Court of 
Appeals for Veterans Claims. This Court, perhaps more so than any other 
court in the country, has a special calling to faithfully apply our 
Nation's laws to do right by the Americans who have sacrificed for it.
    I have spent the past 37 years in public service and, if fortunate 
enough to be confirmed, I would be honored to grow gray in continued 
service of my country while seeking daily to do right by our laws and 
by our warriors.
    I am committed to devoting the same level of energy and effort that 
I have brought to all my endeavors to ensure timely and fair resolution 
of the cases that come before me. I promise you that I would strive 
every day that I am a judge to deliver justice under the law to 
everyone who comes before me.

    Thank you for the opportunity to appear before you today and for 
considering my nomination to this important court. I would be pleased 
to answer any questions you might have.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Committee non-confidential supplemental questionnaire 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [A letter from the Judicial Conference of the United States 
Committee on Financial Disclosure follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  Joseph L. Falvey, Jr., to be a Judge of the United States Court of 
                      Appeals for Veterans Claims
    Question 1. How has your background equipped you to serve in this 
role as a judge on the United States Court of Appeals for Veterans 
Claims?
    Response. I believe that my background and experience as a Marine 
Corps officer and judge advocate and as a civilian attorney, including 
my litigation and judicial experience, equip me well to serve as a 
judge on the U.S. Court of Appeals for Veterans Claims.
    Currently, I serve as the District Counsel for the U.S. Army Corps 
of Engineers Detroit District. As District Counsel, I am responsible 
for providing legal advice on a myriad of legal issues and have had to 
master a broad array of Federal civil law topics. During my tenure as 
District Counsel, I have been involved in numerous significant Federal 
cases as the agency counsel. I previously served as an Assistant U.S. 
Attorney in the E.D. of Michigan. As an Assistant U.S. Attorney, I was 
responsible for prosecuting violations of Federal criminal law related 
to international and domestic terrorism.
    As a Marine Corps judge advocate, I held successive positions of 
increasing complexity and responsibility. My assignments included 
serving as a prosecutor or defense counsel in over 250 criminal trials, 
serving on the staff of a special operations unit involved with crisis 
response planning and implementation, and providing legal advice to 
senior civilian and military leadership on various legal matters. I 
have also served as a Trial Judge in over 30 criminal trials. 
Certification as a military judge follows an intensive course covering 
evidence and criminal law and procedure. I was the distinguished 
graduate of this course, finishing first in my class with a cumulative 
grade of 100%. I also served as an Appellate Judge on the U.S. Navy-
Marine Corps Court of Criminal Appeals and authored several panel and 
per curiam decisions.
    Also, I have served as a law professor at the University of Detroit 
Mercy School of Law and Ave Maria School of Law and I have taught 
Evidence, Trial Advocacy, Criminal Law and Procedure, National Security 
Law, and Contracts.
    I hold a Bachelor of Arts from the University of Notre Dame, a 
Juris Doctor with honors from Notre Dame Law School, and a Master of 
Laws with honors from the Judge Advocate General's School. This latter 
program involved extensive study of Federal law, including criminal law 
and procedure, evidence, administrative law, litigation practice, labor 
law, public international law, and government contract and fiscal law.
    Although I do not have specific experience litigating veterans' 
claims, I have demonstrated throughout my career the ability to master 
a broad array of legal topics and to weigh legal arguments carefully 
and fairly. I believe these abilities, coupled with my extensive 
military, litigation, and judicial experience, equip me well to serve 
on the U.S. Court of Appeals for Veterans Claims.

    Question 2. Can you describe what you believe are the appropriate 
temperament and traits of a judge?
    Response. I believe that judges must not only possess the necessary 
education and experience, but they also must be persons of integrity, 
maturity, and judicial temperament. In this regard, they must exercise 
their judgment impartially, always recognizing the human dignity of all 
the participants, and avoiding even the appearance of impropriety. This 
requires that judges treat the individuals and counsel appearing before 
them with civility and respect.
    Also, I think that certain character traits are important to the 
fair resolution of disputes and the administration of justice. These 
traits include integrity, strong oral and written communication skills, 
attention to detail, and a strong work-ethic.
    I believe that I have the character and judicial temperament 
necessary to serve on the U.S. Court of Appeals for Veterans Claims.

    Question 3. What examples from your personal experiences can you 
provide to demonstrate that you have both the temperament and traits of 
a judge?
    Response. As noted above, I served as both a trial judge and 
appellate judge in the military justice system. I was selected to serve 
as a judge by the Judge Advocate General of the Navy based on my 
education, experience, maturity, judicial temperament, and professional 
reputation. My effective service as a military trial and appellate 
judge demonstrate that I have both the temperament and traits of a 
judge.
    Also, my military and civilian litigation experience has equipped 
me with the temperament and traits needed to serve as a judge. 
Throughout my career, I have developed the ability to weigh legal 
arguments carefully and fairly, to speak and write with analytical 
precision, and to safeguard the fairness of our judicial system. I 
believe these traits would serve me well as a judge.
    In addition, my wife and I are parents of nine children. We have 
been licensed foster parents in three states (California, Virginia, and 
Michigan), and our five youngest children were adopted out of foster 
care. As foster parents, we opened our home to more than a dozen 
infants in need of care due to abuse, neglect, or abandonment, 
including several special needs children. Each of these children was 
provided a loving, nurturing, safe environment in which they thrived 
until they could either be returned to their homes or be permanently 
placed. Although our experience as foster parents is unrelated to the 
law, I believe that being a parent helped develop traits that would 
make me an effective judge, such as patience, diligence, and a 
commitment to service.
    Finally, I also have a great love for the men and women who serve 
and who have served our Nation. One hundred years ago, my grandfather 
served as an Army machine gunner with the American Expeditionary Force 
in France during World War I. My father enlisted in the Army-Air Corps 
at the end of World War II and served in the Air Force through the 
Korean and Vietnam wars. My older brothers each served for 30 years and 
are veterans of the Cold War era. I myself served in the U.S. Marine 
Corps for 30 years, including service in Afghanistan. Two of my sons 
are Marine Corps infantry officers (one completed two combat tours in 
Afghanistan and the other is preparing for his second overseas 
deployment), one of my daughters is an Air Force officer, and a son-in-
law and a daughter-in-law also served in the Marine Corps. Many other 
close relatives also served. Military service not only runs in my 
family, it runs deep within me. I believe this love of country and its 
veterans will serve me well on the U.S. Court of Appeals for Veterans 
Claims.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Joseph 
L. Falvey, Jr., to be a Judge of the United States Court of Appeals for 
                            Veterans Claims
    Question 4. Looking back at both your Federal and non-government 
employment, what experiences have prepared you to be a judge on the 
Court of Appeals for Veterans Claims?
    Response. I believe that my background and experience as a Marine 
Corps officer and judge advocate and as a civilian attorney, including 
my litigation and judicial experience, equip me well to serve as a 
judge on the U.S. Court of Appeals for Veterans Claims.
    Currently, I serve as the District Counsel for the U.S. Army Corps 
of Engineers Detroit District. As District Counsel, I am responsible 
for providing legal advice on a myriad of legal issues and have had to 
master a broad array of Federal civil law topics. During my tenure as 
District Counsel, I have been involved in numerous significant Federal 
cases as the agency counsel. I previously served as an Assistant U.S. 
Attorney in the E.D. of Michigan. As an Assistant U.S. Attorney, I was 
responsible for prosecuting violations of Federal criminal law related 
to international and domestic terrorism.
    As a Marine Corps judge advocate, I held successive positions of 
increasing complexity and responsibility. My assignments included 
serving as a prosecutor or defense counsel in over 250 criminal trials, 
serving on the staff of a special operations unit involved with crisis 
response planning and implementation, and providing legal advice to 
senior civilian and military leadership on various legal matters. I 
have also served as a Trial Judge in over 30 criminal trials. 
Certification as a military judge follows an intensive course covering 
evidence and criminal law and procedure. I was the distinguished 
graduate of this course, finishing first in my class with a cumulative 
grade of 100%. I also served as an Appellate Judge on the U.S. Navy-
Marine Corps Court of Criminal Appeals and authored several panel and 
per curiam decisions.
    Also, I have served as a law professor at the University of Detroit 
Mercy School of Law and Ave Maria School of Law and I have taught 
Evidence, Trial Advocacy, Criminal Law and Procedure, National Security 
Law, and Contracts.
    I hold a Bachelor of Arts from the University of Notre Dame, a 
Juris Doctor with honors from Notre Dame Law School, and a Master of 
Laws with honors from the Judge Advocate General's School. This latter 
program involved extensive study of Federal law, including criminal law 
and procedure, evidence, administrative law, litigation practice, labor 
law, public international law, and government contract and fiscal law.
    Although I do not have specific experience litigating veterans' 
claims, I have demonstrated throughout my career the ability to master 
a broad array of legal topics and to weigh legal arguments carefully 
and fairly. I believe these abilities, coupled with my extensive 
military, litigation, and judicial experience, equip me well to serve 
on the U.S. Court of Appeals for Veterans Claims.

    Question 5. How would you evaluate statute? How would you evaluate 
Congressional intent?
    Response. In my view, the role of the judiciary is to faithfully 
interpret and apply the law, exercising judgment, rather than will. As 
such, when interpreting statutes, regulations, and rules of evidence 
and procedure, the judge must seek their objective, ordinary meaning, 
looking first to the language of the statute, regulation, or rule. In 
addition, the judge should consider the text, history, and structure of 
the statute, regulation, or rule. In this effort, sound interpretive 
canons are also helpful. Regarding the evaluation of Congressional 
intent, statutory text and its objective manifestation of Congressional 
intent, not the subjective intents of various drafters, are paramount 
because only the text has been democratically approved via bicameralism 
and presentment. Finally, whether interpreting the Constitution, 
statutes, or other texts, a judge of an inferior court must account for 
the precedents of higher courts.

    Question 6. Would you reverse a VA position that is consistent with 
long-standing VA practice but you believe is an incorrect 
interpretation of statute?
    Response. A judge on the U.S. Court of Appeals for Veterans Claims, 
like other Federal judges, should adhere to the principle of stare 
decisis. Such adherence promotes stability in the law and ensures that 
similar cases are treated the same. However, if a court (not simply an 
individual judge) decides that the court was mistaken in a previous 
decision, it might consider overruling its previous decision. Moreover, 
the court would be obligated to reconsider precedents that have been 
called into question by Supreme Court or Federal Circuit decisions. It 
would be inappropriate for me to comment further on this as I may be 
faced with this issue if I am fortunate enough to be confirmed as a 
judge on the U.S. Court of Appeals for Veterans Claims. See Canon 
3(A)(6) of the Code of Conduct for Federal Judges.

    Question 7. Would the potential cost of overturning an established 
rule factor into your decision on how to adjudicate a case?
    Response. If I am confirmed as a judge on the U.S. Court of Appeals 
for Veterans Claims, my role as judge would be to apply the law to the 
facts presented consistent with precedent and the principle of stare 
decisis. It would be inappropriate for me to comment further on this as 
I may be faced with this issue if I am fortunate enough to be confirmed 
as a judge on the U.S. Court of Appeals for Veterans Claims. See Canon 
3(A)(6) of the Code of Conduct for Federal Judges.

    Question 8. What do you believe is a reasonable timeframe for the 
court to make a decision?
    Response. Each case is unique and requires that amount of time 
necessary for full and fair consideration of the issues presented. That 
said, I am committed to devoting the same level of energy and effort 
that I have brought to all my endeavors to ensure timely resolution of 
the cases that come before me if I am confirmed. Moreover, recognizing 
the tremendous backlog of cases and the lengthy appellate process faced 
by many veterans, if I am confirmed, I am committed to working with the 
court to develop processes and procedures for shortening the timeframe 
for the court to make decisions.

    Question 9. Pro bono attorneys and non-attorney advocates play a 
significant role in providing representation to appellants who may 
otherwise have to represent themselves before the court. What are your 
views of attorney or advocate representation versus pro se 
representation?
    Response. I am aware of the significant role pro bono attorneys and 
non-attorney have played before the U.S. Court of Appeals for Veterans 
Claims. Although I would make no distinction between those cases where 
an attorney is representing the veteran and those where a non-attorney 
advocate is representing the veteran or the veteran is proceeding pro 
se, I believe some latitude must be given in the latter instance in 
recognition of the lack of legal education and training. This is 
consistent with the veteran-friendly nature of the veterans' benefits 
system and the courts' sympathetic reading canon. This canon has been 
extended to include represented veterans. It would be inappropriate for 
me to comment further on this as I may be faced with related issues if 
I am fortunate enough to be confirmed as a judge on the U.S. Court of 
Appeals for Veterans Claims. See Canon 3(A)(6) of the Code of Conduct 
for Federal Judges.

    Question 10. In response to the Committee's questionnaire, you note 
your membership in the National Rifle Association. How has membership 
in the NRA informed your views of Second Amendment rights? If a case 
were before the court regarding a VA beneficiary's assignment of a 
fiduciary, which initiates that beneficiary's name being forwarded to 
the National Instant Criminal Background System, would your membership 
in the NRA affect your decision on whether VA made the correct 
determination in assigning a fiduciary?
    Response. My membership in the NRA has not informed my views of the 
Second Amendment. Rather, my understanding of the Second Amendment, 
like my understanding of all legal provisions, would be based on the 
text, history, and structure of the provision, as well as judicial 
precedent. My NRA membership would in no way affect any decision I may 
be faced with as a judge on the U.S. Court of Appeals for Veterans 
Claims. It would be inappropriate for me to comment further on this as 
I may be faced with this issue if I am fortunate enough to be confirmed 
as a judge on the U.S. Court of Appeals for Veterans Claims. See Canon 
3(A)(6) of the Code of Conduct for Federal Judges.

    Question 11. How has your membership in The Federalist Society 
informed your view of the role of government? The role of the courts?
    Response. Although I am unable to measure how my membership in The 
Federalist Society has informed my view of the role of government and 
the courts generally, I share its commitment to ``the principles that 
the state exists to preserve freedom, that the separation of 
governmental powers is central to our Constitution, and that it is 
emphatically the province and duty of the judiciary to say what the law 
is, not what it should be.''
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Jon Tester for 
   Joseph Falvey, Nominee to be Judge, Court of Appeals for Veterans 
                                 Claims
    Question 1. Please provide any suggestions you have that will help 
veterans receive a more timely decision on their cases.
    Response. I recognize the tremendous backlog of cases at all stages 
of the veterans' claims process and the lengthy appellate process faced 
by many veterans. The Veterans Appeals Improvement and Modernization 
Act of 2017 should accelerate the process and ensure veterans receive 
the earliest possible resolution of their claims. This legislation 
holds some promise for easing the backlog of cases under review by the 
Board of Veterans Appeals (BVA) and, consequently, the Court of Appeals 
for Veterans Claims. Moreover, the recently recognized ability of the 
Court of Appeals for Veterans Claims to hear aggregate cases or ``class 
actions'' provides a mechanism for resolving common claims and provides 
some hope for more timely resolution of these claims. The use of non-
precedential single-judge decisions of the Court provides a mechanism 
for the quick resolution of cases that present no novel legal issues. 
Although panel and en banc decisions of the Court take additional time, 
the precedential nature of these decisions provide valuable guidance to 
the BVA and, over time, will ensure more accurate and timely decisions 
by the BVA. Finally, I am personally committed to ensuring timely 
resolution of the cases that come before me and to working with the 
Court to develop processes and procedures for shortening the timeframe 
for the court to make decisions.

    Question 2. Your responses to the Committee questionnaire and 
supplemental questionnaire for judicial nominees indicate membership or 
past activity in traditionally conservative groups or having more 
conservative beliefs. While I respect that people hold different 
beliefs, it would be helpful to better understand how you would 
separate your own beliefs from the law that you would apply to the 
facts of any given case.
    a. Please describe how you will evaluate statute.
    Response. When evaluating or interpreting statutes, a judge must 
seek their objective, ordinary meaning, looking first to the language 
of the statute. In addition, the judge should consider the text, 
history, and structure of the statute. Also, sound interpretive canons 
are helpful. Finally, whenever interpreting statutes, a judge of an 
inferior court must account for the precedents of higher courts and 
adhere to the principle of stare decisis.

    b. Do you believe you believe that you can fairly administer the 
law when the facts of the case might be contrary to your personal 
beliefs?
    Response. Yes. I firmly believe that I can fairly administer the 
law and my personal beliefs would in no way affect any decision I may 
be faced with as a judge on the U.S. Court of Appeals for Veterans 
Claims.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono for 
   Joseph Falvey, Nominee to be Judge, Court of Appeals for Veterans 
                                 Claims
    Question 3. To ensure the fitness of nominees for any of our 
appointed positions, I ask every nominee who comes before me to answer 
the following two questions:
    a. Since you became a legal adult, have you ever made unwanted 
requests for sexual favors, or committed any verbal or physical 
harassment or assault of a sexual nature?
    Response. No. I have never made unwanted requests for sexual 
favors, or committed any verbal or physical harassment or assault of a 
sexual nature.

    b. Have you ever faced discipline, or entered into a settlement 
related to this kind of conduct?
    Response. No. I have never faced discipline, or entered into a 
settlement related to this kind of conduct.

    Question 4. The American Recovery and Reinvestment Act of 2009 
established the Filipino Veterans Equity Compensation Fund that 
provides a one-time benefit payment to eligible Filipino World War II 
veterans.
    Response. Over 40,000 claims for this one-time benefit were 
received and processed. While more than 18,000 claims have been 
approved, nearly 24,000 were denied.
    As of September 2017, VA estimates 11 appeals were pending with VBA 
and the Board of Veterans' Appeals. These cases can ultimately be 
appealed the Court of Appeals for Veterans Claims as well.
    As the Filipino veterans are now in their 90s, the urgency of 
resolving their applications cannot be emphasized enough. Can you 
commit that you will make their claims a priority and work with 
advocates like the Filipino Veterans Recognition and Education Project 
so that they receive the benefits they earned?
    Response. Within the bounds of the law, I can commit to ensuring 
timely resolution of the cases that come before me and to working with 
the Court, the Department of Veterans Affairs, Congress, and Veterans 
Service Organizations to develop processes and procedures for 
shortening the timeframe for the Court to make decisions. Timely 
resolution is particularly important with respect to our World War II 
veterans, including those Filipino veterans who may be entitled to 
compensation from the Filipino Veterans Equity Compensation Fund.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III for 
   Joseph Falvey, Nominee to be Judge, Court of Appeals for Veterans 
                                 Claims
    Question 5. During your hearing, you mentioned that you had studied 
in preparation for your role as a judge on the Court of Appeals for 
Veterans Claims. This included spending time studying VA case law and 
reading the writings of certain scholars. Will you elaborate further 
about the type of preparation you did ahead of the hearing?
    Response. In preparation for the hearing, I read recent decisions 
of the Court of Appeals for Veterans Claims, focusing on its 
precedential decisions, and applicable decisions of the United States 
Court of Appeals for the Federal Circuit and the United States Supreme 
Court. I also read numerous law review articles related to veterans 
law, focusing on the prolific scholarship of James D. Ridgway and 
Michael P. Allen. I also reviewed the annual reports of the Board of 
Veterans Appeals and the Court of Appeals for Veterans Claims.

    Chairman Isakson. Well, thank you for your service to the 
country, and your family is just absolutely beautiful.
    I am going to yield my time to begin with to Senator Moran. 
I am going to try and get everybody who gets here a chance to 
testify before they have to go to other Committee meetings, so 
I will be last, and I can move people around. Then, I will go 
to Senator Tester, and then we will go on from there.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you for your courtesies.
    Mr. Falvey and Dr. Lawrence, thank you very much for your 
distinguished service, your family's distinguished service to 
our Nation, and thank you for your interest and willingness to 
answer the President's call to serve in the Department of 
Veterans Affairs.
    I think I will ask my questions to Dr. Lawrence, which I 
have two.
    Dr. Lawrence, most of my efforts--I have been a member of 
the Veterans Committee since I came to Congress, for 22 years. 
I have served either in the House or Senate on this authorizing 
Committee. I serve on the Appropriations Subcommittee that 
funds the Department of Veterans Affairs, but most of my work 
in dealing with the issues that are associated with my tasks 
here in Washington, DC, are based upon what we call case work.
    What my staff in Kansas, what they encounter, I would tell 
you that we spend more time on veterans' case work than any 
other topic. So, what I know about the VA and its service to 
veterans across the country, certainly in Kansas, is based upon 
the concerns they bring to me and to my staff asking for help.
    A lot of our efforts have been associated with health care, 
but I certainly would not want to indicate that--in fact, it 
would be false to indicate that the benefits side of the VA 
generates those needs by veterans across Kansas who are asking 
for our help.
    So, I want to be your ally in helping to see that those who 
come to me asking for help get their problems solved, and 
perhaps even more importantly than that, that we reduce the 
number of veterans who find it necessary to come to a member of 
the U.S. Senate to get what they believe and generally what 
turns out to be they are entitled to.
    I am impressed by your experience, your technical skills, 
your management experience. You have a resume that seems very 
appealing to me for the position for which you have been 
nominated.
    Let me ask you this. What do you think you can do? What can 
you accomplish? What do you bring from the private sector that 
can enhance the ability for the Department of Veterans Affairs 
Benefits Administration to meet the needs, to reduce the amount 
of case work, and to solve the problems before veterans find it 
required upon them to come to one of us here on the Committee 
and say, ``I need your help''?
    Mr. Lawrence. Certainly. First, thank you for your offer to 
work closely on this because I know that in my conversations 
with every Member prior to today, each has expressed a similar 
observation: that folks turn to them in their district, their 
State, and ask for help; and yes, we want to work closely to 
reduce that.
    But, the second part, my second comment, that which ties to 
your broader question, what do I bring, it is an insight as to 
how that happens and why. The immediate problem is to 
understand the situation and resolve it, but the question you 
pose is how did this actually come to be. From a customer 
service perspective, we have to learn what it is that is taking 
place in the VBA that resulted in this. Do we not give 
transparency? Do we not let them know on their own where their 
issue is in the process? Have we done something that results in 
more questions and complaints, and if so, how come our 
educational materials are not sufficient enough to do that?
    So, I think not only working closely to resolve the issues 
you are confronted with, but also understanding how that came 
to be, figuring out the root cause and addressing it.
    Combined with my insights to problems like that, I also 
know about what other organizations do. They confront this 
problem and do not have the kind of things where they are 
calling people and the like. So, we should figure out what they 
are doing and copy some of those best practices as well.
    Senator Moran. What do you think the impediments to 
accomplishing that are specifically at the Department of 
Veterans Affairs? What will be your challenges related to that 
mission?
    Mr. Lawrence. It is very hard for me to pick on specifics, 
given the level of knowledge that I have, but I think there is 
generally several ways to approach it, systematically thinking 
about it, that the multiple cases that are taking place have to 
be reviewed in the context of what the patterns and trends are, 
figuring out through the root cause, then figuring out what 
needs to be done, and actually doing it. I think it is 
interesting to talk about the problems, but you have to figure 
out what to do. Often it is training with a large number of 
employees, as you have pointed out. You have to figure out how 
to get that out quickly and fast to such a quick number, and 
then reinforce the training, the constant measurement about how 
effective you are.
    Senator Moran. Let me mention in the 34 seconds I have left 
the issue of transition. Suppose somebody departs from the 
active military at Fort Benning, in the Chairman's State, but 
his hometown is Garden City, KS, and he is returning home with 
his family. We have 20 suicides a day, and my question involves 
how do we get the services that veterans need. What do we do to 
make certain when he transitions out of the military and into 
the care of the VA that that transition works well?
    Any impediments, Dr. Lawrence, that the Department of 
Veterans Affairs creates on the benefit side or the health care 
side enhances the chances of that serviceman or -woman--that 
now veteran--having greater stress in their life, more 
challenges, which increase the chances that suicides continue, 
that the challenges that our veterans face are increased, not 
diminished.
    And my point about--I picked Garden City, KS. It is 4 hours 
from any VA facility. It is a town of 35,000 people. It is not 
a small place, but there is no VA presence, at least in 
structure, in Garden City, KS. How do you provide service to 
someone who is that remote from a facility?
    Mr. Lawrence. Certainly, a couple of points. One is that 
the coordination, collaboration with the Department of Defense 
is something I have to focus on because you are right. It 
starts there, and we need to make sure they are not just always 
starting anew when they eventually leave.
    The second is--and you are not the first person to express 
this--the far distance from facilities where veterans are--and 
they just cannot simply walk into a clinic and the like. And I 
know that what I will call ``the hard-to-reach'' populations, 
because further, they might not even be on electronic medias, 
we have to figure out how to communicate with them and let them 
know.
    I am very interested in exploring, because this seems to be 
coming up a lot in conversations, the systematic approaches we 
have in terms of allocating resources, making things available 
in a more friendly way for these type of situations.
    Senator Moran. Thank you both for your presence today, and 
thank you for your responses to my questions, Dr. Lawrence.
    Chairman Isakson. Well, Dr. Lawrence, just a little bit of 
friendly advice; we have got a Montanan, a Kansan, an Alaskan, 
and a Hawaiian on this Committee. You have got some people that 
come from places where there is not necessarily a lot of 
facilities close by. So, the question you just heard is a 
frequent question from a segment of our veteran population that 
need that help. So, it was a great question and a good thing 
for you to have grown up on, although your answer was fine.
    Senator Tester. Thank you, Mr. Chairman.
    Mr. Chairman, I have got a letter that AFGE sent to both 
you and I. That I would ask unanimous consent that this letter 
be put in the record.
    It is about--Dr. Lawrence, who does not take a position on 
it, but talks about concerns with VBA, and Dr. Lawrence is----
    Chairman Isakson. Without objection.
    Senator Tester. Thank you, Mr. Chairman.

    [The letter can be found in the Appendix.]

    Senator Tester. I appreciate you both being here.
    Dr. Lawrence, if you keep your answers concise, I can get 
to Mr. Falvey, but since your vocal chords are warmed up, I 
will start with you.
    Last year, there were reports that the administration 
ordered agencies to not provide responses to information 
requests to Democratic Members of Congress.
    In the prehearing question I sent, I asked what you would 
do if somebody from the White House told you not to answer the 
questions. You stated that you would seek to understand the 
purpose behind it, to evaluate, and decide the course of action 
based on what you learned. It should not be a surprise, but 
that is not the answer I wanted to hear.
    I just want to be clear because we are an oversight 
committee. I think it is critically important that when we ask 
questions of agencies in the administration that it is not ``I 
will think about it'' or ``I will try to figure out what the 
right thing to do is,'' and I could say it applies to Mazie or 
Joe or Patty, but it applies just as much to Tom and Jerry and 
Mike on the other side, too. We really do need to have an 
unequivocal answer, especially from the VA, which has not had 
politics inserted into this agency ever. I am concerned that it 
might be now.
    So, I will ask the question one more time, and that is, if 
I or anybody else on this Committee sent you a request for 
information, would you agree to answer?
    Mr. Lawrence. The answer is yes, with the caveat that you 
will let me read the question and understand if there is 
anything sensitive in there, such as PII or security concern, 
and talk to you about it so that the answer can be yes without 
a hesitation.
    Senator Tester. No problem. If it deals with security 
issues, that is a different story. OK. But, ultimately, we 
would have a conversation to make sure that was true, too. 
Good.
    Mr. Lawrence. Absolutely. That was the intention of my 
written answer.
    Senator Tester. Thank you. Thank you very much.
    One more question for you, and then I will move on to Mr. 
Falvey.
    Currently, the VA is requiring Under Secretary level 
signoff to fill a fast majority of vacant positions. We have 
got 35,500-some positions open as of last November, and we are 
requiring an Under Secretary to sign off to fill these vast 
positions.
    I can tell you that in my 61 years on this earth, I had 
been around a lot of good leaders and a lot of good 
administrative folks, and ``delegation'' is usually the most 
important word in their vocabulary.
    This does not appear to be a good use of delegation of 
powers, holding people below you responsible. Do you think that 
it is necessary to get an Under Secretary, somebody right below 
the Secretary, to sign off on basic hiring for benefits 
managers in a place like Montana, say?
    Mr. Lawrence. I appreciate your perspective on delegation, 
and I share it.
    I am unfamiliar with the procedures of the VA, particularly 
in this instance. My conversations with the Assistant Secretary 
for Human Resources leading up to this moment were very high 
level and broad. It is something I have to look into and better 
appreciate, but I also can imagine, if confirmed, sitting there 
trying to do the task you just described----
    Senator Tester. Yep. We have got a lot of vacancies in the 
VA, and I will tell you that red tape is not something we 
should be working on. Give the task to somebody in middle 
management or even on the ground in Montana. If they do not do 
it right, we have given you the tools to get rid of them.
    Mr. Lawrence. I agree.
    Senator Tester. OK. Thank you.
    Mr. Falvey, thank you for being here. You have a lot of 
experience on matters that will come before the court. You have 
an impressive resume. You did not--let me take that back. You 
have an impressive resume, but you do not have a lot of 
experience in matters that come to the court, at least from my 
perspective. Correct me if I am wrong.
    Do you anticipate needing to get up to speed on veterans 
law, or have you experience that I am not aware of?
    Mr. Falvey. Senator Tester, I think that my vast experience 
as a litigator and as a judge will serve me well before the 
court.
    I have demonstrated throughout my career, the ability to be 
introduced to new areas of the law and quickly master them. 
That ability coupled with the ability to analyze legal 
situations, analyze the facts, apply the law to the facts, and 
clearly and concisely communicate will also serve me well.
    I agree that I have little background in veterans law; 
however, I have spent the last 6 months exposing myself to it 
by reading the precedential decisions of the court. Over the 
last 15 years or so, there has been a growing amount of 
academic writings about the cases before the court, and I have 
read a lot of those, especially those written by Michael Allen, 
who recently joined the court, and James Ridgeway, who is 
prolific about issues of veterans law. So I have exposed myself 
to those, and if I am fortunate enough to be confirmed, then I 
understand that the learning curve has just begun. It is a very 
complex, vast area of law, and I am committed to climbing that 
steep incline.
    Senator Tester. Thank you, Mr. Falvey.
    Unfortunately, I am out of time. We have some more 
questions, but I have got three more hearings I have got to get 
to. Besides that, Senator Tillis is salivating to ask you guys 
questions. [Laughter.]
    Chairman Isakson. I do have to say, though, before you 
leave, is Mr. Toth here, please? Judge Toth?
    Judge Toth. Yes, sir.
    Chairman Isakson. Would you stand, please, so I can see 
you.
    All right. I have to tell you all, talking about education 
and preparedness, Mr. Toth graduated from Ave Maria School of 
Law, and Mr. Falvey taught at it. So, we are going to have a 
lot of divine intervention on the court----
    [Laughter.]
    Chairman Isakson [continuing]. Because they learned the law 
from a very high place. We are proud of both of them.
    Next is, I guess, Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you both for being here, and 
congratulations on your nominations.
    I cannot help but for shamelessly recognize one of my VA 
medical centers down in North Carolina. During the work period, 
I was at the Asheville VA. Actually, over the work period, I 
spoke with all the incoming directors of the medical centers. I 
am very impressed with the transition and particularly 
impressed with the continued high ratings that Asheville is 
getting. We have had the five-star rating. I believe that is 
the highest rating you can get in the VA. That puts us in the 
top 10 percent, so I appreciate it.
    The fact of the matter is I believe a lot of what gets you 
to the fifth star is all the hard work that is done by the men 
and women in the facility, so I just want to thank them.
    Now, Mr. Lawrence, have you had an opportunity in your 
preparation to look at the Protecting Veterans from Predatory 
Lending Act? It is a bill that I cosponsored with Senator 
Warren.
    Mr. Lawrence. At a very high level.
    Senator Tillis. I am not going to cause you to drill down, 
but can you at least generally agree that there are some 
predatory lending practices, some churn, and probably only a 
small segment of the financial community that we need to figure 
out a way to hold them more accountable and protect our 
veterans?
    Mr. Lawrence. Generally, that is true, and I would agree.
    Senator Tillis. When you get confirmed--and I will be 
supporting your confirmation--I would really like for you to 
dig into that pretty quickly. It is a bill that is now in the 
House, and we want to get it there. There may be some things 
that we can continue to work out, but I think the baseline bill 
is very important.
    We have had reports just recently of some bad actors, and I 
think this is going to head off some of the future problems 
that some of our veterans are dealing with. So, I want to ask 
you to dig into the details.
    This is another area that you are probably somewhat 
familiar with. Since I have been here the last 3 years, I have 
spent time along with Senator Burr on Camp Lejeune toxic 
substances. I am still a bit frustrated. I have worked well 
with the prior two Secretaries to try to move things along. I 
give the presumption to the people that may have been exposed 
to toxic substances. But, it seems like we are talking half 
steps to really get to a point to where the presumption favors 
the veteran.
    But, we have language in the omnibus that we want answers 
to, and I assume that you will be a part of providing the 
answers. I would not expect a direct answer today, but I do 
expect one pretty soon.
    One is why did we create a separate process that falls 
outside the traditional compensation and pension examination 
process? I do not understand that. I think at best, it is just 
a duplication of an existing process; at worst, it is possibly 
a process that will make it more difficult to help the 
veterans.
    I do not know if you can respond to that now, but that is 
something that I will be watching pretty quickly. I have got a 
lot of focus on this issue, let us say.
    We can talk later about the evidentiary standard, but 
again, I feel like there is a dual standard. And, I want to 
know based on the science why that would be. I am not a 
scientist. I do not pretend to be one, but I am pretty good at 
logic. I do not understand the logic behind it. So, once you 
are confirmed, you can expect us coming pretty fast after you 
to get answers to the questions that were posted in the 
omnibus.
    I do not know if you want to respond to that. You are in a 
difficult position because you are not confirmed yet.
    Mr. Lawrence. Sure, sure. I have actually had a preliminary 
conversation about this and done some research. I appreciate 
your perspective and understand. And, I understand that the 
review by SMEs is not unique, but I understand your point about 
is it appropriate and might it be special.
    Were it not for the omnibus language, I would have 
suggested we work together to better understand it, but the 
language in there is clear. So, I look forward to the 
reviewing, participating, and coming back to you to figure out 
the right course of action.
    Senator Tillis. The only reason the omnibus language is in 
there is--I have been a Senator for 3 years. I have been 
working on it for 3 years, and I want to get it done. We need 
to get you in the job, and I want very specific answers to the 
question. Most importantly, I want expedited resolution for the 
veterans who I think rightly deserve care.
    Thank you. I look forward to supporting your nomination.
    Mr. Lawrence. Thank you.
    Senator Tillis. I do not promise all of our meetings will 
be amicable, but I will always be respectful.
    Mr. Lawrence. Thank you.
    Senator Tillis. Hopefully, it is going to work out fine, 
but this is something that is very important to me.
    In my remaining time, Mr. Falvey--is it the correct 
pronunciation?
    Mr. Falvey. Yes, sir.
    Senator Tillis. I am very impressed with not only your 
legal experience--we have got to figure out how to clear the 
docket more quickly. We need more resources to do that. That is 
why I will be supporting your nomination.
    But, I am particularly impressed with your own military 
service and what looks like almost a Forrest Gump, you know, 
Lieutenant Dan sort of history of family service. So, tell me 
how the combination of what is clearly a generation's old 
military family and your legal experience--what kind of unique 
perspective does that actually bring to the appeals process?
    Mr. Falvey. Well, I think that, number 1, coming from a 
military family, being a military brat, if you will, and being 
raised all over the country, exposed me to the notion of public 
service, which has been true of myself, my siblings, and now my 
children, and it is why I am interested in continuing to serve 
the public, especially this special class of public we call 
veterans on this court.
    My Marine Corps judge advocate experience, both as a trial 
counsel, defense counsel, in over 250 trials give me the 
perspective of the litigants, and then I also have judicial 
experience both at the trial level and at the appellate level 
in the Marine Corps.
    Senator Tillis. Well, your past experience and your family 
experience gives me great confidence you are going to be a 
great addition and a nomination I will proudly support.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    Senator Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, Mr. Chair.
    Thank you, gentlemen.
    Mr. Chair, first, I want to give a shout-out. We have had a 
bill sponsored with Dr. Yoho from the House side, the WINGMAN 
Act, which was Working to Integrate Networks Guaranteeing 
Member Access Now Act. Some folks in our State, veterans in our 
State, felt as if there was insufficient responsiveness by 
regional offices, but I can say that--and the VA opposed our 
WINGMAN Act, but let me just give a shout-out to the folks back 
home. Mark Bologna is one of them, who has just made incredible 
strides in terms of constituent service, so I just want to give 
credit where credit is due. The need that we were identifying 
in order to push this legislation on a local level, they have 
made strides in eliminating the need for it. So, I just had to 
say that.
    Dr. Lawrence, I am really interested in exploring the 
increased incidence of suicide among veterans, and it is 
unclear to me that it is peculiar to veterans. If you look at 
the nonveteran population in the same demographic as the 
veterans who are committing suicide, the nonveteran demographic 
has--or cohort has the same suicide rate or higher. Does that 
make sense?
    Mr. Lawrence. I am unfamiliar with the data, but I believe 
what you just said, yes.
    Senator Cassidy. So, I gather that the VBA has multiple 
business lines from which they can capture the data on veterans 
committing suicide; for example, the GI Bill, the Home Loan 
Guarantee Bill, et cetera. We have not been told how they do 
this, but we are just told they can.
    We are also told that the Veterans Administration's Office 
of Suicide Prevention is in the initial stage of sharing 
information to try to collate this in an effort to prevent 
veteran suicides, but that it requires a memorandum of 
understanding even if it is within the VA. So, the GI Bill 
folks may have the info, but they need an MOU to share it with 
the Office of Suicide Prevention.
    I raise it knowing I know the answer, but just to document. 
Would you support this effort, and would you support the Office 
of Suicide Prevention team's efforts in expediting what appears 
to be a cumbersome process of getting MOUs signed between VA 
agencies in order to get the data back to begin to analyze?
    Mr. Lawrence. Yes, absolutely. In fact, I think we can even 
draw on the experience of the vocation rehab--rehabilitation 
and education folks, where they have counselors who work with 
folks to normally get them into education, but they have been 
trained. They all have master's degree in case work and 
sociology. They also receive additional training for suicide 
identification and the like, so a model for that collaboration 
and sharing as quickly as possible across the organization 
exists.
    Senator Cassidy. That would be great.
    I have shared this in the past with previous VA panels. I 
have been told they would be open, but it has never happened.
    There is a researcher at Princeton, Anne Case, Ph.D. She is 
the one who has come up with the concept of death by despair, 
looking at folks 35 to 55, non-college educated, other things 
that are notable; these are the ones who have our high suicide 
rates. And what I was interested in is if you took the VA data 
and you gave her sort of an analysis, would we learn something 
that would help us identify?
    I used to think it was all the kids coming back from Iraq 
and the current war, but then I later learned, no, it is 
Vietnam veterans, it is Korean veterans who are committing 
suicide, disproportionately.
    So, I guess what I am asking is both internally but also 
externally doing the sort of data analysis that would give us 
insights as if there is something we can do to decrease the 
number of veteran suicides?
    Again, just asking your commitment to at least be open to 
it because I have raised it in the past. People have assured me 
they are open to it, but it never happens, which is somewhat of 
a frustration.
    Mr. Lawrence. Certainly. I appreciate your frustration. 
That sounds like thoughtful analysis and hypothesis. Yes.
    Senator Cassidy. OK. Well, I appreciate that.
    With that, I yield back. Thank you.
    Chairman Isakson. Senator Cassidy, thank you.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    First of all, gentlemen, thank you for offering to serve. 
It is appreciated.
    Mr. Falvey, I want to, first of all, thank you for 
appearing before our Committee and also thank you for your 
words to this Committee in which you make it very clear that 
you want to do right by our veterans.
    As you know, I was involved in advocating for veterans in a 
case known as Staab v. McDonald. This related to emergency care 
reimbursement for veterans.
    The U.S. Court of Appeals for Veterans Claims was the body 
that reversed standing VA policy, which then led to the VA 
dropping the appeal and revising its rules. It takes confidence 
and a strong understanding of veterans laws to write an 
opinion, such as the one given in Staab v. McDonald.
    This was just, so that everybody understands--this was a 
case in which emergency services had been denied to veterans in 
direct conflict with what had been a directive by this Congress 
that emergency care be delivered to a veteran, regardless if it 
was at a VA facility or a private facility.
    It took more than 3 years to get it resolved. There were 
veterans that died during that time, wondering whether or not 
that bill would ever be paid.
    My question for you, sir, is can you explain to me how you 
will approach cases objectively and give full consideration to 
all arguments brought before the U.S. Court of Appeals for 
Veterans Claims.
    Mr. Falvey. I think it is important for a judge to apply 
the law as it exists and the facts before them. Each case is 
unique. They should not give consideration to extrajudicial 
matters such as--I was asked yesterday by, I think, Senator 
Tester's staff about the cost implications of a particular 
decision, and while the cost may be a very important factor for 
the Department, if it is not part of the law or regulation or 
the facts of a particular case, it should not be a 
consideration of the court.
    Every veteran should be entitled to and should receive 
timely justice. I am committed to doing what I can as an 
individual judge and as a member of the court to ensure that 
happens.
    Senator Rounds. Thank you, sir.
    Mr. Lawrence, in your testimony, you cited improper 
payments as an initial effort that you would like to examine. 
Can you elaborate on this possible future effort, and can you 
explain how you would seek repayment, if any, from veterans?
    I ask this because I recognize that there are instances of 
fraud, but also instances of no intentional wrongdoing. I would 
be concerned about how aggressive the VA would be in seeking 
repayment from a veteran in the case of no intentional 
wrongdoing.
    Mr. Lawrence. Sure. There is a lot to be said about 
improper payments, but let me deal directly with your 
perspective on the final thing. After you determine why this 
exists and gone through those, getting the money back, and that 
interaction between the VA, the VBA, and the veteran is a 
really sensitive moment that has to appreciate the situation 
you are describing.
    It is unlikely that it was their fault. They missed 
communication. They had particular life event whereby they were 
so distracted by the event--a death, a divorce, something like 
this. They just did not remember to fill out the forms. They 
find themselves now with more money. That moment of expressing 
empathy and dealing with it professionally and understanding 
the situation is very, very key and has to be handled 
delicately and with respect.
    But, the goal is to prevent payments--prevent improper 
payments, and by virtue of the small fraction it is--I think it 
is .67, \2/3\ of 1 percent at the VBA, on a large number, that 
is still a large number, north of $500 million. So, when I talk 
about dealing with that, that should be addressed so it does 
not happen. If it does not happen, the problems you are 
describing, which we are talking about, will not exist, and we 
will not find yourself in that situation.
    Senator Rounds. Are these improper payments going to a 
veteran, or are they going to a third-party provider?
    Mr. Lawrence. I believe these are going to veterans. So, it 
is overpayments, essentially, if you will.
    Senator Rounds. And, these are primarily not based upon 
health care payments, as opposed to other payments for other 
benefits received?
    Mr. Lawrence. Yeah. These are compensation payments. You 
have applied for a service-related injury, and now you are 
receiving something. Suddenly, now it is too much.
    Senator Rounds. So, just to be clear, we are not talking 
about veterans who are receiving payments for health benefits 
that have been incurred; this is where I am getting at. This is 
a case where you are talking about benefits that have been 
received by a veteran as a requester of the benefits, and then 
the benefits that are being paid are greater than what the 
benefit--or than what the veteran should have been entitled to 
receive in the first place.
    Mr. Lawrence. That is correct. That is correct.
    Senator Rounds. OK. Very good. Thank you.
    Mr. Lawrence. Thank you.
    Senator Rounds. Thank you both.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    I want to thank Senator Rounds for his dedicated work 
during the omnibus when we tried our best to get our Veterans 
Choice legislation through, which eventually we are going to 
get, so I appreciate your help very much. Nobody looks after 
veterans any more than you do.
    But, I want to make this point. If I understood what he is 
talking about, the VA needs to do a better job of not making so 
many mistakes that require them to get refunds back from 
veterans who were overpaid for a benefit. I think that is what 
you were saying, is it not?
    Mr. Lawrence. That was a pretty blunt way of saying it. 
Yes, sir.
    Chairman Isakson. Yeah. Well, I did not mean to be blunt. I 
mean to be precise. Is that better? [Laughter.]
    Succinct.
    But, the less we have errors on our part that cause us to 
go ask for something back from a veteran, whether it is 
meritorious or not, the better off attitudes are going to be 
and reception of those benefits are going to be. So, I think 
that is one of the things Senator Rounds was talking about. I 
have seen the same thing in my office as well.
    Mr. Lawrence. That is absolutely correct, and we save money 
because we do not have to go and get the money back into both 
the resources to that as well.
    Chairman Isakson. Because otherwise they are left to go 
hire lawyers like Blumenthal, who will drive everybody crazy 
getting their benefit back.
    Oh, Senator Blumenthal. Welcome. You are recognized. 
[Laughter.]

                   HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Mr. Chairman, thank you.
    Mr. Falvey, thank you for your service. I understand that 
you served in Afghanistan with a young man named Second 
Lieutenant Matthew Blumenthal.
    Mr. Falvey. Actually, Senator, that was my son, Joe.
    Senator Blumenthal. Oh.
    Mr. Falvey. They served together.
    Senator Blumenthal. Well, we are both proud of our sons. 
Thank you for your service also to our Nation.
    Mr. Falvey. Thank you.
    Senator Blumenthal. I want to ask you about backlogs. As 
you know, backlogs have plagued the VA appeals process for some 
time, and they have left thousands of veterans in limbo as they 
try to pursue their benefits. The Veterans Appeals Improvement 
and Modernization Act of 2017 takes some important steps in the 
right direction and seeks to improve this broken system in the 
fiscal years 2015 to 2017.
    The number of pending appeals increased from 380,000 to 
470,000. That is a 20 percent increase.
    Have you thought about what the Court of Appeals for 
Veterans Claims can do to reduce the backlogs, either through 
its remands to the VBA or other steps that can be taken?
    Mr. Falvey. Yes, Senator. I think the Appeals Modernization 
Act is a great first step, and I think it holds great promise 
that it will reduce the number of cases as veterans choose 
other tracks than going through the VBA and to the court. Time 
will tell; however, that has not been yet implemented. So, we 
will see how that works.
    A couple other things that I know are in the works at the 
court is that the court recently on a case reversed by the 
Federal circuit has opened up the possibility of aggregate 
cases or class actions, if you will, and I think that that 
opens up the possibility that similarly situated veterans who 
are facing the same issue can have their issue resolved as a 
class rather than waiting for their individual merits decision.
    Third, I think that--I make note of the fact that most, the 
substantial majority of cases before the court are resolved by 
a single judge, non-precedential decisions, which is a valuable 
technique of moving a case timely along, but it should be 
reserved for those cases that are not unique that are pretty 
straightforward and do not require that sort of precedential 
decision.
    But, in appropriate circumstances, these precedential 
decisions, although they take a little bit longer, give the BVA 
the guidance they need, such that they do not commit error, 
requiring intervention by the court. So, hopefully, those sorts 
of measures will do what the court can do to move these cases 
along, but the numbers you cited are largely--that is the 
backlog at the BVA, not at the court. So, it is coming out of 
the BVA that the court needs to move promptly on the cases 
before them.
    Senator Blumenthal. Thank you.
    Dr. Lawrence, do you think the issue of privatization 
played a role in Dr. Shulkin's departure?
    Mr. Lawrence. I do not know. I honestly do not know. My 
conversations leading up to--since I have been nominated have 
been with the team from Deputy Secretary below, did not have 
interactions with Dr. Shulkin.
    I can say the team I have dealt with is very professional 
and very much focused on veterans issues.
    Senator Blumenthal. Do you have views on privatization?
    Mr. Lawrence. No, I do not. I know that if confirmed as 
then Under Secretary of Benefits, I will devote all my time and 
energy to get veterans the benefits they have earned, most 
effectively and efficiently.
    I think, as you point out, the appeals modernization, the 
new GI Bill are a daunting task that will occupy all my time. I 
have no plans to privatize the VBA.
    Senator Blumenthal. In your contacts prior to your 
nomination, were you interviewed by the White House?
    Mr. Lawrence. No, I was not.
    Senator Blumenthal. Who interviewed you?
    Mr. Lawrence. Well, it is a commission process, as you 
know. The Deputy Secretary selects 11 people, resumes, all from 
the United States. The commission process, I am under the 
impression a limited number of resumes are brought or sent over 
to the Secretary.
    I did interview with Dr. Shulkin in November of last year, 
a very short interview, a very busy guy, and that was it. That 
was the process.
    Senator Blumenthal. When was it completed, the process, 
that is?
    Mr. Lawrence. I received notification from the White House 
or email early in January to complete my paperwork. At that 
time, it was not clear I was exactly the nominee, and then in 
early February, they announced the intent to nominate, and they 
called me and told me that.
    Senator Blumenthal. So that occurred--the decision occurred 
in early February or sometime before?
    Mr. Lawrence. Yeah. Sometime between January and February, 
that is correct. Yes, sir.
    Senator Blumenthal. And you were never asked about your 
views on privatization by anyone?
    Mr. Lawrence. Correct.
    Senator Blumenthal. OK.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal.
    Thanks to both of our nominees. Thank you very much for 
your service. You both have exemplary records that prepare you 
greatly for the task ahead of you.
    Mr. Falvey, the appeals process is critical for a healthy 
VA. One of our biggest problems has been a long delinquency in 
decisions being made and final decisions being made in terms of 
eligibility or percentages.
    Your help with that will be immeasurable, and now you will 
be the ninth sitting judge for the first time I think in--is it 
1 year or 2 years? Two years? Almost 3 years. We can have a 
full court. So, having enough manpower is not an excuse, and 
Judge Toth is back there nodding his head, so he has heard this 
before. He knows that, and we want to use that manpower and 
woman power and legal power and veterans power to get the 
backlog resolved as quickly as we can and move forward to have 
a much better and more responsive appeals process for our 
veterans.
    As far as benefits are concerned, every time, you, Dr. 
Lawrence, with all the experience you have in management 
consulting and consulting people in terms of organizational 
psychology and things like that, the better we can run a 
streamlined agency where we do not create problems for 
ourselves, the better off we are going to be.
    And, I can tell you from 3 years of being the Chairman of 
this Committee, we create as many problems for ourselves as 
were created by somebody else, and the best thing to do is 
start cleaning up your own problems first. I think you will be 
a good start for that.
    I know the people that are at the VA now, I know that they 
have gotten this message, and we are all going to try and do 
so, so we have the responsive team that is on the field, 
working day and night for our veterans, just like they work day 
and night for us when they served our country.
    With that said, I will repeat what I said at the beginning 
of the hear. We will have a confirmation hearing with the 
nominee for Secretary when the nominee's paper and everything 
else that we need to get as a Committee are over here from the 
White House. The earliest that could probably be and the latest 
it probably needs to be is the 25th of April, which right now 
we are on target to be able to meet that time if, again, the 
nominee and the people behind the nominee get us the paperwork 
that we will need. We will work expeditiously to do that.
    In the meantime, it is full steam ahead, serve our 
veterans. Let us work hard for them, just like they worked for 
us.
    I want to thank the Committee for making the effort for so 
many Members to get here for this hearing today and be a part 
of it. Thank you very much.
    With that said, we stand adjourned.
    [Whereupon, at 3:27 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 HEARING ON THE NOMINATION OF JOHN LOWRY III TO BE ASSISTANT SECRETARY 
             OF LABOR FOR VETERANS' EMPLOYMENT AND TRAINING

                              ----------                              


                         TUESDAY, JUNE 13, 2018

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:20 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Heller, Cassidy, 
Tester, Brown, Blumenthal, and Hirono.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. This session of the Senate Veterans' 
Affairs Committee will come to order. The purpose of this 
hearing is for confirmation and questions.
    Mr. Lowry, before we do so, I would like to ask Mr. Lowry 
if he would raise his right hand, and under the rules of the 
Committee, your testimony will be under oath. If you will 
repeat after me, I would appreciate it. Do you solemnly swear 
or affirm that the testimony you are about to give before the 
Senate Committee on Veterans' Affairs will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Lowry. I do.
    Chairman Isakson. Please be seated.
    I will make a brief opening statement, and then I think 
Senator Tester will do the same. Then we will go to your 
statement, Mr. Lowry, which you will have up to 5 minutes to 
say whatever you would like to say. The longer you go, the 
bigger the votes against you are going to be, so try to stay 
within that 5 minutes. [Laughter.]
    And, I count the votes.
    Then, we will go to questions and answers from the 
Committee, and I know Mr. Young is here to introduce you, but 
before we get to that point, let me just make an opening 
statement and then turn to Jon. Then we will go to Mr. Young, 
if that is OK.
    The most important thing for our--all aspects of life are 
important for our veterans, but nothing is more important than 
to return from combat or to return from deployment overseas, 
return from active duty and find a place to work, find purpose, 
find meaning, and support your life and your family.
    Employment is the key to doing that, and as we all know, 
there are difficult times going from active duty to being 
employed depending on the economy, depending on where you end 
up, depending on a lot of things. So, this today, Mr. Lowry's 
nomination, is for a most important position. It is for an 
Assistant Secretary position at the Department of Labor for 
Veterans' Employment and Training, which is a critical, 
critical program to help us reduce the amount of unemployment, 
raise the amount of employment, and see to it that we pay back 
our vets for the jobs that they have done for us overseas and 
around the world.
    So, I am glad you are here, Mr. Lowry. I congratulate you 
on your nomination.
    I recognize the Ranking Member for any remarks he may have.

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman, and I want 
to welcome not only Mr. Lowry but Senator Young to the 
Committee. I appreciate you being here, Senator.
    Mr. Lowry, I want to thank you for your willingness to 
serve, and I want to thank you for the visit we had in my 
office the other day.
    The Jobs for Veterans State Grant Program could work better 
in Montana. There are simply too few staff members available to 
cover the veterans who need your help.
    And, Montana veterans are not the only ones struggling with 
getting the services they need to find meaningful employment. 
Many veterans who reside in rural areas--and we visited about 
this the other day--face the same challenges.
    If you are confirmed, I want to know whether you believe 
that we need to modify the criteria used to deploy grant 
dollars to take into account rural State special circumstances.
    Mr. Lowry, as Assistant Secretary, you are going to be 
tasked with meeting the unique employment needs of different 
cohorts of veterans; for example, issues faced by Native 
American veterans are not widely understood.
    Under your leadership, we will want to know how DOL VETS 
can better support veterans who are Native American, who are 
women, and others who face burdens of employment.
    Additionally, I will want your commitment to end veterans' 
homelessness by providing the necessary tools and resources 
through the Homeless Veterans Reintegration Program. I am sure 
that you would agree that these veterans need a path toward 
meaningful employment and financial security. All of this is 
directly related to a servicemember's transition to civilian 
life.
    It is important that I can count on you to understand how 
employment, housing, family support, and dozens of other 
factors come together during the transition process.
    I would also like to highlight family support. Military 
spouses sacrifice right alongside servicemembers, and their 
ability to succeed in the workforce is a key component of a 
family's successful transition.
    Mr. Lowry, it is my sincere hope that your business 
experience can help DOL VETS better understand what employers 
are looking for and how we get our transitioning servicemembers 
and veterans to a place where they are at the top of any hiring 
official's offer list.
    I look forward to the discussion today, and I look forward 
to your testimony. By the way, assuming everything goes well, I 
look forward to your speedy confirmation.
    Chairman Isakson. Thank you, Senator Tester.
    Before I introduce Senator Young, I want to thank Senator 
Young from Indiana for being here today to introduce our 
witness and welcome him to the Committee.
    Senator Young, you are recognized.

               INTRODUCTION BY HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman and Ranking 
Member Tester. It is a privilege to be here, and it is an honor 
to introduce a fellow Marine and a one-time Hoosier, Mr. John 
Lowry, to serve as Assistant Secretary of Labor for Veterans' 
Employment and Training.
    Mr. Lowry currently leads the U.S. operations and supply 
practice for the executive search firm, Egon Zehnder, where he 
has worked since 2016. Prior to his current role at that firm, 
Mr. Lowry gained a wealth of valuable business experience.
    Mr. Lowry worked at Harley Davidson for 12 years, with the 
last 5 spent as a member of the company's senior leadership 
group. As a member of Harley-Davidson's senior leadership 
group, Mr. Lowry managed the company's plants in Kansas City 
and Milwaukee.
    In 2013, Mr. Lowry made an excellent decision to accept a 
position as chief operating officer of the Allied Recreation 
Group in Indiana. Mr. Lowry helped turn around Allied 
Recreation Group and returned the company to profitability.
    He also has a long and distinguished career in the Marine 
Corps and Marine Corps Reserve.
    Following graduation from Princeton and service in the 
Marine Corps platoon leader class, Mr. Lowry accepted a 
commission in the U.S. Marine Corps. He spent 15 years as an 
infantry and force reconnaissance officer and served in 
operation Desert Storm. Mr. Lowry then left active duty to 
attend Harvard Business School. He remained in the Marine Corps 
Reserve, however, and would later command 1st Battalion 24th 
Marines and Headquarters Battalion for the 4th Marine Division.
    As if degrees from Princeton and Harvard were not enough to 
demonstrate his intellectual prowess, Mr. Lowry also attained 
degrees from Stanford and the U.S. Army War College.
    Mr. Chairman, it is clear that Mr. Lowry has a sterling 
reputation and reputation of success in both the private sector 
and service to his country. The position of Assistant Secretary 
of Labor for Veterans' Employment and Training, I know is 
critical to ensuring that our servicemen and -women are 
prepared to transition from the service to the civilian 
deployment.
    Thank you so much for considering his nomination. I yield 
back.
    Chairman Isakson. Thank you.
    Before you are recognized to speak, before you speak, I 
want you to introduce that lovely lady that you introduced to 
me, your wife, and any other special guests that are here 
today.

    STATEMENT OF JOHN LOWRY III, NOMINATED TO BE ASSISTANT 
    SECRETARY OF LABOR FOR VETERANS' EMPLOYMENT AND TRAINING

    Mr. Lowry. Thank you, Senator.
    Right behind me, my wife, Meleda, a second-grade classmate 
from New Canaan, CT, where we grew up. I also have Craig Norman 
with me, in the back row--Craig and I worked at Harley-Davidson 
together--and Major General Paul Kennedy, who was in my rifle 
company when we were young lieutenants a couple years ago.
    Thank you, Senator.
    Chairman Isakson. You know, when you were introduced a 
second ago by Mr. Young, he called you a Marine, but he called 
you a former Hoosier. I know there are no former Marines, only 
all-time Marines.
    Mr. Lowry. Former Hoosier, that is right, sir.
    Chairman Isakson. You are introduced, Mr. Lowry. Thank you.
    Mr. Lowry. Well, good afternoon, Mr. Chairman, Ranking 
Member Tester, distinguished Members of the Veterans Affairs' 
Committee. I want to thank you for this opportunity today to 
testify before you and for considering my nomination as the 
Assistant Secretary for Veterans Employment and Training 
Service, and I thank you for your support of veterans. It has 
been inspiring, and it means a lot to, I know, people, to the 
veterans and to their families.
    I would also like to thank the President and Secretary 
Acosta for recommending me for this nomination, and I owe a 
special debt of gratitude to my wife, who we just introduced, 
for not only her support as a military spouse while I wore the 
uniform, but her support throughout my time in the private 
sector.
    As a veteran and as a businessman, I am passionate about 
the VETS mission to prepare America's servicemembers and 
spouses for meaningful careers, to provide employment resources 
and expertise, to protect their well-earned employment rights, 
and to promote their employment opportunities.
    I believe that fulfilling this mission is not only the 
right thing to do for our veterans, but it is also important 
for America.
    As somebody who has served in leadership roles in plants in 
Indiana, Pennsylvania, Missouri, and Wisconsin, I know 
firsthand how veterans are some of the most exceptional 
employees we have, and when they live up to their potential, as 
you know, they are in a much better position to provide for 
their families, bring value to the organizations they serve, 
and ultimately strengthen American competitiveness.
    Given my experience as a veteran of the regular active-duty 
force and as a drilling Reservist who has been activated, I 
have some insights into some of the challenges that veterans 
face.
    In my private-sector role, I also have some insights into 
what businesses--challenges--face, and I have seen veterans 
help companies meet those challenges.
    What I do today as the head of the Supply Chain Operations 
practice for Egon Zehnder, I am really in the business of 
helping companies address their talent challenges. I like to 
think that all of these elements of my career have relevance 
for this role.
    I also like to think the privilege that I have had to work 
for some great leaders over the years is also relevant. Their 
example has rubbed off on my a little bit and helped make me a 
better leader and a manager. If I am confirmed, I will give my 
all to provide capable and able leadership to the VETS team as 
we serve this important mission for our great country.
    As you are well aware, the screening and training that one 
goes through in the military, the responsibilities that 
servicemembers are given at a young age, and the fact that 
veterans spend their formative years in a culture of 
accountability and mission focus provide soft skills that are 
arguably unmatched by any other feeder pool.
    Unfortunately, however, soft skills are not always enough, 
and that is why, if confirmed, I would make the ongoing 
apprenticeship initiative a particular priority as 
apprenticeships, which I have supported throughout my 
manufacturing career, provide a great opportunity. 
Apprenticeships are a great tool to get those critical skills 
to both transitioning and transitioned veterans alike.
    So, too will engaging employers to participate in the Hire 
Vets Act recognition program be a priority. Broad participation 
will allow the program to pay for itself while also promoting 
the many benefits of hiring veterans.
    And, my final priority, if confirmed, would be to promote a 
continuous improvement mindset in VETS whereby we think 
creatively on how we can better serve our veterans and be 
responsible stewards for our limited resources.
    To that end, I would make it a personal priority to 
strengthen relationships with other governmental agencies, with 
the VSOs, and other external stakeholders who are supporting 
our veterans.
    In closing, if confirmed, I will work closely with you, 
with our partners, stakeholders, and with the dedicated VETS 
team to provide transitioning servicemembers, veterans and 
their families with the best possible resources that they will 
need to enable their success in today's economy.
    Thank you again for your dedication and commitment to our 
veterans and for consideration of my nomination. I appreciate 
the opportunity to testify before you today, and I look forward 
to your questions.
    [The prepared statement of Mr. Lowry follows:]
 Prepared Statement of John Lowry III, Nominee for U.S. Department of 
   Labor, Assistant Secretary for Veterans' Employment and Training 
                                Service
    Good morning Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee on Veterans' Affairs. Thank you 
for the opportunity to testify today and for considering my nomination 
to serve as the Assistant Secretary for Veterans' Employment and 
Training Service, and thank you for your inspiring support of our 
Veterans, transitioning servicemembers and their families. I also would 
like to thank the President of the United States for nominating me and 
Secretary Acosta for recommending me. And I owe a special debt of 
gratitude to my wife who is with me today. She knows from personal 
experience many of the challenges that our servicemember spouses face, 
and I am grateful for her tremendous support both during my years in 
uniform and throughout my time in the private sector.
    As a veteran and as a businessman, I am passionate about the VETS 
mission to prepare America's servicemembers and their spouses for 
meaningful careers, to provide employment resources and expertise, to 
protect their well-earned employment rights and to promote their 
employment opportunities. I believe that fulfilling this mission is not 
only the right thing to do for our veterans, but it is also important 
for America. As somebody who has served in leadership roles in 
manufacturing plants in Pennsylvania, Missouri, Wisconsin and Indiana, 
I know firsthand how exceptional our veteran employees can be. As you 
know, when veterans achieve their potential they are in a much better 
position to provide for their families, bring value to the 
organizations they serve and ultimately strengthen American 
competitiveness.
    My experiences as a 15 year veteran of the regular active force and 
an additional 10 year veteran of the reserves (while working in the 
private sector) have provided me insights on the challenges our 
veterans face. My nearly two decades in the private sector also provide 
insights on the challenges facing businesses, and I've seen how 
veterans have helped companies meet those challenges. In my current 
role as the head of the US Supply Chain and Operations practice for 
Egon Zehnder (the world's largest privately held executive search and 
leadership consulting firm), I am in the business of helping companies 
address talent needs. I believe that all of these elements of my career 
have relevance for the VETS leadership role. Also relevant, I believe, 
is the great fortune I've had to work for many exceptional leaders over 
the years. I like to think that their example has influenced my 
leadership and management skills, and if fortunate enough to be 
confirmed, I would give my all to provide capable and ethical 
leadership to the VETS team as we serve this important mission for our 
great country.
    As you are all well aware, the screening and training one goes 
through in the military, the responsibilities that servicemembers are 
given at a young age and the fact that veterans spend their formative 
years in a culture of accountability and mission focus, provide soft 
skills to employers that are arguably unmatched by other feeder pools. 
Unfortunately, however, these soft skills are often not enough to meet 
the needs of today's employers. That's why, if confirmed, I would make 
the ongoing apprenticeship initiative a particular priority as 
apprenticeships--which I have supported during my manufacturing 
career--are a particularly good tool to provide critical skills to 
transitioning and transitioned servicemembers alike. So too, will 
engaging employers to participate in the Hire Vets Act recognition 
program be a priority. Broad participation will allow the program to 
pay for itself while also promoting the many benefits of hiring 
veterans. My final priority, if confirmed, would be to promote a 
continuous improvement mindset at VETS whereby we think creatively on 
how we can better serve our veterans and be responsible stewards of our 
limited resources. To that end, I would make it a personal priority to 
strengthen relationships with other governmental agencies, VSOs and 
other external stakeholders who support our veterans.
    In closing, if confirmed, I will work closely with you, with our 
partners, stakeholders and with the dedicated VETS team to provide 
transitioning servicemembers, veterans, and their families with the 
best possible resources that they will need to enable their success in 
today's economy. Thank you again for your dedication and commitment to 
our veterans and for your consideration of my nomination. I appreciate 
the opportunity to testify before you today and am happy to answer any 
questions you may have.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from John Lowry III, Nominee for U.S. Department of 
Labor, Assistant Secretary for Veterans' Employment and 
Training Service:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
    John Lowry III, Nominee to be Assistant Secretary for Veterans' 
                        Employment and Training
    Question 1. Please state why you want to be Assistant Secretary of 
Labor for Veterans' Employment and Training and what skills and 
experience make you qualified for this important role?
    Response. As a veteran and as a businessman, I am passionate about 
the DOL-VETS mission to prepare America's veterans, servicemembers and 
their spouses for meaningful careers, to provide employment resources 
and expertise, to protect their employment rights and to promote their 
employment opportunities. I believe that fulfilling this mission is not 
only the right thing to do for our veterans, but it is also important 
for America. When veterans achieve their potential they are in a much 
better position to provide for their families, bring value to the 
organizations they serve, and ultimately strengthen American 
competitiveness.
    My experiences as a 15 year veteran of the regular active force and 
an additional 10 year veteran of the reserves (while working in the 
private sector) have provided me insights on the challenges our 
veterans face. My nearly two decades in the private sector also provide 
insights on the challenges facing businesses and how veterans could 
help companies meet those challenges. As somebody who has served in 
leadership roles in plants in Pennsylvania, Missouri, Wisconsin and 
Indiana, I know firsthand how exceptional our veteran employees can be. 
Finally, in my current role as the head of the US Supply Chain and 
Operations practice for Egon Zehnder (the world's largest privately 
held executive search and leadership consulting firm), I am in the 
business of helping companies address talent needs. I believe that all 
of these elements of my career have relevance for the role. I am a 
capable manager and an ethical leader, and I would give my all to serve 
this important mission if fortunate enough to be confirmed.

    Question 2. If confirmed, what will your priorities be?
    Response. If confirmed, my priorities would align with the stated 
mission of DOL-VETS and the President.
    The apprenticeship initiative that is underway more broadly in the 
Department of Labor is a particularly good tool to help provide 
critical skills to transitioning and transitioned servicemembers alike 
and will be a priority. So too, will engaging employers to participate 
in the Hire Vets Act recognition program, as broad participation will 
promote the many benefits of hiring veterans. I will also promote a 
continuous improvement mindset at DOL-VETS, whereby we think creatively 
on how we can better serve our veterans and be responsible stewards of 
our limited resources. There are opportunities to better leverage 
technology to expand DOL-VETS' positive impact. Related to this idea of 
continuous improvement, if confirmed, I would make it a personal 
priority to strengthen relationships with other governmental agencies, 
Veterans Service Organizations (VSOs) and other external stakeholders 
who support our veterans. By forging great working relationships and 
helping to harness the collective energies of the many entities in this 
space, we should be able to improve outcomes for all.

    Question 3. Please describe your professional work for the last 10 
years, including positions held, major job duties, operating budgets, 
and number of subordinate employees and/or organizations. Also please 
include any major accomplishments for each position.
    Response. 2007-2011 General Manager, Harley-Davidson Vehicle 
Operations, Kansas City and member of Harley-Davidson's Senior 
Leadership Group. At the time Harley was a $4+ billion dollar company, 
and I was responsible for approximately 40% of the company's global 
vehicle production. More than 1,000 employees reported to me in my 
plant. A major accomplishment on the Harley side of my responsibilities 
was helping H-D recover from the economic downturn by co-authoring and 
implementing a common operating system to drive continuous improvement 
in manufacturing.
    Until 2009, I had roughly another 1,000 Marine Corps reservists who 
reported to me in my dual capacity of being the Commanding Officer of 
Headquarters Battalion for the 4th Marine Division. I retired from my 
reserve job in 2009 to focus on my corporate duties. The reserve units 
I led were spread out from North Dakota to Louisiana and we were 
rotating detachments in and out of theater to support Operation Iraqi 
Freedom and Operation Enduring Freedom (OIF/OEF). 2011-2013 General 
Manager, Harley-Davidson Powertrain Operations, Milwaukee and member of 
Harley-Davidson's Senior Leadership Group. I led Harley's manufacturing 
in the Milwaukee area where we made 95% of all engines and 
transmissions produced globally. This was a vertically integrated 
operation with 1,800 machine tools, more than 1,000 employees, and a 
large assembly operation. A major accomplishment was driving employee 
engagement. Powertrain Operations saw greater year over year engagement 
score improvements (as measured by Gallup) during 2012 and 2013 than 
any other plant or business function at Harley-Davidson.
    2013-2015 Chief Operating Officer, Allied Recreation Group. ARG 
(now known as the REV Recreation Group) was a $400 million manufacturer 
of recreation vehicles produced under the American Coach, Fleetwood, 
Holiday Rambler and Monaco brands. This was a private equity owned 
company, and I was responsible for design, engineering, procurement, 
manufacturing, quality, safety, logistics, distribution and human 
resources of this 1,500 person operation. During my watch we returned 
the company to profitability in year one and in year two grew EBITDA by 
78%. REV is now a public company.
    2016-present Consultant and Head, US Supply Chain and Operations 
practice. Since February 2016, I have been with Egon Zehnder in 
Chicago, the largest privately held executive search firm in the world. 
Given that this is a firm with a partnership model I do not manage 
employees. I do, however, collaborate with other consultants to serve 
our clients and drive business. Today our firm enjoys the leading 
market share in many of the markets in which we compete, and we are on 
pace to have a record year in 2018.

    Question 4. Considering your experience working in the private 
sector and your own transition out of the military, what are the most 
significant challenges facing transitioning servicemembers, veterans, 
and employers in terms of veterans employment and overall economic 
success?
    Response. The biggest challenge for the transitioning servicemember 
is overcoming the general lack of understanding of how to pick and 
pursue the right path for their civilian careers. This challenge is 
compounded by the fact that while they are still in and approaching 
their transition, none of their Staff NCO and Officer leaders have been 
through the transition themselves, so their mentors are not in a 
position to provide personal insights. This is the challenge that TAP 
is trying to address.
    Part of pursuing the right path is understanding one's skills gaps. 
This is not an easy thing to do when the servicemember doesn't have a 
great understanding of the requirements in the private sector. In my 
own case, I decided that I should go to business school immediately 
after active duty to learn some of the mechanical aspects of business. 
In order to get into business school, I had to take the GMAT and submit 
my application in the fall preceding the academic year I would start. 
This meant that my transition effort began a year and a half before my 
resignation. Business school will not be the right path for everybody. 
There are other ways to close the skills gap. Apprenticeships are a 
great example. All of these gap closure measures, however, take time, 
and the earlier a servicemember can start thinking about their 
transition, the better the outcome will be.
    On the employer side, the same can be said about a ``general lack 
of understanding'' being the biggest challenge. Although I think this 
is beginning to change, for many years the vast majority of employers 
didn't understand what a veteran can bring to a business to help that 
company be successful. The screening and training one goes through in 
the military, the responsibilities that servicemembers are given, and 
the fact that veterans spend their formative years in a culture of 
accountability and mission focus provide soft skills to employers that 
are arguably unmatched by other feeder pools. As more employers realize 
the benefits that veterans bring and understand the avenues by which 
they can hire more veterans, businesses will be that much stronger. 
VETS plays an important role in addressing all of these challenges.

    Question 5. What is the role and responsibility of the Federal 
Government to support veteran job seekers and employers, and where do 
you see the Department of Labor's Veterans' Employment and Training 
Service (DOL-VETS) fitting into that role? Are there other Federal 
agencies that provide key functions to support veterans' economic 
success?
    Response. The U.S. Government has a vested interest in supporting 
veterans in their efforts to find meaningful employment. The military's 
ability to continue to find volunteers to join will be enhanced if part 
of the ``sales pitch'' to would-be recruits is that on the back end of 
their service they will be able to leverage their military experiences 
to build a successful civilian career. Conversely, if this is not the 
case because we have not assisted our servicemembers during their 
transitions (or assisted unemployed veterans) our recruiting efforts 
will be that much harder. A fully employed veteran population also 
drives economic growth and helps reduce the burden of paying 
unemployment benefits.
    VETS, as the recognized focal point within the U.S. Government for 
veteran employment, plays a critical role in helping achieve synergies. 
In the parlance of our military, a well synchronized inter-agency 
effort to support our veterans can be a ``force multiplier.''

    Question 6. What role do state and local entities play in 
supporting veterans transitioning out of the military and seeking 
employment? How do you see DOL-VETS interacting with these entities to 
carry out its mission?
    Response. State and local entities play a critical role because 
they are the ones in the field who have the most contact with our 
veterans. DOL funds and partners with the state workforce agencies who 
manage the network of 2414 American Job Centers (AJC) nationwide that 
served more than 850,000 veterans last year. DOL-VETS administers the 
Jobs for Veterans State Grant program (JVSG) which provides funding for 
Disabled Veterans' Outreach Program (DVOP) specialists and Local 
Veterans' Employment Representatives (LVER) staff located in AJCs and 
other locations. As the administrator of the JVSG program, DOL-VETS has 
a responsibility to ensure that resources are used wisely to deliver 
improved outcomes. To fulfill that responsibility DOL-VETS must have an 
open channel of communication with state and local entities.

    Question 7. Veterans homelessness has declined by 45 percent since 
2009, though the number of homeless veterans slightly increased in 
2017. What is your perspective on DOL-VETS' role in addressing and 
preventing homelessness through programs such as the Homeless Veterans' 
Reintegration Program?
    Response. I believe that DOL-VETS has a role to play in addressing 
the issue of veteran homelessness as homelessness often correlates to 
and is an outcome of unemployment. The Homeless Veterans' Reintegration 
Program provides employment and training services to homeless veterans 
equipping them with the skills to gain meaningful work. DOL-VETs also 
participates on the Interagency Council on Homelessness and if 
confirmed, I would support DOL-VETS continued engagement in this 
effort.

    Question 8. Your questionnaire indicated that you were deployed as 
a Marine Corps reservist. Please describe any challenges you or your 
employer faced, as well as any lessons learned, and how that will 
inform your oversight of the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) if you are confirmed as Assistant 
Secretary?
    Response. The biggest challenge that my employer faced while I was 
deployed was that they suddenly had a hole in their organization that 
they hadn't planned on, and it needed to be filled in my absence. I 
don't believe there were any lessons learned on the company side from 
my activation. Harley-Davidson (my employer at the time) was well 
versed in their USERRA obligations and went above and beyond their 
legal obligations to support me. While deployed, they made me whole for 
the difference between my military base pay and Harley-Davidson salary, 
and upon my return I was actually promoted into a larger, more highly 
compensated position. Harley has received ESGR recognition, and the 
company is a good example of an employer who supports their employees 
who serve in the Guard and Reserve. Unfortunately, not every employer 
has this record.
    If confirmed, my oversight of USERRA will be informed by my 
experiences as both an employer who has supervised mobilized employees 
and as a reservist who has mobilized reservists and educated them on 
their employment rights under the act. I have had Marines in my reserve 
units encounter USERRA abuses, and I understand the impact. If 
confirmed, I would be committed to the efficient administration, 
informed interpretation and timely enforcement of this important law.

    Question 9. DOL-VETS is part of an interagency team responsible for 
assisting servicemembers in transitioning out of the military. Please 
describe what you think are the key resources and areas of expertise 
that DOL contributes to this interagency team.
    Response. I believe that the interagency team comprised of 
representatives from DOL-VETS, DOD, VA, DoEd, SBA as well as 
representatives from the military services is an important vehicle to 
improve the delivery, enhance the curriculum and better understand the 
efficacy of TAP. The key expertise that DOL-VETS bring is the insights 
obtained from being out in the field. Of all of the members on this 
interagency team DOL-VETS is in the best position to understand the 
needs of employers and what skills gaps exist. As an entity within the 
Department of Labor, DOL-VETS is uniquely positioned to bring to bear 
relevant resources that reside within DOL more broadly, particularly 
those within the Employment and Training Administration. Helping 
transitioning servicemembers gain access to apprenticeships so that 
they can take a running start at their next career is a good example of 
the kind of expertise and resources DOL-VETS can provide.

    Question 10. Congress relies on the expertise of the professionals 
who deliver Federal programs when it drafts and considers new laws. 
DOL-VETS has testified before Congress about proposed changes to laws 
governing transition assistance, USERRA, the Homeless Veterans 
Reintegration Programs, and the Jobs for Veterans State Grant program. 
Do you think it is important for DOL-VETS to engage with Congress on 
these topics and provide testimony on proposed changes when asked?
    Response. Yes, I believe it is important that DOL-VETS engage with 
Congress on these topics and provide testimony on proposed changes when 
asked.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Jon Tester to John 
 Lowry III, Nominee to be Assistant Secretary for Veterans' Employment 
                              and Training
 Pre-Hearing Questions for the Record Nomination Hearing of John Lowry 
  III to be Assistant Secretary for Veterans' Employment and Training 
                          Department of Labor
    Question 11. Have you and Secretary Acosta discussed the duties and 
the role you would assume as Assistant Secretary for Veterans' 
Employment and Training if you are confirmed? If so, what specific 
areas of the job were discussed?
    Response. Yes, Secretary Acosta discussed the duties of the role. 
He emphasized the importance of forging good working relationships with 
interagency stakeholders to deliver the best outcomes for our 
transitioning servicemembers and their spouses and veterans. He is 
particularly interested in making sure that efforts are coordinated and 
mutually supportive.

    Question 12. If confirmed, would you seek to be an independent 
advocate for veterans or would you be the executor of the 
Administration's policies relating to veterans? How would you address 
instances where your vision and the White Houses' are not aligned?
    Response. If confirmed, I see my role as delivering on the DOL-VETS 
mission, and doing so in a manner that is aligned with Secretary 
Acosta's and the Administration's direction. My decades of military 
service and experience in business have taught me that I have an 
obligation to support my boss and part of that support is having the 
courage to speak up if I have a differing view. Sometimes that 
differing view will alter the direction and sometimes it won't, but I 
would be doing the Secretary and the Administration a disservice if I 
withheld my perspective if it was not entirely aligned.

    Question 13. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position? If confirmed, what would you most like to accomplish in your 
new position?
    Response. Not having served in DOL-VETS before, I do not have a 
sufficiently informed perspective to answer the first question. 
Experience has taught me that all organizations have room to improve, 
so if confirmed, I will be most interested in identifying and 
addressing the problems and challenges which undoubtedly exist. My 
objectives, if confirmed, are realizing improved and measureable 
outcomes for our veterans and their families and to have a positive 
impact on the culture of DOL-VETS that would endure beyond my tenure.

    Question 14. How would you describe your management style and how 
is it suited to this particular position?
    Response. I aspire to be a servant leader. I want to remove the 
barriers that are getting in the way of my team being able to 
accomplish their mission. The people in any organization who are 
closest to the customer are the ones who drive the most value, so it is 
up to people in leadership roles to support them in that pursuit. Being 
a servant leader, however, does not mean you don't hold people 
accountable or that you forego a leader's responsibility to set the 
tone and direction for the organization. I think the most influential 
tool a leader has is the power of his or her personal example. As such, 
I hold myself and those around me to high standards. I also believe 
that leaders should be visible and approachable. I try to be a good 
listener and I understand that good ideas can come from anywhere 
particularly when the leader has established an engaged and high-trust 
culture. Having had the privilege of leading a number of different 
teams over the years, I have found this approach to me effective and I 
suspect, if confirmed, it would be effective at DOL-VETS as well.

    Question 15. What in your experience do you believe contributes to 
your qualifications for this new position?
    Response. My experiences as a 15 year veteran of the regular active 
force and an additional 10 year veteran of the reserves (while working 
in the private sector) have provided me insights on the challenges our 
veterans face. My nearly two decades in the private sector also provide 
insights on the challenges facing businesses and how veterans could 
help companies meet those challenges. Finally, in my current role as 
the head of the US Supply Chain and Operations practice for Egon 
Zehnder (the world's largest privately held executive search and 
leadership consulting firm), I am in the business of helping companies 
address talent needs. I believe that all of these elements of my career 
have relevance for the role. I am capable manager and an ethical 
leader, and I would give me all to serve this important mission if 
fortunate enough to be confirmed.

    Question 16. There are reports that the Administration has ordered 
agencies to not provide responses to Democrats' information requests. 
If you were to receive such an order, what would you do? Have you 
participated in or been aware of any communications where this topic 
was discussed? Please provide details on the participants in this 
discussion, the substance of the discussion, and any outcomes.
    Response. Secretary Acosta has consistently instructed his staff to 
respond to all Members of Congress and if confirmed, I would comply 
completely with that directive.

    Question 17. Please describe your past Veterans Service 
Organizations and Military Service Organizations interactions. Please 
give specific examples of how you anticipate involving the VSOs and 
MSOs if confirmed.
    Response. I have maintained an active membership of the Veterans of 
Foreign Wars since 1996 and of the American Legion since 2001. I am a 
Life Member of both organizations. I appreciate what the VSOs and MSOs 
do for our veterans, and if confirmed, would continue DOL-VETS 
tradition of engaging with these important organizations. DOL-VETS 
participates in quarterly meetings with the ``Big 6 VSOs.'' I believe 
these meetings provide a great opportunity for DOL-VETS to better 
understand the needs of the veteran community and coordinate our 
support efforts where it makes sense.

    Question 18. Have you ever been the subject of or potential suspect 
in an Inspector General investigation or review? If yes, please 
describe the circumstances surrounding such investigation or review.
    Response. I have not been the subject of nor a potential suspect in 
an Inspector General investigation or review.

    Question 19. I believe much can be done to improve the coordination 
and cooperation between VA and DOL. What thoughts do you have as to how 
this might be achieved?
    Response. The most important thing that can be done to improve 
coordination and cooperation between the VA and DOL is for the 
organizations to have an open channel of communication and a good 
working relationship on an ongoing basis. The tone is set from the top, 
and if confirmed, I would make it a priority to forge a positive 
working relationship with the VA in order that the two agencies can 
better coordinate efforts to support veterans.

    Question 20. How do you believe special hiring authorities--for 
example, veterans' preference, might be promoted to increase the 
employment of veterans across all Federal agencies?
    Response. Whether it be veterans' preference or the military spouse 
executive order, I believe that awareness of the various hiring 
authorities is key to enabling the authorities to achieve their 
objectives. DOL-VETS can help promote awareness when investigating 
Veterans Employment Opportunities Act compliance complaints. DOL-VETS 
can also educate veterans and transitioning servicemembers about the 
hiring preferences which they and their spouses have earned. Again, 
broader awareness of these authorities both on the Federal hiring side 
and on the veteran side should increase the employment of veterans 
across all Federal agencies.

    Question 21. How do you plan to use your role to enhance employment 
opportunities for homeless veterans?
    Response. If confirmed, I would continue DOL-VETs engagement with 
Federal partners to address veteran homelessness across the country. 
Additionally, under the authorities of the Homeless Veterans 
Reintegration Program (HVRP), I would continue to forge partnerships 
with third party entities who are addressing the critical issue of 
veteran homelessness. I would seek to understand the root causes of the 
issue and advocate for programs and ideas that will promote an end to 
veteran homelessness.

    Question 22. What role should VETS play in the effort to collect, 
aggregate, share, and leverage data to inform the employment situation 
of veterans for government and public consumption?
    Response. As the focal point for veteran employment within the USG, 
I believe that DOL-VETS has a role to play in the effort to collect, 
aggregate, share, and leverage data to inform the employment situation 
of veterans for government and public consumption. At this point, I do 
not have a deep enough understanding of what that exact role should be, 
but if confirmed, I would engage on this issue.

    Question 23. Do you believe DOL is doing enough to ensure that all 
Federal agencies are delivering a consistent message to transitioning 
servicemembers, veterans, and their families regarding the services and 
resource available to support employment? How would you ensure that 
they are?
    Response. DOL-VETS membership on the interagency team that 
coordinates the Transition Assistance Program puts DOL in a good 
position to help drive a consistent message to transitioning 
servicemembers. It is an open question in my mind if transitioning 
servicemembers and veterans are hearing a consistent message. If 
confirmed, I would look into this question. If I discovered that 
messaging was not consistent I would engage the proper stakeholders 
elsewhere in government and work with them to resolve any 
inconsistency.

    Question 24. What new initiatives do you plan to implement at DOL 
VETS if confirmed?
    Response. If confirmed, I would like to instill a continuous 
improvement culture at DOL-VETS whereby the agency is able to deliver 
better outcomes with the same level of resources. By identifying and 
eliminating waste DOL-VETS will be able to increase its capacity to 
serve veterans. I am particularly interested in how DOL-VETS might make 
greater use of technology in support of the mission.

    Question 25. VA and DOL ``own'' different portions of the military 
to civilian employment transition. Explain how the Agencies might 
better work together. Do you believe that different functions being 
housed at different Agencies is best for veterans? Do you anticipate 
advocating for any changes in this regard?
    Response. In my mind, the division of effort between the VA and 
DOL-VETS makes sense, and so long as the two agencies coordinate with 
each other the disparate ``ownership'' should not have a negative 
impact on the transitioning servicemember and spouse. At this point, I 
do not know enough to say whether or not I would advocate for 
realignment of responsibilities, but in general, I believe that DOL-
VETS should be the focal point for employment related matters and the 
VA should be the focal point for benefits because that aligns with the 
respective expertise of the two agencies. If confirmed, I would work 
closely with the VA to ensure that our transitioning servicemembers 
receive the support they need to enable a smooth transition.

    Question 26. The Vocational Rehabilitation and Employment program 
is a VA run program designed to help veterans with job training, 
employment accommodations, resume development, and job seeking skills. 
What role do you think DOL should play in the administration of this 
program?
    Response. It is my understanding that there are aspects of the VR&E 
program with which DOL-VETS can and does assist. If confirmed, I would 
ensure that DOL-VETS continues to play a role in identifying and 
referring veterans who would qualify for VR&E benefits.

    Question 27. Local Veterans Employment Representatives (LVERs) and 
Disabled Veterans Outreach Program specialists (DVOPs) currently track 
three measures for veterans and spouses that utilize their services. 
Those measurements are the Entered Employment Rate, the Employment 
Retention Rate, and the Six Month Average Earnings. In addition to 
these three outcomes, which others should DVOPs and LVERs be tracking, 
and how do you think those measurements should be attained?
    If confirmed, I look forward to taking a closer look at this issue.

    Question 28. What improvements could be made to the DVOP and LVER 
programs? Do you foresee making recommendations for changes to the Jobs 
for Veterans State Grants program that provides funding for the states 
to maintain those positions at American Job Centers?
    Response. I am not sufficiently knowledgeable about the efficacy of 
the programs to make any specific change recommendations, but if 
confirmed, I will review the programs' inputs and outcomes and be open 
to improvement ideas.

    Question 29. Last year DOL met with the Employer Support of the 
Guard and Reserve (ESGR) Communications Team and identified 
opportunities for collaborating communications messaging to the 
reserve/guard community. How will DOL specifically improve its 
communications with ESGR and the reserve/guard community?
    Response. I am not familiar with what was discussed during last 
year's meeting between DOL and ESGR, so I cannot provide any insight 
into how the two organizations have agreed to collaborate. That said, I 
know firsthand the critical role ESGR plays to avert USERRA violations, 
so I am encouraged that DOL and ESGR have an open dialog. If confirmed, 
I would continue that dialog and explore ways to partner in pursuit of 
our respective missions.

    Question 30. Jobs for Veterans State Grants, which provide funding 
for states to hire DVOPs and LVERs, are based primarily on a state's 
population without any consideration of the size of the state. For 
large rural states, this has been a significant problem. Success has 
been impaired because there are far too few individuals expected to 
provide personalized assistance to veterans or to build relationships 
with local employers. How can you move these programs away from one-
size-fits-all policies that do not serve the best interests of 
veterans, particularly those in rural areas?
    Response. If confirmed, I would want to look into this issue as one 
size does not appear to fit all. I am sensitive, however, to the fact 
that the distribution of these funds are left to the discretion of each 
state. I would be interested in understanding if there are technology 
or partnership solutions that could improve our ability to provide for 
our veterans in rural areas. I would also explore ways to leverage DOL-
VETS relationships with senior leaders in large companies that may have 
sites in rural areas.

    Question 31. How can VETS better support Native American veterans?
    Response. If confirmed, I look forward to being briefed on DOL-VETS 
existing programs and partnerships with Native American veterans and 
working with the President and Congress to better support the Native 
American veteran community. I would also be interested in engaging VSOs 
like the Native American Veterans Association that have special 
insights into the needs of Native American veterans.

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
    John Lowry III, Nominee to be Assistant Secretary for Veterans' 
                        Employment and Training
    Question 1. While the national veterans' unemployment rate is down 
to 3.4%, West Virginia's veterans' unemployment rate remains at 5.1%.
    a. How do you plan to continue to drive down the rates of veterans' 
unemployment, particularly those areas with higher unemployment rates 
and rural areas?
    Response. There are over six million open jobs currently in our 
Nation. Every veteran who wants a job should have an opportunity to 
work. Thus, as stated in my confirmation hearing, I see engaging 
employers and promoting opportunities for veteran employment as a 
critical role. It's one of the four pillars of the mission and if 
confirmed would be one of my top priorities.
    Additionally, I would bring the full force of Department of Labor 
Veterans' Employment and Training Service (VETS) and agencies within 
the Department of Labor (DOL) to bear to address rural veteran 
unemployment.
    Within the last fiscal year, VETS referred nearly 100 companies to 
the DOL Office of Apprenticeship for certification. Once approved, 
businesses can offer a veteran an opportunity to learn critical skills 
while receiving the housing portion of their GI Bill. Research shows 
that when completed, a veteran on average will make $60,000 a year 
about par with their counterpart who attended a four year college. I 
would advocate for greater use of this program.
    Also, VETS funds and administers the Jobs for Veterans State Grants 
(JVSG) program which provides funding to states for Disabled Veterans' 
Outreach Program (DVOP) specialists and Local Veterans' Employment 
Representative (LVER) staff. DVOP specialists provide intensive 
services to veterans, prioritizing service to disabled veterans. LVER 
staff promote hiring veterans in communities through outreach 
activities with local employers. While I am sensitive to the fact that 
States have discretion on how the JVSG funds are spent, I believe VETS 
has a critical partnership role to play with the States as we seek 
better outcomes for veterans in rural areas. If confirmed, I would also 
explore if there are ways to leverage technology to provide better 
service to rural areas.
    I pledge to look for ways to measure the effectiveness of these 
efforts and work with you on state targets that create realistic yet 
challenging goals to reduce veteran unemployment in West Virginia.

    b. If confirmed, will you come to West Virginia to see, first-hand, 
our employment programs and challenges?
    Response. Yes, absolutely I would welcome an opportunity to visit 
West Virginia to see first-hand the employment challenges faced by 
veterans in your state.

    Question 2. Regional hiring events are critical for reaching 
veterans who may not be able to travel to an American Job Center. How 
does VETS coordinate with communities to ensure they are reaching the 
maximum number of local businesses, hiring centers and veterans?
    Response. One of the four pillars of VETS is to promote the 
Department's efforts to conduct employer outreach, intra/inter-agency 
coordination, and stakeholder outreach.
    VETS conducts engagements with Federal, state, and local 
governments; private sector employers and trade associations; 
institutions of higher learning; non-profit organizations; and Veteran 
Service Organizations to establish and develop a network that enables 
servicemembers, veterans, and their families to successfully integrate 
into their communities.
    Additionally, VETS initiated a regional engagement and integration 
strategy by staffing a Regional Outreach Specialist within each of the 
six Regional Offices nationwide. They work to provide a valuable bridge 
between national and regional employers, who are eager to commit to 
hiring veterans, and workforce development staff at the American Job 
Centers, who are tasked with building local employer relationships and 
assisting in entering gainful employment.

    Question 3. As a component of the Transition Assistance Program, 
the Department of Labor provides a mandatory three-day employment 
workshop and an optional two-day Career Technical Training Track 
curriculum. How does VETS review these courses to account for input 
from employers, veteran service organizations and other stakeholders to 
address the skills gaps that hinder veteran employment?
    Response. The curricula of the three day Department of Labor 
Employment Workshop (DOLEW) and the additional two day Career Technical 
Training Track (CTTT) are vital to the employment success of the 
transitioning servicemember (TSMs). I understand that VETS recently 
completed an in-depth review and revision of both DOLEW and CTTT 
curricula. VETS engaged over 40 stakeholders and Veteran Service 
Organizations such as Hiring Our Heroes, Veterans of Foreign Wars, and 
the American Legion in the review process.
    The new curricula was piloted in FY 2018 with full implementation 
expected in FY 2019. If confirmed, I would work closely with TAP 
partner agencies on the TAP Curriculum Working Group to ensure training 
reflects industry best practices and meets the needs of transitioning 
servicemembers as well as employers.
    VETS also receives post DOLEW and CTTT survey data from its 
Department of Defense partners which provides insights into how useful 
servicemembers find the courses.

    Chairman Isakson. We welcome you and thank you, and 
congratulations on your nomination.
    Let me ask you to begin with--are you familiar with the 
USERRA law, the Uniform Services Employment and Reemployment 
Rights Act?
    Mr. Lowry. Yes, Senator, I am.
    Chairman Isakson [continuing]. And, the tremendous 
challenge that has, particularly for our soldiers and the 
effects it has when they are deployed, go overseas--the 
Guardsmen and Reservists--and then come back to make sure their 
rights and their jobs are protected? Do you have any comments 
you would like to make about USERRA and its enforcement?
    Mr. Lowry. Yes, sir. As both an employer of Guardsmen and 
Reservists who have mobilized, as someone who has mobilized 
himself, and also as a commander of two battalions and the 
Reserves, where we were sending companies, rotating in and out 
of theater, supporting Operations Enduring Freedom and Iraqi 
Freedom, I probably learned more than I wanted to know about 
USERRA.
    It is those times when you have those USERRA violations 
that causes you to understand what the law says and make sure 
that we are--that they are being enforced.
    So, I have been an advocate for reservists. I would like to 
think I have been a responsible employer when I was on the 
employer side, and I think that protecting those well-earned 
rights are a critical part of this mission and one that I take 
very seriously, sir.
    Chairman Isakson. Well, no doubt, because we are dependent, 
so dependent on Guard and Reserve for first line of defense, 
and the transition we went through under Rumsfeld, they are now 
just as important as the enlisted man and the regular Army, 
regular Navy or Air Force, and it is important that they have 
some degree of help and assurance when they leave their 
temporary employment or under deployment, to come back to the 
job, that that job is still there, their family was watched 
after while they are gone. I think it is important to always 
raise the visibility, that responsibility to those employers as 
they employ those people and also make sure that we get every 
one of them educated, to be sure they follow through on that 
and that representation.
    Harley-Davidson obviously manufactures motorcycles. 
Obviously, the STEM subjects in the school systems are the most 
important subjects employers look for today, and Home Depot 
from my State and a Georgia company is one of the largest 
employers of veterans of any company in the United States of 
America.
    What do you see in your role as a promoter of companies 
being more aggressive in terms of hiring vets when they leave 
the military, whether Reserve or whether active duty.
    Mr. Lowry. Thank you for your question, Senator.
    I see promoting the opportunities for veteran employment as 
a critical role. It is one of the four pillars of the mission, 
and that is why one of my priorities is going to be engaging 
employers, getting them enrolled in the medallion recognition 
program, to hire more vets, retain them, and put them on the 
trajectory that they are going to need to be successful. But, I 
see this is a critical role for the job and one where I would 
personally engage in and advocate for them.
    Chairman Isakson. Good.
    Senator Young, you are free to leave, if you need to.
    Senator Young. Thank you for your courtesy, Mr. Chairman.
    Chairman Isakson. I did not know if you needed to be 
dismissed or not. You are kind of a military guy, so I want to 
make sure I gave you the permission.
    Senator Young. Thank you. [Laughter.]
    Chairman Isakson. Well, thank you, and thank you for your 
kind introduction.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and once again, 
thank you, Mr. Lowry, for your willingness to serve and serve 
our veterans in particular.
    I had talked about how the grant program is not working 
well in Montana, but I have got a notion, anybody from a rural 
State or anybody from a rural area in a State could say the 
same thing.
    I would ask that within the first 3 months of your 
confirmation if you would commit to providing this Committee 
with a review of the criteria of deployment of jobs for this 
Veterans State grant program, and I would say that in that 
review would be a discussion of whether rural and frontier 
States are being adequately served.
    And, I think we would--now, if in fact you are up to this 
review, which I think is critically important to be able to get 
your feet on the ground and move forward in a direction that 
works for our veterans in both rural and urban areas as far as 
that goes, whether any of the recommended modifications you 
could do by rule or we need to do by an act of Congress.
    Let me give you an example. Should we be looking at the 
number of veterans in a State only, or should we also be taking 
into consideration the service area, the geography, so to 
speak, that each one of these job counselors have?
    So, does that seem like a reasonable request to you?
    Mr. Lowry. Yes, Senator, it does, and apparently, one size 
is not fitting all here, and I think that it would be important 
for me just doing my due diligence of understanding the role to 
be looking into the efficacy of this and other programs.
    Senator Tester. Well, I appreciate that. I think it could 
make what is meant to be a good program truly a real good 
program for everybody.
    I would also mention that Native American vets serve in our 
armed services at a higher rate than any other minority, but as 
these veterans return home and they seek assistance that they 
are entitled, veteran services and benefits can fall short 
across the board. Oftentimes, they are less adequate than those 
that are provided to the non-Native counterparts.
    Tribal lands and reservations in Montana are rural, very 
rural, with limited economic opportunity or development, which 
can increase barriers absolutely for jobs. So, for a Native vet 
returning home, this can make getting a roof over his head 
particularly challenging.
    So, I guess the question is, are you willing to expand 
collaborations with our Native American communities to try to 
get their input and their expertise to add to your expertise to 
try to solve this problem?
    Mr. Lowry. Thank you for your question, Senator.
    Yes. If confirmed, I would seek to do that, and I would 
seek to do that in partnership with--I know the Veterans 
Affairs has formal relationships with some of the Native 
communities as well as there is VSOs, as you know----
    Senator Tester. Yes.
    Mr. Lowry [continuing]. That are also focused on supporting 
that group and I think strengthening those partnerships and 
being an active listener to understand what their particular 
needs are.
    Senator Tester. So, once again, would you commit to 
providing this Committee--and I do not think we have ever asked 
for this--with a focused outreach plan for Indian Country, for 
Native American communities specifically on Tribal lands in 
order to make sure that the vets are getting the services that 
you can offer them?
    Mr. Lowry. Senator, I would commit to understanding this 
issue, and I am afraid at this juncture, I am not sure I know 
enough to know what a plan might look like, but I would 
certainly----
    Senator Tester. No, look, I think it is going to take time 
because it is a different population, quite frankly, with 
different challenges, the same way that inner city may have a 
different population with different challenges, more emphasis 
on different challenges because they are all vets.
    Mr. Lowry. Yes, sir.
    Senator Tester. So, if there is some way that--and I would 
be more than happy to help you, and I know there are other 
members in the Senate that would be more than happy to help you 
that particularly serve on the Indian Affairs Committee that 
will encourage you to do consultations with the Tribes and find 
out what can be done.
    I would tell you what I have found in Indian Country is 
that we can put forth all the policies in the world, but the 
suggestions that come from Indian Country, from the ground, if 
we can take those and make them work, they are much more 
effective.
    And, I think that is also very true when it comes to our 
veteran population.
    I do not mean to give a speech, but thank you, Mr. Lowry. I 
appreciate your willingness to serve and appreciate you being 
here today.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Tester.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Hello, Mr. Lowry. Again, thank you for 
your forgoing a lot of opportunity in order to serve veterans. 
I thank you for that.
    My staff and I have been looking at veteran suicide rates, 
and there are some things that were counterintuitive to me. It 
turns out those who were never deployed were more likely to die 
by suicide than those who had been deployed. I would not have 
thought that. So, it is not PTSD, per se, and I wonder if it is 
not just the same as suicide among the nonveteran population.
    I am giving a little bit of a preamble, and you will see 
why in a second. The data shows that life stressors predictably 
can bring on suicide: loss of a job; loss of housing; a 
marriage that does not do well because of financial stress.
    Now, our government--I imagine when you are in your 
private-sector firms, the silos are consciously broke down, 
whereas here, it seems as though they are consciously erected. 
And, there is a Veterans Office of Suicide Prevention, and you 
are the ones providing the transition assistance.
    The other thing I learned is that the suicide rate is 
highest for those separated from 3 months to 12 months, one and 
a half times more, and there is also an increased rate for 
those who are out for 3 months and less. But, the peak is from 
3 months--so it is that transition assistance who you are going 
to be pivotal on, if you are with me.
    So, your thoughts about that, and what do you see about the 
opportunities to work with the Veterans Affairs Office of 
Suicide Prevention to give us a better idea of what is going 
on?
    I did not know this until my staff began to educate me, but 
I suspect my colleagues would like to know this information, as 
well. Your thoughts on that?
    Mr. Lowry. Thank you, Senator. I appreciate the question.
    I was not aware of that really compelling statistic on why 
it is so important that we get the transitions right, and I do 
know there is a correlation between job loss and suicide. So, 
to the extent that, if confirmed, I can enable not only a 
smooth transition, but a transition that has a trajectory and 
has stability and long-term prospects for our veterans and 
their families, I think it would make a difference in this 
issue.
    With respect to your observation around silos, I see the 
VETS playing a focal role on veterans employment and those 
transition issues, but we obviously partner in a number of 
other agencies--the Veterans' Affairs, Small Business Bureau, 
Department of Education. I know you know the whole laundry 
list, Senator. I would commit to being an active and able 
partner so that we can--not only across the interagency, but 
also external stakeholders, so we can harness the collective 
energies of a lot of entities that want to eradicate and fix 
this problem. But, I see that this would be a critical part of 
my mandate.
    Senator Cassidy. I do too. And, I think partly that we need 
creative thinking. Where can we get the data that is pertaining 
to transition housing to, again, integrate with that which is 
in the veterans--and several of us are on the Health, 
Education, and Labor Committee, so, believe me, we would cover 
your back on that.
    But, I think what we need is a creative way to look at the 
data. For those people who are going through the transition 
program now, those are the ones who have an increased rate of 
suicide within the first year.
    So, if we know financial stressors are part of it, I almost 
say that what we are currently doing may not be effective to 
the degree it needs to be and to the degree the life's 
financial stressors contribute to suicide.
    Are you with me?
    Mr. Lowry. Yes, sir. I believe that is a very logical 
conclusion.
    Senator Cassidy. And, frankly, I am not blaming anybody 
because it is only because of I have enterprising staff folks 
that we are kind of overturning these relationships. So, I 
think what we would appreciate is a fresh look at this and 
maybe a retooling of the program, not only to have a transition 
seminar when folks are leaving the service, but rather to have 
a follow-up. Do you see where I am going with that?
    Mr. Lowry. Yes, sir, absolutely.
    Senator Cassidy. I appreciate your service, and I look 
forward to working with you on this issue. I just thank you for 
the life's experience that you are bringing to it, so thank 
you.
    Mr. Lowry. Thank you, Senator.
    Chairman Isakson. Thank you, Senator Cassidy.
    Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, Mr. Lowry, for your service.
    I ask this question of every nominee who comes before any 
of the Committees I sit on to ensure the fitness of the 
nominees for their appointed positions.
    So, I am going to ask you the following two questions as a 
start. Since you became a legal adult, have you ever made 
unwanted requests for sexual favors or committed any verbal or 
physical harassment or assault of a sexual nature?
    Mr. Lowry. No, Senator, I have not.
    Senator Hirono. Have you ever faced discipline or entered 
into a settlement related to this kind of conduct?
    Mr. Lowry. No, Senator, I have not.
    Senator Hirono. Thank you.
    As Assistant Secretary for Veterans' Employment, you will 
be managing homeless veteran employment programs such as the 
Homeless Veteran Reintegration Program, HVRP, and HVRP provides 
funding for grantees to assist homeless veterans to find jobs 
and/or training.
    So, what are your thoughts on ways we can improve these 
programs? How can we continue the progress we have made in 
reducing veteran homelessness--estimated at around a 47 percent 
decline since 2010--which is really important? Which, as we 
were talking about, the indicators that lead to suicide, 
certainly homelessness and lack of jobs are two of them.
    So, how can we improve the transition process to civilian 
life to prevent homelessness? What can you do? What are your 
thoughts?
    Mr. Lowry. Thank you, Senator, for your question.
    What I can do is make sure that we are doing a better job 
transitioning our servicemembers into the civilian sector, so 
that some of the stressors that Senator Cassidy had mentioned 
are not as prevalent.
    I also know that VETS sits on the Interagency Task Force on 
Homelessness, and I think we would have a critical role to 
play--or do have a critical role, and if confirmed, I would 
engage in that task force, but specifically focused on the 
employment side of the problem.
    I also understand that homelessness issues, the drivers of 
them vary quite a bit from location to location. I do not know 
enough about this juncture on what the data would tell me as to 
what those drivers are, but I believe that it is very important 
that we direct some of those funds and partner with people that 
are in the local areas to help address the homelessness where 
it is happening. I am fully committed to the goal of 
eliminating homelessness, not just for veterans, but for all 
people.
    Senator Hirono. Well, certainly for the veteran population 
because there are many special programs that we have put in 
place in Congress to help veterans, various centers and all 
that, and I think that as our service people transition from 
active to veteran status, that transition period is really 
important. And, I know we can do a heck of a lot more to make 
that transition seamless.
    So, one of the things that I hear from veterans at all 
levels is that they do not get enough information about what 
kind of services, what kind of programs are available to them. 
So, if confirmed, what would you tell the local Department of 
Labor offices in Honolulu as well as across the country to 
promote more effective outreach and information to the 
veterans?
    Mr. Lowry. Thank you, Senator.
    If confirmed, I would definitely want to spend quite a bit 
of time understanding how those local veteran employment 
representatives are messaging and getting the information out 
to the veterans.
    I also think that ahead of the transition, while there is 
still--while the service people are still in uniform, there is 
an opportunity to partner with the Department of Defense to 
make sure that we are starting that messaging early.
    As someone who has been a veteran, I realize that when you 
are in uniform, those mentors that you have, those staff NCOs 
and officers, not one of them have been through the transition 
themselves. So, it is particularly important that people on the 
outside get the message to them, and again, I would commit as 
one of the pillars of the VETS mission to, one, understand sort 
of how good or not we are, and then try to drive continuous 
improvement in that.
    Senator Hirono. And, I think part of that is there are 
preparatory kinds of information given to our service people 
while they are still in service just prior to transitioning 
out, and they are inundated with a lot of information that does 
not necessarily stick.
    I think that it is very important as a consideration that 
some of this information is repeated to them when they reach 
veteran status because they do have a lot of information.
    So, I did want to mention to you that Senator Rounds and I 
introduced a bill that was signed into law relating to how the 
full month of post-9/11 GI benefits are used to pay for 
licensing, certification, nationalization tests, and we have to 
make a change in the law so that they could use only part of 
their monthly pay for these purposes.
    I would want to have you commit to work with us to ensure 
that this particular provision--and you can familiarize 
yourself with it--is implemented and communicated to the 
eligible participants.
    Mr. Lowry. I look forward to doing that, Senator, if 
confirmed.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Mr. Lowry, for being here.
    You have exactly the background I think that is needed for 
the job like the one you have been nominated for. With time on 
active duty and in the private sector, you understand how to 
make the transition from one to the other. You have gone 
through that. I think that is important.
    Even more with your experience in the Reserves, you 
understand the toll of balancing the lifestyle of the citizen-
soldier; in your case, a Marine. So, you know what commitments 
employers make when they hire Reservists and Guardsmen, and you 
know how important it is to protect these commitments.
    I enjoyed getting some time to visit with you in the office 
last week, and I appreciate your willingness to take on this 
job that will impact the lives of veterans, their families, 
companies, and our communities.
    In 2017, the Arkansas' veterans unemployment rate was 4.4 
percent. I am proud to say that we have great companies and 
communities that support veterans, and our employment number 
reflects that. It is actually lower than that now. Of course, 
those numbers depend upon the resources provided to companies 
and to veterans for training and development, to ready them to 
fill the needs of today's workforce.
    If you are confirmed for your position, you will be in a 
key position to ensure those resources are well used.
    In your written testimony, you identified apprenticeships 
as a priority for your tenure at Labor. Can you expand a bit on 
how you have seen apprenticeships work from your manufacturing 
background and what you expect to do to encourage more 
apprenticeships for veterans?
    Mr. Lowry. Thank you, Senator. I appreciate the question.
    Apprenticeships in my manufacturing background are 
absolutely essential or have been for the running of a 
manufacturing operation and the providing of great 
opportunities for advancement of those individuals that are 
able to take advantage of the program.
    As you may know, Senator, the 91 percent of people that 
have gone through and completed an apprenticeship, their 
average wage in year one is approximately $60,000, which puts 
them in, more or less, parity with what you might be able to 
earn with a 4-year degree, so it is a really great way to 
accelerate earnings.
    And, frankly, in the manufacturing environment we live in 
now, it is absolutely essential to keep the factory running 
because the soft skills that that serviceman or -woman comes 
out with, which are great, out of the military, are not going 
to help them change that spindle on that lathe. They need the 
technical skills to do that.
    Senator Boozman. Very good.
    Have you thought about what, if any, resources or 
authorities you would anticipate needing to support the 
priority?
    Mr. Lowry. Well, the beauty, as I see it, of VETS being 
nested inside the Department of Labor, is we have the 
Employment and Training Administration, which has key resources 
for us, for our apprenticeships that we can direct toward 
transitioning servicemembers, veterans, and also the greater 
population. I see a real opportunity to leverage those 
resources inside labor and also look for partnerships that are 
external to the Government.
    Senator Boozman. In your testimony, you said you will focus 
on strengthening relationships with other Government agencies 
that support veterans. Can you talk a little bit about how you 
intend to engage with the VA, the DOD, and key veteran 
stakeholders like the VSOs, which I see several are represented 
and always do such a good job? How can you build better 
cooperation?
    Mr. Lowry. Thank you, sir, for your question.
    I believe that it all comes down to open lines of 
communication, building trust, being visible, and I would 
commit in my first 90 days on the job to figure out who those 
key nodes are within the various agencies, both within the 
Government, VSOs, and externally, and begin to build those 
relationships where relations do not exist and where they do, 
leverage them and reinforce them, sir.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you very much, Senator Boozman.
    Senator Blumenthal.

                   HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Good afternoon, Mr. Lowry, and welcome to the Committee. 
Thank you for your very extensive service to our Nation, in the 
Marine Corps, on active duty, and in the Reserve. We welcome 
you here and congratulate you on your nomination.
    I know that the Chairman has covered the USERRA Act and 
that you have said you support and take USERRA seriously. There 
are currently areas where USERRA perhaps should cover 
discrimination and provide redress in court when it comes to 
that kind of employment discrimination.
    I have led the Justice for Servicemembers and Veterans Act 
2017. It is bipartisan, bicameral legislation that ensures that 
servicemembers and veterans employment and reemployment rights 
are effectively enforced under USERRA, so that, in effect, they 
have their day in court. I hope that you would support that 
legislation and effectively enforce it if you are confirmed.
    Mr. Lowry. Absolutely, Senator. If confirmed, I would--I 
think it is very important and would be happy to support it.
    Senator Blumenthal. Do you have knowledge yourself of 
employment discrimination that may affect either our men and 
women in uniform coming out of service or in the Reserves when 
they are called up and then come back?
    Mr. Lowry. I have had experience with it in the past, not 
as an employer. Most of my Reserve time--all my Reserve time 
was at Harley-Davidson, and that was one company that 
understood and did it right. But, as a battalion commander, 1st 
Battalion 24th Marines and 4th Headquarters Battalion for 4th 
MARDIV, when we were rotating units and individuals in and out 
of theater, too often we found violations of USERRA. So, I 
became more familiar with the Act than I wished to have, but, 
yes, I am familiar. I know it happens, sir.
    Senator Blumenthal. Let me ask about the Career-Ready 
Student Veterans Act in January 2017. As you may know, the 
Department of Education published the first round of debt-to-
earnings rates under the Gainful Employment Rule, which is a 
measure of how the for-profit schools are doing in their 
education of veterans and others. More than 800 programs, 98 
percent of them, for-profit colleges, had failing debt-to-
earnings ratio. Another 1,239 programs were on the brink of 
failure.
    Again, last Congress, I led a bicameral, bipartisan effort 
to unanimously pass what came to known as the Miller-Blumenthal 
Health Care and Benefits Improvement Act, which among other 
things included the Career-Ready Student Veterans Act that 
requires the VA to disapprove GI bill benefits for programs 
that lack appropriate accreditation for graduations to earn 
State licenses and certification.
    The Career-Ready Students Act enables our veterans to 
essentially get work, and I hope that you will commit to 
ensuring that the VA is in compliance with that statute.
    Mr. Lowry. Senator, I will be nested inside Labor. I will 
not have--if confirmed, I do not think I have direct oversight, 
but certainly anything that I would see or become aware of, I 
would commit to making sure that that was----
    Senator Blumenthal. And, I assume you agree that the VA 
should not be contracting with organizations that fail those 
kinds of accreditation measures?
    Mr. Lowry. I would not presume to speak for the VA, 
Senator, but my personal opinion, that makes sense.
    Senator Blumenthal. Great. Congratulations and good luck. 
Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal.
    Mr. Lowry, I appreciate your testimony and your goals and 
the aspirations that you have set.
    The departments of labor are sometimes misunderstood. They 
are agencies of the Federal and the State government. The 
Federal Government funds most of the departments of labor in 
the States, but the departments of labor do most of the work, 
if you follow what I am talking about.
    We are at a point now, we have 3.8 percent unemployment, 
according to the statisticians, in the United States. If we 
have 3.8 percent unemployment, that means virtually everybody 
who is employable is employed, yet we have a lot of veterans 
who do not have their jobs. I think it is important to 
understand your job in part is by making the veterans of the 
State aware of where they can come to find a job, come to you 
for a job, come to you for support and training for a job.
    We fund more job training programs through the Federal 
Government than the States fund in their own State. The 
Workforce Innovation and Opportunity Act, WIOA, which we passed 
and expanded a couple years ago, has a lot of money into it, 
and the Governors now have the authority to tailor-make the 
applications for those funds for purposes for training and 
employment that allow you to take a segment like veterans and 
appeal directly to them, so you can kind of customize your 
State program.
    So, I would encourage--you have been with some wonderful--
you have got three great degrees from Princeton, Harvard, 
places I could not get into on a bet, and I commend you for 
that. You have been in the Marine Corps. You have been with 
Harley-Davidson. You have been all over the place, done a great 
job, and have a great reputation.
    This is your chance to shine and make us shine as well. So, 
you have got the encouragement and support of this Committee 
and will have it, I am sure, to help you in any way possible. 
Further, I urge you to be a risk taker, be aggressive, do 
whatever you can to make the assets that are available to our 
veterans and our States and the assets that are available to 
them through the U.S. Department of Labor aware in every 
veteran's mind and every VSO and other support organizations to 
know the same thing because with knowledge is power and with 
power is employment and with employment is a satisfied vet. 
That is what we want to have.
    In the absence of any other questions, since everybody but 
Richard has left me, I guess we can--I guess you dodged the big 
bullet, so----
    Senator Blumenthal. I am always with you, Mr. Chairman.
    Chairman Isakson. He is my wingman.
    We will adjourn this hearing. Congratulations on your 
nomination and great to see you, Mr. Lowry.
    Mr. Lowry. Thank you, Mr. Chairman.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]



  NOMINATION OF ROBERT L. WILKIE TO BE SECRETARY, U.S. DEPARTMENT OF 
                            VETERANS AFFAIRS

                              ----------                              


                        WEDNESDAY, JUNE 27, 2018

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:27 p.m., in 
room G50, Dirksen Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Heller, Cassidy, 
Rounds, Tillis, Sullivan, Tester, Murray, Sanders, Brown, 
Blumenthal, Hirono, and Manchin.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
              CHAIRMAN, U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee together for purpose of a 
confirmation hearing for the nominee for the next Secretary of 
the Veterans Administration.
    Before we introduce the nominee for his remarks, the 
Ranking Member and I will make opening remarks, and then we 
will turn it over to Senator Tillis who will officially 
introduce our nominee. Then, we will go to questions and 
answers after our nominee's testimony.
    Yesterday in Atlanta, GA, a sad occasion and a tragedy took 
place when a veteran of the United States military set himself 
on fire and was severely injured near the State capitol. Being 
my homestate, my home city, my country, my capitol, and a 
veteran, I immediately called home to find out about the 
circumstances of the situation.
    I am very proud of the response that was given to him 
almost instantaneously. The VA, in my conversation with them, 
were doing everything they could to ascertain everything that 
had led up to this incident and everything that they had done 
and everything that could have been done, and I am satisfied 
with the information that I have to date that their response 
has been thorough and complete.
    Obviously saving the veteran's life is the number 1 goal 
and priority, which is in the process of being done now, and we 
hope and pray that will happen.
    The reason I bring it up is this. We have had a situation 
here for my last 4 years here on the Committee where every 
headline I ever saw about the VA was about something that 
happened 5 years ago that was wrong or bad, never about 
something happening now that is good. We have had so much good 
stuff happen, the Chairman--myself and the Ranking Member from 
Montana--that I just thought it was time to say this. We want 
to make good headlines. We want to confront every tragedy when 
it happens and do everything we can to put every resource 
behind it and see to it that it never happens again.
    We also want to uplift those in the VA that are doing so 
much to make the VA a better VA today than it was in the past. 
Senator Tester and I are going to work as hard as we can to see 
that happens, and I am confident that Republicans and Democrats 
on this Committee will do the same thing.
    We have a respected, talented nominee for Secretary who you 
will hear from in just a little bit. We will go through this 
hearing today. Hopefully, if everything goes smooth, in the 
near future, we will have a Secretary sitting on the 
President's Cabinet for the Veterans Administration who will 
begin building forward on the legislation this Committee has 
passed in the last 2 years to make caregivers possible, 
accountability possible, better health care for our veterans 
possible, accessibility for veterans who live in rural, 
sparsely-populated areas are cared for.
    We have done a plethora of things to improve the plight, 
the service, and everything we give to our veterans in terms of 
VA health services. Senator Tester and I are going to see to it 
that we put a cherry on top of that sundae and every day is a 
good day at the VA and a better day for all the veterans of 
America.
    With that said, I introduce our Ranking Member, Jon Tester.

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman. Our thoughts 
are certainly with the family of the veterans and certainly 
with the folks of Georgia and with you because what happened in 
Georgia is not good news. It is not the kind of news we ever 
want to hear about a veteran in this country. Just know that we 
are going to continue to work together, as the Chairman said, 
to make the VA all it can be, so thank you, Mr. Chairman.
    Robert, it is good to see you. It is good to have you here 
today. I appreciate your willingness to serve as Acting 
Secretary, and I appreciate your willingness to step forward 
now during what I believe are unprecedented times at the VA.
    If confirmed--and you know this--you will be tasked with 
ensuring that our Nation's veterans have access to timely care, 
services, benefits, both housing, education, and others that 
they have earned.
    You will also be expected to treat every veteran, 
regardless of gender, race, sexual orientation, with the 
dignity and the respect that they deserve.
    Today, this Committee is here to determine whether you are 
the right person for the job. Every new administration brings 
its own priorities and its own people to the table. That 
transition period can often lead to turmoil and confusion and 
can generate uncertainty inside and outside the agency, but 
from my perspective, the VA has always been above that fray.
    The sacred mission of serving our veterans and their 
families has always transcended personal and political 
agendas--or political affiliations.
    Since I have been in this Committee, I have worked with Jim 
Nicholson as closely as I worked with Eric Shinseki, and I also 
worked with Jim Peake as closely as I worked with Bob McDonald. 
Each of them were focused on how best to serve the veterans, 
and they did not allow politics to get in the way of the 
progress.
    Recently, we have seen VA political appointees work 
actively and publicly to undermine a Secretary and a Deputy 
Secretary who were unanimously confirmed by the Senate.
    As we speak, the Secretary and Deputy Secretary positions 
are vacant within the VA, while those same political appointees 
continue to collect paychecks from the VA.
    We are seeing nonpartisan senior leaders and subject-matter 
experts leave the VA in unprecedented numbers. Many are 
concerned that the sound policies and ideas are being 
increasingly marginalized at the expense of politics.
    We are seeing VA implement reform after reform in a manner 
that is inconsistent with congressional intent.
    We are seeing political interest groups given a seat at the 
table instead of veterans service organizations.
    We are seeing VA leadership, none of whom have been 
confirmed, lash out at anyone who is seeking true transparency.
    In the last couple of weeks, the VA's official media 
account has attacked news outlets as ``fake news.'' The VA's 
official media account has attacked news outlets as ``fake 
news,'' and the Acting Secretary has improperly claimed that 
the independent Inspector General is his subordinate, which 
could not be further from the truth.
    I hope that you agree that this type of behavior undermines 
the VA's mission, and it does a disservice to the millions of 
veterans who rely upon VA services. And, I hope that everyone 
at the VA who was watching last week when the Senate voted 96 
to nothing to reaffirm the independence of the VA IG.
    Federal agencies cannot be trusted to police themselves. 
Veterans and taxpayers need to know that the VA is not above 
the law.
    So, Robert, I need to know that you are the guy who 
understands the VA has larger challenges ahead, and I think you 
do. It simply cannot afford to get weighed down by unforced 
errors.
    Veterans are counting on the VA to implement the MISSION 
Act within the next year, and it needs to be done with more 
transparency than the Accountability Act. Congress has provided 
the VA ample time to roll out the MISSION Act and to get it 
done and to get it done right. If it does not happen, the buck 
stops with you. Congress and veterans will hold you 
accountable, and I think you understand that.
    I am already concerned the Department is not as ready as it 
should for this monumental undertaking of the MISSION Act. For 
example, VA is supposed to be contracting for Community Care 
Networks that will help facilitate a veteran's access to 
community care. Those dates have been pushed back multiple 
times now. I am concerned about that and I hope you are, too.
    We will also be accounting on you to ensure that care 
inside the VA is accessible and of the highest quality. 
Congress has provided the VA with tool after tool to better 
carry out its mission, and by the leadership, I might say, of 
Chairman Isakson, they provide those tools. But, far too often, 
the VA has failed to properly utilize those tools to deliver 
better outcomes for veterans. This absolutely needs to change. 
I am going to be looking to you as the person who is ultimately 
responsible to make this happen.
    Robert, I appreciate our working relationship. As I have 
told you recently, I believe you are a straight shooter, and I 
think that when confronted with a decision about what is best 
for veterans, you will act with the best of intentions. The 
question is how that decision will ultimately be impacted by 
the influence of others, whether talking about political 
appointees at the VA or over at the White House.
    Sooner or later, you are going to come to a crossroads with 
these folks. That is what happened to David Shulkin. That is 
what happened to Tom Bowman, and that is what happened to 
countless other folks who are no longer with the Department.
    My only advice to you is to take the cues from the 
veterans, the folks that are sitting in this audience, and do 
what you think is right, even if political forces threaten your 
job, because I want you to succeed. I really want you to 
succeed. I think the veterans across this country--in fact, I 
know the veterans across this country want you to succeed too.
    This post requires courage, honesty, integrity, and a 
vision for the future. Leading this Nation's largest health 
care system is no small task, and it depends the very best.
    I look forward to our discussion today, and once again, I 
want to thank you for your willingness to serve on behalf of 
this Nation's veterans.
    Thank you.
    Chairman Isakson. Thank you, Senator Tester.
    I am now going to introduce Senator Thom Tillis from North 
Carolina for the purpose of introducing our nominee, after 
which I will administer the oath, and then he will have his 
testimony.
    Senator Tillis.

               INTRODUCTION BY HON. THOM TILLIS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chairman.
    Chairman Isakson, Ranking Member Tester, and distinguished 
Members of the Committee, I am proud to introduce my friend and 
colleague, Robert Wilkie, as the nominee for Secretary of the 
VA.
    I have had the honor of working with Robert for 3 years 
now. Sometimes he worked for me, and many times I worked for 
him. His combination of knowledge, humor, humility, and heart 
has endeared him to all of my staff and to scores of North 
Carolina constituents, many of them veterans and 
servicemembers.
    Robert was born in Frankfurt, Germany, the son of an Army 
artillery officer. He literally grew up on Fort Bragg, and he 
lived most of his early life on Fort Bragg or in Fayetteville, 
NC. He received his BA from Wake Forest University, his JD from 
Loyola College of Law in New Orleans. He received his Master of 
Laws from Georgetown University and his Masters in Strategic 
Studies from the U.S. Army War College.
    Robert is an intelligence officer in the U.S. Air Force 
Reserves today. Previously, he served in the Atlantic 
Intelligence Command and Joint Forces Intelligence Command, and 
he also served in the U.S. Navy.
    He has long been regarded in Washington--and been held in 
high regard in Washington--especially here on Capitol Hill, 
where he has developed close relationships with members on both 
sides of the aisle. He has also forged an excellent working 
relationship with the Committee and the Committee staff, and he 
is universally recognized as a team player and a mentor.
    Throughout his distinguished career in public service, 
Robert has also been a trusted advisor to some of the Nation's 
most respected leaders, including Condoleezza Rice, Robert 
Gates, Donald Rumsfeld, and Secretary Mattis.
    Frankly, given his depth of experience, I was pleasantly 
surprised and very proud to have Robert accept a position with 
a newly sworn-in freshman Senator. It was clear to me from the 
start, he was destined to serve the Nation at a higher level.
    And, last year, Robert received that call from the 
administration when he was nominated to be the Under Secretary 
of Defense for Personnel and Readiness. Robert demonstrated his 
extraordinary skills in just a few short months. So, it was no 
surprise to me that the administration identified him as the 
perfect fit to become the Secretary of the VA.
    When he was appointed to the acting role as VA Secretary, 
he quickly worked to improve morale at the VA, earning strong 
reviews and trust from VSOs and Members of Congress and the VA 
staff.
    He moved decisively to execute the electronic health record 
project, which we all know is a critical part of the VA 
transformation, and he also successfully pushed through the VA 
MISSION Act to the finish line.
    Robert has all the education and professional experience 
required to be the Secretary of the VA. Yet, perhaps what makes 
Robert best suited for the job is his lifelong experience as an 
Army brat and the personal experience as the son of a gravely 
wounded soldier and being a servicemember himself.
    He has literally lived the experience, so I know that 
Robert will bring his professional experience and his personal 
insight and an intensity to the role that will serve our 
veterans well.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you very much, Senator Tillis.
    Would you please rise, Robert, and raise your right hand to 
affirm your pledge. Do you solemnly swear or affirm that the 
testimony you are about to give before the U.S. Senate 
Committee on Veterans' Affairs will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Wilkie. I do.
    Chairman Isakson. Please be seated, and please introduce 
your lovely wife, Julie, so that everybody can get an eye on 
her.

STATEMENT OF ROBERT L. WILKIE, NOMINATED TO BE SECRETARY, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Wilkie. Thank you, sir. My wife Julie is behind me. We 
have known each other since we were youngsters growing up in 
Fayetteville. As you know, Mr. Chairman, she has a very strong 
Georgia connection. Her grandmother was from Folkston, GA, and 
just----
    Chairman Isakson. That is the real swamp.
    Mr. Wilkie. That is the real swamp. That is right. 
[Laughter.]
    And, just as in 2006 and 2017, she is with me; nothing that 
I have achieved would have been possible without her.
    Mr. Chairman, Senator Tester, and distinguished Members of 
the Committees on Veterans Affairs, this is the third time I 
have appeared in the confirmation chair.
    I mentioned how long I have known my wife, and one of the 
aspects of our relationship in those early years is that our 
high school was about three blocks away from the Fayetteville 
Veterans Hospital. Every day on our way to and from high 
school, we would see a sign outside the Veterans Hospital that 
says that the price of freedom is visible here.
    So, I am humbled today not only by the confidence placed in 
me by the President of the United States and the support of our 
veterans service organizations, but to be introduced by Senator 
Tillis. Having grown up in the military world, he exemplifies 
what all of us from that world strive to be, and that is 
servant-leader.
    As the Senator said, I have been privileged to experience 
military life from many angles. As the son of a gravely wounded 
combat soldier, as an officer, as a senior leader in the 
Pentagon, including leading the reform of the Defense Health 
Agency, and for 8 weeks as the Acting Secretary of the 
Department of Veterans Affairs.
    My modest military service was inspired by my ancestors. I 
walked the field of Shiloh with my great-grandfather, Colonel 
Abram Somerville. As a young captain of field artillery, he 
witnessed thousands perish in a matter of minutes in the Battle 
of the Meuse Argonne in 1918. In the short time that I was 
privileged to know him, he impressed upon me the cost paid by 
ordinary Americans caught up in the incommunicable experience 
of war.
    Mr. Chairman, as Senator Tillis noted, my own life changed 
when my father returned from his second combat tour in Vietnam. 
I was 7 when we received the word that he had been terribly 
wounded. When he came home after almost a year in Army 
hospitals, he weighed less than half of what he did when he 
left. I watched his agonizing recovery, and that experience was 
on my mind when I was asked to come to VA.
    As Acting Secretary of Veterans Affairs, I visited five VA 
hospitals in 8 weeks, met with the combined leadership of our 
three major VA components--Benefits, Health, and Cemeteries--
and visited our Claims Processing center in Baltimore as well 
as the Maryland Veterans Treatment Court. It was clear to me 
that the veterans population is changing faster than we 
realize. For the first time in over 40 years, half of our 
veterans are now under the age of 65. Of America's 20 million 
veterans, 10 percent are now women. The new generation is 
computer savvy and demands 21st century service, service that 
is quick, diverse, and close to home. For the VA to thrive as 
an integrated health care network, it must be agile and 
adaptive.
    But, more importantly, as I mentioned to Senator Sanders in 
our meeting last week, I experienced what can and will never be 
duplicated in the private sector, and that is the communal 
aspect of VAs. What does that mean? It means that when our 
veterans walk into any VA facility, they converse with men and 
women who speak the unique language of military service.
    So, what are the priorities? First, improve the culture; 
offer world class customer service. Second, improve access to 
care through implementation of the MISSION Act and 
transformative IT modernization, such as the Electronic Health 
Records programs. Reduce the backlog of claims and payments, 
and finally, business transformation including reform of our 
human resources system.
    Mr. Chairman, the prime directive is customer service. When 
an American veteran comes to VA, it is not up to him to employ 
a team of lawyers to get VA to say yes. It is up to VA to get 
the veteran to yes, and that is customer service.
    Many of the issues I encountered as Acting Secretary were 
not with the quality of medical care but with getting our 
veterans through the door to reach that care. Those problems 
are both administrative and bureaucratic. Alexander Hamilton 
said that the true test of a good government is its aptitude 
and tendency to produce a good administration, and that is 
where VA must go.
    The new Electronic Health Record system is the first step 
to modernize VA. It modernizes our appointment system. It is 
also the template to get us started on the road to automate 
disability claims and our payment claims, particularly to our 
providers in rural America and those who administer emergency 
care. More importantly, the interoperability of the new 
Electronic Health Records system will connect VA to the DOD, 
private doctors, and private pharmacies to create a continuum 
of care and organize health care around our veteran's needs. 
This is also our opportunity to turn the corner and be an 
industry leader on opioid abuse intervention and suicide 
prevention.
    Business transformation to standardize our policies and 
procedures across the integrated service networks is also 
essential if we are to move past the mid-1990s 
compartmentalized model and give power to the professionals 
closest to our veterans. This means reforming human resources, 
to give those same people more leeway to manage their budgets 
and recruit, retain, and relocate the staff they need to serve 
veterans.
    Transformation also means entering into more robust 
partnerships with our State and local communities to address 
veteran homelessness that particularly plagues our Vietnam 
veterans who also suffer the highest rates of suicide.
    We are also pledged to help veterans transition to a new 
life in education and nonmilitary careers. If confirmed, I will 
leverage VA's partnership with Labor, Small Business 
Administration, Defense, and other agencies to carry out this 
pledge.
    Mr. Chairman, as Secretary Mattis said when this Congress 
passed a $700 billion Defense budget, there are no more 
excuses. You and the Ranking Member have infused VA with a $200 
billion budget. You have passed the Accountability Act, to 
shake up complacency, and you have passed the MISSION Act to 
bring the institutional VA, community care, and caregivers 
closer together. The future now is up to the Department.
    I would like to take the opportunity to close with a charge 
from President Eisenhower. Five months after his inauguration, 
about 40 Korean War veterans climbed aboard Presidential yacht 
Williamsburg, docked about 2 miles from where we were sitting. 
Many of those veterans were missing limbs, and some were 
horribly disfigured. When Ike arrived at the pier, the Secret 
Service ran up the plank to separate the President from his 
troops. Seeing that, Eisenhower yelled, ``Halt. I know these 
men.''
    The agents retreated, and the soldiers gathered around the 
President. He asked to address them at attention, and those who 
could did stand, but he said that there was nothing that the 
country could do for them to compensate what they had given to 
America. Though, he also said, ``You never put your uniform 
away. You have to get well to remind your countrymen every day 
that freedom is never free.''
    Mr. Chairman, that is why VA must succeed. It is to remind 
Americans every day that freedom is not free.
    Mr. Chairman, I thank you and look forward to the 
questions.
    [The prepared statement of Mr. Wilkie follows:]
    Prepared Statement of Robert L. Wilkie, Nominee for Secretary, 
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Senator Tester and distinguished Members of the 
Committee on Veterans Affairs. This is the third time I have appeared 
in the confirmation chair. Just as in 2006 and 2017, my wife Julie is 
with me. We have known each other since we were youngsters in North 
Carolina. Our high school was two blocks from the Veterans Hospital in 
Fayetteville. On our way to and from school we could not help but read 
the sign at the entrance--``The price of freedom is visible here.''
    I am humbled today not only by the confidence placed in me by the 
President and the support of our Veterans Service Organizations, but to 
be introduced by Senator Tillis. No one better exemplifies what those 
of us who have come through the military world strive to be--a servant 
leader.
    I have been privileged to experience military life from many 
angles, as the son of a gravely wounded combat soldier; as an officer; 
as a senior leader in the Pentagon, including leading the Defense 
Health Agency reform, and eight weeks as Acting Secretary of Veterans 
Affairs.
    My modest military service was inspired by my ancestors. I walked 
the field of Shiloh with my great grandfather, Colonel Abram 
Somerville. As a young captain of field artillery, he saw thousands 
perish in minutes in the Meuse Argonne in 1918. In the short time that 
I was privileged to know him, he impressed upon me the cost paid by 
ordinary Americans caught up in the incommunicable experience of war.
    Mr. Chairman my own life changed when my father returned from his 
second combat tour in Vietnam. I was seven when we received a message 
that he had been terribly wounded. When he came home after a year in 
military hospitals, he weighed less than half of what he did when he 
left us. I watched his agonizing recovery and that experience was on my 
mind when I was asked to come to VA.
    As Acting Secretary of Veterans Affairs, I visited five VA 
hospitals across the country--met with the combined leadership of our 
three major VA components--Benefits, Health and Cemeteries--and visited 
our Claims Processing center in Baltimore and the Maryland Veterans 
Treatment Court presided over by my childhood friend, Judge Halee 
Weinstein.
    It is clear that the Veterans population is changing faster than we 
realize. For the first time in forty years--half of our veterans are 
under the age of sixty-five. Of America's twenty million veterans, ten 
percent are now women. The new generation is computer savvy and demands 
21st century service--service that is quick, diverse and close to home. 
For the VA to thrive as an integrated health care network, it must be 
agile and adaptive.
    More importantly, I experienced what can never be duplicated in the 
private sector--the communal aspect of VA. What does that mean? It 
means that when our veterans walk into any of VA facility they converse 
with men and women who speak the unique language of military service.
    What are the priorities?

    <bullet> Improve the culture--offer world class customer service
    <bullet> Improve access to care through implementation of the 
MISSION Act and transformative IT Modernization such as the Electronic 
Health Records Program.
    <bullet> Reduce the backlog of claims and payments.
    <bullet> Business transformation including reform of the human 
resource systems

    Mr. Chairman, the prime directive is customer service. When an 
American veteran comes to VA it is not up to him to employ a team of 
lawyers to get VA to say YES. It is up to VA to get the Veteran to 
YES--that is customer service.
    Many of the issues I encountered as Acting Secretary were not with 
the quality of medical care but with getting our veterans through the 
door to reach that care. Those problems are administrative and 
bureaucratic. Alexander Hamilton said, ``The true test of a good 
government, is its aptitude and tendency to produce a good 
administration.'' That is where VA must go.
    The new Electronic Health Record system is the first step to 
modernize our appointment system, it is also the template to get us 
started on the road to automate disability claims and our payment 
claims particularly to our providers in rural America and those who 
administer emergency care. More importantly, the interoperability of 
the new electronic health records system will connect VA to the DOD, 
private doctors and private pharmacies to create a continuum of care 
and organize the healthcare around our veteran's needs. This is also 
our opportunity to turn the corner and be an industry leader on opioid 
abuse intervention and suicide prevention.
    Business transformation to standardize our policies and procedures 
across the VISNs is also essential if we are to move past the mid-1990s 
compartmentalized model and give power to the professionals closest to 
our veterans. This means reforming human resource systems to give those 
same people more leeway to manage their budgets and recruit, retain and 
relocate the staff they need to serve veterans.
    Transformation also means entering into more robust partnerships 
with our state and local communities to address Veteran homelessness, 
that particularly plagues our Vietnam Veterans who also suffer the 
highest rates of suicide.
    We are also pledged to help veterans transition to a new life in 
education and non-military careers. If confirmed, I will leverage VA's 
strong partnership with Labor, Defense, and other agencies to carry out 
this pledge.
    Mr. Chairman, as Secretary Mattis said when this Congress passed a 
$700 billion Defense budget, there are no more excuses. You have 
infused VA with a $200 billion budget, you have passed the 
Accountability Act--to shake up complacency--and you have passed the 
Mission Act to bring the institutional VA, community care and 
caregivers closer together. The future is up to the Department. If 
confirmed, I pledge to help build on your work.
    I would like to close with a charge from President Eisenhower.
    Five months after his inauguration, about forty Korean War Veterans 
climbed aboard the yacht Williamsburg--many were missing limbs, some 
were horribly disfigured. When Ike arrived at the pier, the Secret 
Service ran up the plank to separate the President from his troops. 
Seeing that, Eisenhower yelled ``Halt! I know these men.'' The agents 
retreated, and the soldiers gathered around the President. He addressed 
them at attention and said there was nothing the country could do for 
them to compensate for what they had given to America but, he said, 
``You never put away your uniform. You must get well, to remind your 
countrymen every day that freedom is never free.''
    Mr. Chairman that is why VA must succeed--to remind Americans every 
day that freedom is not free.

                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                ------                                

    [Letter from Robert L. Wilkie to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

                                                     June 21, 2018.
Ms. Catherine Mitrano
Designated Agency Ethics Official
Office of the General Counsel
Department of Veterans Affairs
Washington, DC
    Dear Ms. Mitrano: The purpose of this letter is to describe the 
steps that I will take to avoid any actual or apparent conflict of 
interest in the event that I am confirmed for the position of Secretary 
of the U.S. Department of Veterans Affairs.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    I resigned from my position with the Jesse Helms Center and 
Foundation on November 1, 2017. For a period of 1 year after my 
resignation, I will not participate personally and substantially in any 
particular matter involving specific parties in which I know the Jesse 
Helms Center and Foundation, is a party or represents a party, unless I 
am first authorized to participate, pursuant to 5 C.F.R. 
Sec. 2635.502(d).
    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
C.F.R. Sec. 2640.20l(a), obligations of the United States, or municipal 
bonds.
    I understand that as an appointee I must continue to abide by the 
Ethics Pledge (Exec. Order No. 13770) that I previously signed and that 
I will be bound by the requirements and restrictions therein in 
addition to the commitments I have made in this ethics agreement.
    I will meet in person with you, or another designated ethics 
official, during the first 15 days of my service in the position of 
Secretary in order to complete the initial ethics briefing required 
under 5 C.F.R. Sec. 2638.305. Within 90 days of my confirmation, I will 
document my compliance with this ethics agreement by notifying you in 
writing when I have completed the steps described in this ethics 
agreement.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C. Sec. 552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
            Sincerely,
                                          Robert L. Wilkie.

                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 1. What do you see as the most significant challenges 
facing VA and what would be your highest priorities if confirmed as 
Secretary?
    Response. Customer service is the prime directive. When an American 
veteran comes to VA it is not up to him to employ a team of lawyers to 
get VA to say ``YES.'' It is up to VA to get the Veteran to ``YES''--
that is customer service. Most of the problems I encountered were not 
with medical care but with getting our veterans through the door to 
reach that care and receive the benefits they deserve. The problems are 
primarily administrative and bureaucratic.

    Question 2. How did your time as Acting VA Secretary inform your 
perspective on the role and what your priorities would be if confirmed 
as Secretary?
    Response. I learned from my 8+ weeks as Acting Secretary that the 
VA has thousands of great stories--of Veterans serving Veterans every 
single day, and that those stories need to be told. To do that I will 
commit to even greater transparency, communications, and continuing to 
bring the VA to the forefront of technology with electronic health 
records management (EHRM) and telehealth and further reducing opioid 
use/prescriptions--showcasing areas where we lead the Nation and in 
some cases the world. My priorities are to ensure the proper oversight 
and implementation of the MISSION Act, of the EHRM program, and of the 
Appeals Modernization backlog reduction legislation. I commit to 
unsurpassed communication with our partners in Congress, Veterans 
Service Organizations (VSOs), and Veterans to meet or exceed the 
deadlines required by law.

    Question 3. Would you please detail what experiences you have had 
while serving at the Department of Defense (DOD) that you believe have 
helped prepare you to lead VA?
    Response. Both former Secretary Bob Gates and Secretary Jim Mattis 
have believed that Personnel & Readiness (P&R), although the most 
important of the DOD Under Secretariats, was fundamentally broken--
morale was rock bottom and leadership was fractured. Secretary Gates 
referred to P&R as the dysfunctional family picnic. My priority was to 
restore morale. I walked the post and talked to the employees across 
the department. I replaced those who had been in their positions too 
long and promoted leaders who showed promise and new ideas. I directed 
that all outstanding NDAA directives--some going back to the FY 2010 
Act--be implemented including a DOD Sexual harassment policy; Defense 
Health Agency Reform and the Exceptional Family Member Program. This 
signaled to the staff and to the Department that P&R was a changed 
organization.
    Secretary Mattis rewarded P&R with what he considers his most 
important project--the Close Combat Lethality Task Force.
    P&R has the same complex history as VA. In scope it is every bit as 
large as VA--700,000 civilian employees (not to mention responsibility 
for the training and readiness of the entire uniformed force) plus the 
second largest health system in the United States. I intend to pursue 
the same leadership philosophy at VA that was used to right the P&R 
ship.

    Question 4. What do you see as the role of this Committee in 
conducting oversight regarding VA and what steps would you take to 
ensure that the Committee is promptly notified of any emerging trends, 
issues, or developments at VA?
    Response. This Committee is the strong partner of the Secretary to 
ensure he or she is making the best decisions on behalf of Veterans 
across this country. If confirmed, I will make the time to reach out 
personally and regularly to the Chairman and Ranking Member to make 
them aware of any issues. Additionally, my team in the Office of 
Congressional and Legislative Affairs will have real time information 
on the issues, trends, or developments that are briefed to me daily and 
will make Committee staff aware of emergent and systemic issues.

    Question 5. Congress recently passed S. 2372, the VA MISSION Act, 
to streamline the Veterans Choice Program and VA's other non-VA care 
programs into one program. Going forward, how do you envision expanding 
veterans' access to non-VA care while preserving within the Veterans 
Health Administration (VHA) the care and services VHA performs well?
    Response. If confirmed, I would like VA to continue its focus on 
the evolution of VA health care delivery, including investing in and 
growing foundational services, attracting and retaining high quality 
staff, using innovative technologies to optimize health outcomes, and 
enhancing partnerships to support education and training clinicians 
treating our Veterans.

    Question 6. Under the Veterans Appeals Improvement and 
Modernization Act, enacted in August 2017, the Secretary is responsible 
for certifying that the new system for processing veterans' appeals is 
ready before fully replacing the existing system. If confirmed, how do 
you intend to approach the responsibility of certifying that VA is 
prepared to implement the new system to timely address appeals, while 
at the same time addressing the more than 460,000 legacy appeals?
    Response. Through a series of initiatives that offer Veterans 
choices and streamline functions, VA is on track to ensure on time 
certification and implementation of the Appeals Modernization Act in 
February 2019 while reducing the wait time for those appealing 
disability benefits claims. The legacy appeals system is a lengthy, 
complex, and confusing system; ensuring that VA is ready to implement 
the new streamlined modernized appeals system will be one of my top 
priorities if confirmed. Currently, VA has taken a multifaceted 
approach to planning and I would continue the focus that the agency has 
placed on planning for this historic change.
    VA lines of business have been working collaboratively with 
internal and external stakeholders, to include VSOs, since prior to 
passage of the Appeals Modernization Act to ensure timely certification 
and successful implementation. I will continue to seek the advice of 
our stakeholders in order to determine readiness for certification, as 
required by the Act.
    Through this planning process, VA has identified risks, primarily 
among them is the stringent timeline for publishing regulations, and 
possible delays in the development of information technology necessary 
to update our computer processing systems. While VA has mitigation 
strategies in place for these risks, if confirmed I would continue to 
track progress, and evaluate any new or emerging risks.
    I am aware that VA needs decisive leadership action to address the 
legacy appeals inventory, but to be successful we also need assistance 
and support from our Congressional partners. As such, I urge you to 
approve the fiscal year (FY) 2019 President's Budget request for an 
additional 605 full time equivalents (FTE) for appeals processing at 
the Veterans Benefits Administration.
    However, despite the need for additional resources, VA has made 
some noteworthy gains through the use of innovative programs such as 
the Veterans Benefits Administration's Rapid Appeals Modernization 
Program (RAMP).
    Additionally, the Board of Veterans' Appeals is issuing decisions 
to Veterans and their families at historic levels. As a result of 
increased funding, the Board added personnel, primarily Veterans Law 
Judges and decision writing attorneys. The Board has modernized 
technology processes, enhanced training initiatives, and increased 
efficiencies. Through June 18, 2018, the Board has signed a (to date) 
record number, 58,557 decisions, which is more decisions than the Board 
has ever signed in a fiscal year.
    The Chairman, the Director of VBA's Appeals Management Office 
(AMO), and the Office of General Counsel (OGC) provide VA's Office of 
the Secretary with weekly updates on VA's progress with Appeals 
Modernization. VA's Office of Enterprise Integration conducts ongoing 
review and analysis. Additionally, the Board and AMO report on the 
Appeals Modernization Act implementation as part of the Agency Priority 
Goal (APG) Action Plan. Finally, the Board responds to all requests and 
inquiries from internal and external stakeholders.
    In sum, Appeals Modernization has garnered extensive attention and 
monitoring at the highest levels of the agency. This attention will 
ensure that any issues with the readiness indicators, such as the 
status of the rulemaking; lessons learned from the processing of 
higher-level reviews and supplemental claims in RAMP; and the status of 
IT systems development, are addressed and mitigated as necessary to 
ensure successful implementation. If confirmed, I would champion and 
encourage innovative solutions to deal with the legacy appeals 
inventory while improving service for Veterans.

    Question 7. Congress passed a law last year to give the Secretary 
of Veterans Affairs authority to hire critical employees and suspend or 
remove employees who don't meet the needs of the Department. If 
confirmed, how would you approach workforce management at VA, and what 
principles would you apply to ensure the right employees get hired and 
the wrong employees are removed?
    Response. Similar to the way DOD approaches workforce management, I 
intend to approach workforce management holistically--by addressing the 
entire employee lifecycle: recruitment, onboarding, developing and 
retention. My overall strategy will be to target one key performance 
indicator--how well we meet the needs of the Veterans we serve. I'll 
concentrate on using the VA healthcare system to maximize our ability 
to provide optimal care to Veterans. While some recent events have 
raised concerns about VA's staffing capabilities, I will work 
aggressively to address concerns from Congress, GAO and OIG to 
implement corrective measures and recommendations to ensure we are 
hiring the right employees to care for our Veterans.
    VA has recently established a manpower management office, and has 
updated its H.R. System of Record to enhance talent acquisition 
capabilities. I intend to continue with efforts already underway to 
develop new staffing models and decision matrices for medical 
facilities to use when setting specialty care staffing requirements. By 
benchmarking access, quality and staffing against similar healthcare 
systems, the VA established a databaseline, demonstrating the 
relationship between Veteran demand for specialty care services with 
corresponding cost, complexity and productivity factors. I'll use these 
models to identify facilities at risk of critical staffing shortfalls, 
and then validate and refine the models to provide a robust and 
comprehensive staffing capability.
    With respect to accountability, VA programs have a significant 
impact on millions of Americans, and the Department is accountable to 
our Veterans for the services it provides. Be assured that my guiding 
principles will fully demonstrate, by example, VA's obligation to 
maintain high standards of employee integrity, conduct, effectiveness, 
and service to the public. To ensure these principles are met, I will 
insist and expect that leadership at all levels promote a culture of 
accountability to make certain our Veterans are treated with respect 
and provided the services to which they are entitled, due to their 
service to our Nation. When employees fail to uphold these principles, 
I expect managers to judiciously employ corrective action based on 
their evaluation of an employee's misconduct or performance 
deficiencies and consider action that is reasonable and commensurate 
with the facts of the case.

    Question 8. Women constitute an ever-growing segment of the Armed 
Forces and, consequently, the overall veteran population. What do you 
see as the primary challenges to appropriately treating and serving 
women veterans in VA facilities?
    Response. VA provides full services to women Veterans, including 
comprehensive primary care, gynecology care, maternity care, specialty 
care, and mental health services. VA is on the forefront of information 
technology for women's health and is redesigning its electronic medical 
record to track breast and reproductive health care. VA also tracks 
quality by gender and, unlike other health care systems, has been able 
to reduce and eliminate gender disparities in important aspects of 
health screening, prevention, and chronic disease management.
    However, I believe that there are several challenges in meeting the 
demand of the increasing women Veteran population. While VA is training 
providers and other clinical staff, VA is unable to keep up the demand 
to have trained providers to care for women Veterans. By end of fiscal 
year (FY) 2017, VA reached the milestone of training more than 5,000 
VHA providers and nurses in the women's health mini-residency. VA has 
at least one Women's Health Primary Care Physician (WH-PCP) at all of 
VA's health care systems. In addition, 90 percent of community based 
outpatient clinics (CBOCs) had a WH-PCP in place. VA continues to train 
additional providers to ensure that every woman Veteran has the 
opportunity to receive her primary care from a WH-PCP. VA has 
implemented women's health care delivery models of care that ensure 
women receive equitable, timely, high-quality primary health care from 
a single primary care provider and team, thereby decreasing 
fragmentation and improving quality of care for women Veterans.
    Additionally, privacy and safety for women Veterans needs to remain 
a high priority for VA. If confirmed I will ask that VA continue 
working to improve standards and maintain its facilities to provide 
gender-specific healthcare delivery in a sensitive and safe 
environment.

    Question 9. Given your experience as a military leader, what 
priorities would you pursue, if confirmed as Secretary of VA, to work 
on with DOD in order to improve the transition from military service to 
civilian life? Is there anything you would recommend DOD do differently 
to improve veterans' overall well-being?
    Response. If confirmed, I will continue the improvements we've 
begun with the Transition Assistance Program (TAP). While I was serving 
as Acting Secretary, VA released updated curricula to the VA portion of 
TAP, making an already valuable program for Veterans even better. Using 
adult learning research and past participant recommendations, the new 
VA Benefits I and II curricula for TAP were developed to be 
collaborative and stimulating, helping servicemembers make informed 
decisions about their health care, employment, housing, and other 
transition benefits. Suggestions made by Veterans, VSOs, and post-9/11 
Veteran groups included taking a more holistic view of a 
servicemember's new life, including the psychosocial aspects of the 
transition to civilian life. The implementation of the new electronic 
health record will also serve as a key enabler and allow us to focus on 
the most ``at risk'' transitioning servicemembers. Additionally, the 
President's Executive Order 13822 tasked VA/DOD-DHS to develop a joint 
action plan to address the complex problems of transitioning 
servicemembers. Our implementation of these initiatives, to include 
early and constant contact and peer support. will also improve the 
transition process.
    Given that no two transitions are the same, the updates deliver 
elements relevant to each transitioning servicemember based on where 
they are in their transition. This redesign will encourage whole health 
support for servicemembers and their family members, include relevant 
information about VSOs and allow time for familiarization with local 
VSO representatives.
    With respect to DOD, I would encourage strong collaboration to 
enable the deployment of Military Life Cycle concepts throughout 
Servicemembers careers, where VA and partner agencies will deliver 
timely and useful education and services at multiple touchpoints, so 
servicemembers can access the benefits and services at the times they 
need them in the manner they desire throughout their lives.
    Coming from Department of Defense, I am familiar with the TAP 
program, and I believe these changes will strengthen the program and 
provide real-life relevance to those who have given a portion of their 
lives to serving our nation.

    Question 10. The National Cemetery Administration (NCA) has 
repeatedly earned the highest customer satisfaction score among the 
private or public sectors, yet the American Customer Satisfaction Index 
ranked the Department of Veterans Affairs third last in customer 
satisfaction among Federal agencies for 2015. What factors set NCA so 
far apart from the rest of VA and how would you leverage their best 
practices to improve customer satisfaction across the rest of the 
department?
    Response. NCA's high level of customer satisfaction can be 
attributed to several factors. There is a commitment from senior 
leadership and all levels of the organization to provide the best 
service possible to Veterans and their families. This is accomplished 
through continuous process improvement. For example, NCA has 
established an Organizational Assessment and Improvement Program based 
on Malcom Baldridge criteria for organizational excellence. Standards 
and measures for each cemetery are aligned with drivers of customer 
satisfaction and clearly defined with input from all levels of the 
organization. Cemeteries are evaluated against those criteria on an 
annual basis and employees are held accountable. Tools are provided to 
enable success and to communicate expectations, such as a robust 
training program at NCA's National Training Center in St. Louis, MO. 
NCA also collects quarterly survey feedback from stakeholders 
(Veterans, family members, funeral home directors) to validate what the 
organization is doing well, as well as to make improvements when 
needed. Finally, the composition of the NCA workforce is unique. Nearly 
three quarters of the employees in the field are Veterans, which 
provides NCA an exceptional sense of pride and ownership regarding the 
operations and maintenance of our national shrines.
    Many of NCA's best practices are already being employed and 
leveraged within the department. For example, VA's Veterans Experience 
Office (VEO) is working to enable the department to be the leading 
customer service organization in government. VEO is capturing Veteran 
feedback and is implementing solutions based on Veteran-centered 
designs and industry best practices. Forrester's 2018 Customer 
Experience Index reported that VA was one of two Federal agencies to 
improve in customer experience, in the past year. VA is also seeking to 
centralize certain administrative functions to provide more efficient 
and effective support services to the field.

    Question 11. VA has been criticized in the past for a lack of 
coordination between its Benefits Administration and Health 
Administration. Do you think these two major arms of the Department 
need to better align their efforts to improve wellness among the 
veterans they serve?
    Response. Business practices in huge bureaucracies can always stand 
to be improved. If confirmed I will ensure that the VA improves its 
overall customer service to ensure Veterans are at the center of 
everything the department does and that Veterans have a growing 
confidence that VA is working with them to provide high quality health 
care and benefits.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Robert 
  L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department of 
                            Veterans Affairs
    Question 1. If confirmed, how would you address instances where 
your vision and the White House's are not aligned?
    Response. I had the privilege in the 8+ weeks at the VA to meet 
with the President for several hours. He and General Kelly, have open 
door policies and in the event that our opinions differ, we will have 
ample opportunity to discuss.

    Question 2. Describe how you managed the Department during your 
tenure as Acting Secretary. Did you take a hands-on role in the day-to-
day operation of the Department? Please describe significant actions 
you made during your tenure as Acting Secretary that are specific to 
each of the Department's three administrations.
    Response. I come from a long line of military service. You are 
taught to ``walk your post'' and talk to the Veterans who utilize our 
facilities day in and day out. During my short 8+ weeks I was able to 
visit five VA hospitals across the country--meet with the combined 
leadership of three major VA components--Benefits, Health and 
Cemeteries--and visit the Claims Processing center in Baltimore and the 
Maryland Veterans Treatment Court.
    My goals for the short time I was the Acting Secretary were 
straight forward. Restore morale and collaborate and clear any 
Department hurdles to allow this Committee to pass the groundbreaking 
MISSION Act. I wanted to quickly do my due diligence on the EHRM 
program/contract to ensure Veterans and their providers will have the 
best technology at their fingertips and the best transition of care 
from DOD to the VA for generations, third, I wanted to lead the effort 
to get back to great customer service for Veterans at all facilities by 
calming the waters and moving VA forward. I achieved those goals.

    Question 3. What are your top three specific and measurable goals 
as Secretary of Veterans Affairs and how would you achieve them?
    Response. My three goals are to ensure the proper oversight and 
implementation of the MISSION Act, of the EHRM program, and of the 
Appeals Modernization backlog reduction legislation. VA has established 
working groups that meet weekly and if confirmed, I will get frequent 
updates in daily meetings and ``walk my post'' to visit with those 
teams and get personal updates as well. I commit to transparency (and 
competence) with our partners in Congress, VSOs, and Veterans to meet 
or exceed the deadlines required in law.

    Question 4. One of the Secretary's major roles on an annual basis 
is developing and then defending VA's budget for a given year. Do you 
anticipate working within the limits established by the Office of 
Management and Budget or going to the President to advocate for the 
level of funding that is needed to fully fund the Department in the 
coming year?
    Response. I will advocate for the level of funding that I believe 
is needed to fund the VA's critical mission to both OMB and the 
President. It's my responsibility to successfully justify my budget 
request such that we are all in agreement that the resource request is 
both adequate and reasonable.

    Question 5. The sheer size and scale of the Department necessitates 
a Secretary having the ability to appropriately delegate 
responsibilities while ensuring that initiatives are executed according 
to leadership's vision. How do you envision making sure your direction 
to the field is carried out correctly, in a non-military organization?
    Response. VA is embarking on the largest transformation and 
modernization effort in recent history. The scale and criticality of 
these efforts requires management discipline and strong governance. I 
will review and validate the strategic objectives of each initiative, 
Administration and Staff Office. Based upon this review, it may be 
necessary to adjust or adapt our execution plans. As we implement 
plans, I will apply a consistent governance process to measure progress 
against anticipated milestones, anticipate and mitigate risk, and hold 
leaders accountable.

    Question 6. a. During your tenure as Acting Secretary, did you make 
a point to meet with members of the labor unions? If confirmed, what 
will be your plan to work with employee unions? Do you believe they 
play an important role in bridging communication between VA employees 
and management? What is your experience in dealing with unions or 
employees who have collective bargaining rights?
    Response. I specifically did not meet with our labor union partners 
because of ongoing negotiations and the expectation that I would return 
to the Department of Defense as the Under Secretary of Defense for 
Personnel & Readiness. It is my desire to work with our labor partners 
and develop innovative solutions to ensure all groups are on the same 
page and working hard to improve Veterans' healthcare. I believe if we 
put Veterans first during our discussions with our labor partners, the 
outcome will be better services and benefits to our Nation's Veterans 
and their families.

    b. Do you believe they play an important role in bridging 
communication between VA employees and management?
    Response. In some cases, I believe the unions can be an important 
part of the discussion with our employees regarding the changing 
environment in which we find ourselves. At the same time, management is 
responsible for managing the Department. VA management can always do 
better when communicating with employees at the front lines of 
providing care and benefits for our Veterans. The discussion leadership 
needs to have with our labor partners and the employees they represent 
is acknowledging that our sole purpose is to serve Veterans. And we can 
only accomplish this together by implementing the modernization of the 
Department of Veterans Affairs. We need to have this discussion and 
remember to preface every idea with putting Veteran's first. Management 
and labor must speak from the same book to modernize the Department and 
become more efficient in delivering care and services to our Nation's 
Veterans.

    c. What is your experience in dealing with unions or employees who 
have collective bargaining rights?
    Response. As a military officer and leader, I have had the 
opportunity to engage with Federal unions throughout the Department of 
Defense. I have always maintained a productive relationship with 
Federal employee unions without compromising the mission, no matter the 
issue.

    Question 7. Last year Congress passed legislation that made it 
easier for the Department to sanction underperforming employees. VA has 
been using the new authorities in this legislation in a fairly severe 
way against people who have minor first time offenses. Will you commit 
to reviewing how VA is utilizing this authority? Moving forward, how 
would you ensure that the law is executed fairly and uniformly? Please 
describe your leadership philosophy, specifically including whether you 
believe people should be afforded opportunities to correct their 
behavior and work, or whether you support firing and removal for first 
offenses.
    Response. I am committed to improving accountability and enhancing 
transparency throughout the Department. My commitment includes the fair 
and uniform application of corrective measures. In my experience, the 
vast majority of Federal employees are diligent stewards of the public 
trust. However, when an employee violates that trust, through 
misconduct or extremely poor performance it is essential that they be 
held accountable. The necessary actions for that accountability will 
vary depending on the specifics of the individual case. In egregious 
cases or repeated offenses, removal is entirely appropriate. I agree 
that minor, first offenses or correctable performance deficiencies 
should not automatically be met with removal. In those instances 
employees should be afforded the opportunity to correct their behavior 
or bring their work product to a satisfactory level.

    Question 8. Will you commit to quarterly meetings to update this 
Committee on progress the Department has made on recommendations from 
OIG, GAO, OSC, and other investigative reports? Who is responsible 
within VA for tracking and ensuring that these recommendations are 
implemented?
    Response. I will commit to updating this Committee on progress the 
Department has made on recommendations received. The Office of 
Accountability and Whistleblower Protection was given this centralized 
responsibility through the VA Accountability and Whistleblower 
Protection Act, Public Law 115-41. I will ensure this function is 
brought to full implementation.

    Question 9. How do you anticipate building and maintaining a 
positive relationship with the Department's Inspector General, who 
plays a key role in making sure taxpayer dollars are spent wisely and 
that facilities are operating in accordance with policy? What have been 
your dealings with the Inspector General during your tenure as Acting 
Secretary? Describe your dealings with Inspectors General while at the 
Pentagon and in uniformed service. Did those experiences color your 
view of the work of the Office of Inspector General?
    Response. The Inspector General must be a full partner with the 
Secretary of the VA to ensure the Department runs smoothly and 
ethically every day. It doesn't work any other way. If confirmed, I 
will expect the Inspector General to do his due diligence, and uncover 
wrongdoing at any level.

    Question 10. Please give specific examples of how you anticipate 
involving the VSOs and MSOs if confirmed.
    Response. Veterans Service Organizations (VSOs) will play an 
integral role under my leadership. I am committed to actively engaging 
and soliciting input and feedback from VSOs on key issues, best 
practices and/or opportunities to improve VA programs and services for 
our Nation's Veterans. During my tenure as Acting Secretary, I 
personally met with the VSOs several times through a monthly breakfast, 
one-on-one meetings, and calls and at White House, Congressional or VSO 
events. In addition, I am committed to traveling to VSO conventions, 
meetings, and events to meet with national, state and local leaders. I 
will continue to develop relationships, understand key priorities and 
identify and resolve any issues or concerns. All these engagements are 
necessary and will continue as VSOs are an important partner of the 
Department so that we understand what improvements are needed to better 
deliver care and services to our Nation's Veterans. There are several 
areas of planned collaboration and ongoing communication between VA and 
the VSOs going forward to include: Choice/Community Care, 
Accountability, Caregivers, Electronic Health Record, Suicide 
Prevention, GI Bill and Appeals Modernization Programs.

    Question 11. Will you commit to continuing to make data public, 
including the Monday morning workload report and wait times by medical 
facility?
    Response. I commit to continuing to make data public including wait 
times by medical facility. I also commit to determine what additional 
metrics would be of benefit for public release and to release those 
metrics.

    Question 12. VA has put out solicitations to build community care 
networks to help it manage veterans access to non-Department care. How 
familiar are you with this issue? Do you foresee any delay in awarding 
community care network contracts to help ease veterans' access to non-
VA care?
    Response. I don't foresee any delay. In December 2016 the VHA 
Office of Community Care let a request for proposals (RFP) for a future 
Community Care Network (CCN) contract. This RFP and subsequent contract 
will serve as the bridge, allowing VA to fix current issues in 
community care while providing flexibility for the future of VA 
Community Care. The potential new contract will lead to the replacement 
of existing community care contracts, and will enable VA to leverage 
innovative solutions to expedite how Veterans receive care and make it 
easier for providers to work with VA. Through the CCN, Veterans will 
benefit from improved timely access to care closer to home and an 
increased number of providers available for their community care needs. 
VA is committed to awarding Community Care Network (CCN) contracts as 
soon as possible. To accomplish this, VA intends to award CCN regional 
contracts using a phased award rollout by Spring 2019.

    Question 13. Many veterans, especially those with complicated 
health issues, rely upon VHA's specialized services. Many of these 
services, like spinal cord injury, blind rehabilitation, and 
prosthetics, are not widely available in the private sector. In an era 
of declining budgets and decentralization of funds, please describe 
your views on VA's responsibility to maintain capacity in these 
programs. What is your perspective on the future of VA specialized 
services (spinal cord injury, polytrauma, blinded rehabilitation, 
mental health)?
    Response. I am fully committed to ensuring that VA maintains these 
capabilities to provide timely access to high quality, recovery-
oriented care that anticipates and responds to Veterans' needs and 
supports their reintegration into their communities.
    Rehabilitation and Mental Health are foundational services of the 
Veterans Health Administration. VA offers an extensive health continuum 
of care including many outpatient, intensive outpatient, partial 
hospitalization, residential, and inpatient services for Veterans with 
disorders and disabilities related to these areas.
    In 2017, over half of all Veterans treated in VHA received 
prosthetic and sensory aids items and services; VA spent over $3B to 
provide 21 medical items, devices and services to more than 3.4M 
Veterans. Additionally, nearly one third of all Veterans treated in VHA 
saw a rehabilitation provider, and 28 percent of all VA patients 
received mental health care.
    Thankfully Congress has taken measures to support VHA in 
maintaining its capacity to treat disabled Veterans that need 
specialized treatment or rehabilitation, including those with spinal 
cord dysfunction, Traumatic Brain Injury, amputations, blindness, and 
mental illness through 38 U.S.C. Sec. 1706. This law provides specific 
criteria for measuring the capacity to provide these forms of treatment 
for Veterans with these disorders.

    Question 14. The roll-out and execution of the Veterans Choice 
Program in Montana and many other states has been nothing short of a 
disaster. As many of these issues remain the responsibility of the 
Third Party Administrators in Choice, what are you going to do to hold 
them accountable for a continued failure to meet the terms of their 
contract, and to meet the basic expectations of veterans and community 
providers?
    Response. If confirmed I will hold the Third Party Administrators 
(TPA) accountable, when they do not meet the standards outlined in the 
contract. When the Veterans Choice Program (VCP) Third Party 
Administrator (TPA) fails to meet the terms of the contract, I will 
personally contact the CEO to ensure he or she fully understands the 
problem and corrects it.

    Question 15. In your time as Acting Secretary, have you developed 
an opinion as to whether more needs to be done to improve personnel 
recruitment and retention at VA health care facilities? What specific 
actions would you take to make VA an employer of choice in the medical 
community?
    Response. In my time as Acting Secretary, I learned that, as the 
Nation's largest integrated health care delivery system, the Veterans 
Health Administration's (VHA) workforce challenges mirror those of the 
health care industry as a whole. Some factors affecting this include: a 
growing national shortage of experienced, quality candidates who 
possess the competencies required for the position; the salaries 
typically paid by private industry for similar positions; employment 
trends and labor-market factors that may affect the ability to recruit 
candidates; and other supporting factors such as rural/highly rural 
locations that may be considered less desirable.
    VHA's hiring process is also administratively burdensome and 
lengthy. Additional investment in Human Resources--including adequate 
staff to recruit, credential, and onboard providers--as well as better 
H.R. IT systems that make the candidate experience seamless and easy, 
are long-term strategies VA needs to implement to effectively recruit 
and hire scarce talent.

    Question 16. What is the appropriate level of oversight and 
responsibility that VA should have for the care veterans receive from 
community providers?
    Response. I believe that VA's current level of oversight and 
responsibility for the care Veterans receive from community providers 
is appropriate. Currently Network Veteran Quality and Safety Peer 
Review and the Joint Quality Oversight and Safety Committees meet to 
discuss and/or resolve quality and safety issues from a variety of 
sources including, but not limited to; quality metrics, Veteran safety 
events, medical documentation, claims data, Veteran satisfaction data, 
Veteran complaints and other quality and safety concerns associated 
with the performance of the contract.

    Question 17. Do you anticipate making any enrollment changes 
regarding Priority Group 7 or 8 veterans?
    Response. The determination to revise enrollment categories 
includes consideration of relevant internal and external factors (e.g., 
economic changes, changes in medical practices, and waiting times to 
obtain an appointment for care). If confirmed, I would ask the team to 
conduct an impact analysis to make an informed decision on whether 
enrollment changes for Priority Group 7 or 8 Veterans is necessary.

    Question 18. What do you see is the role of the Secretary in 
directing the implementation of the EHR modernization? Drawing on your 
recent work at DOD and VA, what part of this project do you believe 
will be the most challenging aspect, and what plans do you have to 
mitigate that challenge?
    Response. This initiative is a top priority for both Departments. 
If confirmed as VA Secretary, I plan to work with VA leadership, DOD, 
and partners such as Veteran Service Organizations to ensure the EHRM 
Program is interoperable with DOD, and with community providers and 
meets the needs of Veterans--providing them with the best patient 
experience possible. I observed the thoroughness of VA staff in 
evaluating the Cerner solution and have great confidence it will meet 
the needs of our Veterans while being a good steward of taxpayer 
dollars.
    Throughout the years, VA clinicians and leaders have continued to 
pioneer medical advancements in support of the best care for our 
Veterans. In today's world, technology solutions are rapidly changing 
and drastically reshaping the medical field; therefore, VA needs to be 
able to quickly and effectively adopt state-of-the-art solutions that 
will allow providers to meet the evolving needs of Veterans. Yet EHR 
implementations are never easy and the magnitude of the VA only 
intensifies the challenges. Additionally, there is a sense of ownership 
by many VA staff with the legacy EHR system. VA is fully committed to 
effectively implementing a robust change management strategy that will 
include regular communication with the field and training to all VA 
staff that will start well before the new EHR will be deployed. All 
aspects of the deployment will include VA representatives from across 
the Nation to ensure we address the true needs of our front-line staff.

    Question 19. Please explain how you will ensure that the challenges 
experienced in the first deployment of MHS GENESIS are not experienced 
at VA, and what relationship with DOD do you have to draw on lessons 
learned? Project governance has been identified as a critical failure 
in prior VA/DOD IT efforts. How do you foresee the agencies 
coordinating on this and how will you monitor these efforts? Further, 
how will you ensure that the absence of permanent leadership and a lack 
of prior experience in EHR implementation and change management by your 
senior VHA and OIT leadership will not hamper the project?
    Response. VA is fully committed to the successful implementation of 
the new EHR ensuring interoperability at VA, with DOD, and with 
community providers. By learning from DOD, VA will be able to 
proactively address these challenges to further reduce potential risks 
at VA's IOC sites. VA and DOD are working closely together to ensure 
lessons learned at DOD sites will enhance future deployments at DOD as 
well as VA. In addition, VA has proactively engaged stakeholders to 
identify requirements critical for the success of Cerner 
implementation. As challenges arise throughout the deployment, VA and 
DOD will work closely and urgently to mitigate the impact to Veterans 
health care. VA strongly believes that implementing a single electronic 
health record will improve seamless care for our Nation's 
Servicemembers and Veterans.
    To ensure inter-agency coordination, there is an emphasis on 
transparency through integrated governance both within/across VA and 
with DOD. DOD and VA have instituted a working group to review use 
cases and collaborate on best practices for business, functional, and 
IT workflows. VA and DOD's leadership meet regularly to strategic 
leadership, advance interoperability goals, and successfully implement 
the new EHR.
    The EHRM Program Executive Officer, Mr. John H. Windom, is leading 
VA's EHR effort and reports directly to VA Deputy Secretary. The EHRM 
leadership team includes senior leaders permanently assigned from the 
Veterans Health Administration (VHA) and VA's Office of Information and 
Technology (OIT). This organizational alignment will enhance senior 
leadership engagement across the VA, as well as the appropriate 
strategy alignments with VHA and OIT leadership.

    Question 20. Many industry leaders believe that VHA staff will be 
challenged in adopting Cerner's EHR package because VistA was home-
grown and there is a sense of ownership in its success. What is your 
plan to ensure that VHA clinicians, providers, and employees are bought 
into the cultural change required to make the EHR transition a success?
    Response. With any large-scale transformation, there will always be 
some level of criticism in moving in a new direction. Understanding 
that much of the success of the new EHR rollout relies on leadership 
buy-in and employee acceptance, VA is deploying a robust change 
management strategy to support this transformation effort. The strategy 
includes working with affected stakeholders to identify and resolve the 
employee resistance. Beginning with VA medical center leadership, 
managers/supervisors, and staff, VA will provide on-going 
communications regarding deployment schedule and changes to their day-
to-day work. VA has also created clinical councils, with 
representatives from the field, who will develop national workflows and 
elevate concerns regarding proposed changes. VA is prepared to offer 
additional training for staff if additional reinforcement is needed.

    Question 21. There has been increasing pressure in recent years for 
VA to contract for services in local--especially rural--communities 
where VA facilities are not easily accessible. Mental health is one 
area of particular emphasis in this regard. What do you believe is VA's 
responsibility for meeting the needs, including mental health needs, of 
rural veterans? If confirmed, what emphasis would you place on this 
issue?
    Response. Rural Veterans rely on VA for care at a much higher rate 
than urban Veterans--this should compel us to place even greater 
emphasis on finding innovative technological and staffing solutions and 
developing strong community partnerships to meet all of our rural 
Veterans health care needs. If confirmed, under my leadership, VA will 
aggressively use the tools provided by the MISSION Act to pursue 
community care alternatives to serve Veterans; by ensuring the timely 
scheduling of medical appointments, ensuring continuity of care and 
services, coordinating coverage for Veterans who utilize care outside 
of a region from where they reside and ensuring Veterans do not 
experience lapses in health care service
    Continue on a path of increased use of telehealth to extend care, 
including mental health, to rural Veterans closer to home and even in 
their homes; and
    Place significantly greater emphasis on overcoming the challenges 
associated with rural provider recruitment and retention.

    Question 22. How do you think changing the culture of how mental 
health issues are addressed in DOD would help reduce servicemember and 
veteran suicide? How can VA and DOD improve the services they offer, 
and what changes do you think you can effect to reduce veteran suicide?
    Response. Veterans who seek care for mental health issues have got 
to find peace and comfort in their surroundings. Telehealth allows them 
to receive care anywhere. This is just one piece of taking care of them 
holistically. The new EHRM system may help us turn the corner on 
suicides by seeing and documenting the relationships between mental 
health issues, opioid abuse, sexual assault, and suicide attempts. 
Efforts to facilitate a culture where Servicemembers and Veterans 
seeking help is seen as a strength that begins the first day of 
service/ during a servicemembers duty time and naturally extends 
throughout their veteran status are helpful. Cultural shift takes time 
but it is something that we should continue to work on and measure our 
effectiveness on overtime.

    Question 23. Last year, HUD conducted a nationwide point-in-time 
(PIT) count of homeless veterans and saw a slight increase in 2017, 
making it the first increase in homeless veterans since 2010. This 
year, HUD conducted another nationwide PIT count and it was reported to 
me that my state of Montana saw a 135% increase in homeless veterans. 
While VA has cut the homeless veteran population in half over the past 
eight years, it is alarming to see a rising trend. I am concerned about 
VA's recent commitment to this issue and about current programs 
receiving the proper attention and resources for this underserved 
population. If confirmed, how will you prioritize this issue and what 
will you do to ensure that this trend is reversed and reflects a 
commitment to ending homelessness among veterans?
    Response. Last year's selective increase in the Point-in-Time count 
was limited to cities with very high market rate rents and low 
vacancies where HUD--VASH vouchers rates and SSVF subsidies are 
noncompetitive. If confirmed I would be committed to prioritizing this 
issue through continued efforts and collaboration with our Federal, 
state and community partners and other stakeholders.
    Based on the 2017 Annual Homeless Assessment Report published 
December 2017 from HUD, homelessness in the general population in 
Montana in 2017 rose 7.8% from 2016 levels but showed a significant -
10.5% reduction from 2015 levels. Paralleling this change, the number 
of homeless Veterans in Montana in 2017 (205) rose 24% from 2016 levels 
(165) which was still a -26% reduction from 2015 levels (277). VA 
Montana routinely seeks out and takes advantage of resource 
opportunities to address Veteran homelessness in Montana. This year VA 
Montana was awarded an additional 26 HUD-VASH vouchers to place 
homeless Veterans in safe housing. Currently, 95% of the 410 vouchers 
allotted to Montana are in use, resulting in 388 Veterans who now 
access to have stable housing.

    Question 24. According to the VA's National Center on Homelessness 
Among Veterans, the fastest growing subpopulations of homeless veterans 
are female veterans and those who have deployed to Afghanistan and Iraq 
under OEF/OIF/OND in the last decade and a half. What will you do to 
ensure that VA homelessness programs address the needs of these 
specific groups?
    Response. If confirmed I would continue the emphasis on 
homelessness programs and ensure resources are available to reduce 
veteran homelessness in all populations.
    VA provides a range of resources to meet the unique needs of women 
Veterans who are experiencing or at-risk of homelessness.
    A higher percentage of women Veterans have a service-connected 
disability, have no income, and are in poverty, than are their male 
counterparts--compounding risk factors that greatly increase the risk 
of homelessness. Designed to provide permanent housing to chronically 
homeless Veterans, HUD-VASH prioritizes disabled Veterans with 
dependent children, many of whom are women. Unlike grant-based housing 
programs, HUD-VASH provides eligible Veterans with housing subsidies 
that can be used to securing housing options that can accommodate an 
entire family instead of a single person.
    Services for Veteran Families Program's (SSVF) ability to directly 
serve family members of Veterans is unique within the VA. SSVF grantees 
are required to provide assistance to family members that will help 
support housing stability and this includes connecting family members 
to health and mental health care, income supports, child care, and a 
range of other services. Furthermore, SSVF allows this assistance to 
continue even if for any reason the Veteran is separated from the 
household.

    Question 25. Over the last 16 years, Congress has worked to improve 
health care, benefits, and care coordination for our most seriously 
wounded, ill and injured servicemembers, veterans, and their 
caregivers/family members to ensure a seamless transition between the 
DOD and VA systems and to provide continuity in care and services. 
Given your unique experience of leading Personnel-related issues for 
DOD, how do you plan to strengthen collaboration and cooperation 
between these two agencies and improve upon the existing health and 
benefit systems?
    Response. If confirmed, I intend to use my experience to strengthen 
interagency collaboration to ensure we provide a more personalized, 
customer service experience for military members as they transition 
from DOD to VA. The Joint Executive Committee provides a strong 
governance structure and we are implementing several joint efforts that 
will improve our ability to care for the most at risk servicemembers 
and Veterans. These efforts include: deploying a new electronic health 
record to improve continuity in care and services, implementing the 
President's executive order to expand access to mental health care 
through a joint action plan, and re-designing our Transition Assistance 
Program to enable servicemembers to register for healthcare and 
initiate a disability benefits claim during the transition process.

    Question 26. Historically, VBA has come under fire for the lack of 
timeliness of its claims processing. While VBA has made progress in 
improving timeliness and accuracy of disability claims processing, 
further improvement is needed. VBA turned its attention to decreasing 
the amount of time it takes to process a claim, but that improvement 
seems to be at the cost of a decrease in the quality of its 
decisionmaking. Do you have any views on how a more balanced approach 
can be reached?
    Response. VBA successfully deployed the National Work Queue (NWQ) 
in May 2016 to all regional offices (ROs), which provided the 
capability to strategically prioritize and distribute claims workload 
across the Nation based on the workforce's real-time capacity. The NWQ 
has allowed VA to reduce the overall time it takes to process Veterans' 
claims, and in April 2017 VA expanded the NWQ's functionality to 
include administrative adjustments.
    Prior to NWQ, VBA's workload was largely processed at the Regional 
Office (RO) nearest the Veteran's home. This resulted in an unbalanced 
workload across the Nation due to a fluctuating volume of receipts in 
relation to each RO's staffing level. Some RO's received more work than 
they had capacity to keep up with, while others did not have a 
sufficient amount of work for their employees. This meant Veterans who 
lived in certain parts of the country waited longer for decisions 
solely because our resources could not be adjusted quickly enough to 
match the inventory changes.
    Since May 2016 deployment of NWQ, VBA's timeliness of rating 
disability claims has improved significantly. Initial development 
timeliness has improved from 24.7 days in January 2016 to 8.5 days in 
May 2018, a decrease of 16.2 days. The average time claims are waiting 
for a rating decision has dropped from 28.5 days in January 2016 to 3.1 
days in March 2018, an improvement of 25.4 days.
    Since expansion of NWQ in April 2017, VBA's inventory of dependency 
claims, which represents a significant portion of the non-rating/
administrative adjustment workload, has seen a commendable reduction. 
Dependency inventory has decreased 38% from 111.4K in October 2016 to 
69.6K in May 2018, and the average days pending for a dependency claim 
has decreased by 59% since October 2016.
    On March 1, 2018, VBA implemented a new in-process review (IPR) for 
the 800 claims processors that were having the most significant impact 
on quality. This IPR has allowed VBA to identify error trends and 
provide additional training to these employees. In addition, VBA 
believes that targeted training and consistent messaging through 
national quality calls, consistency studies, and transparent reporting 
and feedback, will result in an improvement in the timeliness and 
accuracy in disability claims processing.

    Question 27. As VBA and the Board of Veterans' Appeals prepare to 
fully implement the Veterans Appeals Improvement and Modernization Act, 
VA is currently piloting two of the five new appeals options through a 
pilot known as RAMP. The GAO recently released a report that 
highlighted the importance of thoroughly utilizing RAMP to identify and 
mitigate key risks associated with implementing the new appeals 
process. That same report also indicated that VA's current appeals plan 
does not fully address all required elements. As Secretary, what will 
you do to ensure that RAMP and the VA's appeals plan are being 
optimized to ensure a smooth rollout of appeals reform?
    Response. I will actively meet with and supervise Appeals 
Modernization implementation project teams with chairman Mason and USB 
Lawrence. The project managers meet regularly to coordinate at the 
enterprise level and integrate all activities and timelines from the 
individual project teams into VA's Master Project Schedule. VA's 
continued outreach to Veterans, Veterans Service Organizations, and 
additional stakeholders, as well as VA's sensitivity analysis, test 
programs, and project plan coordination will allow for a smooth 
implementation of the Appeals Modernization Act.

    Question 28. For some medical conditions that occur after service, 
the scientific information needed to connect the medical condition and 
the circumstances of service may be incomplete. When information is 
incomplete, the Secretary has authority to presume disabilities and 
diseases as service-connected for purposes of compensation. If 
confirmed as Secretary, what would be your approach for establishing 
presumptions?
    Response. The law requires that a positive association exists 
between service and a disease before the Secretary may add a disease to 
the list of presumptive diseases. As Secretary, my duty is to review 
all available sound scientific and medical evidence in making the 
determination of whether to add a disease to a presumptive list. This 
would include review of any relevant studies conducted by scientific 
bodies such as the National Academy of Medicine, as well as 
consultation with medical and scientific experts within the VA, other 
Federal agencies, and from outside the Federal government.

    Question 29. The National Academy of Sciences made recommendations 
to VA regarding three new presumptive conditions associated with Agent 
Orange exposure, as required by law, on March 10, 2016. VA has not yet 
implemented those recommendations. What will you do to ensure those 
recommendations are implemented, and that future recommendations from 
the National Academy are acted upon in a timely manner?
    Response. As I understand it, the National Academy of Medicine 
(NAM) reviews evidence from available scientific and medical literature 
on veterans and non-veterans to determine the health effects of 
exposure to Agent Orange used in Vietnam. Based on its literature 
reviews of available evidence, NAM would then classify the reviewed 
conditions under one of the following categories: Sufficient Evidence 
of an Association; Limited or Suggestive Evidence of an Association, 
and Inadequate or Insufficient Evidence to Determine an Association. 
NAM does not make presumptive recommendations to VA. If confirmed, I am 
committed to thoroughly review the evidence presented in the NAM report 
and consult with VA epidemiology experts to determine the appropriate 
course of actions that VA should take to address this issue.

    Question 30. VA and DoL both different ``own'' portions of the 
military to civilian employment transition. Explain how the Agencies 
might better work together.
    a. Do you believe that different functions being housed at 
different Agencies is best for veterans? Do you anticipate advocating 
for any changes in this regard?
    Response. VA and DoL both different ``own'' portions of the 
military to civilian employment transition. Explain how the Agencies 
might better work together.
    The Department of Veterans Affairs (VA) will continue to promote 
the Department of Labor (DOL) Employment Workshop and work alongside 
the Transition Assistance Program (TAP) interagency partners to support 
transitioning servicemembers (TSMs), their families, and caregivers 
throughout their transition journey. As required by the 2011 VOW Act, 
VA continues to collaborate with DOL to better assist our TSMs in 
achieving their post-military goals. There have been significant gains 
in reducing unemployment among TSMs due to TAP components, such as the 
employment workshops.

    b. Do you believe that different functions being housed at 
different Agencies is best for veterans?
    Response. The needs of TSMs are multi-faceted and require a 
holistic Federal Government approach. The interagency partners have 
made progress toward making TAP more relevant and beneficial to TSMs, 
even though each partner is responsible for components of transition 
support. Interagency TAP has achieved operational efficiencies by 
moving civilian career preparation and transition assistance from an 
end-of-service event to involve planning across a servicemember's 
entire military career.

    c. Do you anticipate advocating for any changes in this regard?
    Response. I will request the support of Congress in developing 
data-sharing agreements among agencies and orchestrating the movement 
of data collection processes to, for example, create a fast-track 
authority for veteran outcome-associated research. If these data-
sharing agreements and fast-track authorities existed, interagency 
partners would have more access to things like earnings data, which 
could help inform enhancements to transition service delivery.

    Question 31. VA's vocational rehabilitation and employment program 
is one of the smallest, yet most important, programs within the 
Department. It is the linchpin for helping veterans who incur service-
connected disabilities achieve a fulfilling and gainful future. What 
are your thoughts on the role that vocational rehabilitation plays in 
terms of the total rehabilitation of an individual recovering from 
severe combat-related injuries and on how VA's current efforts might be 
improved?
    Response. The Department of Veterans Affairs (VA) Vocational 
Rehabilitation and Employment (VR&E) program, also known as the Chapter 
31 program, plays an integral role in the total rehabilitation of a 
Servicemember or Veteran recovering from severe combat--related 
injuries. VR&E staff are trained to provide a holistic approach to the 
rehabilitation process. To accomplish this, VR&E assists Veterans and 
Servicemembers with service-connected disabilities and an employment 
barrier to prepare for, obtain, and maintain suitable employment. VR&E 
provides comprehensive services to include vocational assessment, 
rehabilitation planning, and employment services. For Veterans with 
service-connected disabilities so severe that they cannot immediately 
consider work, the VR&E program offers services to improve their 
ability to live as independently as possible in their families and 
communities.
    VR&E remains engaged in a number of transformation efforts to 
improve the delivery of rehabilitation services. These include the use 
of Tele-counseling, which allows the VRC and participant to meet 
remotely, if the participant wishes to utilize this technology. VR&E is 
also in the process of transitioning from a paper-based model to a 
digital and electronic system, which will decrease the amount of time 
the VRC must spend on administrative tasks; allowing for more time to 
be spent in a counseling relationship with each participant.
    VR&E is also leveraging technology to implement a process where our 
participants are reminded of upcoming appointments through a text 
message on their mobile device.

    Question 32. The Harry W. Colmery Veterans Education Assistance Act 
is the most sweeping reform of VA education benefits since the Post-9/
11 GI Bill was passed into law. One section of this law directs VA to 
extend up nine additional months of GI Bill benefits for veterans in 
STEM programs that require more credit hours than a standard degree 
program. If confirmed what will you do to ensure that VA implements 
this provision in such a way that predatory schools don't inflate 
program requirements to get access to this expanded benefit?
    Response. Given its magnitude, Section 111 of Public Law 115-48 
(STEM Scholarship) requires extensive work by VA to implement this 
provision, so that Veteran students are able to maximize their benefits 
while also ensuring safeguards are in place to protect beneficiaries 
and taxpayers from ill-intentioned entities. Currently, VA is analyzing 
statutory requirements to develop planning documents for the STEM 
scholarship, which goes into effect August 1, 2019. VA has identified 
the Regional Processing Office in Buffalo, NY, as the sole site 
dedicated to processing and tracking the STEM Scholarship.
    In further support and recognition of the STEM Scholarship's 
uniqueness and significance, VA is hiring additional temporary staff in 
Buffalo to stand this initiative up, process related claims, and 
provide the necessary oversight to ensure statutory requirements are 
met. VA is also working with its SAA partners to better understand STEM 
program requirements, so that it can leverage such information and 
available data as it sets program requirements and outlines its 
oversight activities.

    Question 33. VA currently uses the criteria of 170,000 un-served 
veterans within a 75-mile radius for purposes of establishing new 
national cemeteries. In the past, the Senate has supported this 
standard and authorized new cemeteries based upon VA's recommendations. 
Do you believe this should continue to be the standard practice? In the 
absence of a VA recommendation, do you believe Congress should 
legislate the location of new national cemeteries?
    Response. Recognizing the need to enhance burial access for 
Veterans and their families, VA revised its national cemetery 
establishment policy in 2011. With Congress' support, VA reduced the 
Veteran population required to establish a new national cemetery from 
170,000 to 80,000 residing within 75-miles of a proposed site.
    VA's approach to cemetery establishment has served the Veteran 
community very well for many years. Prior to the implementation of the 
new policies referenced above, 88 percent of the Veteran population had 
convenient access to a burial option in a national, state or tribal 
Veterans cemetery (i.e. within 75 miles of their homes). After new 
national cemeteries are established, VA will provide 95 percent of 
Veterans with such access. VA is working to address the remaining five 
percent.
    I do not believe Congress should legislate the locations of new 
national cemeteries. VA has worked very closely and cooperatively with 
Congress over the years to implement burial policies that recommend the 
placement of new cemeteries based on objective criteria to best serve 
Veterans nationwide. VA moves proactively when revisions to policies 
are needed to address emerging burial requirements. This degree of 
flexibility would not be possible if legislation was needed to 
determine cemetery locations.

    Question 34. VA's capitol infrastructure has been underfunded for 
some time at VA, many construction policies are old, and the workforce 
requires further training; how will you examine VA's construction and 
facilities practices and policies to ensure they are industry best 
practices? What is your understanding of existing plans to reorganize 
OALC and CFM and what action would you take to reorganize construction 
activities, if confirmed?
    Response. Over the past five years, VA's major construction (and 
leasing) programs have undergone significant improvements to better 
align with industry guidelines and best practices, update construction 
policies and provide appropriate training to the facilities and 
construction workforce. If confirmed, I will swiftly review these 
operations to ensure we are applying best business practices.
    VA is still considering the realignment of its Acquisition, 
Logistics & Construction functions. VA has had the benefit of multiple 
external reviews that provided many recommendations for improvement; I 
am aware that VA Integrated Project Teams have completed significant 
work, and that decisions are now needed on the way forward. I plan to 
make those decisions as swiftly as possible, targeting key areas for 
consolidation, eliminating unnecessary duplication and ambiguity, and 
ensuring responsible and accountable leadership and management of the 
capital programs at the VA with oversight at the highest levels of the 
Department. This will allow for consistent application of industry best 
practices and standards, as well as a more integrated and comprehensive 
approach to training for the workforce.

    Question 35. Previously, VA's recognized a need for market 
assessments to help design high performing networks of care for 
Veterans. Based on reports to Congress on Federal healthcare planning 
and design, I are concerned VA does not have in-house experience 
properly complete the assessments on its own. VA started and stopped a 
project that would review each local market with the help of objective 
experts in public sector and commercial healthcare planning. This 
project takes on new importance given the assessments central 
involvement in the Asset and Infrastructure Review Act of 2018. What is 
your understanding of this program and when do you plan on reviving it?
    Response. I understand that VHA did not voluntarily stop work on 
the market assessments. In September 2017 the contract for the Market 
Assessment work was awarded to PricewaterhouseCoopers. Unfortunately, 
there was a contract protest on September 30, 2017 with an initial 60 
day cease work order. After significant and continued delays, with 
several extensions requested by the judge, a final decision against VA 
was made on March 5, 2018.
    VA is working on a plan to go forward. VA will file a corrective 
action plan, and with a favorable decision by the judge, VA will be 
back on track to gain contractor support to complete the market 
assessment work.
    These assessments will review in significant detail each of VHA's 
96 markets for health care demand and available capacity through a 
combination of care provided by VA, Academic Affiliates, federally 
Qualified Health Centers, Indian Health Service, and private sector 
capabilities.
    Each VISN, with anticipated contractor support, will determine the 
recommendations that will be considered for implementation to move 
toward a fully integrated high performing network to best serve our 
Veterans. Additionally, these market assessments will be used to create 
a National Realignment Strategy as stipulated in the Appropriation Bill 
of 2014, 2016 and most recently the 2017 Military Construction, 
Veterans Affairs and Related Agencies Appropriation Bill.

    Question 36. In your current role as Co-Chair of the Joint 
Executive Committee, what value do you see that Committee improving 
care and benefits for veterans and servicemembers? Specifically from 
in-person meetings of the Committee, what insight did you gain into VA 
operations and managing VA's bureaucracy?
    Response. The Joint Executive Committee (JEC) provides the 
foundation for strategic planning between the Departments. The JEC 
leadership has strengthened collaboration and accountability through 
the Joint Strategic Plan and annual guidance on priority initiatives 
such as efficiencies in healthcare delivery and sharing, expanding 
telemedicine, and developing closer coordination between DOD and VA 
suicide prevention offices. As Co-Chair, I gained insight into VA's 
efforts to adopt a new electronic medical record, improve medical 
supply chain, and expand eligibility for mental health care. These 
efforts are critical to ensuring we provide a seamless transition for 
servicemembers, Veterans, their families and caregivers. I strongly 
believe in holding senior leadership accountable for delivering results 
and improving our capabilities to provide world-class service to our 
customers.
                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 1. I'm sure you're aware of GAO's concerns that national 
policies aren't implemented uniformly across the Department. Folks have 
come to many of us expressing concerns about difficulties and 
inconsistent applications of the Kingdomware case and VA's guidance on 
set-aside rules. Earlier this year, the Appropriations Committee 
directed VA to issue guidance that would help standardize contracting 
officers' decisions nationally as they evaluate veteran-owned 
businesses. Did you deal with this issue while you were Acting 
Secretary and will you commit, if confirmed, to ensuring this guidance 
is swiftly issued to maximize consistency across VISNs?
    Response. I commit to conducting a thorough review of VA's 
contracting processes and policies and will issue guidance to help 
standardize contracting processes that provide maximum practicable 
opportunities for veteran-owned businesses.

    Question 2. The National Academies of Sciences has concluded that 
bladder cancer, Parkinson-like syndromes and hypothyroidism have an 
increased association with Agent Orange exposure. That update came out 
in 2016, and despite letters, hearings, and public outcry, the VA still 
has not made a decision on the findings in that report. In my opinion, 
it is an embarrassment that these veterans are continuing to suffer 
while waiting for VA to make a decision on extending presumptive 
service-connection for these conditions. In fact, we've heard VA will 
not be able to issue a decision on these conditions until 2020. In 
response to my pre-hearing question, you stated, ``I am committed to 
thoroughly review the evidence presented in the NAM report and consult 
with VA epidemiology experts to determine the appropriate course of 
actions that VA should take to address this issue.'' Will you commit to 
making a final decision on these findings within 120 days of your 
confirmation?
    Response. If confirmed, I will review all available evidence within 
120 days of my confirmation. While I am unable to commit to a specific 
timeframe for a decision, I remain committed to reviewing all available 
medical and scientific evidence related to findings on diseases that 
are related to Agent Orange exposure, to include the National Academy 
of Medicine (NAM) report. I will continue to consult with VA 
epidemiology experts and policy staff to determine the appropriate 
course of actions that VA should take to address the issues and its 
association with exposure to Agent Orange.

    Question 3. I am concerned about recent statements by the Acting 
Secretary that suicide prevention is no longer THE top clinical 
priority but one of many clinical priorities at VA. If confirmed as 
Secretary, what should be VA's top clinical priority?
    Response. There are many clinical priorities, but the overarching 
priority, if confirmed, will remain suicide prevention. Every death by 
suicide is a tragedy, and we will not relent in our efforts to connect 
Veterans who are experiencing an emotional or mental health crisis with 
lifesaving support. Suicide prevention ties into many Veteran issues, 
such as opioid abuse, mental health, PTSD, homelessness etc. VA's 
number one clinical priority has to be to reduce suicide and suicidal 
behavior and that requires a focused, national approach to engage with 
all Veterans whether or not they receive care in the VA.

    Question 4. There has also been recent reporting on performance 
metrics for Vet Center counselors--an underutilized resource for mental 
health care. I'm glad we opened a new Vet Center in Missoula, and will 
soon see a refreshed Vet Center in Billings. While we need performance 
standards that are in tune with the needs of veterans and providers, I 
also want to make sure that we have the right staffing mix. If 
confirmed, will you commit to ensuring Vet Centers have the resources 
they need to support their providers delivering the in-depth, detailed 
care Vet Centers are renowned for and report back to us on your 
findings?
    Response. I will. The value that our Vet Centers provide to 
Veterans, Servicemembers and their families is a critical component to 
VA's efforts to deliver access to mental health services and inhibit 
acts of suicide. I commit to ensuring that we have the right staffing 
mix and resources across the VA and will work with you and other 
members of Congress on our human capital plan.

    Question 5. The Miller-Blumenthal Health Care and Benefits 
Improvement Act contained a provision that any program approved for GI 
Bill benefits that provides licensure or certification must meet any 
state instructional curriculum licensure or certification requirements 
and be licensed by that state board or agency. The VSO community has 
expressed that many improper programs continue to receive GI Bill 
funding. Will you commit to reviewing the implementation of this 
statute, and providing the Committee with your findings within 120 
days?
    Response. Yes.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. John Boozman to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    I would like to bring to your attention an issue raised by my 
constituents regarding a VA regulation for emergency ambulance 
reimbursements for veterans.
    When a veteran experiences a medical emergency and a bystander 
makes the prudent decision to call for emergency ambulance service, the 
veteran is rushed to the nearest medical facility that can treat the 
potentially life threatening condition. This ``Prudent Layperson 
Standard'' for emergency care is applied by all other Federal payers 
and insurance companies when making their decision to reimburse 
ambulance services for their provision of clinical care and transport.
    Despite the fact that the ``Prudent Layperson Standard'' is 
included in the VA's regulations, the VA is the only major payer that 
applies it in a different manner. Instead of relying on the information 
known at the time the ambulance paramedics and EMTs render care, the VA 
requires hospital documents that contain the patient's final diagnosis 
to decide after-the-fact whether the clinical care provided by the 
ambulance service is covered. If the hospital records are reviewed by 
the VA and it is determined that the patient's final diagnosis was not 
necessarily emergent in nature, or if they are unable to obtain records 
from the hospital and other providers who cared for the veteran on the 
day in question, the claim for the ambulance service is denied. When 
this happens, the veteran becomes responsible for the bill.

    Question 6. Will you commit to addressing this issue of 
reimbursement for emergency ambulance service providers and fixing this 
problem to ensure veterans in Arkansas and around the country are not 
left responsible for a bill for emergency ambulance services?
    Response. Yes, I will commit to working on the issues surrounding 
payment of emergency ambulance claims. The office of Community Care has 
already begun implementing changes to meet the needs of our Veterans 
and I will commit to providing proper oversight of this important 
program
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Bill Cassidy to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
                              procurement
    Question 7. A recent report by the Government Accountability Office 
(GAO) raised concerns about inconsistent implementation at the regional 
and local levels of national policies adopted by the Department. This 
has been a particular problem in the contracting process, with local 
contracting officers acting to overturn or deny contract awards based 
on a misinterpretation of the Supreme Court's decision in the 
Kingdomware case and the Department's related guidance regarding set-
aside rules.
    Response. By overturning prior contract awards and declining to 
exercise contract option years, some contracting officers are 
potentially increasing costs for the VA and limiting Veterans' access 
to quality care. What are the Department's specific plans to address 
the GAO's findings and these serious concerns regarding inconsistent 
decisionmaking in the contracting process?
    I am unaware of the Department's specific plans to address the 
GAO's finding but I commit to ensuring a full review of VA's 
contracting policies and processes to ensure they comply with statute 
and GAO's recommendations.

    Question 8. In the Joint Explanatory Statement accompanying the 
Fiscal Year (FY) 2018 Consolidated Appropriations Act, Congress 
directed the VA to ``issue additional guidance to provide a standard 
set of criteria for contracting officers to evaluate veteran-owned 
providers' capabilities and to take steps to ensure their 
implementation in a consistent manner across the VISNS, in alignment 
with the GAO's recommendations, especially with regard to option 
years.''
    a. The Department is currently conducting a study of the impact of 
the Kingdomware decision, including potentially increased costs for the 
VA and reductions in access to care for Veterans. What conclusions have 
been reached by the VA based on this analysis, and when will the 
detailed findings be released for review by Congress and the public?
    Response. I am unaware of the Department's specific plans to 
address the GAO's finding but I commit to ensuring a full review of 
VA's contracting policies and processes to ensure they comply with 
statute and Federal regulations.

    b. If confirmed, what immediate actions will you take as Secretary 
to ensure the issuance and consistent implementation of new guidelines 
to accomplish these objectives?
    Response. I will commit to a full review of VA's contracting 
policies and processes and will issue guidance to ensure VA complies 
with statute and GAO's recommendation.
                               facilities
    Question 9. A recent Inspector General Audit found that costs are 
increasing for maintenance and repair work that has been put off for 
years. As buildings in the VA system continue to age--and many are 
already over 50 years old--isn't this problem only going to get worse? 
Are these deteriorating buildings threatening the core mission of 
delivering healthcare to our veterans and what do you plan to do to 
address this issue if confirmed.
    Response. Maintenance and modernization of its infrastructure must 
be a priority of any healthcare organization in order to deliver state-
of-the-art healthcare in a safe and healing environment. It will be a 
priority for VA as it strives to deliver quality healthcare at world-
class facilities. VA-owned facilities currently have facility condition 
deficiency correction costs estimated at $20 Billion. The FY 2018 
Budget and Infrastructure Plus-Up provides funding support for non-
recurring maintenance and minor construction programs at a level that 
begins to address these facility deficiencies. I will continue to 
support future budget requests that provide similar funding levels for 
this purpose. Another priority will include a review of the VA 
Strategic Capital Investment Plan and processes to assure VA does the 
right project, at the right facility, and at the right time.

    Question 10. Your background in defense makes you aware of the 
Military Housing Privatization Initiative (MHPI), a Public-Private 
Partnership which allowed the Department of Defense to address its 
significant backlog of deferred maintenance. The Department of Housing 
and Urban Development borrowed extensively from the MHPI model for its 
Rental Assistance Demonstration (RAD) program to address a similar 
backlog in our Nation's public housing. Since the VA is facing a 
similar deferred maintenance problem, would you consider evaluating 
elements of MHPI and RAD to address VA's facilities challenges.
    Response. Yes, all ideas, to include evaluating MHPI and RAD, will 
be on the table to address VA's facility challenges.
                              mission act
    Question 11. Recently enacted into law, the VA MISSION Act provides 
the VA an additional $5.2 billion to continue Choice through May 2019. 
However, it is my understanding the MISSION Act doesn't authorize 
additional resources to pay for the new program past May 2019 and into 
2020.
    With another funding gap on the horizon, it seems extremely 
important that the VA continues to seek increased public-private 
partnerships with capable organizations that can successfully fulfill 
the needs of our Veterans while providing for efficient and effective 
allocation of limited government resources.
    These public-private partnerships can result in creative and 
innovative ideas to provide enhanced benefits and services to our 
Veterans.
    Under your leadership, does the VA plan to seek new, innovative 
approaches to leverage public-private partnerships and that stretch 
limited government resources.
    Response. Efficient and effective implementation of the VA MISSION 
Act is critical and one of my top priorities. I would be open to new 
and innovating approaches, to include public-private partnerships, 
which help fulfill the needs of Veterans while providing for efficient 
and effective allocation of limited resources.
                        electronic health record
    Question 12. In January 2018, the GAO issued a report on VA's 
health IT Modernization, EHR. It noted `` the Department's dedication 
to completing and effectively executing the planning activities that it 
has identified will be essential to helping minimize program risks and 
expeditiously guide this latest electronic health record modernization 
initiative to a successful outcome--which VA, for almost two decades, 
has been unable to achieve.''
    Response. Without leadership and appropriate oversight the EHR 
program will not be successful. History has demonstrated that time and 
time again. On January 2018, the then Secretary signed organization 
charts for the EHR program which outlined the planned approach for 
phase 0 and phase 1. Both phases had the Deputy Secretary in charge of 
this important, critical initiative.
    a. Given that the Deputy Secretary position is vacant, who do you 
think should be in charge of EHR? And if the Deputy Secretary, who 
should take their place as that position is now vacant? Who should be 
held accountable?
    Response. I am fully committed to the successful implementation of 
the new EHR program. The EHRM Program Executive Officer, Mr. John H. 
Windom, is leading VA's EHR effort and if confirmed, will report 
directly me as the SECVA until an Acting Deputy Secretary is selected. 
The EHRM leadership team includes senior leaders permanently assigned 
from the Veterans Health Administration (VHA) and VA's Office of 
Information and Technology (OIT). This organizational alignment will 
enhance senior leadership engagement across the VA, as well as the 
appropriate strategy alignments with VHA and OIT leadership.

    b. The Department of Veterans Affairs operates the largest 
integrated health care system. The VA is undertaking an historic 
electronic health care record modernization program that could solve 
some of the health industry's long-standing challenges with respect to 
interoperability. To support this effort, a number of leading health 
systems voluntarily announced their support via an ``Open API Pledge'' 
which will advance API standards development and use. What are your 
thoughts on the continuation of the ``Open API Pledge'' and if you are 
not supportive of the pledge, how will you achieve true 
interoperability?
    Response. The interoperability of the new electronic health records 
system will connect VA to the DOD, private doctors and private 
pharmacies to create a continuum of care and organize the healthcare 
around our veteran's needs. An ``Open API Pledge'' is critical to 
success and I anticipate that this system will push industry to solve 
long-standing challenges with respect to interoperability.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mike Rounds to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 13. Has the VA considered consulting with CMS on best 
practices to combat potential waste, fraud and abuse that may occur in 
the VA's legacy and future community care programs, to include the use 
of third-party contractors with expertise in identifying waste, fraud 
and abuse in other Federal programs?
    Response. I understand VA and Centers for Medicare and Medicaid 
Services (CMS) recently established a partnership focused on maturing 
VA's Seek to Prevent Fraud, Waste, and Abuse (STOP FWA) initiative. VA 
and CMS each pay billions of dollars to community healthcare providers 
and will mutually benefit from aligned efforts for detecting and 
preventing fraud, waste, and abuse. Through the partnership, VA and CMS 
are working to put the required data sharing agreements in place to 
perform analytical comparisons, establish best practices, and share 
lessons learned between agencies. If confirmed I will continue to 
utilize the CMS partnership to expand opportunities to reduce VA's 
exposure to fraud, waste, and abuse.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Dan Sullivan to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 14. Now that the VA is moving from a 2 region model 
(Triwest/HealthNet) toward the CARE concept and a 4 region model, the 
Community Care (CC) office has carved out Alaska into its own region 
due to high costs of serving the AK market. Upon confirmation, please 
commit to consulting with AK VA Healthcare System (AK VAHS) Director 
Dr. Timothy Ballard on the feasibility of allowing the local VA to 
assume oversight of the AK healthcare market as they did back in 2013. 
This includes setting up the provider network with provider agreements 
and taking back the billing/reimbursement process for Alaskan 
providers.
    Response. If confirmed I intend to fully implement the community 
care provisions of the John S. McCain III, Daniel K. Akaka, and Samuel 
R. Johnson VA Maintaining Internal Systems and Strengthening Integrated 
Outside Networks (MISSION) Act of 2018 and will work with all 
stakeholders, including the AK VA Healthcare System to ensure VA meets 
the requirements of the law when implementing the provider network.

    Question 15. I am asking these questions on behalf my constituent, 
DA Anderson: ``What is your vision for the VA in going forward? How can 
the VA be run more like a business that has accountability for its 
actions and treats the veterans of this country with fairness and 
respect.
    Response. My priorities are to: improve the culture--offer world 
class customer service; improve access to care through implementation 
of the MISSION Act and transformative IT Modernization such as the 
Electronic Health Records Program; reduce the backlog of claims and 
payments; and business transformation including reform of the human 
resource systems. VA has established reform working groups that meet 
weekly and if confirmed, I will get frequent updates in daily meetings 
and ``walk my post'' to get personal updates as well. I commit to 
accountability and transparency and will work with our partners in 
Congress, VSOs, and Veterans to ensure all veterans receive the care 
and benefits they have earned.

    Question 16. I am asking this question on behalf my constituent, 
Tony Molina: ``I would like to ask if our VA can establish a special 
help desk for VSO and Tribal Veteran Representatives, so when a family 
member asks for a copy of their DD214 today, [they can receive 
immediate assistance.] I have been given many answers but there is 
still no quick way for us to attain a DD214 . . . with one phone call 
and online takes forever.''
    Response. VBAs Nashville VA Regional Office already maintains a 
dedicated toll-free number available to all veteran service officers 
(VSO) and Tribal Veteran Representatives (TVR). That number is 1-855-
225-0709. Additionally, accredited VSOs and TVRs can also print a DD 
Form 214 directly from VBAs electronic systems.

    Question 17. I am asking this question on behalf my constituents, 
Bob and Judy Lavigne: ``We called one of the VA phone numbers and they 
said on the recording that if there was someone who was feeling 
suicidal to call a hotline number or call 911. So why is it that the VA 
phone systems cannot give an immediate option to press a number to go 
immediately to the hotline or to the 911 services.
    Response. VHA Office of Mental Health and Suicide Prevention 
(OMHSP) has worked closely with the VHA Office of Information and 
Technology (OI&T) since 2016, in order to implement a Press 7 option at 
all VA medical centers (VAMC), VA Community-Based Outpatient Clinics 
(CBOC), and VA Outpatient Clinics (OPC). Implementation of Press 7 
ensures that Veterans calling a facility receive the same messaging and 
can connect immediately and directly to a Veterans Crisis Line (VCL) 
responder by pressing the number seven.
    To date, VA has implemented Press 7 in 100% of all VAMC main 
telephone numbers, and approximately 75% of all CBOC and OPC facility 
telephone numbers. Remaining facility implementations are dependent on 
needed OI&T enhancements, budgetary factors, and contract 
modifications. I would ask OMHSP to further coordinate with VHA and 
OI&T until full implementation is achieved.

    Question 18. I am asking this question this on behalf my 
constituent, Bejean Page: ``Can you seek out veterans [upon 
confirmation] and ask them what they need.
    Response. Customer services for our veteran's in my prime directive 
and when a veteran comes to VA it is not up to him to employ a team of 
lawyers to get VA to say YES. It is up to VA to get the Veteran to 
YES--that is customer service.

    Question 19. I am asking this question on behalf my constituents, 
Mike and Sandy Coons: ``Why can't vets with 20 plus year or 100% 
disability get full dental coverage for all needs, routine cleanings, 
fillings, crowns, dentures, partials, etc.
    Response. All 100% (total) service-connected-disabled Veterans by 
scheduler rating or individual employability are eligible for 
continuing comprehensive care. Federal statute defines the eligibility 
and scope of care provided by VA dental services as cited in the United 
States Code and the Code of Federal Regulations. These laws and 
regulations mandate dental care as a benefit for specifically defined 
Veterans groups.

    Question 20. I am asking this question on behalf my constituents, 
Bob and Judy Lavigne: ``Retired disabled vets have access through the 
VA, but also carry the TRICARE military insurance. The VA process is 
very time-consuming or slow. We find that the veteran affairs primary 
doctors or Nurse Practitioners seem to be unwilling to refer us via the 
TRICARE (to any other region in TRICARE) from when requested by 
veterans to reach specialty doctors on the outside that are already 
part of the TRICARE (TriWest) service or network partners for quicker 
access. Also, the regions for the VA and the regions for the TRICARE 
create difficulty to receive services because of the delays trying to 
cross over the region lines.
    The regions need to be seamless for the veteran. We understand it 
might work for the VA and TRICARE to have management regions, but it 
doesn't work well for the veteran when we have to see doctors outside 
of our region or if we want to have services provided that might put us 
in the hospital and/or we want to be closer to family (especially for 
people in Alaska). Also, when we travel outside of Alaska to go see 
family members or for recreation, it is not a streamlined process for 
us to go see another doctor without having to call for some pre-
authorizations to make sure that we're covered and the time zones from 
the East Coast to Alaska definitely doesn't help us at all trying to 
call back to Alaska during the day. So typically, we use urgent care or 
emergency room visits using our TRICARE services and we pay the co-
pays. Then we have to get copies of the records to bring back to the VA 
so they can scan them into MyHealth. Can you please improve this.
    Response. I commit that VA and DOD will continue to partner and 
seek to identify new and innovative methods for coordinating care for 
our Veterans.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
                          transgender veterans
    You played a key role in developing the Administration's ban on 
transgender troops. Thousands of transgender veterans rely on VA for 
their health care.
    Response. This characterization is incorrect. I recused myself from 
that decision and had no role in the formulation of that policy.

    Question 21. Will health care services provided to transgender 
veterans change if you are confirmed to lead the Department?
    Response. I assure you that all veterans, regardless of race, 
gender or sexual orientation, will be treated with the respect and 
support they deserve. VA is proud to provide care, benefits and other 
VA services to all Veterans, including transgender Veterans. That 
policy will remain unchanged.

    Question 22. Will eligibility for benefits change for transgender 
veterans?
    Response. All veterans, including transgender veterans, will remain 
eligible for VA benefits.

    Question 23. Under the Trump Administration, the Department of 
Health and Human Services has indicated it will roll back protections 
designed to ensure transgender Americans are not discriminated against 
when seeking health care. Do you agree or disagree with the 
Administration's policy of undermining health care access for 
transgender Americans?
    Response. I would refer you to the Department of Health and Human 
Services for questions about HHS policy, but as for VA, the department 
is proud to provide care, benefits and other VA services to all 
Veterans, including transgender Veterans. That policy will remain 
unchanged.

    Question 24. Will VA employees be treated with dignity and respect 
without fear of employment discrimination or harassment due solely to 
their gender identity or support for transgender individuals?
    Response. Yes, VA's EEO policy currently addresses these 
protections for LGBT employees. If confirmed as Secretary, I will re-
issue and reaffirm this commitment. It is the policy of the Federal 
Government to treat all employees with dignity and respect and to 
provide a workplace that is free from discrimination whether that 
discrimination is based on race, color, religion, sex (including gender 
identity or pregnancy), national origin, disability, political 
affiliation, marital status, membership in an employee organization, 
age, sexual orientation, or other non-merit factors.
                               diversity
    According to the Washington Post, you had worked as a staff member 
of Majority Leader Lott to oppose an equal pay resolution in the Senate 
in 1997.
    Response. That's not entirely correct. I was the floor manager for 
the majority leader. Senator Lott's instructions were that he saw every 
piece of legislation that came through. I took this issue to him, and 
he and the staff responsible for that issue made changes. I was not an 
expert in that field and my involvement was limited to communicating 
the changes the senator and his staff requested.

    Question 25. Do you support equal pay for equal work, and would you 
support a resolution affirming that women should be paid equally for 
equal work in the VA and all workplace?
    Response. I support equal pay for equal work. Pay parity is very 
important. If confirmed, I will place a renewed focus on hiring 
employees with the right skills, passion, and commitment to provide 
timely, quality and customer-focused support for our Nation's Veterans. 
I will make certain the VA Leadership Team understands that to be a 
model employer, we must ensure that all employees are treated fairly 
and equitably. I will direct the VA's Corporate Senior Executive 
Service Management Office to review and evaluate the effectiveness of 
existing executive pay-setting practices to ensure we are making pay 
decisions--equal pay for equal work--that are fair to all employees.

    It has also been reported that you attended Confederate memorial 
ceremonies and fought to protect images of the Confederacy in a United 
State patent.
    Given how so many veterans and other Americans view the Confederate 
flag and the associations it has with slavery and the darkest moments 
of our Nation's history--

    Question 26. How would you assure people that under your 
leadership, VA would be truly committed to diversity and opposed to 
racism--and what specific steps would you take to make this a reality?
    Response. I am committed to a diverse and inclusive workplace. I 
understand that diversity and inclusion are essential for a high-
performing organization that delivers the best service to our Nation's 
Veterans. If confirmed I will affirm my commitment to anti-
discrimination to include discrimination based on race, through 
issuance of a non-discrimination policy. I will hold individuals found 
to have engaged in discrimination accountable for their conduct through 
swift investigations and timely disciplinary action. I will ensure all 
VA leaders and employees are trained on the EEO laws and processes for 
reporting discrimination as well as the consequences when findings of 
discrimination are confirmed.

    Question 27. Would you support Confederate flags at VA facilities 
or cemeteries?
    Response. NCA permits the display of the Confederate flag in 
national cemeteries where Confederates are interred only on Memorial 
Day or a State-observed Confederate Memorial Day, or an ``in lieu of'' 
Confederate Memorial Day (if Confederate Memorial Day is not observed 
by the State). Display of the Confederate flag is permitted only at the 
gravesite or memorial for a Confederate soldier, or as part of a 
ceremony when carried by an individual and placed in a temporary stand. 
The Confederate flag is never flown from a permanently fixed flagpole 
at a VA national cemetery.

    Question 28. Please submit for the record the text of any speeches 
or remarks you gave at Confederate memorial events.
    Response. The memorial ceremonies at Arlington Cemetery which I 
attended or made remarks at were all DOD-sanctioned events with broad 
attendance and recognition by U.S. Presidents and elected leaders of 
both political parties. President Barack Obama sent memorial wreaths to 
the event, as did President George W. Bush before him. The annual 
Confederate Wreath Laying Ceremony honors all veterans who served in 
the Civil War. It has also included special recognition of African-
American Buffalo Soldiers in addition to Confederate, and Union 
Soldiers. The sanctioned events included participation from U.S. 
military bands at Arlington Cemetery. I did not keep copies of the 
remarks as they were made over 15-20 years ago.
                           sexual harassment
    You were a key player in implementation of the Department of 
Defense's new sexual harassment policy. Currently VA has significant 
problems in this area, including as shown in a recent report by the 
Merit Systems Protection Board. In your confirmation hearing you 
indicated you would do a comparison between the Department of Defense 
policy and VA policy.

    Question 29. In your view, what types of policies are most 
effective in combatting sexual harassment in the workplace?
    Response. If confirmed, I will ensure the VA's policy fully 
complies with EEOC guidance and I will ensure such policy is 
disseminated throughout the workplace on a regular basis. As the 
Secretary I will firmly and clearly indicate to VA employees what is 
unacceptable, as well as the process for filling complaints and 
emphasize that the VA will protect the confidentiality of harassment 
complaints.
    I will not tolerate or condone sexual harassment. Sexual harassment 
weakens trust within VA and is fundamentally at odds with the 
obligations of Federal employees to treat others with dignity and 
respect.

    Question 30. Please provide more information about how you will 
work to change the culture at VA to reflect American values and 
standards of behavior.
    Response. The vast majority of VA employees work hard every day to 
do the right thing for our Nation. Their commitment to public service 
is in keeping with American values and standards of behavior. If 
confirmed, I will focus on creating a culture that is psychologically 
safe so that employees and Veterans alike will be comfortable bringing 
concerns to the forefront and can be confident that their concerns will 
be addressed fairly and quickly. I will also utilize annual employee 
surveys to gauge organizational health and to help focus efforts on a 
Veteran-focused culture and work place improvements.
                               education
    Question 31. The Forever GI Bill included provisions restoring 
benefits to veterans who attended Corinthian Colleges, Inc. and ITT 
Education Services, Inc.. However, VA has struggled to get in contact 
with potential beneficiaries and has had a low level of take-up in 
benefits restoration. What methods would you commit to employing to 
ensure that benefits restoration is provided to all of those eligible?
    Response. If confirmed I will work with VBA leaders to ensure 
proper notification is made to eligible beneficiaries.

    Question 32. Many outside experts and veterans service 
organizations have indicated that they believe the ``90/10 loophole'' 
results in the improper targeting of veterans by predatory colleges and 
training programs. Do you believe it is reasonable to close the ``90/10 
loophole'' for for-profit colleges, and to count veteran and military 
benefits as part of the 90 percent cap on Federal funding? If not, 
please explain why you do not think this is reasonable.
    Response. The ``90/10 rule'' is a restriction on Federal Student 
Aid funding and is administered exclusively by the Department of 
Education. While VA defers to the Department of Education (ED) on the 
90/10 calculation, there is an argument for including the Post-9/11 GI 
Bill in the 90 percent cap. Under the present structure, some 
institutions may be marketing to Veterans because the Federal education 
benefits they receive are treated the same way as private funds in the 
90/10 calculation. I believe institutions should not aggressively 
recruit Veterans principally because of financial motives.
    I would welcome the opportunity to work with ED and the Committee 
if it considers changes in this area.

    Question 33. After the confirmation hearing for Former Secretary of 
Veteran Affairs David Shulkin, he was asked in writing whether 
Department of Veterans Affairs Post-9/11 GI Bill and Department of 
Defense Tuition Assistance benefits, paid for by Federal taxpayers, are 
Federal funds. He replied simply ``Yes'' that they are indeed Federal 
funds. Additionally, a Senate Appropriations Committee hearing last 
year with Secretary of Defense James Mattis, he was asked a similar 
question, and Secretary Mattis said that ``with respect to the 
Department of Defense Tuition Assistance benefits, yes, the Department 
agrees that these benefits are Federal funds approved by Congress.'' Do 
you believe that GI bill benefits, paid for by Federal taxpayers, are 
Federal funds?
    Response. Yes.

    Question 34. Do you believe it is reasonable to expect that 
institutions of higher education receive at least 15 percent of their 
revenues from sources other than taxpayer dollars, including veterans' 
benefits? If not, please explain why you do not think this is 
reasonable.
    Response. I defer to the Department of Education regarding the 
``90/10 rule'' and/or whether such percentages are reasonable but 
welcome the opportunity to work with ED and Congress if changes are 
warranted

    Question 35. The U.S. Department of Education (ED) recently 
announced a process to share data with VA to enable the discharge of 
Federal loans for totally and permanently disabled veterans with a 100 
percent service-connected disability. This arrangement allows ED to 
identify such veterans who are eligible, but still requires them to 
submit a form to process this discharge. I have previously called on 
these discharges to be automatic for totally and permanently disabled 
veterans, particularly given that there are no tax consequences to the 
discharge. Do you agree that these loan discharges should be automatic?
    Response. Yes, however I defer to the Department of Education as to 
the feasibility of such automation.

    Question 36. The Consumer Financial Protection Bureau (CFPB) is 
currently involved in litigation with Navient, one of the Nation's 
largest student loan companies, which has been alleged to have harmed 
millions of student loan borrowers, including thousands of disabled 
veterans. Can you commit to meeting with Acting Director Mulvaney, or 
his successor, to discuss the allegations of harm against veterans by 
the student loan industry, including Navient?
    Response. Yes.

    Question 37. The Department of Defense has called the Public 
Service Loan Forgiveness (PSLF) program a ``powerful incentive for 
public service-minded people to pursue a career in the Armed Forces of 
the United States.'' Do you agree that the PSLF program is an important 
tool for VA to recruit qualified individuals to serve our Nation's 
veterans?
    Response. I agree that PSLF is a powerful incentive for public 
service and has been a great recruiting program for the DOD. If 
confirmed, I look forward to reviewing programs such as the PSLF to see 
if it makes sense at the VA.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 38. It is my understanding that you support President 
Trump's ban on transgender servicemembers. Quite frankly, I think this 
ban is reprehensible for both moral and national security reasons, and 
I am extremely disappointed to see you support it. I am also gravely 
concerned about how this support will influence your actions if you are 
confirmed as the Secretary of the VA. Right now, we have transgender 
veterans throughout this country who are entitled to, and receive, 
health care at the VA. Can you assure me that, if you are confirmed, 
you will take no action to limit access to care to transgender veterans 
and you will endorse all activities of the VA that support our LGBT 
veterans?
    Response. I assure you that all veterans, regardless of race, 
gender or sexual orientation, will be treated with the respect and 
support they deserve. VA is proud to provide care, benefits and other 
VA services to all Veterans, including transgender Veterans. That 
policy will remain unchanged.

    Question 39. During our conversation last week, I very much 
appreciated your clear understanding of the value of, and science 
behind, integrative health care - practices like yoga, guided 
meditation, and acupuncture. I have long fought to increase access to 
these proven-effective health care options for veterans. If confirmed, 
will you commit to work with me and the Committee to continue the 
expansion of these options within the VA - both at medical centers and 
clinics?
    Response. If confirmed, the continued exploration of complementary 
and integrative health care for Veterans would be a priority of the VA. 
To successfully integrate these approaches into clinical practice, 
however, we must commit to shifting the entire model of health care 
delivery to a whole health system of care. This redesign of health care 
to help people live their fullest life is modeling the future for the 
VA, and for the Nation.

    Question 40. How much additional funding do you think the VA needs 
to really expand these integrative health care services to the veterans 
that could benefit from them?
    Response. If confirmed, I will research and will work with you to 
ensure proper funding for integrated health care services.

    Question 41. As women continue to play a vital role in our military 
operations, it is my belief that we have an obligation to honor their 
service and sacrifice when they return home and transition to civilian 
life. Can you expand on how you will specifically address and improve 
essential health care services for women veterans at VA facilities?
    Response. If confirmed, I will ensure the VA meets the needs of the 
increasing number of women Veterans through increased access to women's 
health providers, training for providers in rural areas, and enhanced 
access to health services through telehealth.
    I will ensure that privacy and safety of women Veterans remains a 
high priority and that the VA is continually working to improve 
standards and maintain facilities to provide gender-specific healthcare 
delivery in a sensitive and safe environment.

    Question 42. I appreciate your acknowledgement, both in our meeting 
and in your public testimony, of the importance of the communal aspect 
of the VA, as a place where veterans know their unique experiences are 
understood. How will you make sure that any VA resources directed into 
private care are matched by spending on internal VA needs such as 
infrastructure and hiring, making sure that we have a strong VA into 
the future?
    Response. VA healthcare should be centered around what is best for 
that individual veteran and should be integrated, agile and adaptive. 
In some cases that requires VA medical facility care and in other cases 
it requires community care. If confirmed, I commit to working with 
Congress and the VSOs to develop a program that ensures proper funding 
for both VA facilities and the community care program.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Sherrod Brown to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs

    Question 43. The VA has been treating our servicemembers since the 
1930's and the buildings that house these medical centers are rapidly 
aging. Can you commit to allocating the resources required to modernize 
and upgrade aging VA medical facilities if confirmed?
    Response. Maintenance and modernization of its infrastructure must 
be a priority of any healthcare organization in order to deliver state-
of-the-art healthcare in a safe and healing environment. It will be a 
priority for VA as it strives to deliver quality healthcare at world-
class facilities. VA-owned facilities currently have facility condition 
deficiency correction costs estimated at $20 Billion. The FY 2018 
Budget and Infrastructure Plus-Up provides funding support for Non-
Recurring Maintenance and Minor Construction programs at a level that 
begins to address these facility deficiencies. I will continue to 
support future budget requests that provide similar funding levels for 
this purpose. Another priority will include a review of the VA 
Strategic Capital Investment Plan and processes to assure VA does the 
right project, at the right facility, and at the right time.

    Question 44. What are your plans to align the VA's physical 
infrastructure with the services that they provide?
    Response. VA intends to conduct market area assessments for each of 
VHA's 96 markets and to evaluate each market to determine supply and 
demand of healthcare services and what health care services are 
available. Through the conduct of the market assessments, VHA can 
thoughtfully, with a uniform methodology, create a high performing 
network in each market to improve and expand access to care for 
Veterans.
    Once the market assessments are complete and the evaluation is 
done, and if they show a need to reconsider the current allocation of 
resources, then a realignment strategy can be contemplated. I would ask 
VA to maintain points of care through VA providers and external 
partnerships and will strive to enhance the convenience and quality of 
services offered.

    Question 45. The Military Housing Privatization Initiative (MHPI) 
was established to ensure that the military had the flexibility to 
address pressing housing needs for our veterans. The program has 
reportedly suffered from extreme maintenance and repair backlog that 
threatens the safety of thousands of vets and their families. What are 
your plans to eliminate this backlog if confirmed?
    Response. MHPI is a DOD program. If the program suffers failures, 
if confirmed, I will identify those shortcomings that are impacting 
former servicemembers so that the Pentagon may address them.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
    to Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. 
                     Department of Veterans Affairs
                          transgender veterans
    Question 46. Please provide a written commitment that you will not 
deny transgender veterans access to the specific health care and 
resources they need - including the care they currently can receive 
through VA such as gender transition counseling, evaluations for 
hormone therapy, and evaluations for gender transition surgeries.
    Response. VHA policy on the treatment of transgender Veterans has 
been unchanged since 2011 and was renewed in May 2018 as VHA Directive 
1341. The services that you listed are all covered care under this 
policy. VHA Directive 1341 does not expire until May 2023.

    Question 47. As Undersecretary for Personnel and Readiness, you 
were responsible for overseeing DOD's transgender service panel. Can 
you please provide answers to the following questions:

    a. Please provide a list of the medical professionals with 
expertise in gender dysphoria who testified before the panel and a 
description of their expertise, as well as a list of the medical 
professionals with expertise in gender dysphoria who were involved in 
drafting the report and recommendations and a description of their 
expertise.
    Response. Because this matter is subject to ongoing litigation in 
multiple Federal courts in which the government is asserting 
privileges, lodging objections to requests for information, and relying 
on existing protective orders to ensure robust deliberation and protect 
confidential and sensitive information, I am unable to provide details 
regarding the names of individuals who advised or provided information 
to the Panel of Experts. However, the Department's Report and 
Recommendations on Military Service by Transgender Persons describes 
the process and the categories of individuals the Panel consulted on 
pages 17-18 and provides a thorough explanation of the Department's 
recommendations on pages 32-43.

    b. Please provide a list of any government employees who testified 
before the panel, as well as a list of any government employees who 
were involved in drafting the report and recommendations.
    Response. Same answer as above.

    c. Please provide a list of any other non-government employees who 
testified before the panel, as well as a list of any other non-
government employees who were involved in drafting the report and 
recommendations.
    Response. Same answer as above.
           interference in va operations by private citizens
    Question 48. There are several reports of individuals using their 
political connections to the President to influence the VA with little 
to no transparency of the nature of these contacts. Please provide the 
Committee records of your contacts with CEO of Marvel Entertainment, 
Ike Permutter; West Palm Beach physician, Dr. Bruce Moskowitz; and 
restructuring consultant at Alvarez & Marshal, Mark Sherman while you 
served as Acting Secretary or while awaiting your confirmation. Please 
provide the date of each contact, the purpose of the contact, and 
disclose any information you provided to them concerning the VA.
    Response. I met with Ike Permutter, Dr. Moskowitz, and Mark Sherman 
on April 19th, 2018 while serving as Acting Secretary. They are all 
great Americans who are concerned about veterans. I also met with many 
others throughout my tenure who sought to make progress at the VA. I am 
willing to listen to any and all who care about veterans and who seek 
to improve veteran's experience.
       recognizing service-connected radiogenic disabilities for 
                           palomares veterans
    Question 49. In 1966, approximately 1,600 servicemembers 
participated in the clean-up of plutonium dust dispersed by the 
conventional explosion of two U.S. nuclear bombs that resulted from a 
mid-air collision near Palomares, Spain. To date, the VA has failed to 
exercise its authority to presumptively recognize the connection of 
radiogenic diseases these veterans suffer to their service cleaning up 
radioactive dust.
    a. If confirmed, will you commit to reviewing the claims of 
Palomares veterans suffering from service-connected radiogenic 
disabilities and diseases?
    Response. Yes.

    b. Can you please describe the process you will use to evaluate the 
claims of Palomares veterans and what steps you will take to ensure 
their claims are given a full and fair review?
    Response. I am committed to fair and sympathetic evaluation of all 
disability claims from Veterans potentially exposed to nuclear 
radiation. VA laws provide presumptive service connection for Veterans 
directly associated with nuclear detonations and testing. Procedures 
are also in place to evaluate potential ionizing radiation exposure 
among Veterans involved with clean-up operations of radiation 
contaminated sites, such as Palomares. All claims of service connection 
for radiogenic diseases are evaluated on case-by-case bases with input 
from VA and Department of Defense (DOD) medical personnel.

    Question 50. The VA has relied on the Air Force's scientifically 
flawed dose estimate methodology which underestimates radiation 
exposure, thus denying service-connected disability claims for 
radiogenic diseases by Palomares veterans.
    If confirmed, will you use your authority to ensure the VA relies 
on a scientifically valid dose estimate methodology to evaluate 
service-connected radiogenic disability claims, including for Palomares 
veterans?
    Response. Yes I would.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
                          transgender veterans
    Question 51. In your current position as Undersecretary of Defense 
for Personnel and Readiness, you played a central role in implementing 
President Trump's transgender ban in the military, a blatantly 
discriminatory attack on those who have volunteered to risk their lives 
for our country. You told me in our meeting that VA needed to become a 
more welcoming place for all veterans especially for women veterans.
    a. Does this welcome extend to transgender veterans?
    Response. Yes. I value the service of all veterans regardless of 
race, gender or sexual orientation, and they will all be treated with 
the respect and the support they deserve. VA is proud to provide care, 
benefits and other VA services to all Veterans, including transgender 
Veterans. That policy will remain unchanged.

    b. How do you justify the transgender ban you implemented while 
also stating you wish to make the VA more inclusive?
    Response. I recused myself as a voting member on the DOD 
Transgender Panel of Experts because I was sworn in as Undersecretary 
toward the end of the process. This policy decision was not implemented 
while I was Undersecretary and in fact, DOD continues to comply with 
the court order accessing transgender applicants and retaining 
transgender servicemembers for military service beginning Jan. 1, 2018.
                                 ethics
    Question 52. If you were asked by the President or anyone in the 
Administration to do something illegal, unethical, or immoral, would 
you comply? If not, would you be willing to resign?
    Response. I have not in the past, nor would I do anything illegal, 
unethical, or immoral, even if asked to do so by someone in the 
Administration. Yes, I would be willing to resign.
                    plan to end veteran homelessness
    Question 53. As Secretary, you will be responsible for managing 
over $1 billion in funding to assist homeless veterans and their 
families. While we have made progress in reducing veteran homelessness 
(47 percent decline since 2010), the VA did not meet its goal of ending 
it by the end of 2015.
    Moving forward, if confirmed, what is your plan to realize this 
goal and also improve the transition process to prevent homelessness?
    Response. The number of Veterans experiencing homelessness in the 
United States declined by nearly half since 2010. Nationally, the total 
number of homeless Veterans from the January 2017 point in time count, 
was just over 40,000. While this represents a slight increase in 
Veteran homelessness over 2016, decreases in Veteran homelessness in 
the majority of the Department of Housing and Urban Development (HUD) 
Continuums of Care in 2017, coupled with the overall decline in Veteran 
homelessness since 2010, demonstrate that the evidence-based strategies 
employed by the VA and its partners to help Veterans become and remain 
permanently housed are working. I am committed to prioritizing this 
issue through continued efforts and collaboration with our Federal, 
state and community partners and other stakeholders.
                 communication between va and veterans
    Question 54. One of the issues I often hear from veterans in Hawaii 
is the lack of access to information and VA outreach to the neighbor 
islands on their earned benefits. If confirmed, can you keep an open 
line of communication between VA and veterans of all generations using 
the methods of communication they feel most comfortable with?
    Response. Yes. Absolutely I will.
                 veteran small business contracts at va
    Question 55. The VA is required by law to prioritize veteran-owned 
small businesses in procuring its goods and services. However, I have 
been hearing from veteran small businesses in Hawaii and nationally 
that the VA has not fully complied with this mandate. What actions will 
you take to ensure the Department is meeting this obligation to veteran 
small business owners?
    Response. If confirmed, I plan to do a full review of VA's 
contracting programs to ensure VA has fully complied with statute and 
Federal regulations.
               filipino veterans equity compensation fund
    Question 56. The American Recovery and Reinvestment Act of 2009 
established the Filipino Veterans Equity Compensation Fund that 
provides a one-time benefit payment to eligible Filipino World War II 
veterans. Over 40,000 claims for this one-time benefit were received 
and processed. While more than 18,000 claims have been approved, nearly 
24,000 were denied. As of September 2017, VA estimates 11 appeals were 
pending with VBA and the Board of Veterans' Appeals. These cases can 
ultimately be appealed the Court of Appeals for Veterans Claims as 
well. As the Filipino veterans are now in their 90s, the urgency of 
resolving their applications cannot be emphasized enough. Can you 
commit that you will not use FVEC funds for unrelated purposes, make 
their claims a priority and work with advocates like the Filipino 
Veterans Recognition and Education Project so that they receive the 
benefits they earned?
    Response. Yes.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
Robert L. Wilkie, Presumptive Nominee to be Secretary, U.S. Department 
                          of Veterans Affairs
    Question 57. With VA's expertise on substance abuse and the 
Department's robust Office of Research and Development, I believe that 
the VA is well equipped to be on the forefront of alterative pain 
therapy research for the entire country.
    a. Please elaborate on how you will increase the number of 
alternative treatments for pain management.
    Response. Effective pain management is a research priority for VA 
Office of Research and Development (ORD). ORD's pain portfolio consists 
of many different non-pharmacological approaches to treat chronic pain, 
including movement-based (e.g. exercise, activity, tai-chi, yoga, 
etc.), massage, acupuncture, acupressure, light, biofeedback (e.g. 
virtual reality), electrical stimulation (e.g. spinal cord stimulation, 
nerve stimulation, brain stimulation), bio-behavioral (e.g. peer-
coaching, cognitive behavioral therapy, acceptance-based therapy), 
orthotic (e.g. smart canes, foot orthoses), and cell-based 
(regenerative medicine for intervertebral disc and knee meniscus) 
approaches.

    b. What investments will you make and are there authorities you 
need from Congress?
    Response. If confirmed, I will ask ORD to continue to encourage its 
investigators to study the use of innovative non-pharmacological 
approaches to treat chronic pain and strengthen collaborations with 
clinical partners to provide clinical evidence to support the use of 
these non-pharmacological approaches for Veterans in the clinic. I will 
work to ensure adequate funding is available to continue this important 
work.

    Question 58. The VA has pursued a number of significant electronic 
health record (EHR) modernization efforts over the past two decades 
with lackluster results. This includes the `integrated EHR' (iEHR) 
initiative, a joint program between the VA and DOD that was intended to 
replace their separate EHR systems with a single, shared system; iEHR 
was abandoned in February 2013 and the Secretaries of VA and DOD 
announced they would not continue development of a joint system.
    a. How is the current EHR modernization (EHRM) initiative distinct 
from previous efforts?
    Response. The current solution to the overlying question of 
interoperability and EHRM is different from previous initiatives 
because the VA has committed to a COTS application and is moving 
forward with private sector solutions instead of trying to produce 
something in house that does not meet the DOD's internal needs.

    b. What approaches will you take to ensure this effort succeeds 
where others have failed?
    Response. In the presence of inaction there is failure. From my 
understanding there has historically been a lack of leadership within 
VA IT modernization. That has already changed, and if confirmed, unlike 
my predecessors, I will be holding my senior leaders accountable for 
both the successes and failures of their project management.

    Question 59. `Big Data' is becoming increasingly important in 
medical research to discover risks, causes, and treatments for diseases 
afflicting Veterans, including PTSD, suicide, and substance abuse. 
Because the VA research program is embedded in a hospital system that 
utilized EHRs for decades, the VA is in a unique position to make 
advancements in this area. Studies that leverage and combine very large 
data sets (genomics, EHRs, imaging data, etc) require significant 
investments in IT infrastructure, however.
    a. How is the VA investing in research IT infrastructure?
    Response. I agree that `Big Data' is important in medical research 
and I will work with VHA to ensure proper investment in IT 
infrastructure for research purposes.

    b. Does the VA have the IT resources it needs to fully take 
advantage of all the data it is collecting to improve Veteran health?
    Response. If confirmed, I commit to ensuring the VA has the IT 
resources needed to improve Veteran's health.

    Question 60. The VA MISSION Act contains an Infrastructure and 
Asset Review (AIR). In the act congressional intent was clear that AIR 
commission members appointed by the President will be by and with 
consultation of the Senate and that he has to consult with majority and 
minority leadership of both houses and the VSOs. However, in his 
signing statement the President said, ``After reviewing recommendations 
of the Secretary regarding modernization and realignment of facilities 
of the Veterans Health Administration, the Commission will make 
recommendations for the President's approval or disapproval. I 
anticipate that I will be able to consult with Members of Congress on 
these appointments and will welcome their input, but a requirement to 
consult with the Congress in executive decisionmaking violates the 
separation of powers, including where the Congress has vested the 
President alone or a department head with authority to make 
appointments. I will accordingly treat this provision as hortatory but 
not mandatory.''
    a. Do you agree with the President's statement?
    Response. I commit to working with Congress throughout the process 
of modernization and realignment of VHA facilities. I will also consult 
with and receive input from Congress on the appointments for the 
Commission.

    b. When the AIR is implemented will you advise the President to 
consult with Members of Congress in both chambers and on both sides of 
the aisle on these appointments?
    Response. I commit to a transparent and inclusive process for AIR 
implementation and will advise the President accordingly.

    Question 61. The most recent data from HUD found that the number of 
homeless veterans increased by almost 2 percent from 2016 to 2017, the 
first time the number has risen since 2010. Meanwhile, over the past 
year, VA has issued and subsequently reconsidered proposals to 
terminate or reallocate funding within programs like Grant Per Diem and 
HUD-VASH. This has left providers in West Virginia concerned about 
whether their grants will be renewed and forced difficult decisions on 
staffing and capacity.
    How do you plan to keep local providers informed of changes 
relevant to their grant programs in a timely manner?
    Response. I commit to working with VHA to ensure the mediums used 
to provide information are effective to ensure local providers are 
apprised of any changes in program guidance.

    Question 62. On March 7th, then-Secretary Shulkin announced a 
nationwide restructuring plan that included the consolidation of three 
Veteran Integrated Service Networks (VISNs) into one. West Virginia's 
VA hospitals would be lumped together with hospitals in the Desert 
Pacific and New England under a single VISN. The VA was expected to 
release a report on July 1st on the long-term plan for VISN 
reorganization.
    a. Do you plan on moving forward with the organizational 
restructuring?
    Response. If confirmed I plan on reviewing the recommendations from 
the VISN review before making a determination on the way forward.

    b. If confirmed, do you commit to keeping the Veterans' Affairs 
Committee informed on the status of the VISN consolidation and 
realignment?
    Response. VHA is currently completing a systematic review of the 
Veterans Integrated Service Networks. The purpose of the review is to 
make recommendations to improve VISN oversight, accountability, 
performance and strengthen lines of communication throughout the 
organization. I will keep the Veterans' Affairs Committee updated on 
the corrective actions taken in response to the recommendations from 
the VISN Redesign report.

    Question 63. It is well known that many hospitals and CBOCs in the 
VA system need renovations and maintenance. The process the VA uses to 
prioritize minor construction projects is not very transparent, 
however.
    What meaningful steps can you take to increase transparency and 
ensure minor construction dollars are being spent effectively?
    Response. If confirmed, a priority for VA capital programs will 
include a review of processes to assure VA does the right project, at 
the right facility, and at the right time. Improvements to the VA 
Strategic Capital Investment Plan (SCIP) are needed and have been 
identified in various audits and reviews. I commit to transparency with 
this Committee to ensure minor construction dollars are being spent 
effectively.

    Question 64. You have mentioned there would be value in the VA 
adopting private sector business practices for processes like managing 
supply chains.
    a. Can you elaborate on how you intend to use private sector 
practices to improve Veteran services?
    Response. If confirmed, business transformation will be a top 
priority and upon completion of a thorough review of VA's processes and 
business practices, I will apprise this Committee of any recommended 
changes.

    b. What specific VA processes would you update using private sector 
practices?
    Response. Same answer as above.
                                 ______
                                 
Response to Additional Posthearing Questions Submitted by Hon. Richard 
 Blumenthal to Robert L. Wilkie, Presumptive Nominee to be Secretary, 
                  U.S. Department of Veterans Affairs
                       modernizing the va's motto
    Question 1. Mr. Wilkie, the VA's official motto originates from 
President Lincoln's second inaugural address in 1865 and currently 
reads:

        ``To care for him who shall have borne the battle and for his 
        widow, and his orphan''

    This motto is prominently displayed on the VA's website, in its 
publications, and on two plaques at the entrance of the VA's 
headquarters. Women veterans deserve acknowledgement for the service 
and require more respect from the VA. Today, there are nearly 2 million 
women veterans in the United States and over 345,000 women are deployed 
in support of current conflicts. Likewise, the number of women using VA 
services has increased by 80 percent since 2001. Changing the VA's 
gendered and exclusionary motto is an imperative first and fundamental 
step for truly welcoming women into the culture and community of 
veterans.
    <bullet> Do you believe it is time that the VA update its motto to 
better reflect the population it is serving?
    <bullet> If confirmed, will you use your authority to revise the 
VA's motto in order to better include female veterans?
    Response. Lincoln's words serve as a historic tribute to all 
Veterans, including women Veterans, whose service and sacrifice 
inspires us all. They are a timeless and poignant reminder of the debt 
America owes all who have worn the uniform and not only from one of the 
greatest leaders in America history but in the history of the world.
    When it comes to serving women who have worn the uniform, I 
understand that VA has made enormous progress.VA is on the forefront of 
information technology for women's health and is redesigning its 
electronic medical record to track breast and reproductive health care. 
Quality measures show that women Veterans are more likely to receive 
breast cancer and cervical cancer screening than women in private 
sector health care.
    VBA, in partnership with the Veterans Health Administration (VHA), 
is utilizing more technology such as social media channels to reach 
women Veterans and their families.
    That said, there is still more work to be done to ensure we meet 
the needs of women Veterans, and, if confirmed, I will make that a top 
priority.
    I have attached a link to an address I gave at the Women In 
Military Service Memorial. This is a civil rights address, that 
highlights the ever-expanding role of women in service that I believe 
applies equally to those women veterans within the VA. I delivered this 
before I knew that I would be asked to become Secretary.

        https://www.blogs.va.gov/VAntage/48637/acting-secretary-
        participates-in-congressional-caucus-for-womens-issues-wreath-
        laying-ceremony/
                  health services for female veterans
    Question 2. As the population of female veterans increases, we must 
make sure we do everything to ensure female veterans have access to 
quality health care and support services. For example, veterans do not 
have the same access as servicemembers to maternity care (VA covers up 
to 7 days of newborn care after birth, TRICARE covers newborns up to 60 
days).
    If confirmed, will you ensure that female veterans seeking care 
through the VA have access to the same health services as their 
civilian and active duty counterparts?
    Response. VA provides full services to women Veterans, including 
comprehensive primary care, gynecology care, maternity care, specialty 
care, and mental health services. VA has enhanced provision of care to 
women Veterans by focusing on the goal of developing Designated Women's 
Health Primary Care Providers (WH-PCP) at every site where women access 
VA. We have a long way to go and if confirmed, I look forward to your 
partnership to continue to innovate and improve services for women 
Veterans.
     va infrastructure improvements and west haven va, sps facility
    Question 3. Thank you for taking the time to meet with me in my 
office, I appreciated our discussion about the importance of capital 
investment in VA facilities. As we discussed, the West Haven VA in 
Connecticut requires $17 million to design and construct a new Sterile 
Processing Service (SPS) facility. This is necessary to assure 
adherence to national guidelines to sterilize and properly store 
medical equipment.
    a. If confirmed, will you commit to ensuring funding for the design 
and construction of a new SPS facility at the West Haven VA is approved 
expeditiously?
    Response. Yes, I will commit to ensuring funding for design and 
construction of a new SPS facility in West Haven.

    b. What action will you take to reduce the backlog of maintenance 
and construction at VA facilities? Absent funding for repairs and 
upgrades, how will you take meaningful action to improve VA facilities?
    Response. Maintenance and modernization of its infrastructure must 
be a priority of any healthcare organization. If confirmed, I will 
ensure proper governance structures, processes, and policies are in 
place to ensure we deliver quality healthcare at world class 
facilities.
                 electronic health record modernization
    Question 4. EHR modernization--a historic, multi-billion dollar 
overhaul of the system used to track veterans' health records--requires 
input from specialized professionals to align the VA and U.S. 
Department of Defense with an interoperable system. During our meeting, 
you mentioned that you consulted with experts and appropriate parities 
prior to moving forward with the VA's contract with Cerner.
    Who specifically did you seek input from on this contract? Did Dr. 
Bruce Moskowitz or any other individual outside of VA provide input on 
EHR modernization?
    Response. As part of VA's overall due-diligence in assessing 
various aspects of the Electronic Health Record (EHR) Request for 
Proposal (RFP) and related requirements documents, the EHRM Team 
utilized dozens of external executives and technical/clinical subject 
matter experts throughout the health care industry and had them sign VA 
Non-Disclosure Agreements. Dr. Moskowitz was one of those experts.

                      va vacancies and oig report
    Question 5. The VA Office of Inspector General recently published 
its fifth annual report on staffing shortages at VA. While staffing 
levels vary across the country, the report identified three common 
challenges across nonclinical and clinical vacancies. These included a 
lack of qualified applicants, salaries that are not competitive with 
the private sector, and a high turnover rate.
    a. If confirmed, what actions will you take to recruit and retain 
VA employees? How do you plan to incentivize qualified applicants to 
not only accept an offer for employment, but also to make a career at 
VA?
    Response. It is critical that leaders at all levels have the tools 
and authorities to manage talent in their organization. One size does 
not fit all and a human capital plan should be tailored to the needs of 
each community. If confirmed, I am committed to ensuring we have the 
right leaders with the skills, passion and commitment to serving our 
Veterans. Pay parity is absolutely important. I will direct the VA's 
Corporate Senior Executive Service Management Office to review and 
evaluate the effectiveness of existing executive pay-setting practices 
to ensure we are making pay decisions that are fair to all employees. 
In addition, I will commit to personally reviewing annual salaries of 
all VA executives on an annual basis.

    b. What will you do to rapidly hire the expertise necessary for 
spearheading the VA's EHR modernization and appointment scheduling?
    Response. I will direct VHA to work closely with the Department, 
and with program and project managers, to ensure human resource 
requirements are properly defined, both in terms of quantity and in 
terms of skills. VHA will support timely recruiting, hiring and on-
boarding activities to ensure the best qualified professionals are 
assigned to these critical initiatives. VA will make full use of Direct 
Hire Authority to staff key IT vacancies in EHRM.

                   equal pay for female va employees
    Question 6. The Washington Post article, ``Trump's VA pick, a 
longtime aide to polarizing politicians has defended extreme views,'' 
asserts that as an aide to Majority Leader Trent Lott, you rebutted a 
resolution regarding equal pay for women. Across the Federal 
Government, there is a gender disparity in compensation that widens the 
more senior the positions.
    If confirmed, what will you do as Secretary to address the gender 
gap in the workforce compensation and leadership of the Department of 
Veterans Affairs?
    Response. VA compensation data demonstrates that the average salary 
of female senior executives compares favorably to the average salary of 
male senior executives. This is due in part to ensuring pay-setting 
practices are reviewed annually, with a focus on consistency and 
excellence. If confirmed, I will direct the VA's Corporate Senior 
Executive Service Management Office to review and evaluate the 
effectiveness of these practices for further improvement and 
application to other clinical and leadership positions. I will also be 
happy to have data provided to you for review.

    Chairman Isakson. Robert, congratulations on your 
nomination, and thank you for an outstanding statement. As I 
read it the night before last, before I met with you yesterday, 
I thought about what a compelling statement it was and how 
appropriate it is for the challenges that we face.
    I also want to repeat here what I told you yesterday 
because there needs to be no one out there that misses or has 
any equivocation about what we are looking to. You are getting 
an agency that has had its problems, an agency that represents 
the promises we have made to those who served and risked their 
lives for our country, an agency that is in need of help, an 
agency that we are all proud of and want to be more proud of.
    Senator Tester and his Democratic side of the aisle with me 
and ours on this side have done everything we could in the last 
year and one-half from accountability to COLA increases to 
everything in the world we could do to make the VA change in 
thought--to respond to the questions the VA has had.
    You had mentioned the $200 million infusion as well--or 
billion-dollar infusion.
    Mr. Wilkie, there are no excuses anymore. Failure is not an 
option. We know what the problems are. We know what we need to 
do to take them. We stand ready to be right and be the wind at 
your back and to have your back to see to it our veterans get 
what they fought for and risked their lives for. The American 
people see us reward them with the type of service the VA ought 
to have given always and I think will give now and in the 
future.
    So, that is my one admonition. Whatever my phone number you 
have got, I am on duty 24/7 when it comes to the VA. If you 
have a problem, you call us because we want to fix it before it 
festers, not wait for it to fester.
    Now, when you say customer service to a veteran, tell me 
what customer service to a veteran means to you.
    Mr. Wilkie. Customer service, Mr. Chairman, means that 
before the veteran walks into the door of the VA, he has 
already been greeted through schedulers, through medical 
professionals, with Americans who are ready to serve him.
    I noted that in some of the debates this Committee had, the 
greatest problem that you all saw was actually getting the 
veteran through the door. I have no doubt that VA provides some 
of the finest care in America, but I also understand that 
getting to that care is something that the leadership of the 
Veterans Affairs Department has to focus in on like a laser 
beam. A world-class customer service is the key.
    That ties into something that you and I talked about in 
your office, and that goes to human resource management. The 
first people our veterans contact are usually the schedulers. 
VA has had a hard time keeping those schedulers. We train them, 
and then they often leave. I do believe that it is incumbent on 
the Secretary of VA to have long discussions with the Office of 
Personnel Management to make sure that the Secretary and those 
who work for him have the ability to adjust pay scales so that 
people who are there at the very ground level when a veteran 
comes to work--or comes to be seen, treat him respectfully and 
stay in that job and learn what it means to talk to our 
veterans.
    Chairman Isakson. Mr. Wilkie, as you know, Senator 
Sullivan, Senator Rounds, Senator Boozman, Senator Tester, 
other Members of this Committee represent States where our 
veterans are a long distance away from our VA facilities, a 
full-day's drive in some cases, like Montana as big as it is. 
And, as you may know in the debate on the MISSION bill and in 
the markups, a choice program that works to make VA health care 
services available to the veteran is a key to that argument and 
that debate.
    Will you work as hard as you can and tell us what you plan 
to do to see to it that choice is a reality and the timing of 
appointments is good and that we end the problem that we have 
had with veterans not being able to reach the services they 
deserve and they earned?
    Mr. Wilkie. Yes, sir. This goes to something that Senator 
Tester and Senator Sullivan and I talked about. So, I will say 
that those of us from the East, even in the 21st century, do 
not understand the scale of the American West.
    In Montana, a normal journey will sometimes take 600 miles 
round trip to get to a VA facility. What choice means is giving 
those veterans and their family caregivers the opportunity to 
engage with VA any time of the day through things like 
telehealth, but also with the development of the Community Care 
Networks, which will provide them access to services that VA 
cannot provide, VA services that will be close to home, so that 
the burden is not on them to get to VA.
    The problems with choice were also--were such that because 
it was so rapidly implemented, particularly in rural America, 
our providers were not being paid, not only the small-town 
doctors, but the small community hospitals, where veterans go 
to get emergency care. If we do not automate that system and 
make it part of an integrated Community Care Network, we will 
have failed veterans, but in particular those veterans who live 
in our largest States, geographically.
    Chairman Isakson. Senator Tester.
    Senator Tester. Thank you, Chairman, and thank you for 
being here, Mr. Wilkie.
    When you agreed to take this job, were there any conditions 
attached?
    Mr. Wilkie. No, sir, there were no conditions.
    Senator Tester. Will you have the autonomy to be able to 
appoint your own deputies to carry out your vision at the VA?
    Mr. Wilkie. Yes, sir.
    Senator Tester. Are you empowered to do what you believe is 
best for our veterans, even if that is in disagreement with the 
President?
    Mr. Wilkie. Yes, sir. And, I will say, Senator, as Senator 
Tillis noted, I have been privileged to work for some of the 
most high-powered people in this town: Dr. Rice, Dr. Gates, 
Secretary Rumsfeld, and General Mattis. They pay me for their 
opinions, and I give those to them or I would not be working.
    Senator Tester. OK. As I had mentioned earlier in my 
opening statement, the Acting Secretary recently directed the 
independent VA Inspector General to acts as a subordinate. I 
can go through his direct quote, but do you think that is 
appropriate?
    Mr. Wilkie. The Inspector General--and coming from a 
military life, the Inspector General is an integral part of any 
military organization.
    I am not familiar, since I left VA, with all the 
particulars that you are talking about.
    Senator Tester. Yes.
    Mr. Wilkie. But, the IG is a partner, is not subordinate to 
the Secretary and VA. Because of the work this Committee has 
done, has three prongs of what I would call the investigation 
and enforcement tool; not only the Inspector General, but the 
Office of the General Counsel as well as the Accountability and 
the Whistleblower Protection Office. My vision is that those 
three offices work symbiotically.
    VA suffered, as everyone on this Committee knows, with 
places like Phoenix because the IG office at that time was not 
as diligent as it should be, and it lost the train on that.
    Senator Tester. OK. You do not believe that the IG works 
for you, though, do you?
    Mr. Wilkie. I believe the IG works with me.
    Senator Tester. Independently.
    Mr. Wilkie. Yes. But, the IG, as any IG--and I have 
certainly worked with the Department of Defense IG--is given 
assignments by the Secretary. The Secretary feels that it is 
something that needs to be investigated.
    Senator Tester. Yep. Gotcha.
    Would you commit to not interfere or hinder the 
independence of the IG and be transparent with information with 
asked to get it?
    Mr. Wilkie. Not only do I commit to that, but interference 
with the Inspector General's investigation, even though I am a 
recovering lawyer, is probably criminal.
    Senator Tester. All right. Thank you.
    Look, we have heard about--the choice program has been a 
train wreck. You talked about little time for rolling out. I 
think that is part of the problem with the Choice Act. It is 
not the case with the MISSION Act, though. Congress has 
provided the VA with a full year to implement that program with 
funding for a full year to get that program off the ground. Any 
delays or snags, as I said in my opening statement, will not 
be--I just do not think it is going to be accepted by this 
Committee.
    The implementation of the rules established in standing up 
the Community Care Networks, I talked about them in my opening 
statements. I am troubled that these contracts are--the awards 
have been delayed. I think they potentially could undermine 
your ability to establish a robust program, and we would fall 
right back into the same pitfalls we had with Choice.
    So, the question is, day one, when you get on the job, as 
it applies to the Mission Act, what are you going to do to make 
sure this program works?
    Mr. Wilkie. Yes, sir. The last project I began before I had 
to leave and return to the Department of Defense was a deep 
dive on the integration of the three regional Community Care 
Network contracts. My understanding is that they are on 
schedule to be signed or implemented at the end of the year. I 
did not get much beyond that, but I will pledge to come back 
here, if confirmed, and give you a report as soon as I get 
there as to where that is----
    Senator Tester. OK.
    Mr. Wilkie [continuing]. Because it cannot be delayed any 
longer.
    Senator Tester. OK. Good.
    You talked about one of the problems is getting veterans 
through the door--I agree--of the VA. I had a bunch of interns 
in my office today, and they said if you could do one thing 
with the VA, what would it be. I said we have not got enough 
docs, we do not have enough nurses. In Montana, there are 200 
clinical vacancies. That is unacceptable.
    What do you intend to do differently? Because these 
shortages have to be filled. The VA is a good health care 
system, as you have already said and we know. What are you 
going to do differently to make sure we get folks on board?
    Mr. Wilkie. Two things. First of all, because of the size 
and complexity of VA, a blunderbuss approach to filling the 
vacancies that you rightly mentioned will not work. We have to 
target where VA has the greatest need.
    To me, even though I am not a doctor, that is primary care 
physicians, internists, two skills that are vital, particularly 
in the American West; mental health workers; and medical 
professionals who specialize in women's health.
    The second part of that would be to finally create a 
holistic approach to veterans' care. I was stunned when I 
visited the Small Business Administration and was told that I 
was the first Secretary they had seen in a long time. There are 
a lot of places in the Federal Government we can go to leverage 
resources to help veterans, particularly in those things that 
we do not often talk about: education, vocational 
rehabilitation, and job training.
    Chairman Isakson. Senator Rounds.

                STATEMENT OF HON. MIKE ROUNDS, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Wilkie, first of all, thanks for being here. I 
appreciate your service to our country and taking on this very 
challenging job.
    I am one of the Senators up here that voted against the new 
MISSION Act, and I did it not because there were not some good 
ideas being brought forth in the new proposal, but rather 
because of some protections that were found within the previous 
Choice Act are no longer there anymore. One of them was the 
fact that if you went for 30 days without being able to get in 
that you could go to the doctor of your own choice. That 
guarantee is now gone.
    At the same time, today, the most recent count that I have 
says 53 percent of those veterans who were initially applying 
for services were going beyond 30 days. Those folks no longer 
have that promise that they can go someplace else.
    You have made it very clear that you want to be able to 
provide world-class customer service. What I would like you to 
be able to do is to share with the veterans out there, the 
number of days that they should expect to have to wait, if any, 
in order to get in and how long will it take you to change it 
from more than 30 days, which it is now, to a reasonable number 
of days under the proposal that includes a Community Care 
Network.
    Mr. Wilkie. Yes. I will keep mentioning that I am not a 
doctor, but I certainly was responsible for the reform of the 
Defense Health Agency and tackled the waiting times that our 
military dependents were facing. We had, as the VA did, on many 
military installations, our families still making appointments 
on paper.
    The threshold question--I think it is a complicated 
question--is it depends on what the veteran is seeking. If the 
veteran is seeking a yearly physical, I would not expect VA to 
handle that in 2 or 3 days. If the veteran is ill, I would 
expect VA to move as rapidly as possible, and that would be the 
demand.
    The 30 days is unacceptable. It goes back, though, to the 
reforms that are contained in MISSION Act, and I think the 
beauty of the Electronic Health Record System is that it 
actually gets to that. It has markers put into the system that 
will alert institutional VA as to how rapidly they have to get 
that veteran into the system, and it will. There will be a 
scale based on what that veteran needs. Thirty days is 
unacceptable, and again, with the new automation coming, I 
think we will have for the first time the ability to do a 
triage as soon as that veteran or his pharmacy or his local 
doctor puts information into that system.
    Senator Rounds. Let me just ask how long do you think it 
will take to implement that system before veterans can actually 
expect to have their waiting time less than 30 days.
    Mr. Wilkie. Well, that system will take several years, but 
the changes----
    Senator Rounds. So, what are we doing in the several years 
in which veterans have got right now wait times that are in 
excess of 30 days?
    Mr. Wilkie. Yes, sir. The changes that I will be advocating 
in terms of bridges in the appointment system will address 
those issues as well as better training for those making the 
schedules for our veterans.
    We will have a computer system that does that. It does need 
to be updated, but we will be able to transfer in increments. 
The problem----
    Senator Rounds. OK. What you are saying is it is going to 
be a while, but that you are focused on it, OK?
    Mr. Wilkie. Yes, sir. Focus is important.
    Senator Rounds. Next, I have got literally dozens of 
providers in South Dakota who had provided services to veterans 
who have never been paid, and we are talking anywhere from 
hundreds of thousands of dollars to millions of dollars. Would 
you commit to us today that you will work so that those folks 
that still are owed dollars have an appropriate avenue to get 
reimbursed for the services they provided to the veterans?
    Mr. Wilkie. Absolutely, absolutely.
    Senator Rounds. OK. Thank you.
    Last, you said something in my office, which I think was 
very compelling, and I just want you to--you bring a huge 
perspective from being a military dependent, an Air Force 
officer, a congressional staffer, a senior civilian leader in 
the DOD to a very difficult job right now. I want to thank you 
once again for the service.
    When we met in my office last week, you brought up a number 
of challenges you witnessed during your time as an Acting VA 
Secretary. Would you expand on your reference to walking the 
post and other experiences you have had from your time in and 
around the military? How would you like to bring that to the 
VA?
    Mr. Wilkie. Yes, sir. Thank you.
    ``Walking the post'' is an ancient military term that 
requires the commander to walk amongst his troops. I think 
Senator Tillis will laugh at me. It comes from Shakespeare. It 
is beaten into our heads from the time we raised our hands.
    I will tell you--and I am not casting aspersions on 
anyone--I was amazed walking in the headquarters in some parts 
and being told that I was the first Secretary that many of 
those folks have seen.
    I mentioned in the first statement that I gave at VA that 
it has to be a bottom-up organization. That anyone who sits in 
the Secretary's chair and claims he has the answers should not 
be there, and he is pulling the wool over eyes.
    So, ``walking the post'' means talking to the people and to 
the veterans who are using VA services and getting out in the 
field.
    Thank you, sir.
    Senator Rounds. Thank you.
    Mr. Wilkie, I think you are the right man for the job. I 
think you have got a huge job ahead of you.
    Mr. Chairman, thank you.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Sanders.

               STATEMENT OF HON. BERNIE SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you, Mr. Chairman.
    Thanks for being here, Mr. Wilkie, and thanks for the visit 
in my office.
    Let me be blunt and tell you what my dilemma is. We 
discussed this a little bit last week. The veterans 
organizations and the veterans in the State of Vermont are, in 
fact, quite proud of the VA. They feel that everything being 
equal, once they get into the VA, they receive high-quality 
care. There is, to the best of my knowledge, overwhelming 
opposition to the privatization of the VA from The American 
Legion, the VFW, DAV, and all of the major veterans 
organizations.
    We had a State-wide veterans meeting in Vermont a couple of 
months ago, and what all of the Vermont veterans are saying, 
``Bernie, do everything you can to prevent the privatization of 
the VA.''
    We have a President who last year introduced the budget, 
which called for trillion-dollar cuts in Medicaid over a 10-
year-period, $500-billion cut in Medicare. We have a Congress 
that wanted to end the Affordable Care Act. We have a sentiment 
here that is not terribly in favor of public health or 
government-run health care, and yet, of course, the VA, for all 
intents and purposes, is a socialized health care system.
    Why should--and then on top of all of that, we have the 
former Secretary, David Shulkin, who I thought did a pretty 
good job, when he was fired by the President, Shulkin indicated 
he thought it was because he was not moving forward on 
privatization as fast as the President had wanted.
    Given that context, let me ask you two questions. Number 1, 
do you believe in the privatization of the VA? That is question 
number 1.
    Mr. Wilkie. No, sir. No, Senator, I do not.
    Senator Sanders. OK. Will you vigorously oppose, whether it 
is the Koch brothers and their various organizations or the 
President of the United States, any effort to privatize the VA?
    Mr. Wilkie. My commitment to you is that I will oppose 
efforts to privatize VA.
    Senator Sanders. OK. The difficulty is, of course, the 
devil is in the details. Chairman Isakson made a good point, 
which I agree with, that we constantly hear negative stories 
about the VA, but you and I know that every single day, the VA 
is doing phenomenal work all over this country. There is no 
disagreement on this Committee that if somebody has to travel 
300 miles to get a physical checkup, that is insane when they 
can get it in their community office or, in fact, if somebody 
cannot get the services they need at a local VA, of course, 
they should be able to get a local caregiver. No one debates 
that.
    But, the devil then is in the details. So, what happens if 
you have a VA where people can walk in, get care in a prompt 
manner, but somebody prefers to go to a private-sector doctor, 
number 1? And, on top of that, one of my concerns--and the 
reason I voted against the MISSION bill--is that it put $5 
billion into the Community Care program, zero dollars into the 
VA.
    My fear is that we are going to see a drip-by-drip 
depletion of funds for the VA and the services they provide, 
putting that into the Choice program.
    Mr. Wilkie. Yes, sir.
    Senator Sanders. What do you feel about my concerns?
    Mr. Wilkie. Senator--and you and I had a great discussion 
about this in your office--I believe in the centrality of VA to 
care.
    I will also say that there are things that the VA does--and 
I mentioned one, but let us go through the medical items that 
will never be replicated in the private sector: spinal cord 
injury, traumatic brain injury, rehabilitative services, 
prosthetics, audiology, and services for the blind. You are not 
going to find that anywhere, even in the Mayo Clinic.
    Senator Sanders. Right.
    Mr. Wilkie. I do believe, though, that if we believe that 
the veteran is central, we can also make the argument that as 
long as VA is at the central node in his care and that that 
veteran has a day-to-day experience with the VA and walks 
through where VA can help him with care when he immediately 
needs it, that reinforces I think the future of the VA, and 
then that is what I believe. And, I also think that that----
    Senator Sanders. I apologize to interrupt you. I have very 
little time.
    Mr. Wilkie. Yes, sir. That is fine.
    Senator Sanders. Let me just ask you a couple of questions. 
I am probably going to preempt Senator Murray here who has led 
the effort on Caregivers.
    Mr. Wilkie. Yes.
    Senator Sanders. Would you support the full funding of 
Caregivers, the Caregivers Program, so that every generation of 
veterans will have that service?
    Mr. Wilkie. Senator, as I said, I come from--I am a 
dependent of the Vietnam era. Yes, sir.
    Senator Sanders. OK. One of the concerns that many veterans 
organizations have is that central care, which to me is an 
integral part of health care, is not part of VA health care, 
other than service-connected. Would you be willing to look with 
me at expanding health care to dental care for veterans, even 
when it is not service-connected?
    Mr. Wilkie. Actually, Senator, I left your office and 
yesterday talked with the Chairman about that issue. If the 
Chairman is desirous, we will explore that with you. I do not 
know enough about it, but if there are hearings down the road, 
would certainly participate.
    Senator Sanders. All right. Mr. Chairman, it is my 
understanding we will have a hearing on that issue; is that 
correct?
    Chairman Isakson. The Senator is correct. In fact, I 
brought it up when we talked yesterday, and I told you on the 
floor that we would not do any add-ons to any bills going 
through, which was the request that you made on the 
appropriations bill, but that I would assure you that we would 
have a hearing and that it would be timely, which means not put 
off for a long time. And, I have got a couple other promises 
just like that I made, including one to Senator Murray, which 
we will certainly do. I live up to my promise to do that, and 
if the facts merit making the decision, we will deal with that 
when it comes.
    Senator Sanders. OK.
    Chairman Isakson. You will have that chance.
    Senator Sanders. Thank you, Mr. Chairman.
    Thank you, Mr. Wilkie.
    Chairman Isakson. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Mr. Wilkie, thank you for your presence with us today. 
Thank you for your service to our Nation and to your service as 
a public official.
    You have been through a few confirmation hearings, and I am 
delighted to have you back to have a conversation.
    When I judge whether the VA is working for veterans, I do 
so by what we call casework, which is when veterans seek help 
from my staff to solve problems, the number of those instances 
is increasing, not diminishing, and it suggests to me that we 
need to do more and to work harder to make certain that those 
who need our help receive our help.
    Right now, we have 80 open veteran cases with a steady 
stream of about 30 cases each month.
    You indicate that you want--you indicate in your statement 
that when the veteran comes to the VA, he or she ought not have 
to employ a team of lawyers to get the VA to yes. I want to 
commend you on that. And, I want to work with you to make 
certain that you have the best opportunity you can to get the 
VA to a position of yes on behalf of those that the Department 
is created to serve.
    Before I jump into a couple of questions, I want to 
highlight a couple of things in construction, both at 
Leavenworth and at Wichita VA Med Centers. There are efforts 
afoot for a long time to create a partnership--in the case of 
Leavenworth, a public-private partnership; in the case of 
Wichita VA, a partnership between the Air Force Base, 
McConnell, and the VA. I raise those today in your confirmation 
hearing because I will be back with you. Those have been on a 
list, off and on a list for a long time. Those partnerships are 
something we ought to pursue, and to date, the VA has failed to 
do so.
    In regard to my questions, I acknowledge and believe that 
you have a monumental task ahead of you. I think in reforming 
and successfully implementing the VA MISSION Act, if it is 
implemented correctly, it can be transformative. It can reduce 
those number of cases that my staff and I pursue on behalf of 
veterans.
    One of my complaints--and I raised this in the confirmation 
hearing of one of your predecessors--is so often when Congress 
passes legislation, the VA's implementation, in my view, is 
contrary to the intent, and in many instances, contrary to the 
letter of the law that we have implemented. What can you tell 
me about your efforts in regard to implementation of VA MISSION 
Act? How will you make certain that the will of Congress is 
pursued?
    We have seen--I have seen, in my view, pushback from the 
Department of Veterans Affairs in regard to Community Care. How 
can you overcome that reticence?
    Mr. Wilkie. Well, sir, first of all, I support, as I told 
Senator Sanders, Community Care and its funding, but may I take 
a step back and tell you how I did it at DOD?
    As many of you know who work military issues, Personnel and 
Readiness had not had any confirmed leadership, I think since 
the Bush administration. In order for me to send a signal to 
the Congress and to those who work in P&R that the organization 
was capable of moving forward, my first directive was to 
implement outstanding instructions from national defense 
authorization bills going back to fiscal year 2010.
    VA has a problem, as you mentioned, but the problems at DOD 
for P&R were catastrophic. DOD had not implemented the 
Exceptional Family Member Program from the fiscal year 2010 
bill. It had not implemented the sexual harassment policy from 
the fiscal year 2013 bill, and it had not begun the full 
implementation of defense health reform from the fiscal year 
2017 bill.
    I issued the directives for DOD to carry out those 
programs. We now have a sexual harassment policy. Exceptional 
Family Member Programs are moving out, and we are looking at 
October 1st for the first implementation of defense health.
    I do not know all of the specifics, Senator, of the 
outstanding directives from past authorization bills, but I 
will give you the same pledge that I gave Senator McCain that I 
will get the list and start moving out.
    Senator Moran. I look forward to working with you in that 
regard.
    I do not have much time, but I would say--and I know that 
Senator Tester raised the issue of vacancies, positions 
unfilled. I think the Department of Veterans Affairs has a 
challenge not only in filling current vacancies, but also in 
adding employment and finding different types and more 
providers for the medical services. Again, I would hope that 
you would confirm to me that you will have an aggressive 
approach to filling vacant positions and adding more where 
needed.
    Mr. Wilkie. Yes, sir, I do.
    Senator Moran. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you, Mr. Wilkie. I appreciate your 
being before us today.
    Before I get into some of the specific veterans' policy 
issues, I do want to express my concerns with reports about 
your opposition to equal pay for equal work and your record on 
diversity and your passionate advocacy for the confederate 
flag. I am not going to ask you about it at the Committee 
hearing. I am going to be submitting questions for the records, 
and we do have a limited time. But, I do want to get full 
answers back on those from you in writing.
    Mr. Wilkie, as part of the MISSION Act, Congress expanded 
eligibility for the Caregivers Program that Senator Sanders 
mentioned to veterans of all eras and added critically-needed 
services. Accordingly, I worked to include in the veterans 
appropriation bill almost $861 million for the Caregiver 
Program, $365 million above the President's request. VA has the 
resources it needs to start implementing this expansion. So, we 
need the VA to commit to making the needed reforms, to 
enhancing capacity, and strict oversight of this program's 
operations.
    So, it is extremely important. If confirmed, I want to 
know, will you make this a top priority for the VA to fully 
implement the new caregivers law as Congress intended?
    Mr. Wilkie. Absolutely. Yes. Yes, Senator.
    Senator Murray. OK. We will count on that. We will be 
watching.
    Mr. Wilkie, 2 years ago, this Congress gave VA the 
authority to provide IVF and other necessary fertility 
treatments for ill or injured veterans and their spouses. 
Access to this care is really important. It can help our 
veterans realize their dream of starting a family, but access 
to this care promised to our veterans is still difficult. If 
confirmed, will you ensure additional providers are enrolled 
into the program and any other necessary steps taken to make 
sure our veterans do have easy access to this treatment in the 
country?
    Mr. Wilkie. Senator, women's health is the frontier, the 
new frontier for VA, absolutely. The issues that I confronted 
at DOD are similar to the ones at VA.
    In response to Senator Moran's question, the Congress has 
spoken on the services that you just described, and we will 
move out on those.
    Senator Murray. OK. Well, this is really important. This is 
about veterans who have been injured through no fault of their 
own. Our country has promised to make them whole again, and 
being a family is part of it. So, this is something I am going 
to be following very closely under your jurisdiction.
    Mr. Wilkie. Yes, Senator.
    Senator Murray. Senator Sanders asked about privatization. 
I appreciate that. I stand where he does, and your answer was 
important to all of us.
    Let me ask you. I know DOD has been struggling with the 
rollout of the new Electronic Health Care Record. You are well 
aware of that. I have heard from providers in my State, from 
Fairchild Air Force Base to JBLM, about their dire concerns 
about the impacts on quality of care.
    You signed the contract to move forward on procuring the 
same system. We cannot see the same problems that DOD has 
experienced. I want to know what you will do to oversee the 
rollout and what specific steps you are going to take to make 
sure quality and access to care is not diminished.
    Mr. Wilkie. Well, Senator, one of the reasons I got a lot 
of criticisms for not showing up in VA and immediately signing 
off on the health care record is that I wanted to see that it 
could work.
    I had the best minds from the West Coast and experts from 
other parts of the country take a look at it and convince me 
that it could work.
    I do want to say, though, that the report that we saw at 
DOD on MHS--I believe it is MHS GENESIS--not working 2 years 
ago, I am glad it did not work because what that was was--I 
will give you an example. I am the head of the Secretary's 
Close Combat Task Force. My job is to make sure that our 
weapons are tested, our systems are tested before we put them 
in the hands of any of our soldiers.
    The testing of that system was designed to show us where it 
was not working before we fully implemented. That is due 
diligence in business. It is due diligence in government.
    I believe that many of those problems that they were 
experiencing have been remedied because they found the kinks 
when they started the beta testing several years ago.
    I will not commit to putting any problem online until it is 
properly tested.
    Senator Murray. Since becoming interim VA Secretary, what 
are you doing to hire qualified leaders and individuals so they 
can manage the implementation of this?
    Mr. Wilkie. In the short term, I found experts in complex 
DOD systems to come aboard. It stopped when I--when I left VA 
and went back to DOD. I will have to pick it up when I return, 
if I return.
    Senator Murray. OK. Can you get back to me on that on what 
steps you will take then?
    Mr. Wilkie. Yes.
    Senator Murray. OK. Thank you.
    And, I do have additional questions that I will submit for 
the record.
    Chairman Isakson. Thank you, Senator Murray.
    Let me inject right here something. What the Senator has 
just brought up is extremely important. One of my ventures in 
life or misadventures in life was being selected by a Governor 
to take over a department of education for Y2K preparation for 
187 school systems, all of whom had their own software that was 
different from everybody else's, to keep up with the student 
information system, the grading system, the finance systems, 
and everything else.
    I was not a computer expert, but I had run a pretty large 
company. So, I knew I needed to go hire people that were able 
to do it, and after about a week, I found out that we had 
problems in our own agency cooperating with the professionals 
we had hired to be able to do what we did.
    So, we turned around and fired everybody, canceled the 
contracts, got people in that knew what they were doing, and 
got it finished in 6 months and passed Y2K.
    I am going to expect you to be that type of a flyspecker 
when it comes to this as well because what happens in this, the 
backups can continue, and all of a sudden, you have a crisis of 
a lack of cooperation. So, the first thing we have to do is 
have everybody at the ground level in VA cooperating with 
everything that is required of them to input into the system to 
make it work to begin with.
    I am sorry I interrupted, but this is important.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Mr. Wilkie, for being here, as well as your wife, Julie. We 
appreciate--when you take on a task like this, these are 
certainly family affairs, and we appreciate both of you all.
    Mr. Wilkie. Thank you, sir.
    Senator Boozman. You have got a varied background, and I 
believe that you will serve well in the job that we are asking 
you to do. As a military child, military officer, and civil 
servant, you understand many of the complexities associated 
with serving our Nation and experienced firsthand the 
importance of taking care of our Nation's veterans.
    We have not been able to get together yet, and I look 
forward to doing that. On the other hand, I have enjoyed 
working with you in the capacity of enjoying MilCon-VA on 
several occasions. I do support your nomination and will 
enthusiastically vote for you----
    Mr. Wilkie. Thank you, sir.
    Senator Boozman [continuing]. Because of the experience I 
have had with you.
    One thing I would like to visit with you which I think is 
very, very important, we had really a tragedy in Arkansas. The 
Fayetteville VA Medical Center greatly impacted a number of 
families in a very, very negative way. A former pathologist was 
found to be impaired and was terminated. Now all of his cases 
are under review by a third party.
    I am pleased to hear that the initial response phase of the 
incident is being met with positive reports from veterans, VSOs 
alike. The call center handling patients' inquiries, all of 
that is working well. We appreciate the concerted effort of the 
team on the ground. I think it really was a model as to how you 
responded to that, so we appreciate that very much.
    I see Dr. Clancy here. She has been personally involved and 
done a very, very good job.
    I guess the thing, though, that I would like to follow up 
with, I would like to know if I have your personal commitment 
that you keep a close eye on the situation as it continues to 
unfold to ensure timely notifications continue to remain a 
priority; veterans receive timely follow-up care should they 
need or request it, and the independent reviews are handled 
expeditiously while maintaining the integrity of the review 
process.
    Mr. Wilkie. Yes, sir. I do very much.
    And, Senator Boozman, I will follow up by referring back to 
something Senator Tester said. The responses in Arkansas on the 
tail end was outstanding because you saw the coming together of 
the U.S. Attorney, the VISN leadership, VA, and the State of 
Arkansas.
    The problem, obviously, was terrible by the time it reached 
that, and where Senator Tester was talking about a vigorous 
Inspector General, that is one of those areas----
    Senator Boozman. Right.
    Mr. Wilkie [continuing]. That without a robust Inspector 
General, we are going to have problems finding them. It ties 
into what the Ranking Member was saying.
    Senator Boozman. No, I appreciate that, and really my 
follow-up was that I like your commitment that we review the 
policies and procedures within the VA to enact the necessary 
changes to prevent such a tragedy as a result of this type of 
misconduct from occurring again----
    Mr. Wilkie. Yes, sir.
    Senator Boozman [continuing]. In the future in the VA 
facility.
    Mr. Wilkie. You did.
    Senator Boozman. We appreciate that very, very much.
    Mr. Wilkie. Thank you, sir.
    Senator Boozman. The other thing is Senator Murray asked 
about the IT system and things, and I think we all shared in 
the questions that she had. I appreciate the response that you 
had concerning that. I guess what I would like to know is how 
you believe the program is progressing now. It has not been 
very long, yet the progress now, and do you anticipate any 
additional delays or challenges during the implementation 
phase?
    Mr. Wilkie. I do not anticipate any additional delays now, 
but I do want to say that it cannot happen overnight. It is a 
4-year implementation system for the Caregiver Network. 
Veterans injured before May 7, 1975, their programs will be 
fully online, I believe, by 2019; 2 years later, those who come 
after the end of the Vietnam War will be fully online.
    I will do my best to accelerate that, but I read a lot in 
the papers about this program happening overnight. This is a 
radical change in terms of the MISSION Act for VA. It is still 
taking the Department of Defense a while to get TRICARE right, 
which is much better than it was 4 years ago.
    This is one of those programs that we will implement, and I 
will give it my full attention.
    Senator Boozman. Good.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    Welcome, Mr. Wilkie. Thank you for the time you spent 
talking with me earlier.
    Mr. Wilkie. Thank you, Senator. Thank you, Senator.
    Senator Hirono. To start, I ask every nominee who comes 
before any of my committees to answer the following two 
questions. One, since you became a legal adult, have you ever 
made unwanted requests for sexual favors or committed any 
verbal or physical harassment or assault of a sexual nature?
    Mr. Wilkie. No.
    Senator Hirono. Second question. Have you ever faced 
discipline or entered into a settlement related to this kind of 
conduct?
    Mr. Wilkie. Never.
    Senator Hirono. I wanted to ask you about some outstanding 
VA projects in Hawaii. We did discuss this briefly in our 
meeting, and of course, as an island State, veterans in Hawaii 
face unique challenges accessing VA care. Oftentimes veterans 
need to fly from the islands that they live on to Honolulu if 
care is not available in their home island. This is why I have 
consistently fought for construction of community-based care 
options for Hawaii veterans living on the neighbor islands, 
including the new VA clinics planned for Maui, Kauai, and 
Hawaii Island. There are a total of seven outstanding VA clinic 
projects at various levels in the procurement process that my 
office has been monitoring, including the future Leeward Oahu 
Outpatient Health Care Access Multispecialty Clinic, which I 
worked to authorize in the 2014 Choice Act.
    Can you commit to me to continue to provide my office 
updates----
    Mr. Wilkie. Yes.
    Senator Hirono [continuing]. From VA on the status of these 
projects and ensure that they are completed in a timely manner?
    Mr. Wilkie. Yes, Senator. I am very well aware of the 
unique challenges both Hawaii and Alaska face, and if 
confirmed, I will take you up on your invitation to come see 
those facilities.
    Senator Hirono. Thank you very much.
    As Under Secretary of Defense of Personnel and Readiness, 
you implemented a new sexual harassment policy early in your 
tenure, and I commend you for that.
    A few months ago, the Merit Systems Protection Board, MSPB, 
came out with a troubling survey of Federal employees that 
found VA had the most reported instances of sexual harassment 
of any Federal agency.
    I assume that this will be a high priority for you, and 
that I will be in touch with you as to what your plans are to 
address this serious problem at the VA.
    Mr. Wilkie. Yes, Senator. I will start by comparing what 
was done by my office at the DOD to what has been done at the 
VA.
    Senator Hirono. We will certainly stay in touch with you on 
your progress.
    Senator Murray referred to a recent article in The 
Washington Post, and she will submit some questions for the 
record, but I just wanted to ask you. When you were working for 
then-Senate Majority Leader Lott, you marked up a draft 
resolution meant to highlight the pay gap and call for equal 
pay for women for equal work, and some of the reported edits 
could be considered rather offensive and condescending, 
particularly a provision that you put into this resolution that 
``called on Congress to require young women to finish high 
school as a condition of receiving welfare.'' Those were your 
edits to this proposed resolution.
    Why did you make that addition to the resolution?
    Mr. Wilkie. Well, thank you for bringing that up. I had to 
put on my memory cap to go back and review that. I was the 
floor manager for the Majority Leader. Senator Lott's 
instructions was that he saw every piece of legislation that 
came through. I was not an expert in that field. I took it to 
him. He and the staff made changes. Some of the changes that I 
remember making that did not get put into The Washington Post 
story that Senator Lott, as the Leader, wanted to recognize 
American women who chose to stay at home and also that the 
tax----
    Senator Hirono. Excuse me. I am sorry. Did you put in that 
edit?
    Mr. Wilkie. I do not--I do not remember. I was not--I 
passed it off to staff.
    Senator Hirono. Do you think it is a good idea, then, to 
require young women to finish high school before they can 
receive welfare?
    Mr. Wilkie. I would not make that a requirement; again, I 
was just the floor manager.
    Senator Hirono. I understand.
    Mr. Wilkie. I was not an expert in any of those matters.
    Senator Hirono. So, do you believe that women, including 
veterans, should have to finish high school to receive 
government benefits?
    Mr. Wilkie. That would never enter my mind.
    Senator Hirono. Thank you.
    Now, there are--the article also noted some other positions 
that you took because you worked for some very conservative 
people such as, of course, in addition to Senator Lott, Senator 
Helms, and they had some views that would now be deemed very 
offensive.
    Considering that there are some concerns being raised about 
your own attitudes toward the kinds of views that your previous 
bosses held, would you welcome the scrutiny that you will 
probably face based on your past positions to make sure that 
you are treating women and minorities fairly and with respect 
as the head of the VA should you be confirmed?
    Mr. Wilkie. Well, Senator, I will say--and I say it 
respectfully--I welcome a scrutiny of my entire record.
    The Washington Post seemed to stop at my record about 25 
years ago. If I had been what The Washington Post implied, I do 
not believe I would have been able to work for Condoleezza Rice 
or Bob Gates or Jim Mattis.
    I think I have had 11--nine full field background 
investigations by the FBI. And, I will tell you, the first 
question they ask anyone they talk to, is this person someone 
who discriminates against anyone on the basis of race, sexual 
orientation, or creed. They just finished an investigation 
going all the way back to my 18th year. So, I will stand on my 
record.
    Senator Hirono. Thank you for that reassurance.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. Mr. Wilkie, 
thank you for volunteering to serve again. I think that was a 
very powerful opening statement, one of the best opening 
statements I have heard of any Cabinet nominee, and I want to 
thank you for that.
    I fully intend to support your nomination, and hopefully, 
most of my colleagues--or all my colleagues will as well.
    I appreciate you and the Chairman already talking about 
rural issues. As I have said before, there is rural America, 
there is extreme rural America, and then there is Alaska. And, 
it is not just the size. I do not like doing this to the 
Ranking Member, but you mentioned Montana. I think we are close 
to five times the size of Montana, and it is also the expanse. 
As we talked about in our meeting, if you looked at the expanse 
of Alaska and superimpose it over the Lower 48 southeast 
communities, like Ketchikan in my State would be in kind of 
northern Florida. Northern communities in my State like Barrow 
would be the northern part of North Dakota, and the Aleutian 
Islands chain would extend out to San Francisco.
    My State is actually a continental-wide place, yet we do 
not have a full-service VA hospital in the State of Alaska, 
while we have the highest number of vets per capita and an 
incredibly patriotic population. That includes the Alaska 
Native population, almost 20 percent of my constituents who 
serve at some of the highest rates in the military of any 
ethnic group in the country despite--you know, let us face it. 
During World War II, Korea, Vietnam, there was a lot of 
discrimination going on from the Federal Government to this 
group of incredible patriotic Americans.
    We had a very good discussion, and I appreciated that. Most 
of it was about these challenging issues as it relates to 
Alaska, so the first thing I would like from you is to get a 
commitment to come with me to Alaska soon in your tenure to 
meet with my veterans, see some of these challenges, see these 
patriotic Americans firsthand.
    I think I mentioned Dr. Shulkin did that with me for 
almost, gosh, 6 days, and I think it really had an impact on 
him on some of our challenges. Can I get that commitment from 
you?
    Mr. Wilkie. I would be honored to come.
    Senator Sullivan. Great. Thank you.
    One of the ways that the VA extends its reach into parts of 
my State is through partnerships with Alaska Native Health 
Organizations, what are called Tribal Sharing Agreements of the 
VA.
    One of the many aspects of the MISSION Act that focus on 
extreme rural States like ours and some of the other States is 
these Tribal Sharing Agreements are actually mandated in the 
MISSION Act. So, can I get your commitment that you will 
initiate consultation with the Alaska Native Health Board and 
other Tribal Health Organizations upon your confirmation on 
renewed negotiations for the VA Tribal Sharing Agreements to 
nail these down?
    We are working on a 5-year extension to the current 
contract, but that contract is expiring next year. And, the 
clock is ticking. So, it is a very high-priority issue for me 
and my constituents. Can I get your commitment on that?
    Mr. Wilkie. Yes. Yes, sir.
    Senator Sullivan. The other issue we talked about was how 
you suggested--and I could not agree more with you--that when 
it comes to understanding the needs of local veterans in 
different States, oftentimes the local VA really knows best. Do 
you agree with that still?
    Mr. Wilkie. Yes, sir.
    Senator Sullivan. Can I get your commitment upon 
confirmation that you will come to Alaska and consult with our 
local VA leadership? I think, again, one of the things that we 
see here is we have challenges at the headquarters, no doubt, 
but a lot of times, the VA local leadership is working quite 
well. Can I get your commitment on that as well?
    Mr. Wilkie. Yes, you can.
    Senator Sullivan. Let me ask you; I had asked Dr. Shulkin 
this. I had put out a post to a bunch of my veterans just on 
questions that they would like to ask you, when Dr. Shulkin was 
up for his confirmation, and we are going to submit a number of 
those for the record.
    One of the questions was from a guy by the name of Bob 
Thoms. His nickname is Cajun Bob. He lives in Mat-Su Valley in 
Alaska. He is very well known in my State, beloved, but he is 
actually a little bit more well known in Washington. People 
probably do not know his name, but if you had been going down 
Constitution Avenue for the last 6 months and seen that giant 
portrait of a Marine in the Tet Offensive at the News Museum 
(the Newseum). In the photo he is counter-attacking. He is a 
staff sergeant or a gunny in the Tet Offensive in the Hue City 
Battle. His cammos are shredded. That is Cajun Bob. He received 
six Purple Hearts in the Marine Corps, a Silver Star in the 
Battle of Hue City-- that battle is depicted. I think it is 
still up there at the Newseum. You should go take a look.
    His question to me, a real hero among us--and we have so 
many that we are proud of--was the concern that we hear from so 
many veterans that there has been stories of senior leadership 
at the VA not being held accountable for some of the actions 
they have taken. I think we have tried to address this with the 
Accountability Act, but that the veterans themselves feel 
sometimes they are stuck in a system that works against them, 
not for them.
    So, he had a very basic question when Dr. Shulkin was up 
for his confirmation. I am just going to repeat it. Forgive the 
language. He is a bit of a salty marine, and a hero. The 
question was ``Will you be able to kick ass and take names for 
the veterans''--for the veterans----
    Mr. Wilkie. Yes.
    Senator Sullivan [continuing]. Above anybody else if you 
are confirmed to be the Secretary, and how will you do that?''
    Mr. Wilkie. Well, being an Air Force Reserve Officer, we do 
not use language like that, but----
    [Laughter.]
    Mr. Wilkie. It takes away from other things, but yes, sir.
    I was very proud--and you can tell Cajun Bob this--when I 
was sworn in at the Pentagon. It was referenced that I had been 
born in khaki diapers, and I think my attitudes toward that and 
leadership flow from having been in that world my entire life.
    Senator Sullivan. Thank you. I look forward to your 
confirmation.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    Senator Manchin.

                     HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Mr. Wilkie, for your service and continued 
desire to serve.
    As you can tell, we are all proud of the veterans in our 
States. We just want to make sure you do not move everything to 
Alaska.
    Mr. Wilkie. That is right.
    Senator Sullivan. We still do not have a hospital, so I do 
not think that is going to happen.
    Mr. Wilkie. Senator Tillis is not going to let me move 
everything to Alaska.
    Senator Manchin. That is right.
    Anyway, this morning, there were 93 VA jobs posted on 
USAJOBS, the Federal jobs posting site, for West Virginia. I 
will tell you where we are going. We have a full-time primary 
care physician that is needed in Petersburg CBOC, psychiatrist 
at Martinsburg and Huntington, social work program coordinator 
at Clarksburg, registered nurses and IT specialists at several 
of our facilities. We will go ahead and submit everything for 
you.
    I know we brought this to your predecessors before, but 
what plan do you have in recruiting, especially in rural areas, 
whether it be in Alaska, West Virginia, rural North Carolina, 
or Nevada--all of our States--Montana, Georgia? What is your 
plan of basically getting more people involved and helping us 
in the VA with their expertise?
    Mr. Wilkie. Yes, Senator.
    I am going to go back to an experience I had with Senator 
Tillis when the ribbon was cut on the new VA Center in my 
hometown.
    One thing that the directors asked Senator Tillis was that 
one-size job process does not fit VA. Fayetteville, NC, has 
very different needs from West Los Angeles. It probably has 
different needs from West Virginia.
    My pledge--and I think I mentioned it in my opening 
statement because I believe it--is to allow those medical 
directors and those VISN directors--the ability to move their 
funds to address the kinds of critical needs, if they have the 
funds available--and we will work with them to make sure that 
they do--to address the immediate medical needs in those areas.
    I have to do a deep dive, Senator, on the whole USAJOBS 
process. I could tell you Secretary Mattis is thinking deeply 
about it in terms of VA and VA's relationship with other 
elements of----
    Senator Manchin. We look forward to working with you on 
that because we all have disparate needs.
    Let me move on because my time is limited.
    The opioid epidemic that we have--not only just in our 
States, but in our military--how do you propose to have input 
on basically not getting our veterans hooked when they are 
deployed and the treatment, alternative treatment centers when 
they come back? So, twofold, if we can stop them from getting 
hooked and then how we are going to treat them in a non-opioid 
way when they come back.
    Mr. Wilkie. I have responsibility for one end right now.
    Senator Manchin. I know, but we are asking for your input 
because you are seeing the end result. Sometimes on the front 
end, if we can prevent that from happening----
    Mr. Wilkie. And--yes, sir. I think this is a case--and 
Senator Sanders mentioned it--where VA has taken the lead.
    VA has come up with what appears on its face to be a very 
simple way of addressing this and bringing down opioid 
addiction, and that is with alternative therapies, the use of 
Advil, Tylenol, and aspirin in place of Tylenol 3 or other 
opioids.
    The other thing that VA has done is emphasize 
rehabilitative care, motion care. DOD is just getting on the 
cusp of that. So, yes, I think DOD is moving in the direction 
that VA has moved in, and it is absolutely vital that we stop 
it there. Yes, sir.
    Senator Manchin. My final question is going to be since 
1998, the VA's budget has quadrupled from $42.38 billion to 
$188.65 billion. A lot of these factors can be pointed to the 
Vietnam veterans getting older, the fact that combat medicine 
improved and therefore VA is dealing with more complex injuries 
and illnesses than ever before, the cost of health care in the 
United States has become more expensive, and we have expanded. 
I say that we have expanded with good intentions, made a lot of 
benefits.
    People are going to ask are we making sure we are getting 
our best service and best care for our veterans with the bucks 
we are spending. So, my question would be what steps do you 
plan to take to ensure both that high-quality services are 
available for our veterans and families, but are also looking 
out for the American taxpayers to make sure that we are 
spending their money wisely and giving the care that is needed.
    Mr. Wilkie. Yes, sir. I will start by saying there are no 
more excuses because of the infusion of money that this 
Committee has given.
    I do believe, though, that we do have to make sure that the 
world-class health services, the priority health services are 
fully funded.
    I was asked two questions by two Members of this Committee, 
to the point that does VA's expansion into Community Care mean 
that world-class services like spinal cord or traumatic brain 
injury are going to diminish. No. We will go where the need is 
greatest.
    Senator Manchin. Thank you, Mr. Wilkie.
    Chairman Isakson. Thank you, Senator Manchin.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you, and to the Ranking 
Member also, thank you for this meeting. Mr. Wilkie, thank you 
for taking time and to your family that is here today with you.
    Mr. Wilkie. Thank you, sir.
    Senator Heller. I appreciate you being here and willing to 
spend time with us.
    You were in my office yesterday. We had a great 
conversation. I appreciate that time also, but I think today is 
a different opportunity. Yesterday, it was about you and me. 
Today, it is about the veterans that are behind you, the 
veterans service organizations that are represented, also the 
veterans back in the State of Nevada. The point, of course, is 
to prove that you are ready to manage an agency of this size 
that is, in my opinion, quite a bit of bureaucracy.
    I told you yesterday, we have about 300,000 veterans in the 
State of Nevada, good men and women, patriotic, will take the 
call again, regardless of age, to serve and defend this 
country. And, I am just pleased that we both have come to the 
same conclusion that they deserve the best quality of care and 
benefits that our Nation has to offer.
    But, saying that, there is a lot to be done. We need VA 
doctors. It has been mentioned several times. Clearly, it is a 
national issue. I am working to get a veterans rural cemetery 
in one of our rural counties. Our Caregiver Program in Las 
Vegas and the VA nursing facility in Reno need improvement, and 
unfortunately, the veteran suicide issues remain quite a 
challenge in Nevada.
    Several times, as I mentioned, doctor shortages have been 
raised, but I think Nevada has really felt the impact, 
especially in our urban areas like Las Vegas and even in our 
rural areas like Elko, Gardnerville, and Pahrump.
    Let me give you an example, 2016, I was at the ribbon 
cutting of a VA clinic in Pahrump and with all the pomp and 
circumstances, and here we are in 2018, and they still do not 
have a full-time doctor. So, 2016, here we are 2 years later, 
all the pomp and circumstances for that community, they have 
been waiting years to get this done, the work by my office, 
myself, this Committee, this Congress to get that clinic into 
that town, and they still do not have--2 years later, they 
still do not have a full-time doctor.
    Can I get your commitment to work with me to get a full-
time doctor into that clinic by the end of the year?
    Mr. Wilkie. Absolutely, I will work with you on that.
    Senator Heller. We have problems in some of our rural areas 
with access to mental health services for our veterans. Can you 
share with me how you plan on bringing more doctors or mental 
health professionals to these rural areas in Nevada?
    Mr. Wilkie. Yes, sir. And, I thank you for the time that 
you took with me.
    I think we have to take a deeper look at how we bring 
doctors into VA. There have been many things that the Federal 
Government has tried in terms of recruiting doctors, and I 
think VA has to look at those. We have to do a better job of 
recruiting doctors coming out of the military.
    I would like to learn about how we can get commitments from 
doctors to work at the VA. This is my opinion; I have not 
cleared it with anyone. And, in exchange for their service with 
VA, do we go down the road where we take care of their medical 
school loans in exchange for long-term service with VA?
    We do need to make an assessment again as to where we need 
our doctors, and we do need to also, in those underserved 
areas, look at how we incentivize people to go out there.
    The blessing that I have is that I have been learning a lot 
about these things from Carolyn Clancy, who is running VHA now, 
and I know she is hard at work trying to address rural needs in 
particular.
    Senator Heller. I will follow up with you. Time is running 
out.
    One of the things--I want to kind of steal from Senator 
Sullivan and his request, and that is that the Nevada veterans 
have been in this VA system for decades. They know the ins and 
outs. They know the dos and do nots, and frankly, they know how 
to fight for their care. Can I be allowed to make the same 
request that I could get you out to Nevada so that you could 
spend some time with our veterans at a roundtable to discuss 
issues that are important to them?
    Mr. Wilkie. Yes, sir. I would be honored to.
    Senator Heller. One more question, which is about Agent 
Orange. I hear from a lot of Nevada veterans on this particular 
topic, especially from our Blue Water Navy veterans.
    As you know, the VA does not provide these Blue Water 
veterans the disability benefits that they deserve after being 
exposed and experiencing these harmful effects. I think we can 
agree that this is not right. How do you plan on helping the 
Blue Water veterans as well as the veterans exposed to Agent 
Orange?
    Mr. Wilkie. Well, I will speak to Agent Orange first. I am 
from the generation who saw the effects of that on those who 
have come back from Vietnam, so that is an experience from 
adolescence that remains with me.
    On the Blue Water issue, the House has spoken, and it is my 
understanding that the issue will be taken up by the Senate. I 
stand ready to answer any questions or go down any avenue that 
this Committee wants in terms of how we address Blue Water.
    Senator Heller. Mr. Wilkie, thank you.
    And, to the Chairman, thank you for the time.
    Chairman Isakson. Thank you, Senator Heller.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you very much, Mr. Chairman.
    Chairman Isakson. Last, but not least.
    Senator Brown. Thank you very much for saying that, Mr. 
Chairman.
    Thank you, Mr. Wilkie. I enjoyed very much our conversation 
and wish you well through this process----
    Mr. Wilkie. Thank you, sir.
    Senator Brown [continuing]. Then, I expect you to be 
confirmed as the new VA Secretary.
    Yesterday, The Washington Post ran a story about your time 
as a staffer for a very divisive--a very racially divisive 
Senator. You have been appointed to this job by a very racially 
divisive President.
    That being said, I will just ask you this. The VA Secretary 
needs to serve all veterans, regardless of race, gender, 
ethnicity, and sexual orientation. Just yes or no questions. 
Will you commit to doing that?
    Mr. Wilkie. Absolutely.
    Senator Brown. Thank you.
    I have worked with two previous Secretaries to establish 
the History Research National Heritage Center at the Dayton 
VAMC. Will you commit to implementing the existing MOA on this 
important project? Yes or no.
    Mr. Wilkie. I do, and I look forward to going to Dayton. As 
you and I said, I just--this is my geek mode. I just finished 
reading a biography of one of Ohio's great Presidents and 
learned that Dayton has been the center for VA care for well 
over 140 years.
    Senator Brown. Good. Thank you. Thank you for saying that.
    We have heard reports that VHA cannot account for medical 
equipment in VISN 10. Can you commit to get my office 
information on the missing equipment?
    Mr. Wilkie. Yes, sir.
    Senator Brown. Thank you, sir.
    I have grave concerns regarding the position in the 
administration about privatizing veterans' health care. At 
times, Community Care is necessary, which is why we passed the 
VA MISSION Act. However, VA should not siphon funding off from 
VHA to expand Community Care. Will you commit to fully fund VHA 
and stop efforts to privatize the VA?
    Mr. Wilkie. I am opposed to the privatization of the 
Veterans Affairs Department and will continue to make sure that 
VHA is fully funded.
    Senator Brown. Thank you.
    ProPublica and POLITICO have reported the bulk of the 
approximately 1,700 employees fired since the passage of last 
year's accountability bill had been low-level employees with 
limited offenses, not senior employees with egregious offenses, 
which is how the VA said it would use the authority. This gives 
me great concern. Will you commit to me that you will not use 
this authority to go after whistleblowers or individuals with 
limited offenses?
    Mr. Wilkie. Absolutely, sir. Absolutely.
    Senator Brown. Thank you.
    I worked on a provision in the VA MISSION Act to increase 
VA vacancy transparency. Will you commit publicly to post--will 
you commit to publicly post vacancy data?
    Mr. Wilkie. Yes.
    Senator Brown. Thank you.
    Do you believe the VA has an obligation to provide medical 
care and disability compensation for veterans who have been 
exposed to toxic chemicals while serving our country?
    Mr. Wilkie. Yes.
    Senator Brown. Thank you.
    Will you increase transparency with Congress on the 
Department's position on Agent Orange, presumptive conditions 
on Blue Water Navy veterans' eligibility for benefits and to 
establish a process to diagnose constrictive bronchiolitis, a 
condition caused by burn pit exposures at VA?
    Mr. Wilkie. Yes, sir. And, I will add that transparency is 
key with this Committee and with the country. During my time 
with Senator Tillis, he had me working on the first efforts to 
raise the issue of burn pits.
    Senator Brown. Good. Thank you. I enjoyed our conversation, 
as I said, the other day and appreciated the work that when 
Senator Tillis and I cosponsored so many bills together, I 
appreciated the work that you did with he and my office. I 
thank the both of you.
    Mr. Wilkie. Thank you, sir.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Brown.
    Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chairman, and, Mr. Chairman, 
I first want to thank you and Ranking Member Tester because 
you, a couple of years ago, encouraged and endorsed what became 
a regular meeting with the leaders of the VA to track their 
progress. So, I specifically want to thank Ranking Member 
Tester for always being there at every single meeting over the 
course of that process with two Secretaries.
    Mr. Wilkie, I hope that we have your commitment to continue 
that discussion because I think it was very helpful.
    Mr. Wilkie. Yes, sir.
    Senator Tillis. Mr. Wilkie, I wanted to ask you something. 
I had the--I am not going to say the name of the newspaper, but 
I am going to have--the person that was reporting the story 
called me up. I spent probably 15 minutes, maybe as much as 20 
minutes on the phone with them to talk about you. Somehow that 
insight was--and much of your recent work history was not at 
all reported.
    Mr. Chair, without objection, I would like to submit an 
article that actually provides context that was written back 
in, I believe, 2002 that provides context for a statement that 
was asserted in The Washington Post, which I think was out of 
context.
    Chairman Isakson. Without objection.

    [The article appears in the Appendix.]

    Senator Tillis. There is something else I wanted to ask 
you, and this may require--you have got an incredible sense of 
history and a great memory, so hopefully, you will remember 
this. It was a vote recommendation in the NDA a couple of years 
ago, and at that time, you were my senior advisor. The specific 
amendment was related to providing same-sex spouses with 
veterans and Social Security benefits. Do you recall how you 
recommended that I vote on that?
    Mr. Wilkie. Yes, sir. I recommended that you vote yes.
    Senator Tillis. And, how did I end up voting?
    Mr. Wilkie. You voted yes.
    Senator Tillis. Thank you for that recommendation.
    There was also a reference--I know Senator Murray was going 
to submit questions for the record, but I think it would be 
helpful here for some Members who may not see that. I think you 
already brought up your role as a floor manager and the 
question on equal pay, but there was another reference to the 
confederate flag. I do not know exactly how Senator Hirono 
framed it, but can you tell me a little bit at least in the 
context of the article that has been mentioned here, maybe the 
broader context around the confederate flag?
    Mr. Wilkie. Yes, sir. The article mentioned participation 
in events. There were three events, two sanctioned by the 
Department of the Army and Department of Defense and one by the 
Speaker of the House. Those events in those days were big 
events, participation by Senate and the House Members. At the 
last one, the only thing I did was introduce a fellow named Ron 
Maxwell, who is the producer of the famous movie 
``Gettysburg,'' and I thanked President Obama for his support 
of an event that celebrated America's veterans, both Union and 
Confederate. President Obama brought--had a wreath delivered by 
the Old Guard of the Army.
    The broader issue of the flag, to address what The 
Washington Post said, I stopped doing many of those things at a 
time when that issue became divisive; and I do, though, 
believe--and I will say it--and I heard it on Memorial Day at 
this Capitol at the Memorial Day concert. I think it was Gary 
Sinise who pointed out that 150 years ago in the first 
Decoration Day (now called Memorial Day), the most ferocious 
warrior in the Union Army, a guy named William Tecumseh 
Sherman, said what this Committee is now responsible for. We 
honor all veterans, and he ordered flowers and wreaths placed 
on the graves of both Union and Confederate soldiers.
    So, my last statement on that is I think they have the last 
word and that we celebrate veterans.
    Senator Tillis. Thank you.
    You mentioned Condoleezza Rice, Gates, Rumsfeld, and Mattis 
and said that if you had in fact had any history of the sorts 
of behaviors that this article put forth, you would not be 
working for them. Is there any doubt that if I believe you had 
any of that history of behavior, you would ever work for me?
    Mr. Wilkie. Absolutely no doubt, sir.
    Senator Tillis. You are going to do a great job as 
Secretary. I leaned over to Mike Rounds. I said I have got to 
make sure I let him know to enjoy the honeymoon because the 
floggings will begin soon.
    Mr. Wilkie. Yes, sir.
    Senator Tillis. We need to make sure that we get you in 
there, you act decisively, you have a sense of priority, and 
you bring the resources in that will allow you to accelerate 
some of the transformation initiatives that you were briefed 
on. I should mention that every one of those meetings that 
Senator Tester and I have had over the past few years also 
included Mr. Wilkie. You have got a keen insight into what 
works and what we need to accelerate. I know you have a 
commitment, and you are going to bring the intensity that is 
necessary and then lacking for quite some time.
    So, I look forward to working with you in your new 
capacity, and I wish you very well.
    Mr. Wilkie. Thank you very much.
    Senator Tillis. Thank you, Mr. Chair.
    Chairman Isakson. Mr. Wilkie, we have a couple more 
questions for you, if you have the patience and the time. I 
will have a few, and so does Senator Tester.
    One, I would like you to tell me, in your position as the 
Under Secretary of the Army, what major accomplishments as 
Under Secretary are you proudest of--Under Secretary of 
Defense--and how did that experience prepare you for what you 
are about to take on at the Veterans Administration?
    Mr. Wilkie. Thank you, sir.
    First of all, I am extraordinarily proud that someone of 
Secretary Mattis' stature asked me to serve with him.
    I am very proud that the Office of Under Secretary of 
Defense for Personnel and Readiness is now a place where many 
people want to work.
    I mentioned walking the post and transformative leadership 
in that vein, and I think that has begun to happen.
    In terms of accomplishments: employing the Exceptional 
Family Member Program for the 132,000 military families who 
have children with exceptional needs--autism, mental health 
issues, cerebral palsy, et cetera; the reform of the Defense 
Health Agency, so that we no longer have three independent 
health services--Army, Navy, and Air Force--we now have a 
Defense Health Administration; and the sexual harassment and 
assault policy, which sends a clear message that the military 
of the United States has changed, that everyone who signs up 
for service deserves dignity and protection.
    Finally, to show how P&R has moved, the Secretary of 
Defense has empowered my office to take charge of what he 
considers to be his most important project, and that is the 
Close Combat Task Force. That is the task force that takes the 
very deep look into how we train, equip, and fight our front-
line forces, our infantry forces, where 85 to 90 percent of the 
casualties take place.
    Coming from Secretary Mattis, there is probably no greater 
assignment that anyone could have, and I am honored that he 
gave me the responsibility to help him on that.
    Chairman Isakson. You acknowledged in your testimony 
earlier, your speech, that you had been surprised how many 
people at the VA had told you they had never seen the Secretary 
in that part of the building before.
    Mr. Wilkie. Yes, sir.
    Chairman Isakson. I can tell you one of the first things I 
did when I became Chairman of the Committee is go visit the VA 
here and go on the floors. I found the same thing. They had 
never seen a Member of Congress either over there, and I do not 
think much changed to improve that.
    Of all the problems that we have, morale at the VA may be 
the biggest single problem. You and I have talked about the 
morale change at the CIA when Pompeo went over there and how 
much he improved it after some difficult times they had. That 
is going to be your biggest challenge. Senator Tester and I are 
here to back you up and help you with that. Anything you can do 
on the morale issue, we are looking forward to helping you 
build the morale of that agency and the esprit de corps.
    Mr. Wilkie. Thank you, sir.
    Chairman Isakson. Last, I would like to ask unanimous 
consent--I guess as Chairman, I can grant. I submit for the 
record a letter signed by eight members of the United States 
military retired, a former Joint Chief of Staff, a former 
Deputy Joint Chief of Staff, and six major flag officers of the 
United States military, all in glowing endorsement of your 
position as Secretary of the Veterans Administration. I submit 
this for the record, without objection.

    [The submitted letter is in the Appendix.]

    Mr. Wilkie. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Once again, thank you for being here today, Mr. Wilkie.
    Electronic medical records have been talked about a bit, 
and I would just say that I am encouraged with the VA's 
purchase of Cerner. You know what the goal is, but I have 
concerns about how the VA is communicating its plans to 
Congress for this modernization. It has a price tag of $16 
billion, and we have a ton of leadership. Vacancies are going 
to impact this moving forward at least, I believe. For example, 
there is no permanent Deputy Secretary, no Under Secretary for 
Health, no Deputy Under Secretary, no Assistant Secretary for 
OIT, and no Deputy in OIT.
    So, the question is, who do people on this Committee hold 
accountable for this program other than yourself?
    Mr. Wilkie. Well, that is where--that is where--that is the 
be-all and end-all.
    Coming from my world, I think Admiral Nimitz was the one 
who said if you cannot point to the man in charge, nobody is in 
charge; so that is me.
    I have pledged to the Committee that I will move as rapidly 
as I can, if confirmed, to get those people in place.
    I mentioned Dr. Carolyn Clancy as the executive in charge 
of VHA. We could not have anybody finer doing that. The process 
is moving along because of people like her.
    I do pledge that I will be talking with you all about 
filling those jobs.
    Senator Tester. So, what do you have folks in mind right 
now?
    Mr. Wilkie. I do not have a list, sir. I have got to be 
honest with you. In the 8 weeks that I----
    Senator Tester. That is perfectly fine. The Chairman and I 
talked about doing an oversight hearing. Man, it is really 
tough to do an oversight hearing on the VA right now because 
there is nobody to hold accountable, and you need to have some 
oversight, quite frankly. I think you would appreciate it.
    There was a situation that happened--it is probably over a 
year ago--where folks were told not to respond to requests made 
by committees. It has never been a problem on this Committee, 
and it has never been a problem with previous leadership. But, 
I still have got to ask it. If you are asked for information, 
are you going to be as transparent as you possibly can to give 
that information to anybody on this Committee or anybody in the 
Senate, for that matter?
    Mr. Wilkie. Absolutely, sir. I was raised in this 
institution, and I take Article I seriously.
    Senator Tester. OK. So, when it comes to Freedom of 
Information Act requests, there are a couple ways to handle it. 
People can either turn over the information or they can slow-
roll it. If confirmed, will you require that political 
employees comply with any FOIA in a timely manner?
    Mr. Wilkie. I will demand that they comply with the law and 
with the request from them.
    Senator Tester. Aye, Kurumba.
    Mr. Chairman, Sen. Blumenthal is coming, so you know.
    Chairman Isakson. We are not waiting much longer.
    Senator Tester. And, he is not waiting much longer, the 
Chairman just told me.
    I will give you my closing statement right now, OK?
    You have gotten pretty good at this--confirmation. I do not 
know how many times you have been in front of a committee to be 
confirmed, but you are not a rookie. You not only answered 
questions, but you anticipated questions as good as anybody I 
have ever seen in front of a Senate committee, not that I have 
been here all that long. Yet, I would just say that I, as 
others, believe that you are going to be confirmed.
    I do not know if I will say it will be a public flogging, 
but you will be held accountable. I think that is our job to 
make sure that things are moving. We are here representing 
veterans because that is who we take our cues from too, so it 
is going to be really important that we have a strong leader. 
You have got a lot of challenges in front of you, and I would 
just say that I think you have the tools to do the job. I do 
not think it is going to be easy, and I think there will be 
rough waters on occasion, but in the end, if there is good 
communication between you and the Members of this Committee, 
particularly the Chairman and myself, I think we can smooth a 
lot of those rough waters.
    Mr. Wilkie. Thank you, sir, and I thank you for your 
courtesy to me.
    Chairman Isakson. Thank you, Senator Tester. Further, 
Senator Tester, if you would inform Senator Blumenthal that we 
will adjourn--I will ask the nominee, in the next 48 hours, if 
Senator Blumenthal gets you his questions for the record, would 
you respond as quickly as possible so he gets those?
    We will be in the process of moving toward a confirmation 
vote some time in the not-too-distant future, so the quicker 
you get those answered, the better off. If you, Senator Tester, 
will let Senator Blumenthal know to do that, I would appreciate 
it.
    Senator Tester. Absolutely, sir.
    Chairman Isakson. I want to thank Julie for being here. You 
are lucky you married a great lady. You know that. She sat 
there the whole time. She has had your back the whole time.
    I want to thank everyone. Our VSOs, we are so grateful for 
you being here. You have been a part of this process from the 
beginning, and to the Members of the Committee, I thank them 
for their insightful questions and the endurance of time they 
have spent here and all they have done to help us make this 
successful.
    We have all got each other's back. We are all going to work 
hard to make our Veterans Administration of the United States 
of America better than it has ever been before with a new 
Secretary, Mr. Wilkie.
    We stand adjourned.
    [Whereupon, at 4:15 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


          Endorsement Letter Submitted by Hon. Johnny Isakson
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
            Newspaper Article Submitted by Hon. Thom Tillis
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 5, 2018

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Heller, Cassidy, Rounds, 
Sullivan, Tester, and Brown.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. I call to order this meeting of the 
Veterans' Affairs Committee of the U.S. Senate, and welcome 
everybody that is here today.
    The purpose of this hearing is to have a hearing on two 
nominees for positions within the VA of tremendous 
responsibility and importance. The Ranking Member and I will 
make opening statements. We will then go to our two 
distinguished nominees for their opening statement, then 
question and answer on behalf of all of the Committee.
    I want to start this by saying something that is not in my 
prepared remarks. This morning there was an announcement or it 
came to my attention, that the Veterans Administration has 
screwed up accountability and responsibility for a Forever GI 
bill provision and benefit, which is going to potentially 
change about 346,000--the checks of 346,000 veterans.
    When I heard about it I said, ``How could we do that?'' It 
turned out we did it because we were not watching our 
responsibility. The changes should have been made in the 
Technology Center, and it was not made, the checks and balances 
we have built in the system were not followed, and there was 
nobody to really take responsibility.
    I am not springing this on our two nominees today because I 
explained it to them in the back room before the meeting. I 
hate people to come in and embarrass anybody; I am not here to 
embarrass them for 1 second.
    Now, if it is a year from now and they are in their 
position, and we are talking about the same thing, I will 
embarrass the hell out of them, because it is time that we 
stopped having a VA--it is time that our VA caused its own 
support and brought its support behind it and supported them, 
because they were making the right decisions at the right time, 
finding out what was wrong and fixing it, and taking pride in 
their job.
    We have a lot of great people at the Veterans 
Administration. We have a lot of great people--physicians, 
technologists, mental health folks, providers of educational 
services, all types of things like that--changing lives for 
veterans who have served our country. They deserve a better VA 
than we have given them in the past, which the Ranking Member 
and I have tried, as Committee officers; we tried through Mr. 
McDonald, as Secretary, we tried in other ways with Secretaries 
to get the agency itself to be achieving peak performance.
    I think with Mr. Wilkie in place that will happen. I have 
been very impressed, as most of you--all of you that have 
talked to me have been impressed with Mr. Wilkie. Although I am 
talking about this problem today, it is his problem. The buck 
stops with him.
    But, we also happen to have the information technology guys 
responsible. Mr. Gfrerer--and if I have missed that French 
pronunciation I apologize. Gfrerer--is that right?
    Mr. Gfrerer. Gfrerer.
    Chairman Isakson. Gfrerer. That is close. But, it is your 
responsibility now, and you are on notice. I am going to talk 
to him as soon as--he and I will be together Friday in Atlanta 
anyway, so we will have a chance to talk about this. We are 
going to take great pride in finding out where we can make 
ourselves strong. We are going to take great pride in making 
our agency an agency that is responsive and responsible to our 
veterans. We are going to keep our promises. We are not going 
to wake up to stories in the newspaper that we had not heard 
anything about.
    I just do not want to be waking up in North Dakota, or 
South Dakota, or wherever you might be, and reading the 
newspaper and finding out something happened at the Veterans 
Administration, and run into a reporter who says, ``Oh, you are 
on the Committee. Do you know anything about this?'' ``No.'' 
That just should not happen; which is a breakdown between me 
and you, or me and the Committee, or the Committee and the VA. 
We are going to make sure we know what we need to fix, then we 
are going to fix it. We are going to do it with a smile on our 
face, a positive attitude, and do it for all the right reasons. 
We serve the people who have served us, which are the veterans 
of the United States military.
    I had a nice speech which I was prepared to give all of 
you, but it just occurred to me this would be the perfect time 
to deal with a real dilemma. It would have to be 
contemporaneous with our hearing today, to go ahead and address 
it in the way I want to address everything, and that is 
identify the problem, locate the person responsible, hold them 
accountable--which is where our second nominee comes in today 
because she is doing the whistleblower and accountability 
portion that we passed in the change we made at the VA anyway. 
So, we have really got all the appropriate characters here, and 
then we are the other characters that have the responsibility 
as well. We are going to all work together to be a very 
responsive and responsible Veterans Administration.
    With that said I am proud to introduce the Ranking Member, 
Jon Tester, for any remarks that he may have.

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. Thank you, Chairman Isakson. I appreciate 
your leadership and I appreciate what you have done for 
veterans and this Committee.
    Ms. Bonzanto and Mr. Gfrerer, thank you for being here. 
Thank you for your willingness to serve. You have both been 
nominated for two very important positions in the VA. If you 
are confirmed, I hope that we have a constructive conversation, 
because communication is critically important.
    I would also say that one of the things that I have talked 
to many folks in the VA about, including Secretary Wilkie, was 
we need to start out by talking about good things that the VA 
does, so I am going to do that.
    I think the VA has done some great work with the appeals, 
and I hope they continue to do that, and I hope they do not 
take their foot off the gas. That being said, late last Friday 
afternoon, on the cusp of a holiday weekend, the VA issued data 
that it was required to make public under the recently passed 
VA MISSION Act, that this Committee worked very hard on. That 
data showed there are more than 45,000 vacancies in the VA. 
These numbers are significantly different than what the VA 
previously shared with this Committee and with the public, so 
think about that for a second.
    Instead of constructively engaging with Congress about the 
magnitude of that information, especially the more than 40,000 
vacancies at the Veterans Health Administration, VA shared that 
information a few minutes before it issued a press release late 
Friday afternoon, before the Labor Day weekend.
    Mr. Chairman, beyond the larger issue of how VA 
communicates with this Committee, I have some serious concerns 
about the Department's ability to thoughtfully address 
workforce shortages. It is the biggest problem within the VA. 
Most people in the VA understand that.
    In my view, the VA has not fully utilized the tools and 
resources that this Committee has pushed through Congress in 
recent years, including those in the MISSION Act. I will soon 
be calling on the Department to release information about how 
it uses the tools, because these vacancies continue to be the 
biggest barrier for health for our veterans in this country. 
And, if the VA is not taking the matter seriously enough--I do 
have confidence that Secretary Wilkie will--but we are going to 
have to make it a priority, because the VA is not going to get 
better until the vacancies are addressed.
    So, confirmed nominees, I hope that you will do better than 
this. Friday night news dumps do not work. Shirking off 
requirements set into law, they do not work. The VA MISSION Act 
mandated that three additional reports be delivered to Congress 
yesterday. As of today we received two of the three. One of 
those reports was very important to generations of Americans 
and has to do with the Caregiver Program. That is a problem. 
The VA needs to be hitting these early milestones. If it is 
going to meet the later ones, it needs to do better. And, I 
hope that if you are confirmed you will do better.
    Ms. Bonzanto, your role would be to advise Secretary Wilkie 
on all matters relating to accountability and to be an 
effective voice on behalf of VA employees and whistleblowers. I 
met with you. You answered the questions. I appreciate it, but 
this is no easy task. We are living in a time when 
accountability has become shorthand for firing and when 
whistleblowers from the VA make up more of the Office of 
Special Counsel's workload than any other agency.
    We will want to know how you seek to transform the Office 
of Accountability and Whistleblower Protection from a loosely 
organized office that it has been, criticized for withholding 
information from the IG, standing by while low-level employees 
are targeted for accountability actions rather than managers 
and senior levels.
    According to both the GAO and the whistleblowers, who have 
reached out to my office, allowed their complaints to be 
investigated by the very individuals that the complaints are 
against in the first place.
    Ms. Bonzanto, I think you have a real opportunity to 
initiate cultural changes within the agency, so it welcomes an 
airing of problems and concerns so that the VA can truly be a 
welcoming place for employees and deliver even better, high-
quality health care and benefits for those that the VA serves, 
our veterans.
    As I am sure you know, VA is routinely found to be one of 
the least attractive agencies to work, and I think that is a 
real travesty, given that more than 30 percent of the VA's 
workforce is veterans. I want to hear more about your plans for 
the office for which you have been nominated and how you intend 
to help to build the VA to become the employer of choice for 
those who are called for Federal service.
    Mr. Gfrerer, I will not sugarcoat this. You will be heavily 
involved in the largest care IT transformation in American 
history. It is not going to be a small task. You and the 
Secretary will be held accountable by myself, the Chairman, and 
this Committee, and the American public if the Electronic 
Health Record modernization project goes south. That is a lot 
of money. It is very important. We have been talking about this 
issue for literally more than a decade.
    So, today I want to hear how you are going to ensure that 
the project does not go south, and I will need to know how you 
will balance that effort with other high priorities within the 
VA, including appeals modernization and improving the agency's 
education IT platform. We will also need your support for 
continued development for VISTA for veterans who will not be 
treated on the Cerner EHR for several years.
    What I really want to learn today is whether both of you 
are up for this task. These jobs are important jobs. We need to 
know that you are the right folks for these jobs. I look 
forward to the discussion and I also want to thank you, and I 
mean this. Thank you for your willingness to serve.
    Chairman Isakson. Thank you, Senator Tester. We will 
administer the oath before your testimony, before your 
speeches. So, if you will both stand please and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Gfrerer. I do.
    Ms. Bonzanto. I do.
    Chairman Isakson. Please be seated.
    We are pleased to welcome Ms. Tamara Bonzanto to be 
Assistant Secretary for Accountability and Whistleblower 
Protection, Department of Veterans Affairs. Welcome. We are 
glad to have you here today.
    Also here today is James Paul Gfrerer--and I am always 
going to get his name wrong. I apologize. I am trying to say my 
high school French, which I made a D in, by the way--to be 
Assistant Secretary for Information Technology at the 
Department of Veterans Affairs, which is the signature point of 
contact for the benefits that are paid to our veterans, and for 
the information that we need as a Committee to create the 
programs and the solutions to the problems our veterans have. 
Both of you have tremendously important appointments.
    I have expressed to you, behind the door here, my complete 
confidence that you have the capability of doing it, and in 
front of all these people here I am telling you exactly what 
Jon just said a minute ago. We are going to hold you 
accountable. We want you to be a success in the worst kind of 
way, and we want to help you do anything you need to do to be a 
success, but you have got to talk to us, you have got to work 
with us, and you have got to do your job; plus you have got to 
empower the Veterans Administration people under you to do the 
job for our veterans.
    We are delighted that both of you are here. Ms. Bonzanto, 
we will go to you first to give your testimony. Hopefully, you 
can hold it to about 5 minutes. If you go a little bit longer, 
if you let that time go too long, I will interrupt you. So, 
welcome, and please introduce your family who are here with 
you.

  STATEMENT OF TAMARA BONZANTO TO BE ASSISTANT SECRETARY FOR 
ACCOUNTABILITY AND WHISTLEBLOWER PROTECTION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Ms. Bonzanto. Yes, sir. Chairman Isakson, Ranking Member 
Tester, and distinguished Members of the Committee, I want to 
thank you for the opportunity and privilege to come before you 
and seek your endorsement to serve as the Assistant Secretary 
of VA's Office of Accountability and Whistleblower Protection. 
I am honored to have been nominated by President Trump and I am 
thankful for the opportunity to have met individually with many 
of you following my nomination. This Committee's support and 
commitment to our Nation's veterans and their families are 
encouraging and greatly appreciated.
    I am joined here today by my husband Benjamin Bonzanto, an 
Army combat veteran, who served in Operation Iraqi Freedom and 
Operation Enduring Freedom; my twins, Lilliana and Sophia; and 
my mentor, Dr. BethAnn Swan, my nurse colleague. My eldest 
daughter, Alexandra, is not here, and I want to wish her well 
on her first day in high school.
    I am honored to be testifying before the U.S. Senate, and I 
want to tell you my American story. I grew up in Trinidad, in a 
poor area with poor prospects and limited educational 
opportunities. I migrated with my family to this great nation 
when I was 15 years old. I am the eldest of four children and 
my parents could not afford my education beyond high school.
    During a high school college fair, I told a Navy recruiter 
my dilemma, and he had a solution. On September 4, 2001, I 
enlisted in the U.S. Navy. I served as a Hospital Corpsman in a 
variety of roles and was honorably discharged in 2006. After 
active duty service, I earned my bachelor of science degree in 
nursing from Jefferson College of Nursing at Thomas Jefferson 
University in Philadelphia. I continued my work in health care 
with the Philadelphia Housing Authority as a nurse case 
manager.
    In 2012, my passion for assisting servicemembers brought me 
back to the military as a contracted nurse case manager for the 
Army Reserves. While in this role, I became an expert in 
coordinating soldiers' health care between the Department of 
Defense, Department of Veteran Affairs, and civilian health 
care providers in 13 northeastern States.
    In 2015, after my contract ended, I left my family in New 
Jersey and came to Capitol Hill when a nationwide VA health 
care access crisis was revealed. My unique blend of experiences 
and passion for the mission made me the ideal choice to become 
the House Veteran Affairs Subcommittee on Oversight and 
Investigation health care investigator.
    In this role, I witnessed firsthand the work of VA 
employees and the impact it has on the everyday lives of our 
Nation's veterans. As a veteran and the wife of a combat 
veteran, I have seen and experienced the commitment of 
hardworking VA employees. As a veteran myself, I utilized the 
Post-9/11 GI bill to complete my undergraduate and graduate 
degrees in nursing. After my husband's combat tours, he also 
accessed health care services and used his Post-9/11 GI Bill 
benefits to complete a graduate degree. After service to our 
country, we relied on VA for services and benefits to help us 
integrate into civilian life.
    Professionally, I have worked with countless service men 
and women, veterans and their families to coordinate care and 
services with VA. I know and understand the importance of VA's 
mission. As a nurse, I have seen the struggles servicemembers 
experience when integrating into civilian life after war and 
military service. I can say from personal experience that the 
battle continues after our servicemembers return home.
    I have been asked on numerous occasions, why do you want 
this position? I have put much thought into this, and I know 
this will not be an easy task. I have agreed to take on this 
mission because my fellow veterans deserve a health care and 
benefits system where there is trust, advocacy, transparency, 
and accountability. Every era of veterans have struggled at 
some point to access services within VA. I do not want history 
to keep repeating itself.
    We need to change our approach to serving veterans, and I 
see this office as a catalyst for changing the culture in VA. 
As a registered nurse, I understand the importance of having 
transparency, advocacy, and accountability in health care. The 
Office of Accountability and Whistleblower Protection has the 
potential to improve communication and employee engagement, 
build trust, enhance advocacy, and improve transparency with 
both VA employees and the veterans they serve. I see many 
opportunities to bring stakeholders from all aspects of VA to 
the table to have a meaningful dialog about improving the 
delivery of services.
    Whistleblowers have been an essential part of our oversight 
work in Congress and I value their commitment to improving care 
and services for my fellow veterans. I want VA to be a place 
where an employee can trust that their chain of command will be 
honest and have integrity.
    Veterans and employees should feel safe reporting concerns 
about the services they receive. If confirmed, I pledge to work 
with the Secretary and internal stakeholders to improve 
customer service and the culture of VA and improve 
communication with external stakeholders, including the Office 
of Special Counsel, the VA's Office of Inspector General, the 
Government Accountability Office, and Congress. I am also 
committed to improving and developing policies and processes to 
guide OAWP operations as well as improve OAWP staff training. 
That is a key point.
    I am committed to continuing advocating for veterans and VA 
employees. I know what it takes to leave your family and serve 
in the military. I want all veterans to know that after their 
service, the VA will be here to fulfill President Lincoln's 
promise, ``To care for him who shall have borne the battle, and 
for his widow, and his orphan.''
    Thank you all for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Ms. Bonzanto follows:]
   Prepared Statement of Dr. Tamara Bonzanto, RN, DNP, Nominee to be 
 Assistant Secretary for Accountability and Whistleblower Protection, 
                  U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Tester, and Distinguished Members 
of the Committee on Veterans Affairs, I want to thank you for the 
opportunity and privilege to come before you and seek your endorsement 
to serve as the Assistant Secretary of VA Office of Accountability and 
Whistleblower Protection. I am honored to have been nominated by 
President Trump, and I am thankful for the opportunity to have met 
individually with many of you following my nomination. This Committee's 
support and commitment to our Nations veterans and their families are 
encouraging and greatly appreciated.
    I am joined here today by my husband Benjamin Bonzanto, an Army 
Combat Veteran, who served in Operation Iraqi Freedom and Operation 
Enduring Freedom, my twins Lilliana and Sophia, my brother Christopher, 
and my mentor Dr. BethAnn Swan. My eldest daughter Alexandra is not 
here, and I want to wish her well on her first day in high school.
    I am honored to be testifying before the U.S. Senate, and I want to 
tell you my American story. I grew up in Piporo, a small village in 
Trinidad, in a poor area with poor prospects and limited educational 
opportunities. I migrated with my family to this great nation when I 
was fifteen years old. I am the eldest of four children and my parents 
could not afford my education beyond high school. During a high school 
college fair, I told a Navy recruiter my dilemma, and he had a 
solution--on September 4th, 2001, I enlisted in the U.S. Navy and was 
on my way to boot camp. I served as a Hospital Corpsman in a variety of 
roles and was honorably discharged in 2006. After active duty service, 
I earned my Bachelor of Science degree in nursing from the Jefferson 
College of Nursing at Thomas Jefferson University in Philadelphia. I 
continued my work in healthcare with the Philadelphia Housing Authority 
as a nurse case manager.
    In 2012 my passion for assisting servicemembers brought me back to 
the military as a contracted nurse case manager for the Army Reserves. 
While in this role I became an expert in coordinating soldiers' 
healthcare between the Department of Defense, Department of Veteran 
Affairs, and civilian health care providers in 13 northeastern states. 
I also served as a medical readiness advisor to the Army Reserves in 
the Northeast Region.
    In 2015, after my contract ended, I left my family in New Jersey 
and came to Capitol Hill when a nationwide VA health care access crisis 
was revealed. My unique blend of experiences and passion for the 
mission made me the ideal choice to become the House on Veterans' 
Affairs Subcommittee on Oversight and Investigation, healthcare 
investigator. During my time on the Committee, I was also committed to 
continuing my education and completed a Master of Science in Nursing 
and Doctor of Nursing Practice-Community Systems Administration.
    In this role, I witnessed first-hand the work of VA employees and 
the impact it has on the everyday lives of our Nation's Veterans. As a 
Veteran and the wife of a combat Veteran, I have seen and experienced 
the commitment of hardworking VA employees. As a veteran myself, I 
utilized the Post-9/11 GI Bill to complete my undergraduate and a 
graduate degrees in nursing. After my husband's combat tours, he also 
accessed healthcare services and used his Post-9/11 GI Bill benefits to 
complete a graduate degree. After service to our country, we relied on 
VA for services and benefits to help us integrate into civilian life. 
Professionally, I have worked with countless service men and women, 
veterans and their families to coordinate care and service with VA. I 
know and understand the importance of VA's mission. As a nurse, I have 
seen the struggles servicemembers experience when integrating into 
civilian life after war and military service. I can say from personal 
experience that the battle continues after our Soldiers and Sailors 
return home. The physical, psychological and emotional wounds of war 
haunt our service men and women years after service and VA has a 
critical role to in delivering quality healthcare and timely benefits.
    I have been asked on numerous occasions, why do you want this 
position? I have put much thought into this, and I know this will not 
be an easy task. I agreed to take on this mission because my fellow 
veterans deserve a healthcare and benefits system where there is trust, 
advocacy, transparency, and accountability. Every era of veterans have 
struggled at some point to access services within VA, and I do not want 
history to keep repeating. We need to change our approach to serving 
veterans, and I see this office as the catalyst for changing the 
culture in VA. As a Registered Nurse, I understand the importance of 
having transparency, advocacy, and accountability in healthcare. The 
Office of Accountability and Whistleblower Protection has the potential 
to improve communication and employee engagement, build trust, enhance 
advocacy and improve transparency with both VA employees and the 
Veterans they serve.I see many opportunities to bring stakeholders from 
all aspects of VA to the table to have meaningful dialogs about 
improving the delivery of services.
    If confirmed I am committed to collaborating with both internal and 
external stakeholders to support a working environment where employees 
feel safe identifying concerns and comfortable with the processes for 
reviewing or investigating concerns.
    Whistleblowers have been an essential part of our oversight work in 
Congress, and I value their commitment to improving care and services 
for my fellow veterans. I want VA to be a place where an employee can 
trust that their chain of command will be honest and have integrity. 
Veterans and employees should feel safe reporting concerns about the 
services they receive.
    In the next few months, the Veteran's Health Administration will be 
undergoing significant transformation, with the planning and 
implementation of the Mission Act, Caregiver expansion, transformative 
IT Modernization and the implementation of the Electronic Health 
Records Program. The Veterans Benefits Administration will be focused 
on reducing the claims and appeals backlog. We cannot afford to keep 
the status quo; we need all hands on deck committed to executing the 
President's and the Secretary's priorities for our Nation's Veterans.
    If confirmed, I pledge to work with the Secretary and internal 
stakeholders to improve customer service and the culture of VA and 
improve communication with external stakeholders, including Office of 
Special Counsel, the VA Office of Inspector General, the Government 
Accountability Office and Congress. I am also committed to improving 
collaboration with VA Human Resources and Administration to develop 
policies and processes to guide OAWP operations and improve OAWP staff 
training.
    Serving this country provided me with the opportunity to become 
educated and live my American dream. I understand the importance of 
public service and as a nurse I am passion about caring for people.
    I am committed to continuing advocating for veterans and VA 
employees. I know what it takes to leave your family and serve in the 
military. My shipmates became my family when I joined the Navy, and I 
have lifelong brother and sisters who are still serving this great 
country. I want them and all Veterans to know that after their service, 
the VA will be here to fuflfill President Lincoln's promise ``To care 
for him who shall have borne the battle, and for his widow, and his 
orphan.''
    Thank you all for this opportunity, and I look forward to your 
questions.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from Tamara Bonzanto to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
 Tamara Bonzanto, Nominee to be Assistant Secretary for Accountability 
   and Whistleblower Protection, U.S. Department of Veterans Affairs

    Question 1. Please describe your background and qualifications to 
be Assistant Secretary for Accountability and Whistleblower Protection.
    Response. In my current role as a Health Investigator for the House 
Veterans' Affairs Committee, I have worked extensively with VA 
whistleblowers and Veterans. In the last three years I have conduct 
site visit and Congressional staff visits to VA facilities across the 
country to review and investigate multiple VA programs. I also recently 
completed a Doctor of Nursing Practice degree focused on Community 
Systems Administrations. Evidence-based practices guide my practice, 
and I have used my skills as a Registered Nurse to collect, review, 
investigate and refer cases to the VA OIG, the Office of Special 
Counsel and the Government Accountability Office.

    Question 2. Please describe your understanding of the role of the 
Assistant Secretary for Accountability and Whistleblower Protection at 
the Department of Veterans Affairs (VA) and how you would fulfill that 
role if confirmed.
    Response. As a Registered Nurse, I understand the importance of 
having transparency, advocacy, and accountability in healthcare. This 
role presents the opportunity to build trust, enhance advocacy and 
improve transparency with both VA employees and the Veterans they 
serve. If confirmed, I am committed to collaborating with both internal 
and external stakeholders to support a working environment where 
employees feel safe identifying concerns and are comfortable with the 
processes for reviewing or investigating concerns.

    Question 3. What experience have you had working with 
whistleblowers and how would that experience inform your work as 
Assistant Secretary for Accountability and Whistleblower Protection, if 
confirmed?
    Response. Over the last few years, my interactions with 
whistleblowers included phone calls, emails, fax, mail and face to face 
contact during oversight visits or in Washington D.C. I have worked 
extensively with whistleblowers to review evidence and also refer their 
cases to the appropriate entities. Whistleblowers have been an 
essential part of our oversight work, and I value their commitment to 
improving care for veterans.

    Question 4. If confirmed, what would be your priorities as the 
first Assistant Secretary for Accountability and Whistleblower 
Protection at the VA?
    Response. If confirmed, I pledge to work with the Secretary and 
internal stakeholders to improve customer service and the culture of 
VA, improve communication with external stakeholders, including OSC, VA 
OIG, GAO and Congress, improve collaboration with VA Human Resources 
and Administration and develop policies and processes to guide OAWP 
operations and improve OAWP staff training.

    Question 5. Please explain your experience with investigating 
wrongdoing in government agencies and how that experience would help 
you lead the Office of Accountability and Whistleblower Protection.
    Response. In my current role on the House Veterans' Affairs 
Committee, I have reviewed evidence files, conducted site visits, met 
with witnesses, investigated allegations of wrongdoings and worked with 
Congressional stakeholders. I understand the importance of transparency 
and building trust within the organization. I have worked extensively 
to collecting evidence and referring cases to VA OIG, OSC, and the 
Government Accountability Office.

    Question 6. If confirmed, how would you plan to work with Congress 
to ensure it is kept aware of challenges related to accountability and 
protecting whistleblowers in the VA?
    Response. If confirmed, I plan to have regular briefings to 
Congress on OAWP operations, policies, and procedures. I also will 
ensure the timely submission of all congressionally mandated reports on 
the office.

    Question 7. Have you met with Secretary Wilkie, and if so, how did 
that meeting inform your expectations of what your role would be at VA 
if confirmed?
    Response. No. I have had no conversations with Secretary Wilkie 
regarding this role. However, if confirmed, I plan to regularly meet 
with the Secretary to provide advice and receive direction.

    Question 8. Do you believe the Department of Veterans Affairs 
Accountability and Whistleblower Protection Act of 2017 provides VA 
with all the tools it needs to sufficiently hold its employees 
accountable and protect whistleblowers who are trying to improve the 
Department?
    Response. Yes.

    Question 9. If confirmed, what kind of working relationship would 
you seek with VA's Inspector General and with the Office of Special 
Counsel? How would you like to see these offices work with VA's Office 
of Accountability and Whistleblower Protection to make sure VA is 
serving veterans?
    Response. If confirmed, I am committed to collaborating and 
communicating with the VA OIG and the Office of Special Counsel. In my 
current role on the House Veterans' Affairs Committee, I have referred 
cases to both of these agencies and have been in numerous briefing with 
the staff. I currently have a positive working relationship with VA OIG 
and OSC.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Tamara 
  Bonzanto, Nominee to be Assistant Secretary for Accountability and 
     Whistleblower Protection, U.S. Department of Veterans Affairs
    Question 1. Why do you seek this position?
    Response. I seek this position to help address concerns related to 
accountability and whistleblower protection. Over the last three years, 
I have worked with numerous Veterans and VA employees to address 
administrative barriers to getting responses to inquiries within VA.
    As a Registered Nurse, I understand the importance of having 
transparency, advocacy, and accountability in healthcare. This role 
presents the opportunity to build trust, enhance advocacy and improve 
transparency with both VA employees and the Veterans they serve. If 
confirmed, I am committed to collaborating with both internal and 
external stakeholders to support a working environment where employees 
feel safe identifying concerns and are comfortable with the processes 
for reviewing or investigating concerns.

    Question 2. Please describe your understanding of VA's mission. In 
your response, please describe how you would use the position for which 
you have been nominated to further that mission.
    Response. VA's mission is ``To fulfill President Lincoln's promise 
``To care for him who shall have borne the battle, and for his widow, 
and his orphan'' by serving and honoring the men and women who are 
America's Veterans.'' This mission statement is clear, and as a Veteran 
and wife of a combat Veteran, I have first-hand experience of how VA 
cares for and provides benefits to Veterans. My husband completed 
several tours in Operation Iraqi Freedom and Operation Enduring 
Freedom. VA health services and benefits allowed him the opportunity to 
get healthcare and earn a graduate degree. As a Veteran myself, I 
utilized the Post-9/11 GI Bill to complete undergraduate and graduate 
degrees in nursing. After service to our country, we relied on VA to 
help us integrate into the civilian workforce. Professionally, I have 
worked with Veterans and their families to coordinate care and service 
with VA. If confirmed, I will use this office to help improve 
transparency and build public trust. I am committed to working with all 
stakeholders to ensure Veterans receive quality health care and 
services they deserve.

    Question 3. Have you spoken to the Secretary about his expectation 
for what your role would be within his team? If yes, what was 
discussed?
    Response. No. I have not had any conversations with Secretary 
Wilkie regarding this role.

    Question 4. Have you spoken to the President or anyone at the White 
House about what your role would be within the Administration? If yes, 
what was discussed?
    Response. Yes. I met with Presidential Personnel Office staff as 
part of the interview process. We discussed my qualifications and 
relevant work experiences.

    Question 5. On matters of policy, do you believe you will be 
receiving direction from the Secretary or someone at the White House?
    Response. Yes.

    Question 6. What are your top three specific and measurable goals 
as Assistant Secretary of Accountability and Whistleblower Protection 
and how would you achieve them?
    Response. If confirmed I hope to accomplish these items within the 
first 90 days:

    <bullet> Complete an analysis of the current office.
          i. Identify the organization strengths, weaknesses, 
        opportunities and threats related to internal and external 
        factors and evaluate current staffing models

    <bullet> Improve internal and external stakeholder engagement and 
communication.
          i. Meeting with stakeholders to discuss expectations and ways 
        to improve communication and engagement

    <bullet> Collaborate with Human Resources and Administration to 
develop standardized staff training to enhance awareness about OAWP 
roles and responsibilities.
          i. Use clearly defined processes and guidelines so employees 
        and managers can have a clear understanding of their rights as 
        a whistleblower.

    Question 7. Please describe your prior interactions with labor 
unions, whether public or private. What is your experience in dealing 
with unions or employees who have collective bargaining rights? If 
confirmed, what will be your plan to work with employee unions? Do you 
believe they play an important role in bridging communication between 
VA employees and management?
    Response. In my current role on the House Veteran Affairs' 
Committee, I have met with multiple local union leaders and members. 
During site visits, whistleblowers occasionally request their union 
representative be present during our meetings. If confirmed, I am 
committed to collaborating with my VA colleagues within the Office of 
Human Resources and Administration to cultivate engagement and improve 
communication with union employees.

    Question 8. How do you anticipate building and maintaining a 
positive relationship with the Department's Inspector General, who 
plays a key role in making sure taxpayer dollars are spent wisely? 
Please describe your dealings with Inspectors General previously. Did 
those experiences color your view of the work of the OIG?
    Response. If confirmed, I am committed to regularly collaborating 
and communicating with the VA OIG. In my current role, I have referred 
cases to the IG and have been in numerous briefings with the staff. I 
currently have a positive working relationship with the VA OIG staff.

    Question 9. How do you anticipate building and maintaining a 
positive relationship with the Office of Special Counsel, which assists 
in protecting Federal employees and applicants from prohibited 
personnel practices, especially reprisal for whistleblowing. Please 
describe your dealings with OSC previously. Did those experiences color 
your view of OSC's work?
    Response. I currently have a working relationship with staff from 
the Office of Special Counsel. As part of my current role, we have met 
to discuss VA case loads and whistleblower retaliation. I do not 
anticipate any problems collaborating on issues related to VA 
employees.

    Question 10. Earlier this year, the Department released a statement 
that said in part, ``[E]mployees who were wedded to the status quo and 
not on board with this administration's policies or pace of change have 
now departed VA.'' Is such a statement the right message to be sending 
to rank and file VA employees? Potential employees? Whistleblowers?
    Response. I read this message, and the context highlights that 
employees who are not aligned with the mission of VA have departed. In 
my opinion, employees in any organization have the right to leave an 
organization if they do not believe in the mission.

    Question 11. VA oftentimes has difficulty recruiting medical 
professionals into the system in the face of frequent negative media 
reports about the Agency. How would you use the Office of 
Accountability and Whistleblower Protection as a positive factor in 
recruiting these individuals? How would you use your experiences as a 
committee staff member to assist in improving recruitment and retention 
of these critical professionals?
    Response. If confirmed, I am committed to working with HR&A 
leadership to improve the retention of employees. I will also use my 
experience as a Health Investigator to be a voice for both employees 
and Veterans. I have conducted numerous oversight visits, and this 
experience has taught me that we need to listen to employees and 
Veterans. I believe having meaningful dialogs will improve 
communication and transparency.

    Question 12. If confirmed, what will you do to foster an 
environment that allows employees with concerns to be able to express 
them?
    Response. If confirmed, I will work with VA's Patient Advocacy 
Office and VA's human resources department to improve customer service. 
I will also work to ensure that employees have the opportunity to 
communicate with leadership through townhalls and online forums.

    Question 13. Describe your previous management experience, to 
include the number of employees you supervised or managed. Of those 
experiences, which have best prepared you to succeed in the office for 
which you have been nominated?
    Response.
    <bullet> Hospital Corpsman--Responsible for coordinating training 
and maintenance of training records for approximately 25 
servicemembers, was also the safety coordinator for the primary care 
practice.
    <bullet> Practice Coordinator of Internal Medicine Clinic--directly 
supervised ten frontline employees and was responsible for the 
oversight of 5 physicians in the practice.
    <bullet> Ave Elderly and Disabled Services, Nurse Manager--I 
assumed the responsibility and accountability for all the nursing care 
of 30 clients that attend the adult day center. Supervised licensed 
nurse and 3 certified nursing personnel in the delivery of therapeutic 
care daily. Also completed care plans, comprehensive assessments and 
deliver care accordingly.
    <bullet> Contract Nurse Case Manager--Managing contract nursing 
team of 5 nurses and advised military commanders about Soldiers medical 
readiness. At any given time, I was responsible for case managing 150-
175 Soldiers in 13 northeastern states. Responsible for coordinating 
care between DOD, VA and civilian health systems.
    <bullet> I can manage cases remotely and oversee my patient's care 
in multiple health systems. The complexity of these cases often varied 
and required me to be flexible and adaptable. My experiences as a nurse 
on the Committee have broadened my knowledge about VA's operations and 
accountability issues. As a registered nurse, my approach to problem-
solving has always been evidence-based, and I intend to use this 
approach if confirmed as the Assistant Secretary for OAWP.

    Question 14. What is your management style? Are you a ``hands-on'' 
manager? Do you rely on significant delegation? Do you seek consensus 
before making a decision or do you generally gather relevant 
information and input, and then make a decision?
    Response. I am a transformational leader, and I believe that good 
performance should be recognized. I also believe in creating a trusting 
working environment which fosters open communication.

    Question 15. How would your prior subordinates describe your 
management style?
    Response. They would say I am trustworthy and transparent.

    Question 16. Do you agree that VA employees have an absolute right 
to petition or communicate with Members of Congress and congressional 
staff about matters related to VA matters and that right may not be 
interfered with or denied?
    Response. Yes.

    Question 17. What would you do to ensure that Members of Congress 
are advised in advance of problems, issues, and emerging matters?
    Response. I will ensure the Secretary is aware of critical issues 
that Congress should be aware of and then follow his guidance for 
informing members and their staff.

    Question 18. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities if confirmed?
    Response. Yes. I agree to respond appropriately to such Committee 
requests.

    Question 19. In response to question 9 of the Committee's 
Questionnaire for Presidential Nominees, you noted three nursing-
related public statements. As a staffer on the Committee on Veterans' 
Affairs, did you ever provide any other remarks, lectures, panel 
discussions, conferences comments, political speeches or participate in 
any question-and-answer sessions in your capacity as a staff member of 
that Committee?
    Response.
    <bullet> Nurse Organization of Veteran Affairs Legislative Round 
Table--3/16/2018
          i. I did not provide any statements for the record
    <bullet> I staffed committee members during roundtable discussions 
or committee hearings.

    Question 20. There are reports that the Administration, through the 
Office of General Counsel or other individuals, has ordered agencies to 
not provide responses to Democrats' information requests. If you were 
to receive such an order, what would you do? Have you participated in 
or been aware of any communications where this topic was discussed? 
Please provide details on the participants in this discussion, the 
substance of the discussion, and any outcomes.
    Response. I am not aware of any such conversations.

    Question 21. Please describe your interactions with whistleblowers 
during your time working on the Committee on Veterans Affairs.
    Response. Over the last three years, my interactions with 
whistleblowers included phone calls, emails, fax, mail and face to face 
contact during oversight visits or in Washington D.C.

    Question 22. Have you recused yourself from interactions with 
whistleblowers since being nominated?
    Response. No.

    Question 23. Since your nomination, have you engaged in any 
Committee oversight business or inspections at locations that may be 
the subject of OAWP investigations?
    Response. Since my nomination, I have conducted oversight visits 
within VA. I cannot speak to any OAWP investigation at the sites I 
visited.

    Question 24. Do you believe that facility leadership is capable of 
performing unbiased investigations into whistleblower complaints at 
their own facilities?
    Response. No.

    Question 25. Do you believe whistleblower retaliation occurs at VA 
and what will you do to address it?
    Response. Yes. I will use my skills to assess the evidence, 
evaluate the action taken and give my recommendation to the Secretary.

    Question 26. Have you used your position on the Committee to 
further the interests or treatment of yourself or your family members?
    Response. No.

    Question 27. Given your role and experience on the Committee, 
please explain your perspective on Congressional Oversight, and how it 
will shape your work if confirmed as Assistant Secretary?
    Response. Congressional oversight is a necessary part of the 
American system of checks and balances. Committee oversight allows 
Congress to review and monitor programs, activities and policy 
implementation within the executive branch. I understand the importance 
of transparency and collaboration with Congressional partners. It is 
vital that executive leadership communicate with lawmakers on issues 
impacting constituents.

    Question 28. Do you believe that whistleblowers should have access 
to final investigative reports on their disclosures?
    Response. I believe that VA OIG reports and the Office of Special 
Counsel final reports are public interest documents. I do believe that 
there should be a level of transparency of feedback to the 
whistleblower, which should be dependent on the type of disclosure.

    Question 29. A recent GAO report found that VA maintains 12 
different information systems in which partial data are collected 
related to employee misconduct and disciplinary actions. They further 
found that every single one of those systems had data-reliability 
issues. How will you, if confirmed, work to turn OAWP into the 
repository of this type of data, as was intended by the law that 
created the office?
    Response. I understand the importance of tracking disciplinary 
action and will work with VA human resources department and VA office 
of General Counsel to implement a standardized process for tracking 
senior employees' misconduct case files and disciplinary actions.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Sherrod Brown to 
 Tamara Bonzanto, Nominee to be Assistant Secretary for Accountability 
   and Whistleblower Protection, U.S. Department of Veterans Affairs
    Ms. Bonzanto, I have some concerns that VA has used this new 
authority to fire low-level employees with marginal offenses, not the 
senior managers who have had egregious offenses. Over 2,700 employees 
have been fired since last July.

    Question 1. Can you walk me through your understanding of how the 
VA Accountability and Whistleblower Protection Act has been 
implemented?
    Response. OAWP receives, reviews and refers whistleblowers 
disclosures; referrals from other entities; and recommendations from 
reports. The staff also investigates allegations of misconduct, poor 
performance or retaliation involving VA senior leaders. It is my 
understanding that claims of retaliation involving non-senior leaders 
are referred to the administrations for review and investigation, but 
actions taken are required to be sent to OAWP for data capture.

    Question 2. We have heard that facilities are no longer using 
performance improvement plans or progressive discipline, if confirmed 
will you commit that VA will once again use these tools to address 
employee performance, instead of firing?
    Response. Yes.

    Question 3. Will you commit to addressing that?
    Response. I believe that VA is already addressing how performance 
issues can be addressed without reinstating the PIP.

    Question 4. Will you commit to keeping the Committee informed on 
any changes to the Office's policies and update us on how VA continues 
to implement the law, including sending information related to adverse 
actions taken against whistleblowers, the position and grade of the 
employees, and whether the Office of Special Counsel was involved?
    Response. If confirmed, I will ensure OAWP continues to implement 
and enforce the whistleblower protections in the Accountability and 
Whistleblower Protection Act under 38 U.S.C. Section 714. I will ensure 
the Committee is timely informed of activity under this provision.

    Question 5. Will you provide timely information to my office and 
the Committee?
    Response. Yes.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
       to Tamara Bonzanto, Nominee to be Assistant Secretary for 
    Accountability and Whistleblower Protection, U.S. Department of 
                            Veterans Affairs
                          supervisor training
    There are troubling reports that nearly 17% or 2,500 management 
posts are vacant. The malign neglect of the VA workforce denies 
veterans meaningful choice for their health care, as the failure to 
adequately staff VA medical facilities pushes veterans out to private 
contractors who are not held accountable for quality and prompt 
treatment as the VA is by the law that established the Office of 
Accountability and Whistleblower Protection. The failure to hire 
managers places immense burden on the supervisors and managers that 
remain, working tirelessly to save the system.
    Section 209 of the law that authorized the office to which you are 
nominated requires VA to invest in periodic training to supervisors on: 
(a) the rights of whistleblowers and how to address a report of a 
hostile work environment, reprisal, or harassment, (b) how to 
effectively manage employees and (c) access assistance from the human 
resources office and General Counsel of the Department to address 
employees who are performing at an unacceptable level.

    Question 1. Have supervisor training programs been robustly 
implemented as required by the law? If confirmed, what are your 
specific plans to improve management training to make VA first 
preference in the Nation for all healthcare employees?
    Response. If confirmed, I am committed to continuing the current 
robust senior leader training and the development of the employee 
training. Recognizing that the statute called for ``face-to-face'' 
training for all employees, I will rigorously support the development 
of ``train-the-trainer'' programs to meet that every two-year 
requirement.

    Question 2. Can you please identify the dates that these supervisor 
training programs took place at the West Haven VA and a description of 
the training that took place?
    Response. If confirmed, I am will commit to following up on this 
issue and providing you a response.
                         political interference
    If confirmed, you will be statutorily responsible for reporting to 
this Committee next year on the effectiveness of the VA Accountability 
and Whistleblower Protection Act of 2017. I am concerned that the law 
is being applied in an inconsistent and inappropriate manner.

    Question 3. Will you commit as part of that report, to address the 
ability of our legislation to protect Senior VA Executives from the 
corrosive impact of political interference from the so called ``Mar-A-
Lago'' cronies on ``the morale, engagement, hiring, promotion, 
retention, discipline, and productivity of individuals in senior 
executive positions at the Department of Veterans Affairs?''
    Response. Yes.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
 Tamara Bonzanto, Nominee to be Assistant Secretary for Accountability 
   and Whistleblower Protection, U.S. Department of Veterans Affairs
                       sexual harassment history
    To ensure the fitness of nominees for any of our appointed 
positions, I ask every nominee who comes before me to answer the 
following two questions:

    Question 1. Since you became a legal adult, have you ever made 
unwanted requests for sexual favors, or committed any verbal or 
physical harassment or assault of a sexual nature?
    Response. No. I have not.

    Question 2. Have you ever faced discipline, or entered into a 
settlement related to this kind of conduct?
    Response. No. I have not.
                    accountability of va management
    Question 3. You state in your testimony that ``whistleblowers have 
been an essential part of our oversight work in Congress, and I value 
their commitment to improving care and services for my fellow veterans. 
I want VA to be a place where an employee can trust that their chain of 
command will be honest and have integrity.'' Could you elaborate on how 
you will ensure that whistleblowers and the rank and file workers at 
VA, many of whom are veterans themselves, can have the confidence to 
know that their management chain of command will be held to this 
standard?
    Response. If confirmed, I am committed to working with VA's Office 
of Human Resources & Administration to improve the leadership 
development and relationship, responding to employees who have made 
disclosures is the prime issue that OAWP performs in a timely manner, 
and I will remain committed to the values required to promote trust 
within the system.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
 Tamara Bonzanto, Nominee to be Assistant Secretary for Accountability 
   and Whistleblower Protection, U.S. Department of Veterans Affairs
    Question 1. Last October, The Washington Post reported that a 
culture of retaliation against whistleblowers has continued at the VA 
in spite of the passage of the VA Accountability and Whistleblower 
Protection Act. Do you believe that a culture of retaliation against 
whistleblowers exists at the VA and, if so, does it exist at local 
hospitals and offices, at central office, or both? Also, as Assistant 
Secretary what policies will you be implementing to create an 
atmosphere in which VA staff will be comfortable coming forward?
    Response. Based on my experience as a Health Investigator on the 
House Committee on Veteran Affairs, I believe that retaliation against 
VA employees sometimes happens at the local and senior levels in VA. If 
confirmed, I am committed to creating a system in place where employees 
can file complaints anonymously and at the same time improve employees' 
awareness of their rights. I also understand that many of those that 
claim retaliation are not recognized as whistleblowers, or have pending 
disciplinary action against them when they have ``claimed'' a 
disclosure. OAWP's current application of the law is in line with 
intent, and I promise to continue to work initiatives that are fixing 
multiple portals of disclosure, the Whistleblower Re-Integration 
Program, and the continued education to all levels of senior leadership 
the roles, responsibilities and rights that they should know to 
successfully engage this spectrum of issues.

    Question 2. Your experience as a Navy Corpsman from 2001-20016, 
nurse case manager for the army reserves 2012-2015, and most recently 
as a health care investigator for the House Veterans Affairs 
Subcommittee on Oversight has given you a great deal of hands-on 
experience. Given your experience on both the DOD and VA sides what 
policies have you found are ineffective, and what would you change to 
implement a positive change? What obstacles do you see to implementing 
these changes, and how could Congress be helpful moving forward?
    Response. Improving communication and care coordination between DOD 
and VA are the most critical steps to enhance Servicemember and Veteran 
health and benefits. Currently, the implementation of the EHR between 
DOD and VA presents many opportunities to collaborate improve services 
for our veterans and their families. I would recommend there are 
incentives to coordinate health services between VA and DOD. Congress 
play a critical role by performing continuous oversight of the 
collaboration between both departments to ensure success.

    Question 3. As Assistant Secretary you will be the executive in 
charge of a new and important office that exposes waste, fraud, and 
abuse and helps to ensure the welfare and safety of veterans using our 
VA hospitals. Leadership is vitally important for establishing a staff 
culture that fosters an engaged and highly functioning workforce. What 
experience do you have that is applicable to an executive level 
management position like this one?
    Response. In my current role as a Health Investigator for the House 
Veterans' Affairs Committee, I have worked extensively with VA 
whistleblowers and Veterans. In the last three years, I have conduct 
numerous site visits to VA facilities across the country to review and 
investigate multiple VA programs. I also recently completed a Doctor of 
Nursing Practice degree focused on Community Systems Administrations. 
Evidence-based practices guide my performance, and I have used my 
skills as a Registered Nurse to collect, review, investigate and refer 
cases to the VA OIG, the Office of Special Counsel and the Government 
Accountability Office. I also advise committee members, their staff and 
other Members of Congress on issues related to veteran's health and 
benefits.

    Question 4. In an ideal whistleblower case, the hope is that the 
whistleblower is an unimpeachable individual with no ulterior motives 
against the people they are whistleblowing against. However, I know 
that you've probably seen cases where the whistleblower isn't a perfect 
employee, and while they are an imperfect messenger, the message they 
are delivering is true and warrants a review. This makes the 
whistleblowing process complicated and often is what drags things out. 
How can the VA, and the government overall, improve the ways that they 
analyze these more complicated situations?
    Response. In my experience on the Committee, I have seen these 
cases. I would recommend that the individual reviewing the complaint 
remain neutral. The evidence of the case should be carefully reviewed 
before final adjudication.

    Chairman Isakson. Thank you, Ms. Bonzanto.
    Mr. Gfrerer.

 STATEMENT OF JAMES PAUL GFRERER TO BE ASSISTANT SECRETARY FOR 
INFORMATION AND TECHNOLOGY, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Gfrerer. Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee on Veterans' Affairs, 
thank you for the opportunity to testify before you today and 
for your consideration of my nomination by President Trump to 
serve as Assistant Secretary of Information and Technology for 
the Department of Veterans Affairs.
    I would like to start by thanking my wife, Julie, and as 
the Chairman asked, introduce my daughters, from left to right, 
Abigail, Emily, and Katie. With their love and support I am 
continuously grateful. Their example and that of countless 
military and veteran families and caregivers, whom I know, give 
true meaning to Abraham Lincoln's statement and the VA's 
mission, ``To care for him who has borne the battle, and their 
widow and orphan.''
    Growing up I was number seven of nine kids raised by 
depression-era parents in a middle-class family in St. Paul, 
MN. Life was good and simple, filled with school, sports, and 
church. My extended family consisted of many veterans, from 
World War II to Vietnam.
    In World War II, my Uncles George and Carl served in the 
Army in Europe. My Uncle Ed was a Marine rifleman, landing on 
Tarawa and combat-wounded on Saipan. His wife, my Aunt 
Lorraine, was one of the earliest women Marines. My Uncle Roger 
was in the Air Force and my Uncle Jim in the Navy in the Korean 
War era, and finally, my cousin Bobby served as a Marine in 
Vietnam.
    Just short of my 18th birthday, I entered the U.S. Naval 
Academy, and 4 years later graduated with a degree in computer 
science and a commission as a Second Lieutenant of the Marines. 
Over the next 28 years, I had the privilege to serve in combat 
and peacetime with men and women from all of the Armed 
Services, but principally leading Marines. From Desert Storm to 
Operation Iraqi Freedom, and supporting with teams in Operation 
Enduring Freedom, it was the privilege of a lifetime for a 
blue-collar Midwestern kid to serve his country.
    Throughout my military service, I had differential 
assignments in training, IT, an Office of Inspector General, 
Corporate Fellow, founder of an Information Operations and 
Cyber command, and finally, in the U.S. Government Interagency. 
In these positions, the experience gained included 
understanding the intricacies of IT legacy systems and large-
scale IT projects, the leadership, both good and bad, in 
guiding and resourcing projects, and the culture of 
organizations and the importance of collaboration.
    Since leaving active duty, I have become a patient of the 
Veterans Health Administration and a customer of the Veterans 
Benefit Administration. Over the past 3 years, I have had the 
unique opportunity to view the VA as one of the nine million 
veterans who use its services, and in the same 3 years I have 
worked as an executive in the private sector doing IT and 
cybersecurity transformation for large commercial clients, 
further providing me with the experience and perspective to 
serve in the VA.
    In the 21st century, we know that information technology 
undergirds all aspects of our life. VA IT has become a critical 
requirement that is central to the processes and productivity 
at the VA. Inherently, IT is about business transformation. As 
such, the business owners play a crucial role of working with 
IT to clearly define the requirements and implement the new 
system.
    I have already met with leadership from the Veterans Health 
Administration and Veterans Benefits Administration, and in 
these initial meetings, heard their concerns. Within OI&T's 
Enterprise Program Management Office there is an Account 
Management Office that deals directly with the Administrations. 
If confirmed, they will be a direct priority of mine, including 
my own interaction with Administration leadership.
    IT also requires a talented team of professionals to bring 
the experience and grit to demanding projects. As Secretary 
Wilkie stated in his testimony, one of his priorities is to 
change the culture of the VA. I embrace my role in that effort 
and will support him fully. In today's employment market IT and 
cybersecurity positions are in high demand. People have a 
choice, and by my example and leadership, the hardworking women 
and men of OI&T need to feel part of a respected and high-
functioning team.
    My top three priorities would be a focus on: (1) 
stabilizing and streamlining core processes and platforms; (2) 
eliminating material weakness; and (3) institutionalizing new 
capabilities to drive outcomes. To measure progress my intent 
would be to use a roadmap with a comprehensive balanced 
scorecard for these broad goals and objectives supporting core 
internal customers and map to their projects. Finally, my 
intent is to ensure full measures of effectiveness and specific 
project leads to ensure progress and accountability by office 
and individual executive leaders.
    In closing, Secretary Wilkie has also mentioned in his 
testimony that the Department has been well-resourced and that 
the time for excuses is over. He has established his priorities 
and set expectations, and, if confirmed, I look forward to 
joining the VA leadership team and executing his vision.
    Mr. Chairman, I thank you and the Members of the Committee 
for the opportunity to appear today, and to be considered for 
this position. I look forward to answering your questions. 
Thank you.
    [The prepared statement of Mr. Gfrerer follows:]
     Prepared Statement of James P. Gfrerer, Nominee for Assistant 
   Secretary, Information & Technology, U.S. Department of Veterans 
                                Affairs
    Chairman Isakson, Ranking Member Tester, and Distinguished Members 
of the Committee on Veterans Affairs, thank you for the opportunity to 
testify before you today and for your consideration of my nomination to 
serve as Assistant Secretary of Information & Technology for the 
Department of Veterans Affairs.
    I'd like to start by thanking my wife Julie, and our three great 
kids. They are here today with their love and support for which I'm 
continuously grateful. Their example and that of countless military and 
Veteran families and caregivers, give true meaning to Abraham Lincolns' 
statement and the VA's mission, ``to care for him who has borne the 
battle AND their widow and orphan.''
    Growing up I was number 7 of 9 kids raised by Depression-Era 
Parents in a middle-class family in St. Paul, Minnesota. Life was good 
and simple, with a busy life of school, sports, and Church. My extended 
family consisted of many Veterans--from World War II to Vietnam. In 
World War II, my Uncles George and Carl served in the Army in Europe. 
My Uncle Ed was a Marine rifleman landing on Tarawa and combat-wounded 
on Saipan. His wife, my Aunt Lorraine, was one of the first Women 
Marines. My Uncle Roger was in the Air Force and Uncle Jim in the Navy 
in the Korean War era, and my cousin Bobby served as a Marine in 
Vietnam.
    Just short of my 18th birthday, I entered the U.S. Naval Academy, 
and four years later graduated with a Degree in Computer Science and a 
commission as a Second Lieutenant of the Marines. Over the next 28 
years, I had the privilege to serve in combat and peacetime with men 
and women from all five Armed Services, but principally leading 
Marines. From Desert Storm, to Operation Iraqi Freedom, and supporting 
with teams in Operation Enduring Freedom, it was the privilege of a 
lifetime for a blue-collar Midwestern kid to serve his country.
    Throughout my military service, I had some differential assignments 
in training, IT, an Office of Inspector General, Corporate Fellow, 
founder of an Information Operations & Cyber command, and finally in 
the US Government Interagency at the Department of State. In these 
positions, the experience gained included understanding the intricacies 
of IT legacy systems and large scale IT projects, the leadership, both 
good and bad, in guiding and resourcing projects, and the culture of 
organizations and importance of collaboration.
    Since leaving active duty, I've become a patient of the Veterans 
Health Administration and customer of the Veterans Benefit 
Administration. Over the past three years, I've had the unique 
opportunity to view the VA as one of the 9 million Veterans who use the 
its services. And in the same three years, I've worked as an Executive 
in the private sector doing IT and Cybersecurity transformation for 
large commercial clients, further providing me the experience and 
perspective to serve in the VA.
    In the 21st Century we know that Information Technology undergirds 
all aspects of our life. VA IT has become a critical requirement that 
is central to the processes and productivity at the VA. Inherently, IT 
is about business transformation. As such, the business owners play a 
crucial role of working with IT to clearly defining the requirements 
and implement the new system. I have already met with leadership from 
the Veterans Health Administration and Veterans Benefits 
Administration, and in these initial meetings, heard their concerns. 
Within OI&T's Enterprise Program Management Office, there is an Account 
Management Office that deals directly with the Administrations. If 
confirmed, they will be a direct priority of mine, including my own 
interaction with Administration leadership.
    IT also requires a talented team of professionals to bring the 
experience and grit to demanding projects. As Secretary Wilkie stated 
in his testimony, one of his priorities is to change the culture of the 
VA. I embrace my role in that effort and will support him fully. In 
today's employment market IT and Cybersecurity positions are in high 
demand. People have a choice, and by my example and leadership, the 
hardworking women and men of OI&T need to feel part of a respected and 
high-functioning team.
    My top three priorities would be a focus on: (1) Stabilizing and 
streamlining core processes and platforms, (2) Eliminating material 
weakness, and (3) Institutionalizing new capabilities to drive 
outcomes. To measure progress my intent would be to use a roadmap with 
a comprehensive balanced scorecard for these broad goals & objectives 
supporting core internal customers and map to their projects. Finally, 
my intent is to ensure full measures of effectiveness (MoE) and 
specific project leads to ensure progress and accountability by office 
and individual executive leaders.
    In closing, Secretary Wilkie also mentioned in his testimony that 
the Department has been well-resourced and that the time for excuses is 
over. He has established his priorities and set expectations, and, if 
confirmed, I look forward to joining the VA Leadership Team and 
executing his vision.

    Mr. Chairman, I thank you and the Members of the Committee for the 
opportunity to appear today, and to be considered for this position. I 
look forward to answering your questions. Thank you.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from James Paul Gfrerer to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
 James Gfrerer, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs
    Question 1. At the Department of Veterans Affairs (VA), you would 
be tasked with managing a $4 billion information and technology (IT) 
budget, if confirmed.
    a. Would you please describe how you approached previous positions 
and how your approach may be different given the scope and size of the 
VA budget?
    Response. The large OI&T topline budget decomposes very rapidly 
into much smaller and more manageable pockets of money in terms of 
salaries, development, and sustainment. Each of the latter two 
categories decomposes into many, many projects across the various 
entities within VA. Ultimately while these projects and funding lines 
are still large dollar amounts, the scope automatically builds a system 
of individual project accountability, which I will use to drive project 
execution discipline.

    Question 2. Based on your knowledge of IT at VA, where do you 
anticipate the biggest problems and challenges exist?
    Response. Based upon my current knowledge I would say that legacy 
systems being migrated and transitioned in a timely manner is one of 
OI&T's biggest challenges. This topic is not only an issue for 
reliability, but also for the security of the applications.

    Question 3. If confirmed as Assistant Secretary, what will be your 
priorities and goals?
    Response. My top three priorities will focus: (1) Stabilizing and 
streamlining core processes and platforms, (2) Eliminating material 
weakness, and (3) Institutionalize new capabilities to drive outcomes.
    a. What is your strategy to achieve your goals and how has your 
background prepared you to address those challenges?
    Response. My strategy would be to employ a good Governance process 
to track all OI&T projects and the affiliated goals and objectives 
which they support. My background has prepared me to employ such tools 
(e.g. balanced scorecard) to ensure that projects meet the required 
cost, schedule, and performance milestones, by utilizing accountability 
driven down to the individual project leader level.

    Question 4. Please describe your vision for your role as the 
Assistant Secretary and of the VA Electronic Health Record (EHR) 
modernization?
    Response. Legislation established an Office of EHRM, which reports 
directly to the Deputy Secretary. The CIO is a key stakeholder for this 
program of record, principally related to the infrastructure 
responsibilities to host the new EHR system while maintaining the 
current EHR (VistA) and related systems. OI&T's principal 
responsibilities for ERHM is providing a sufficiently modern computing 
infrastructure to carry the new EHR system and provide the requisite 
security, reliability, and availability.
    a. Describe your experience with large scale information technology 
projects, lessons learned, things you believe need to be addressed from 
the outset, etc.
    Response. In my prior military/government career, as well as my 
recent commercial service, there are several instances of large-scale 
IT change management and COTS deployments, though not specifically in 
the health care space. The first major effort involved migrating large 
legacy H.R. systems from mainframe to mini and PC-based applications, 
as well as the initial mobile applications. Additionally, I spent 18 
months leading the substantial effort to ready government systems for 
Y2K, involving significant programmatic review, change management, and 
contractor oversight.
    b. How has this vision helped you successfully implement other 
large scale initiatives?
    Response. In my commercial career, there are several instances of 
business optimization where by we assisted clients in streamlining 
operations, updating current services and security, while saving 
millions of dollars in annual cost. My intent is to bring that same 
mindset to VA, in that every dollar for which we are accountable, looks 
to be judiciously applied/spent, while simultaneously looking for 
greater efficiency and cost-savings in both existing programs and 
future acquisition.

    Question 5. Have you reviewed or discussed the Office of 
Information Technology leadership/organizational structure with the 
Secretary?
    Response. No, but it is an area in which I will take immediate 
interest in reviewing, if confirmed.

    Question 6. Are there changes to the task organization within the 
office that you believe need to be made?
    Response. Again, this is an important review that I believe can 
only be done, if/when confirmed and sworn into the position.
    a. How does the current task organization enable accountability?
    Response. My initial impression is that accountability is driven 
from the top down from the Secretary's objectives down to the 
corresponding OI&T goals & objectives.

    Question 7. Staff turnover will negatively affect any project's 
timetable. If confirmed, how will you manage staff turnover so that it 
does not negatively affect the first milestone date on October 1st?
    Response. Drawing upon my prior experiences as an organizational 
leader and H.R. specialist, I intend to utilize every option to 
recruit, train, retain, and promote the most capable IT staff. I am 
keenly aware of the similar challenges with commercial entities, and 
also the tangible and intangible resources needed to build a qualified 
and committed IT work force.
    a. Will you commit to frequent, transparent, and direct 
communication with my staff regarding the timeline for implementation? 
What will you do to ensure that this milestone and subsequent 
milestones are met?
    Response. Yes, I believe that substantial communication with 
Congress on these and other matters is important.

    Question 8. If the effort to transform VA's EHR system is to be 
successful, coordination between the EHR project team, VHA, VBA, and 
the Office of Information Technology is critical. As Assistant 
Secretary, how will you promote effective communication between VA's 
internal departments?
    Response. I am aware of the current OI&T Account Management Office 
methodology for direct and sustained engagement with the 
Administrations. I will place a high priority on meeting the internal 
customer's project needs, and by developing a close relationship with 
my counterparts.

    Question 9. Historically, VA has struggled with IT projects. There 
have been numerous reports of waste and abuse that has plagued VA's IT 
systems.
    a. What steps do you plan to take immediately to prevent further 
waste of taxpayer dollars?
    Response. Improving individual project management leadership 
accountability for meeting milestones as well as cost and performance 
metrics.
    b. What experience from your background would you rely on to 
prevent future IT failures?
    Response. Ensuring requirements are clearly identified by the 
business application owner, and to maintain the project scope with 
limited-to-no scope adjustments, and ruthless focus on achieving 
milestones.
    c. What lessons have you learned in the private sector related to 
standardization and interoperability and how would you apply them to 
VA's electronic health records?
    Response. In past careers, I have experience leading across multi-
disciplinary teams and across geographically wide areas. The key is to: 
(1) retain a focus on the organizational roadmap, (2) ensure the 
required resources/guidance are provided, and (3) supervise the efforts 
to milestone accomplishment.

    Question 10. Protecting veterans' personal healthcare information 
must be a top priority for VA. If confirmed, what strategies, ideas, or 
initiatives do you have for improving information security at VA?
    Response. One of the top three goals for OI&T is ``elimination of 
material weakness.'' I look forward to continuing this goal, 
specifically around information security and the protection of Personal 
Health Information (PHI). As a Veteran customer of VA, I know first-
hand the importance of protecting PHI and other sensitive personally 
identifiable data.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. John Tester to James 
   P. Gfrerer, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs
    Question 1. Why do you seek this position?
    Response. As discussed in our office call, there is no more noble 
calling in the US Government than to serve our Nation's Veterans and 
their families, who have given so much. The VA is at a critical 
juncture to provide the next generation of services to Veterans, and I 
believe I possess the leadership, passion, and experience to lead the 
Office of Information & Technology in supporting these efforts.

    Question 2. Have you spoken to the Secretary about his expectation 
for what your role would be within his team? If yes, what was 
discussed? Response. Yes. The discussion centered on the role of the 
CIO relative to FITARA and focused on the Electronic Health Record 
Management effort.

    Question 3. Have you spoken to the President or anyone at the White 
House about what your role would be within the Administration? If yes, 
what was discussed?
    Response. The only contact with the White House, was with the 
Office of Presidential Personnel as to normal pre-nomination vetting 
for a PAS position.

    Question 4. There has been extensive reporting on individuals using 
their political connections to the President to influence the VA with 
no transparency as to the nature of these contacts. Please provide the 
Committee with records of your contacts with CEO of Marvel 
Entertainment, Ike Perlmutter; Florida physician, Dr. Bruce Moskowitz; 
and restructuring consultant at Alvarez & Marshal, Mark Sherman. Please 
provide the date of each contact, the purpose of the contact, who 
directed you to speak with any of them, who facilitated any contact, 
disclose the nature of any information you provided to them, and 
disclose any topics they raised with you. If you had to travel for any 
of these contacts, please provide the amount such travel cost, what 
party paid for the travel, and whether the party was reimbursed and by 
whom.
    Response. I have had no contact with the above listed individuals.

    Question 5. On matters of policy, do you believe you will be 
receiving direction from the Secretary or someone at the White House?
    Response. Consistent with FITARA and the VA Organizational 
Structure, I anticipate reporting to and taking direction from the 
Secretary, and on matters of EHRM, the Deputy Secretary.

    Question 6. If confirmed, how would you address instances where 
your vision and the White House's are not aligned?
    Response. My intent is to align OIT's goals and objectives to the 
Department's Strategic Goals and the Secretaries priorities. As to 
White House directives around IT Modernization, Cybersecurity, etc, I 
would seek additional Departmental guidance should any aspects of these 
diverge from current alignment.

    Question 7. What are your top three specific and measurable goals 
as Assistant Secretary of the Office of Information Technology (AS OIT) 
and how would you achieve them?
    Response. My top three priorities will focus: (1) Stabilizing and 
streamlining core processes and platforms, (2) Eliminating material 
weakness, and (3) Institutionalize new capabilities to drive outcomes. 
To measure progress, these broad goals & objectives decompose across 
core internal customers (VHA, VHA, Memorial, etc.) and map to their 
projects. Finally, my intent is to ensure full measures of 
effectiveness (MoE) and specific project leads to ensure progress and 
accountability by office and individual executive leaders.

    Question 8. The sheer size and scale of OIT's operations across the 
globe necessitates an AS OIT comfortable with appropriately delegating 
responsibilities while ensuring that your initiatives are executed 
properly. How do you envision making sure your direction to the field 
is carried out as intended?
    Response. VA OIT has established a governance model with direct 
reporting and accountability to the CIO that is currently being 
institutionalized to my understanding. As mentioned previously, there 
is--and will be--a solid architecture for performance monitoring of all 
OIT programs, with appropriate centralized planning, and decentralized 
execution. This approach combined with the right cadence of program 
reviews and portfolio management is designed to keep programs on cost/
schedule--and where appropriate--make the right milestone decisions and 
corrections.

    Question 9. Please describe your prior interactions with labor 
unions, whether public or private. What is your experience in dealing 
with unions or employees who have collective bargaining rights? If 
confirmed, what will be your plan to work with employee unions? Do you 
believe they play an important role in bridging communication between 
VA employees and management?
    Response. I have limited experience working directly with unions, 
but I recognize the important role they play in ensuring a quality work 
environment for VA employees. I plan to work with all of my employees 
to identify any workplace deficiencies and maintain a quality work 
environment to accomplish our mission.

    Question 10. Last year Congress passed legislation that made it 
easier for the Department to sanction underperforming employees. VA has 
been using the new authorities in this legislation in a fairly severe 
way against people who have minor first time offenses. Will you commit 
to reviewing how OIT is utilizing this authority? Moving forward, how 
would you ensure that the law is executed fairly and uniformly? Please 
describe your leadership philosophy, specifically including whether you 
believe people should be afforded opportunities to correct their 
behavior and work, or whether you support firing and removal for first 
offenses.
    Response. My leadership philosophy over three decades has always 
been to work within the guidelines of the organization's performance 
evaluation system. Each of these systems have had clearly established 
procedures for the responsibilities of a specific position, as well at 
the approved mechanism for periodic feedback and addressing any noted 
deficiencies. With the exception of extreme offenses, the vast majority 
of performance-related matters merit the opportunity for remediation, 
and are not appropriate for removal for first time occurrences.

    Question 11. How do you anticipate building and maintaining a 
positive relationship with the Department's Inspector General, who 
plays a key role in making sure taxpayer dollars are spent wisely? 
Please describe your dealings with Inspectors General previously. Did 
those experiences color your view of the work of the Office of 
Inspector General?
    Response. In a prior career, I worked in an IG office as a younger 
officer. That experience gave me an excellent appreciation for the 
oversight, education, and prevention role of the IG in ensuring a 
compliant and ethical organization. I anticipate building and 
maintaining a positive relationship with the VA OIG.

    Question 12. What is your understanding of the role of 
congressionally chartered Veterans Service Organizations? Please 
describe how you anticipate involving them in OIT operations and 
policymaking.
    Response. Clearly the VSOs play a valuable role in conveying the 
``voice of the Veteran.'' My goal will be to listen carefully to these 
inputs to best understand the large and varied constituent Veteran 
population which has a varied means and preferences of using IT to 
access the VA and its services.

    Question 13. What do you see is the role of the AS OIT regarding 
the EHR modernization? Drawing on your prior work experience, what are 
the top three aspects of the project you believe to be the most 
challenging, and what plans do you have to mitigate those challenges?
    Response. As set forth by FITARA (Federal Information Technology 
Acquisition Reform Act (FITARA) Public Law 113-291 Sec. Sec. 831-837 
``CIO Authority Enhancements'') the agency CIO has a direct role in any 
aspect of information technology. Legislation established an Office of 
EHRM, which reports directly to the Deputy Secretary. The CIO is a key 
stakeholder for this program of record, principally related to the 
infrastructure responsibilities to host the new EHR system while 
maintaining the current EHR (VistA) and related systems. The largest 
anticipated challenge is that of ``change management.'' As a COTS 
solution, the users (principally the Clinicians in VHA) will need to 
adjust their workflows to the new EHR, to avoid any unsustainable 
customization. Such system adjustments greatly increase the risks to 
successful implementation. On a positive note, Cerner will also bring 
``best practices'' with the solution, thereby informing Clinicians. 
While I anticipate that the Office of EHRM will have this and the 
traditional program risks of ``cost, schedule, and performance 
covered,'' I also anticipate the greatest risks to OI&T to be (1) 
ensuring the appropriate infrastructure upgrades throughout the VA 
network, (2) maintaining the current EHR (VistA) and related systems 
(3) ensuring continued and increased maturity around protection of 
Personal Health Information (PHI), and (4) filling and sustaining the 
human capital plan/positions.

    Question 14. Please describe your prior experiences related to 
large-scale IT change management projects and COTS deployments, in 
particular any focused on health-care delivery or EHRs.
    Response. In my prior military/government career, as well as my 
recent commercial service, there are several instances of large-scale 
IT change management and COTS deployments, though not specifically in 
the health care space. The first major effort involved migrating large 
legacy H.R. systems from mainframe to mini and PC-based applications, 
as well as the initial mobile applications. Additionally, I spent 18 
months leading the substantial effort to ready government systems for 
Y2K, involving significant programmatic review, change management, and 
contractor oversight. In my commercial career, there are several 
instances of business optimization where by we assisted clients in 
streamlining operations, updating current services and security, while 
saving millions of dollars in annual cost. My intent is to bring that 
same mindset to VA, in that every dollar for which we are accountable, 
looks to be judiciously applied/spent, while simultaneously looking for 
greater efficiency and cost-savings in both existing programs and 
future acquisitions.

    Question 15. What do you understand to be OIT's responsibilities 
related to the EHRM project? Will you report back to the Committee, if 
confirmed, whether you believe OIT has the human capital on board and 
the process capability it needs to effectively fulfill its 
responsibilities or support the EHRM team?
    Response. OIT's principal responsibilities for ERHM is providing a 
sufficiently modern computing infrastructure to carry the new EHR 
system and provide the requisite security, reliability, and 
availability. If confirmed, I will more fully assess the human capital 
and other resource needs to support EHR and be available to report to 
the Committee.

    Question 16. An essential component of the EHRM project is the 
upgrading of VHA facilities and other various infrastructure 
improvements. These projects will run into the billions of dollars over 
the next decade. What role do you believe OIT should play in the 
Department's capital asset program management?
    Response. OIT will work with OEHRM to develop optimal pivot plans 
and integration strategies to assure alignment of OIT legacy 
sustainment and development investment plans to infrastructure upgrade 
requirements. Additionally, OIT with work with OEHRM to alignment tech 
refresh plans to OEHRM-led infrastructure upgrades to prevent 
duplication of efforts, mismanagement of assets and/or waste of limited 
resources. I expect OIT to share critical legacy knowledge that is 
essential to the proper review and assessment of Cerner implementation, 
data migration, change management, etc. strategies/plans in support of 
overall management of cost, schedule, performance and risk management 
objectives. Finally, OIT will support the alignment and integration of 
the myriad of ongoing IT investment projects across VA including FMBT, 
DMLS, OEHRM and a myriad of joint efforts with DOD.

    Question 17. Project governance has been identified as a critical 
failure in prior VA/DOD IT efforts. How do you foresee DOD, DHS, and VA 
coordinating on EHRM and how will you monitor these efforts?
    Response. My understanding is that VA and DOD have recently devised 
and are implementing a more robust formal governance process. 
Additionally, I am aware that under the auspices of the Interagency 
Program Office (IPO) excellent collaboration exists with DOD. Finally, 
I am also aware that VA is a leading agency in terms of adopting 
relevant DHS standards and available services.

    Question 18. Many industry leaders believe that VHA staff will be 
challenged in adopting Cerner's EHR package, because VistA was home-
grown and there is a sense of ownership in its success. How do you 
believe you can ensure VHA clinicians, providers, and employees are 
bought into the cultural change required to make the EHR transition a 
success?
    Response. Given the constraints of implementing a mature COTS 
solution such as provided by Cerner, the change management commitment 
from the entire VA team from the VHA through OIT will need to be 
continuously reinforced. It will be a different way for VA clinicians 
to do business, but given the best-practices that the Vendor will also 
present, this should be viewed by all in VA as an opportunity to 
improve our core health delivery processes as well as the technology 
that undergirds these processes.

    Question 19. As VBA and the Board of Veterans' Appeals prepare to 
fully implement the Veterans Appeals Improvement and Modernization Act, 
VA is currently piloting two of the five new appeals options through a 
pilot known as RAMP. The GAO recently released a report that 
highlighted the importance of thoroughly utilizing RAMP to identify and 
mitigate key risks associated with implementing the new appeals 
process. That same report also indicated that VA's current appeals plan 
does not fully address all required elements. As AS OIT, what will you 
do to ensure that RAMP and the VA's appeals plan are being optimized to 
ensure a smooth rollout of appeals reform?
    Response. Account Management and our direct support to the priority 
programs of VHA, VBA, and NCA will get an outsized share of my interest 
and programmatic attention. If confirmed, I will address this question 
directly to VBA to ensure the right OIT support to this and other 
priority pilots and programs of record.

    Question 20. As part of the Harry W. Colmery Veterans Educational 
Assistance Act of 2017, Congress provided VA with $30 million to 
improve the IT infrastructure for education benefits. VA has since had 
difficulty with implementing the IT changes needed to carry out the 
Act, focusing on how VA certifies veterans' benefits and upgrades to 
legacy systems. With VA's IT budget being a single, consolidated 
resource, can you provide concrete assurance for me that IT upgrades 
within education services will be appropriately prioritized so that 
this law can be implemented, and legacy systems can be upgraded to 
ensure the best possible services for our student veterans?
    Response. My current understanding is that there are funding 
limitations within this IT portfolio. Yes, I will work to provide the 
best possible IT upgrades for the delivery of education services.

    Question 21. Information technology solutions must continue to play 
a significant role in transforming VA into a more efficient and 
effective organization.
    a. How do you plan to ensure that IT development projects, such as 
VistA and cloud transitions, are fully resourced?
    Response. Ensuring our legacy systems are migrated and transitioned 
in a timely manner, is an utmost priority. Not only for reliability, 
but also for the security of the applications. Given the pace of 
technological advancement, this is not an easy budgetary balancing act, 
though using sound Software Development Life Cycle (SDLC) principals in 
concert with industry best practice ITIL and Agile principles, this can 
be achieved in a cost-effective and business-responsible manner.

    b. What is your understanding of the process VA uses to determine 
which development projects receive funding? Please describe your 
involvement with development funding processes. What analysis do you 
plan to conduct on this process to see if it can be improved?
    Response. Funding for all projects happens through the CIO-
administered governance structure. This is consistent with Clinger-
Cohen, DATA, FITARA and MGT legislation. My understanding is that VA 
uses a 9-step process. After developing a full understanding of this 
process and its utilization, I will work with the team to determine 
where process improvements can be achieved.

    Question 22. What plans do you have to address the recommendations 
in the VA's Office of Inspector General's FY 2017 FISMA audit to 
improve VA's information security posture? Will you commit to providing 
the Committee with a detailed plan, within 90 days of assuming the 
position of AS OIT, on how you intend to continue the work on 
remediating VA's information technology security deficiencies?
    Response. I have reviewed the OIG report, and intend to follow up 
on all aspects of the Information Security Program at VA. As a Veteran 
and customer of VA, I take the security of my data--and that of every 
other Veteran and their family members, very seriously.

    Question 23. OIT utilizes a single acquisition vehicle, 
Transformation Twenty-One Total Technology Next Generation, to procure 
most IT services for the administrations and staff offices. Do you 
believe restricting competition to those companies qualified for this 
vehicle is the best way to acquire best-in-class solutions for VA's IT 
requirements? Please also describe your experience as it relates to 
managing procurements, the largest procurement you have handled, and 
any views you have on how VA's IT procurement system could be improved.
    Response. As discussed in our office call, a priority effort will 
be around OIT's Strategic Sourcing Office. While I have limited Federal 
acquisition experience, I know that VA has the requisite personnel, and 
if confirmed, I will place an inordinate amount of focus on our 
sourcing methodology and processes.

    Question 24. What is your understanding of the Kingdomware decision 
and its impact on VA's procurement?
    Response. Based on the US Supreme Court's decision in Kingdomware 
vs. US, the VA must apply the ``Rule of Two'' when considering and 
awarding contracts under the Veterans Benefits, Health Care, and 
Information Technology Act of 2006. The rule is mandatory, not 
discretionary, regardless of whether the rule is being used to meet 
annual minimum contracting goals. As such, VA shall award contracts 
based upon competition restricted to SDVOSBs or VOSBs when a 
contracting officer has a reasonable expectation, based on market 
research, that two or more firms listed as verified in Vendor 
Information Pages database are likely to submit offers and an award can 
be made at a fair and reasonable price that offers best value to the 
United States. This is known as the ``VA Rule of Two.''

    Question 25. Please discuss your experiences with determining and 
managing staffing levels to ensure adequate customer service levels for 
the clients your IT staff support. What is your understanding of VA's 
current levels and on-going efforts to realign those levels and how 
they compare to similar public and private sector entities?
    Response. Drawing upon my prior experiences as an organizational 
leader and H.R. specialist, I intend to utilize every option to 
recruit, train, retain, and promote the most capable IT staff. I am 
keenly aware of the similar challenges with commercial entities, and 
also the tangible and intangible resources needed to build a qualified 
and committed IT work force.

    Question 26. Please describe your management style and 
decisionmaking process, providing examples as it relates to large, 
nationally-deployed organizations.
    Response. I adhere to the belief in clear and executable 
centralized planning and decentralized execution. VA OIT has an 
evolving roadmap, aligned to the Secretary's priorities and VA 
Strategic Goals, which lays forth the Office priorities. In past 
careers, I have experience leading across multi-disciplinary teams and 
across geographically wide areas. The key is to (1) retain a focus on 
the organizational roadmap, (2) ensure the required resources/guidance 
are provided, and (3) supervise the efforts to milestone 
accomplishment.

    Question 27. How would your prior subordinates describe your 
management style?
    Response. Based on prior discussions and a 360-Degree Review, I 
would describe my management style as a combination of Inspirational 
and Results-based. Especially in IT, the business depends on effective 
and reliable systems that meet user and business requirements. In order 
to achieve these results, team members need to be inspired and lead in 
addition to having the right resources provided.

    Question 28. Please describe your previous role with Booz, Allen, 
Hamilton as it relates to any work conducted for VA or another 
government agency.
    Response. I have never been employed by Booz, Allen, Hamilton.

    Question 29. What was your impression of the Department during the 
time you worked for Booz and experienced ongoing engagement with VA, if 
applicable?
    Response. Not applicable, I have never been employed by Booz, 
Allen, Hamilton.

    Question 30. Do you agree that VA employees have an absolute right 
to petition or communicate with Members of Congress and congressional 
staff about matters related to VA matters and that right may not be 
interfered with or denied?
    Response. I agree that every US citizen has the right to petition 
or communicate with Congress.

    Question 31. There are reports that the Administration, through the 
Office of General Counsel or other individuals, has ordered agencies to 
not provide responses to Democrats' information requests. If you were 
to receive such an order, what would you do? Have you participated in 
or been aware of any communications where this topic was discussed? 
Please provide details on the participants in this discussion, the 
substance of the discussion, and any outcomes.
    Response. Through the Secretary and his Office of Congressional and 
Legislative Affairs, I will be responsive to all information requests. 
Since I am not currently an employee of the VA, I have had no 
discussions pertaining to Legislative engagement, other than my pre-
confirmation preparation.

    Question 32. OIT has not had permanent leadership in almost 20 
months. The SES ranks have experienced attrition and many individuals 
are in multiple positions. The current leadership has no IT or 
executive-level management experience and was imposed on the Office 
with the baggage of a sexual harassment lawsuit after being summarily 
transferred from the Treasury Department. How will you fix the 
leadership crisis at OIT? How will you convince OIT's career staff that 
you will be the leadership they have been missing?
    Response. My intention is to provide the same ``firm, fair, and 
consistent'' leadership to VA OIT that I have to each organization I've 
been entrusted to lead over the past 31 years. While leadership is 
about accomplishing the mission, it is also simultaneously about taking 
care of the people. As Secretary Wilkie has stated, an improvement of 
the VA culture is in order. For OIT, that starts with the Assistant 
Secretary demonstrating his unwavering, specific commitment to the full 
scope of the VA mission and to show authentic concern for the 
individuals at OIT and their performance, rewards, ambitions, and 
needs.

    Question 33. VA health care was added to the GAO High Risk List in 
2015, and IT management and acquisition governmentwide has also been on 
the High Risk List. What actions do you intend to take to help the 
Department mitigate GAO's findings?
    Response. I have reviewed the GAO report. I am aware of the GAO 
recommendations and fully commit to ensuring their implementation, if 
confirmed.

    Question 34. What were your particular areas of study while at the 
National Defense University's Industrial College of the Armed Forces?
    Response. My studies included the core curriculum areas of National 
Security Studies, Macro Economics, Military Strategy & Logistics, and 
Strategic Leadership, as well as Acquisition. Additionally, I was an 
Information & Communications Technology (ICT) concentration Student, 
who pursued more detailed studies around information technology from a 
U.S. Government perspective, and informed by private companies and non-
profit IT entities. Last, some of my elective courses at ICAF, were 
used in my follow on pursuit of my CIO Certificate Program at NDU's 
Information Resources Management College.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Thom Tillis to 
James P. Gfrerer, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs
                          ehrm implementation
    Question 1. Mr. Gfrerer, could you discuss any parallel efforts to 
the EHR implementation that you would like to see VA undertake in order 
to improve the medical records, and their integration, in VistA, AHLTA 
and in the community for veterans in areas of the country which will 
not receive the new EHR for several years?
    Response. If confirmed I will assess if any parallel efforts are 
afoot to see how those efforts will converge with the EHR 
implementation.

    Question 2. Mr. Gfrerer, as EHRM implementation progresses, are 
there any plans to test commercially available interoperability 
solutions? If so, will these tests be conducted in areas of the country 
deploying MHS Genesis and VA EHRM? If there are not currently plans in 
place, what are your thoughts on testing such commercially available 
interoperability solutions?
    Response. While the Office of Electronic Health Records 
Modernization (OEHRM) has the lead for this project, if confirmed, I 
will work closely with them to provide updates around these questions.
                          va it modernization
    Question 3. Mr. Gfrerer, could you provide an update and your 
assessment on how successfully the VA is executing its IT Modernization 
Plan?
    Response. I am happy to provide an update and assessment of VA's IT 
Modernization results to date, if confirmed, and after I am in place at 
the VA.
                            veteran suicide
    Question 4. Mr. Gfrerer, tragically, suicide rates for veterans 
continue to significantly outpace those for the civilian population. 
How do you believe the VA can best utilize data, including but not 
limited to self-reported, social media, and call centers, to identify 
patterns and behaviors for predicting who may be at higher risk for 
suicide?
    Response. In consultation with VHA and their Office of Mental 
Health and Suicide Prevention, I will seek to support their mission 
through the use of data analytics and data visualization to use VA's 
vast amount of data to correlate what indicators may exist regarding 
suicidal behavior.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
to James P. Gfrerer, Nominee to be Assistant Secretary for Information 
          and Technology, U.S. Department of Veterans Affairs
                     tracking sterilized equipment
    VA medical facilities across the country have faced challenges 
tracking equipment. This creates huge waste and impacts the quality of 
medical care if artificial shortages of medical equipment are created. 
The IT solution to solve this problem--Real Time Locating Systems 
(RTLS) is a costly complete failure. According to the VA Inspector 
General, this failure is due to VA mismanagement in the deployment of 
the system that was functionally defective.
    The West Haven VA faces chronic challenges ensuring the 
sterilization of its equipment due in large part to inadequate storage 
facilities. The infrastructure challenge will be resolved through a $17 
million investment in a new facility. But that will take time to build 
and even once constructed an IT solution will need to be in place to 
properly track the use and availability of sterilized equipment. I 
understand that the West Haven VA currently relies on the Sterile 
Processing Microsystem (SPM) Instrument Tracking Software. But when and 
how this software will interact with RTLS and the new electronic 
medical records software to be deployed by Cerner is not clear.

    Question 1. If confirmed, what will you do to improve the tracking 
and better share information on the status of VA medical equipment 
generally and sterile equipment specifically?
    Response. If confirmed, I would work in coordination and support of 
the Veterans Health Administration (VHA) to help determine best 
practices around the technology and systems to track VA medical 
equipment and sterilization.

    Question 2. What IT solutions can be utilized to address tracking 
for equipment?
    Response. As previously stated, I would work with VHA as the 
business process owner to assess current technologies and systems and 
any future state changes that might be warranted.

    Question 3. What specific IT solutions should the West Haven VA 
implement in the interim as it awaits both the replacement of its 
storage facility and better IT capabilities overall?
    a. How will you support West Haven in these efforts?
    Response. I will review the situation at the West Haven medical 
center and in consultation with VHA will work to ensure that they are 
equipped with the IT infrastructure necessary to complete their 
mission.

    Question 4. How do you foresee the new Cerner platform tracking the 
utilization and storage of sterilization equipment?
    Response. The Office of Electronic Health Record Modernization 
(OEHRM) implements the Cerner platform in support of VHA, and if 
confirmed, I would look forward to assisting these efforts to ensure 
they address medical asset tracking and sterilization.
             foreign influence campaigns targeting veterans
    Russia is now distributing propaganda through social media and 
websites to our servicemembers and veterans. During the election it 
purchased advertisements on Facebook that specifically targeted our 
military and veterans to promote conspiracy theories and advance 
disinformation campaigns. It set up fake accounts to try to friend 
active duty servicemembers online and hacked servicemembers' email 
accounts--including posting on DC Leaks the emails of General 
Breedlove, the former Supreme Allied Commander of NATO.

    Question 5. What can VA do through education and awareness as well 
as its own security practices to help protect veterans' data privacy 
and security against foreign influence campaigns?
    Response. Security and Awareness education is an important 
component for all members. There is a body of existing materials across 
the Federal space that can be used by Veteran Service Organizations and 
individual Veterans to improve their personal security awareness and 
practice. Additionally, if confirmed, I would look to build a ``culture 
of security'' within the VA workforce, as well.
                  modernizing va mail delivery system
    A 2017 GAO report (GAO-17-581) found the VA's mail operations lack 
performance measures and goals, clear accountability, and sensible 
procurement procedures. Often, because of these outdated mail 
production practices, VA notices and mail fail to reach the intended 
recipient at the correct address within a reasonable timeframe. VA's 
decentralized processes are in a large part responsible for these 
inefficiencies, resulting in the use of inefficient hardware, 
unnecessary labor, and foregone bulk mail postage discounts.

    Question 6. In your role as CIO, would you consider modernizing 
department mail systems as part of broader modernization efforts? If 
confirmed, will you provide the Committee with an analysis of how an 
upgraded, consolidated print production architecture will impact VA 
costs and service to veterans?
    Response. If confirmed I would engage the Office of Enterprise 
Integration and the proper leadership team for VA mail systems to 
explore the possibilities of modernization and offer any assistance 
they may need in addressing any prevalent issues.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
James P. Gfrerer, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs
                       sexual harassment history
    To ensure the fitness of nominees for any of our appointed 
positions, I ask every nominee who comes before me to answer the 
following two questions:

    Question 1. Since you became a legal adult, have you ever made 
unwanted requests for sexual favors, or committed any verbal or 
physical harassment or assault of a sexual nature?
    Response. No.

    Question 2. Have you ever faced discipline, or entered into a 
settlement related to this kind of conduct?
    Response. No.
                          telehealth services
    Question 3. How would you assess the VA's implementation of 
telehealth legislation Sen. Ernst and I successfully got signed into 
law as part of the VA MISSION Act?
    Response. The VHA Office of Connected Care oversees the 
Department's efforts around telehealth. If confirmed, I will look to 
assess the current state of OI&T's support to VHA regarding the MISSION 
ACT and Telehealth.
    The law would allow qualified VA health professionals to operate 
across state lines and conduct telehealth services, including mental 
health care treatment, for veterans from the comfort and privacy of 
their own homes.

    Question 4. How do you envision the role of telehealth at VA 
facilities across the country and what would you do to ensure remote 
communities, such as those on the neighbor islands in my state of 
Hawaii, would have access to these services?
    Response. I look forward to working with VHA to ensure the right 
network architecture, technologies and digital capabilities are brought 
to bear as they deliver VHA services to remote communities. If 
confirmed, I will look forward to working with VHA on supporting this 
service channel.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
James P. Gfrerer, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs
    Question 1. As Assistant Secretary one of your most important 
initiatives will be modernization of the VA's Electronic Health Record 
(EHR). The VA has undergone a number of attempts at EHR modernization 
over the years that have failed at an estimated cost of almost $2 
Billion in taxpayer dollars. When talking about a new EHR in a health 
care system as large as the VA, there really isn't really any such 
thing as an ``off the shelf'' system. How is the current EHR 
modernization (EHRM) initiative distinct from previous efforts? What 
are the biggest challenges facing deployment of a new EHR at VA and how 
do you plan to address them?
    Response. This most recent effort on the subject has established 
the Office of Electronic Health Record Modernization (OEHRM) as the 
program lead for EHRM is separate entity within the VA, reporting 
directly to the Deputy Secretary. OEHRM, the Veterans Health 
Administration and the Office of Information and Technology will 
continue to collaborate closely to ensure this important transition is 
effectively and smoothly implemented. This is distinctive difference 
from past efforts, in that a separate office with greater visibility is 
in charge. In discussions with OEHRM, they state that Cerner will bring 
commercial best-practices embedded in their EHR services, though they 
acknowledge that some degree of standardized customization will likely 
have to occur in order to align with VHA business processes. According 
to these stakeholders, the largest challenge overall is the ``change 
management'' required by VHA clinicians in order to align with the new 
EHR System. For OI&T, the biggest responsibility is to provide 
sufficient network infrastructure to carry the new system.

    Question 2. The VA serves millions of veterans and in the process 
it handles many sensitive records, including disability claims and 
medical records. The VA may retain some of the most personal and 
sensitive data of any agency. As demonstrated the Office of Personal 
Management (OPM) data breach and many other attempts to infiltrate 
government data systems, keeping this sensitive information secure is a 
significant challenge. What is the VA currently doing to ensure VA data 
remains secure and out of the hands of bad actors? What additional 
measures, if any, should be taken to increase data security of VA 
systems?
    Response. Based on my experience I would expect the VA to be 
compliant with all NIST guidelines and standards and to fully embrace 
the NIST cybersecurity framework which holistically addresses the 
protection of the types of information entrusted to the VA's care. As 
someone who's information was breached in the OPM breach and who's 
personal health information (PHI) is in the VHA system, I am personally 
vested in safeguarding this information.

    Question 3. In professional areas that are in high demand, like 
cybersecurity, it can be difficult for government agencies to keep up 
with the private sector in terms of compensation. Recruitment and 
retention of highly skilled employees is vital to the success of any 
organization that relies on technology. What can you do, considering 
the human resource challenges faced by Federal agencies, to recruit and 
retain the talent needed to implement and maintain the VA's many IT 
systems? Are there any additional authorities or resources that 
Congress can provide do to assist the VA in recruiting and retaining 
highly qualified IT professionals?
    Response. Coming from the private sector I fully understand the 
necessity of maintaining competitive incentives to encourage both 
seasoned and the next generation of IT professionals to work for the 
VA. While I'm not yet fully versed on the VA incentive programs for IT 
professionals, if confirmed, I won't hesitate to work with OCLA to 
communicate to Congress what is needed to help the VA maintain 
competitiveness within the industry.

    Question 4. The VA is a large and diverse agency with equally large 
and diverse information technology needs. In addition to electronic 
health records, VA needs IT systems for processing disability claims, 
modernization of the appeals process, conducting medical research, 
managing benefits programs, etc. Are you familiar with the process the 
VA uses to distribute IT funding and resources to its various hospitals 
and program offices? If so, in your opinion, does this process ensure 
that IT resources are distributed appropriately? Does the VA have the 
IT resources needed to fulfill all of its missions?
    Response. I understand that the VA is centrally appropriated for 
IT, however, I am not presently familiar with how the money is 
distributed to the various program offices and individual hospitals. I 
intend to learn more about this and will ensure processes and 
procedures are in place to fulfill OI&T's FITARA responsibilities to 
oversee distribution and execution of IT funds. I will come back to the 
Committee with any IT resource needs if any shortfalls are identified.

    Question 5. The Military Times recently reported, that the Forever 
GI bill was supposed to take effect August 1st, but that it hasn't due 
to IT issues. Specifically, veterans are receiving checks with the 
wrong amounts for their housing stipends. The law changed and the 
stipend is now based off the location where the veteran takes the 
majority of their classes, not the location of the location of the 
school's main campus--which makes a lot of sense when we see how much 
distance learning and other programs have positively impacted the 
veteran population. What steps do you think VA should be taking to get 
it right?
    Response. As a supporting effort to the Veterans Benefits 
Administration, I would ensure that OI&T fully supports implementation 
of all programs, including the Forever GI Bill. I would ensure that the 
original requirements are appropriately mapped all to the law, to 
ensure that VBA is able to accomplish its mission in paying out 
benefits in a timely and accurate manner.

    Chairman Isakson. Thank you both for your excellent 
testimony. We are proud of both of you, to have you here, and 
proud of your kids back there for doing such a good job pulling 
for their parents.
    Let me say this. We have a great Ranking Member who very 
graciously has got some time to be here today, because he is 
campaigning and a lot of times he has not been here. He is 
going to give us time to go ask our questions first, out of 
courtesy, and I want to thank him. He as set such a good 
example, I am going to do the same thing. So, our doctor and 
our Kansan both are going to get their chance to ask their 
questions before the leadership of the Committee.
    We appreciate very much your being here today, and 
hopefully by the time your testimony is over we will have other 
Members of the Committee come in. I have a ton of questions and 
I will clean up with that, if nobody else comes.
    Senator Moran.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. Thank you to you 
and the Ranking Member for your courtesy.
    I will begin with Ms. Bonzanto.
    Ms. Bonzanto. Bonzanto.
    Senator Moran. Thank you. Bonzanto. Thank you very much for 
being here, both of you. Amazing tasks you have ahead of you, 
significant responsibilities, desired outcomes of what we are 
looking for.
    Let me begin with you, Doctor. You indicated in your 
written testimony ``every era of veterans have struggled at 
some point to access services within the VA, and I do not want 
to keep history repeating itself.'' So, I join you in that. I 
do not either.
    Let me first of all make the comment that we usually, when 
we think of whistleblowers and your work we think of protecting 
someone who is reporting bad behavior. But, I also want to talk 
about the culture, the accountability portion of your 
responsibilities, and that is what do we do to change the 
culture? What do we do to rid ourselves of inept employees, or 
those who do not have the right motivation for the jobs they 
occupy?
    We must not accept mediocre behavior. My experience is that 
often when there is bad behavior at the VA, the end result is 
that that employee is transferred to some other facilities, 
some other hospital, where my assumption is the bad behavior 
continues.
    So, let us begin with how will you change the culture of 
the VA? What should I look for, say, a year from now, that 
because of your responsibilities that you are performing, the 
VA will be different in what way? So, when I vote to confirm 
you and I want to have a standard by which I judge your 
accomplishments, what would you tell me the VA would look like 
that is different than it is today?
    Ms. Bonzanto. Senator, thank you for your questions. I 
think the most important thing is building trust with the 
employees. I think it is key to do that. And, to do that we 
require communication across the board, right, improving 
communication from the senior leaders to the bottom to the 
front line employees, and that is something that I have worked 
on in my current role. That is something that I have worked and 
struggled with, is how do we improve communication, when 
employees report an issue that they can trust that the chain of 
command will take care of that issue, and currently that is not 
happening.
    I am hoping a year from now that we can start reducing the 
number of whistleblowers coming to our office to report 
concerns, and getting the chain of command and the program 
offices to take care of that.
    Senator Moran. Why do you think that does not happen today?
    Ms. Bonzanto. The culture does not support that, sir.
    Senator Moran. What does that mean? Like the culture--I use 
that word, you use that word. But, why is it that someone would 
protect someone who is not performing?
    Ms. Bonzanto. I could not speak to exactly why they are not 
doing it because I am not in VA, but as an investigator for the 
House Committee I can tell you it is because sometimes 
employees just do not understand--a supervisor may not 
understand what to do with that information, or they are 
hitting barriers when they are reporting up the chain. The 
information is not going up, and the information from the top 
is not going down, so there are barriers in communication, and 
breaking those barriers, I think, is going to be key to 
building trust in the organization.
    Senator Moran. Those standards I should be looking for, how 
would the VA look different a year from now as a result of your 
efforts?
    Ms. Bonzanto. We will have veterans satisfied with the 
delivery of customer service. If you improve the culture and 
employees are satisfied with the environment that they are 
working in, and they feel safe working in that environment and 
reporting concerns, hopefully we can get improvement in 
customer services, the sale metrics currently will be able to 
improve. And, whistleblower complaints will probably decrease 
because employee can now trust that they are using the chain of 
command to report concerns.
    Senator Moran. Is it your view that the VA now has the 
necessary tools to hold employees, including management, 
accountable?
    Ms. Bonzanto. Yes, sir.
    Senator Moran. Does that accountability include the ability 
to discharge an employees, particularly a person in management 
who has demonstrated incompetence or inabilities over a period 
of time?
    Ms. Bonzanto. In my opinion, yes, sir.
    Senator Moran. So, the ability to discharge an employee now 
exists.
    Ms. Bonzanto. Yes, sir.
    Senator Moran. Let me turn to you about IT, and make 
certain, just in the few minutes that I have, which is about a 
half of a minute, that you have an understanding that a number 
of pieces of legislation exist. FITARA would be one of them. 
The MGT Act, Modernizing Government Technology Act, both of 
which I and Senator Udall were actively involved in. How do you 
see your role as a result of those new pieces of legislation? 
Is there an opportunity for things to improve, to change the 
reports that we have seen on the VA? Particularly in regard to 
protecting information from outside intrusion, it has been far 
less than perfect.
    Mr. Gfrerer. Senator, thank you for your question. A lot to 
respond to there. On the security front, I can tell you that I 
have read the OIG report on material weakness. It is a 
sustained pattern of unpreparedness. As someone who has their 
personal health information in the VA system, and even if I was 
Lance Corporal Gfrerer, I would be pretty hot under the collar 
if there were continued material weaknesses and insecurities. 
So, that, as I mentioned in my testimony, is one of my top 
items.
    In terms of the legacy systems, I think the Ranking Member 
alluded to it as well, that it is going to take a concerted 
effort to maintain VISTA, for example, for 9 to 10 years, as we 
serve that customer base that will never see Cerner.
    Then, I think, finally, on FITARA, the one good piece of 
news is many agencies struggle with the leadership access from 
the CIO. VA, to my assessment, does not. I think Secretary 
Wilkie and the Veterans Affairs Department, the CIO, and 
secretary of the position that I am being considered for has 
that access and that authority.
    Senator Moran. Remind me the status of the CIO at the VA.
    Mr. Gfrerer. Well, the current position holder is an 
executive director. It is an interim.
    Senator Moran. Has someone been nominated?
    Mr. Gfrerer. That is me, sir.
    Senator Moran. It is you?
    Mr. Gfrerer. Yes.
    Senator Moran. So, you perform all those responsibilities?
    Mr. Gfrerer. All of the things you mentioned would fall 
under the purview of OI&T. Yes, Senator.
    Senator Moran. Your responsibilities are greater than I 
realized. Your challenges are significant. Thank you.
    Chairman Isakson. You have had a lot of those 
responsibilities already in previous service in the Navy and in 
your service to the country. Correct?
    Mr. Gfrerer. Yes, Mr. Chairman.
    Chairman Isakson. That is why we think you are going to be 
so good.
    Senator Sullivan. Mr. Chairman, I think it is the Marine 
Corps, is it not?
    Mr. Gfrerer. Yes, Senator.
    Senator Sullivan. Just being clear here. The Marines are 
Department of the Navy, but he is a Marine. That is why I am 
supporting him.
    Chairman Isakson. Senator Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Again, thank you to the Ranking Member and 
to the Chair for allowing us to go first.
    Thank you both for offering yourselves for service. Mr. 
Gfrerer, I want to talk about the electronic health record. I 
am interested in knowing how this change in leadership will 
impact things going forward. Prior to the change in the EHR 
leadership, the VA modified its Cerner contract to require an 
assessment and report on determining the configuration of the 
MHS Genesis, which is the DOD's EHR, and its suitability to use 
as a baseline for the VA's EHR. Is this report still a 
requirement, and, if so, when can we expect to receive it?
    Mr. Gfrerer. Senator, thank you for your question. I have 
had one discussion with the EHR office. I am aware of the 
modification. I know that one of the values in the 
collaboration between DOD and VA that was stressed to me was 
the opportunity to learn and make better contractual decisions 
going forward, as VA would take on the role of Cerner. So, I 
suspect that that is a positive development, but I can get back 
to you further on it.
    In terms of your question about the actual construct of the 
contract, I can tell you about my role a little bit. I mean, 
obviously, in OI&T, as you know, the legislation gives the 
Office of Electronic Health Record Modernization a direct 
reporting role to the Deputy Secretary, and then the Office of 
Information and Technology has a direct supporting role to that 
effort, you know, kind of a current state, future state.
    So, while we are maintaining VISTA and EHR is being brought 
online with Cerner, it is a collaborative effort. So, 
principally, the effort from OI&T revolves around ensuring that 
the network infrastructure and all the other resources are up 
to par, given the requirements that MHS will demand.
    I do not know if I have fully answered your question.
    Senator Cassidy. Well, I understand there has been concern 
about the deployment of MHS; so, in turn, how is going to--if 
there is concern about that, what is the concern regarding the 
interaction of the VA's Cerner EHR with the DOD's Cerner EHR?
    Mr. Gfrerer. I will probably have to come back at another 
time, Senator, to update you on it. Again, my early 
understanding, with the sum total of my briefings, were that 
any changes or modifications to the contract were on a lessons-
learned basis, and it was not necessarily a bad thing. It was 
not affecting interoperability. That is not to say that there 
are not great challenges that are acknowledged across the 
enterprise. I think the one thing that a lot of people, myself 
included, do not have a full appreciation for up until now is 
that the record is really the centerpiece, right. You are 
talking about an enterprise effect, all the way from clinicians 
to facilities to supply chain, the whole gamut of the business. 
So, that is quite a bit of commonality to achieve across two 
different medical domains.
    So, I think the shorter answer to your question is I will 
probably have to follow up, if confirmed, on those specific 
points.
    Senator Cassidy. Mrs. Bonzanto, Ms. Bonzanto, in June 2017, 
Congress passed Pub. L. 115-41, which created the Office of 
Accountability and Whistleblower Protection. We have learned 
that there has been about 1,200 removals, 46 demotions, and 34 
long suspensions. And, during this process, a lot of data was 
accumulated.
    So, I am asking this kind of leading question, but hoping 
that you will agree, if it is your intention to use the data of 
all these people discharged or demoted or suspended to better 
inform how we can prevent such issues, such as a pre-employment 
screening, management skills, or the oversight of first-line 
directors. Any thoughts beyond me begging the answer?
    Ms. Bonzanto. Senator, that is a great point that you make, 
using data to inform how we hire, how we train, how we retain 
employees, and also looking for areas--do we have specific 
areas in that we have problems in? For example, supply chain, 
logistics, looking at employee turnover rates. I absolutely 
think that is a good point you are making, and I do intend to 
use the data.
    Now there are data integrity issues in VA, so maybe we need 
a system where we can better track the employee turnover 
rates--exit interviews--by doing exit interviews, pre-
employment screenings, like you said. So, it is having a strong 
IT system in place that we can do that.
    Senator Cassidy. OK. Well, please keep us apprised of those 
findings, because clearly if we are having turnover, and if we 
are in a health care system and some of that turnover is 
negatively impacting patients, that is negative for the patient 
and negative for the taxpayer. So, if we could have more 
information on that, I would appreciate it.
    I am out of time. I yield back. Thank you.
    Ms. Bonzanto. Thank you.
    Chairman Isakson. Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. I want to thank 
both of the nominees here for your willingness to serve, and 
your families. I know it is not always easy on the families to 
do this, so I appreciate that. I think both of you have very 
qualified backgrounds, so I intend to support both of the 
nominees here.
    Ms. Bonzanto, you are the Navy vet, right?
    Ms. Bonzanto. Yes, Senator, a corpsman.
    Senator Sullivan. OK. A corpsman. Good. Oh, that is almost 
like being a Marine. [Laughter.]
    Let me get back to the issue, though. You talked about 
trust. I actually want to get your sense, from actually both of 
you, because you mentioned the trust factor that exists, in 
your previous answer, between management and the employees of 
the VA, which I think is important. I would like both of you to 
comment on what I think is the much, much bigger trust deficit 
that exists with regard to the VA, and that is with regard to 
the VA and the veterans that they serve.
    I think in both of your areas of responsibility, but 
particularly yours, there has been a trust deficit, meaning, 
you know, the news stories that we hear, and a lot of times it, 
you know, VA officials here, I think the vast, vast majority of 
the VA, in Alaska, my State, or other places, they are 
dedicated, motivated, patriotic public servants. But, when you 
do hear the example, and we have heard a number of them in this 
Committee, of somebody padding their own wallet or purse with 
hundreds of thousands of dollars, and then not even being 
disciplined, the trust factor for the veterans plummets. Which, 
I think has happened over the course of the last several years.
    Can both of you talk to that issue, because I think it is 
the most important thing, in many ways, that the entire VA, 
whether it is the Secretary or the other Senate-confirmed 
nominees in the VA, are going to have to deal with.
    Ms. Bonzanto. Senator, thank you for that comment. I do 
appreciate what you are saying, and as a nurse I understand the 
importance of patient-centered care, right. Veterans are 
patients and they are the center of this, and having their 
trust, ensuring that they trust in the system will get them 
into the system for much-needed services.
    Senator Sullivan. Not only that, but when they read about 
the, you know, malfeasance--and I am not saying this is 
happening all over the place, but it is happening, and those 
people are not getting fired. We have now given your agency, 
and the Secretary, the power to fire people who are doing a bad 
job, or worse, doing some kind of corrupt action. You need to 
use it. You need to recommend it and you need to use it in 
order to get that trust back.
    Ms. Bonzanto. Senator, I agree with you. That is something 
that I am willing to do, and I do agree that we need to use the 
authority to either improve, like the Chairman said, we either 
improve, give them the tools they need, ensure that they are 
trained, and if they cannot do the job then maybe it is time 
they move on.
    Senator Sullivan. OK. Good. Colonel, do you have a view on 
that?
    Mr. Gfrerer. Senator, thank you for your question. I share 
the outrage that the Chairman has. I mean, if it is Petty 
Officer Bonzanto or Lance Corporal Gfrerer, you know, USMC 
retired, and my 9/11 check is not the right amount and it is 
putting my schooling in jeopardy, that is a big deal. I think 
part of it is making it personal, beyond the accountability 
issues. I believe that everyone comes to work every day and 
wants to do the right things for the right reason, but it is up 
to leadership to really drive that sense of responsibility and 
accountability.
    The Chairman and I were talking back before the hearing 
and, you know, one of my techniques is to make it personal, 
right. I want to have Petty Officer Bonzanto's picture on our 
wall, and I want to have a little bit of a death stare at us, 
saying, what are you doing to make sure that my earned 
benefits, as a result of my service, are timely and in the 
appropriate amount, so you are not putting me in jeopardy, and 
my health care and everything else that goes along with that.
    I can only say that, you know, OI&T has a 59 percent 
veteran rating, but it is very easy in our day-to-day grind to 
be head down and not realizing the impact we have on the 
individual woman or man that is receiving those benefits.
    Senator Sullivan. Good. I appreciate that answer.
    Let me ask, in terms of what you are going to be focused 
on, particularly with the Cerner project, which we all, I 
think, agree is an important one but also a complicated one. I 
was looking at how the senior leaders at the VA frequently talk 
about this electronic health record modernization as a 10-year 
project. Now, hopefully, both of you are going to take a little 
sense of urgency into these jobs.
    When I hear 10-year schedule on the implementation of 
Cerner, that kind of makes me quite nervous. When does the 
planning and implementation begin? You know, I would rather 
have this a 5-year or 3-year or 2-year. I mean, one thing with 
the Federal Government is we often get the sense that there is 
no urgency here. Can you give me your sense of this, and are we 
really looking at 10 years from now in order for this to be 
completed? I cannot believe that that is what the plan is.
    Mr. Gfrerer. Senator, I understand your concerns around 
that, and again, in my early discussions with the Electronic 
Health Record Modernization Office there was some expressions 
of options to pull milestones forward. I will tell you, if you 
look at VA's track record, via the IT dashboard, it is not a 
function of necessarily being on schedule. It is more a 
function of being over budget.
    So, when you look at the various risks to the project, one 
of them, though, that was identified by the project lead, by 
Mr. John Windom, was that in a 10-year program it is very easy 
to not be serious and urgent about those early milestones. I 
know that in my early discussion with him there is even looking 
for the opportunity to pull milestones forward.
    Now, that said, there is a huge change management 
component. Any time you implement a commercial off-the-shelf, 
uncustomized version, the clinicians are going to have to go 
through a very rigorous and substantial training education and 
implementation process to kind of confirm their work flows to 
the IT system. So, there are some rubs on both sides of that.
    Again, I think to your basic question, there is every sense 
of urgency to make that timeline under 10 years, not to put it 
at or beyond 10.
    Senator Sullivan. Right. Well, can you, as part of your 
commitment to this Committee, we would like to be kept informed 
on that, and if you are trying to push the timelines to the 
left more quickly I think you would get support, but we would 
like to be keep apprised of that.
    Mr. Chairman, may I ask one final question here?
    We all represent different, unique States. My State is, as 
you probably know, the biggest State in the country by far. We 
also have more vets per capita than any State in the country. 
It presents unique challenges, delivering benefits and health 
care to Alaskan veterans. So, I would like to get each of your 
commitment, during your tenure, soon into your tenure, when you 
get confirmed, to come on up to Alaska, hopefully with me, and 
you can see some of the challenges and meet some of the great 
veterans that I represent. Can I get your commitment on that, 
both of you?
    Ms. Bonzanto. Yes, Senator. I look forward to it, as a 
nurse, and that is what I enjoy doing. I would like that.
    Mr. Gfrerer. Same as well, Senator.
    Senator Sullivan. Great. Thank you. Thank you, Mr. 
Chairman.
    Chairman Isakson. Senator Sullivan, while you were 
describing those adjectives to describe the State of Alaska, my 
seatmate up here said, ``Well, that could be said for the State 
of Montana, too.'' He was glad that you all shared the same 
problem.
    Senator Sullivan. I think Alaska is seven times the size of 
Montana, but I am just saying.
    Chairman Isakson. It is big when it needs to be big but it 
is small when it needs to be small.
    Senator Sullivan. It is pretty big. The Ranking Member, I 
will acknowledge that.
    Chairman Isakson. Senator Tester.
    Senator Tester. Well, thank you, Mr. Chairman. Before I get 
to my questions, how old are your children, Ms. Bonzanto, the 
ones that are here?
    Ms. Bonzanto. Sir, they are 7-year-old twins.
    Senator Tester. Well, I just want to say congratulations. 
We have been at this for 46 or 47 minutes and they have been 
sitting there being good. We sometimes have some adults up here 
that cannot sit still. Good job, girls. What are your names?
    Ms. L. Bonzanto. Lilliana.
    Ms. S. Bonzanto. Sophia.
    Senator Tester. OK. Your names are in the record now. That 
is good.
    Ms. Bonzanto, as far as the electronic health records, I 
agree with Senator Sullivan; we need to get it done. But, what 
is even more important, it has got to be done right. I mean, if 
there is anything we learned from Choice we pushed, it ended up 
being a train wreck. It is really important. This is really 
going to make or break the VA moving forward. So, we will get 
to your questions in a second, Mr. Gfrerer.
    Ms. Bonzanto, there is data that has been provided by the 
VA on implementation of the Accountability and Whistleblower 
Protection Act. It demonstrates there have been significant 
increase in actions taken against lower-grade employees since 
the passage of that act, and literally no jump in actions taken 
against senior leaders. I will be the first to tell you, unless 
there is action to be taken I certainly do not want you to do 
it on metrics. But, it does not seem to me that that is going 
on right now. And, the reason I say that is because there has 
been a lot of higher-grade folks that I get the complaints on. 
The folks on the ground, I tell you, I just do not get a lot of 
complaints about those guys. They do good.
    I just want to know, based on your work on the Committee, 
have you found that wage grade 1 through 5 employees are 
generally the cause of institutional problems at the VA?
    Ms. Bonzanto. No, sir.
    Senator Tester. OK. So, last week we also learned that the 
arbitration--we learned in arbitration that the VA did not 
implement the legislation fairly. Are you aware of that?
    Ms. Bonzanto. I am not familiar with the exact details of 
the case. There was a press story on it.
    Senator Tester. Well, the VA was ordered to rescind actions 
taken against employees who did not get the opportunity to 
improve through performance improvement plan. And, by the way, 
you have said many times here, and when I was on the school 
board it was evaluate, remediate, and then, if necessary, 
terminate.
    I guess given this finding, how can we trust that the rest 
of the legislation is going to be implemented fairly?
    Ms. Bonzanto. Sir, if confirmed, I am committed to going in 
and really looking at the office and what the weaknesses and 
the strengths of that office is, and also looking at how the 
act, the Accountability Act of 2017, has been implemented at 
the local level. Who is utilizing it, what are the numbers, and 
where are the problems? Are we getting utilization and higher 
numbers of low-grade employees being removed, compared to SES 
positions.
    Senator Tester. Then, what do you do about that if you find 
that out? I mean, I do not want you to go head-hunting for 
management folks. I do not want you head-hunting for anybody. I 
want you to get rid of the folks who are not doing the job. 
That was the intent.
    Ms. Bonzanto. Right, sir. I agree. The Accountability 
Office serves in an advisory role to the Secretary. The 
investigations that we complete in that office, if confirmed, 
we will be looking at senior-level employees.
    Senator Tester. OK.
    Ms. Bonzanto. With that being said, there is nothing 
stopping me from, if confirmed, working with H.R. to ensure 
that managers are aware of how the law should be implemented 
and if they are implementing it appropriately.
    Senator Tester. OK. Well, thank you. Let me visit it, and 
in response to the previous questions you have noted that you 
do not believe that facility leadership is capable of 
performing unbiased investigation into whistleblower complaints 
at their own facilities. Would you please explain?
    Ms. Bonzanto. The current culture, and in my current role 
on the House Committee on Veteran Affairs, I do not believe 
that, at the local level, there is trust that the local 
leadership will do the right thing when it comes to 
whistleblowers. We have seen many whistleblowers and we have 
had many complaints, in my experience, of whistleblowers being 
retaliated against. Currently, the way the office is 
structured, the reports of retaliation gets referred back at 
the local level for investigation, and I do not believe that is 
appropriate, because the culture in VA does not support that 
right now.
    Senator Tester. OK. This is a big agency.
    Ms. Bonzanto. Yes, sir.
    Senator Tester. To say the least. Would you commit to 
looking into and reporting back to the Committee within a 
couple of months, 60 days, as to whether the approach taken by 
the agency in terms of where whistleblower complaints are sent 
is fair and it is appropriate, including any recommendations 
you might have to improve that process?
    Ms. Bonzanto. Yes, sir, I will.
    Senator Tester. Do you think 60 days--am I being fair with 
that ask?
    Ms. Bonzanto. For report and a conversation about that?
    Senator Tester. Yeah.
    Ms. Bonzanto. I think 60 days is appropriate, sir.
    Senator Tester. OK. Mr. Gfrerer, last week we talked about 
mitigating problems that might occur during the deployment of 
the new electronic health record. I want to run a few different 
scenarios by you to see what you would do, assuming 
confirmation.
    So, you come in, you realize quickly that the VA is not 
ready to go live at initial sites, when planned. What do you 
do?
    Mr. Gfrerer. I mean, Senator, with the slippages of any 
milestone it would have to be looked at in terms of the follow-
on effect with subsequent milestones. If it were serious 
enough, if the question is in terms of accountability, if it 
were serious enough to put a further deferral on subsequent 
milestones there would have to be some sort of personnel action 
to get the team's attention, I would think.
    Senator Tester. OK. Where does informing this Committee 
fall into that, if a milestone is to be moved?
    Mr. Gfrerer. I know that, Senator, in talking with the 
current team at OI&T, there is a means there, or there is a 
feeling that there really are no yellow programs. There is 
either a red or green, in terms of reporting.
    Senator Tester. Right.
    Mr. Gfrerer. So, yellow is, you know, kind of a 
distraction. And, to your question, at the earliest indication 
that something is going to red, and going to have a substantial 
effect on milestone achievement, I think that is when 
communication with this Committee and with the body is 
necessary.
    Senator Tester. OK. Thank you. OK. So, you begin hearing 
that practitioners in Washington State, where the first 
deployment will--just a scenario--are very unhappy with the 
product. Morale is down. Concerns about turnover are real. What 
do you do before deploying to additional sites?
    Mr. Gfrerer. Senator, that question gets to the heart of my 
statement, too, which is inherently about business 
transformation. Throughout the process, I mean, the customer, 
the internal customer really is the Veterans Health 
Administration. In concert with them, they are my internal 
customer, along with EHRM. So, ultimately, in terms of steps 
with clinicians at the pilot site and whatnot, it would have to 
be done in consultation with the VHA, because they are their 
staff.
    But, with respect to OI&T staff and their achievement or 
failure, meeting milestones at the pilot site, that would 
clearly fall within my purview. Again, I share the Senator's 
concern about the slippage of milestones in a 10-year-long 
program. If you do not put some rigor and accountability on 
early in the process, it sends a message very early on that it 
is just a matter of we can slip it until the next option year, 
and that is going to have a deleterious effect.
    Senator Tester. OK. You learning a project is going to come 
in significantly over budget; what do you do?
    Mr. Gfrerer. Well again, Senator, with the methodology of 
projects either being in red or green, and having, you know, a 
fairly solid fingertip feel on that cusp of where it is going 
to go from green to red, it is not an overnight phenomenon.
    But, at the point that it is going to red, or that it needs 
to be designated, again, I think communication with this 
Committee and with other stakeholders is essential. Again, I 
think the gamut of actions, whether it be personnel actions, 
additional budgeting discussions, those are all things that 
would have to be contemplated at that time.
    Senator Tester. OK. Another scenario. Cerner EHR is going 
to be, while, I mean, Washington is being rolled out, Montana, 
it may be 9 or 10 years that we are still on the VISTA program? 
I hope not, but maybe. What do you do if the President's budget 
does not support VISTA?
    Mr. Gfrerer. Senator, that is a serious question, because, 
as you made in your initial statements, and I fully concur with 
it, there is no option to the maintenance of VISTA. I mean, to 
the VISNs and the sites that are not cut over, or in parallel 
process, it is absolutely essential that the funds and 
resources be available to the maintenance of the existing 
system.
    So, I mean, that is a critical issue, certainly one that 
the Secretary and I and the Deputy Secretary would have to have 
a conversation very early on about that.
    Senator Tester. OK. Thank you. Thank you both. I would just 
say this. I think it is really, really, really important. This 
is a big money item. I mean, we are talking $10 billion and 
maybe as high as $16 billion. We are talking 10 years. I agree 
with Senator Sullivan. If you move it up, fine, but it may be 
longer. And, I think the quicker the better so we can see the 
benefits out of it.
    I think communication is just going to be really, really 
important, and do not look at us as an enemy. Look at us as 
somebody who can help support you, get the job done, and get 
the job done right. We have got a really good Chairman on this 
Committee who listens well. You are going to be challenged, you 
are going to be held accountable, but in the meantime, if we do 
not know what is going on it just compounds the problem a lot 
and makes it a lot worse.
    As far as you go, Ms. Bonzanto, I hope you do as you say, 
and I have no reason to think that you will not. But, I will 
tell you, if you do your job as well as your kids behave, you 
are going to be the Secretary of the VA before long. 
[Laughter.]
    Ms. Bonzanto. Thank you, Senator.
    Chairman Isakson. Or maybe a Senator from Georgia.
    Before the Ranking Member leaves I want to cover a couple 
of points. You just heard his questions and comments regarding 
this testimony today, and you saw one of the examples. I enjoy 
working so much with Jon Tester because we think a lot alike. I 
have been excited about today's hearing for some time because I 
think we are finding the right kind of people now to tackle the 
jobs, to correct the problems I know we have.
    We have a lot of people in the VA that do not think we have 
any problems and do not think they need to be held accountable. 
Quite frankly, we do not have much cooperation in some areas; 
at least I do not sense that we do. But, I think we have got 
leaders in both of you that have the chance to do that, and Jon 
and I will want you both to know that we will have your back 
the whole time, to get it done.
    I want to call your attention to the third from the last 
paragraph of your prepared remarks, Mr. Gfrerer, where it says, 
``My top three priorities would be a focus on: (1) stabilizing 
and streamlining core processes and platforms, (2) eliminating 
material weakness, and (3) institutionalizing new capabilities 
to drive outcomes. To measure progress my intent would be to 
use a roadmap with a comprehensive balanced scorecard for these 
broad goals and objectives supporting core internal customers 
and map to their projects. Finally, my intent is to ensure full 
measures of effectiveness (MoE)''--that is the Navy and you are 
the Marine Corps--``and specific project leads to ensure 
progress and accountability by office and individual executive 
leaders.''
    That is what Senator Tester and I are looking for. We want 
to identify our strengths, identify our problems, apply our 
strengths to solve those problems, and measure our progress by 
outcomes. That is such a great statement because we have 
learned in health care, which is a complicated service to 
deliver, that by measuring outcomes and by knowing what you 
want the outcomes to be to get to the solution to the problem, 
you can map your way on a good process and then develop a good 
system to do that. I think your idea about having a roadmap, 
measuring outcomes, identifying your strengths, and applying 
them to those places where you have weaknesses, is exactly the 
right template and the right game plan to go into this.
    I think from everything that you said, Ms. Bonzanto, that 
you are going to be just fine, just like Ruby is--no, it is not 
Ruby. It is Lily. I am sorry. She has got the best smile. Lily, 
you have done real good.
    But, with your experiences, you are going to be able help 
us. What we want to do is wake up one morning and be glad we 
got out of bed, look forward to where we are going to work, 
look forward to the end of the day when we are going to have a 
libation somewhere and discuss our successes, or recalibrate 
our goals because we do not have them high enough, and move 
them up.
    Once you get that type of culture and mentality in any 
organization, whether it is the U.S. Senate, the Marine Rifle 
Company or Rifle Squad, an airplane crew, or whatever it might 
be, you do better, because every job has outcomes. You are 
going to have them one way or another. They are going to be bad 
or they are going to be good; you are going to have one or the 
other, and no in-between choice.
    If you measure what you are doing against the roadmap that 
you developed, by studying the weaknesses and strengths and 
applying your organization's strengths to them, you are going 
to do a great job. I am confident that you will. I just hope 
that you have a time early in the first few weeks where you 
will need to call us and tell us, ``Well, you told us to use 
our power to fire if it was justified. We just did on X, Y, and 
Z, and this is what we did and why we did it. So, if you get a 
complaint, I want you to know about it.'' In other words, be 
proactive if you anticipate a problem.
    You know, sometimes I had problems in my business, from 
time to time, where I did not do a good enough job of walking 
around and looking over the shoulder of my employees and asking 
if I could help them. It got to where they thought if I walked 
in I was looking over their shoulders to see what they were 
doing, and spying on them, which is a bad attitude to have. 
But, a good attitude is, ``Is my boss here? He wants to help me 
succeed so we can reach our goals.'' If that is the way it 
operates, it is going to do a great job.
    I am delighted with your nominations and I think we will 
certainly get to the confirmation vote soon, get it in place. I 
will be over there to visit you not 2 days after you get there, 
to see how you are doing in your progress after 48 hours. Yet, 
I want to tell you, we are looking forward to you being 
something we can brag about, what the Veterans Administration 
is capable of doing, and did deliver in a positive quality 
timeframe.
    So, thank you both. Thank you for bringing your children. 
By the way, your wife and your daughters all have costumes on. 
They all look alike. Mom and the daughters are all just--they 
look like the Andrews Sisters back there.
    It is just great to have you here. Congratulations on your 
nominations.
    Are there any other comments? Everybody has left me, so I 
will shut up and we will go forward. Thank you very much. This 
hearing is adjourned.
    [Whereupon, at 3:32 p.m., the Committee was adjourned.]
      

                                  [all]
</pre></body></html>
